COMMODITY FUTURES TRADING COMMISSION


Performance and
   Accountability
  Report
                   Fiscal Year
            2010
               COMMODITY FUTURES TRADING COMMISSION
                                                  Gary Gensler
                                                   Chairman
                                            Madge Bolinger Gazzola
                                              Executive Director
                                                  Mark Carney
                                              Chief Financial Officer
                                                 November 2010

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While permission
   to reprint this publication is not necessary, the citation should be: Commodity Futures Trading Commission,
                      FY 2010 Performance and Accountability Report, Washington, D.C., 20581.
          All photographs in this document are proprietary and prior permission from the photographer
                           is required for any use or reproduction of the photographs.
T        wo years ago, the financial
system and the financial regulatory
system failed. On July 21, 2010,
the Administration and the Congress
responded with the passage of the
Dodd-Frank Wall Street Reform
and Consumer Protection Act.


The Dodd-Frank Act will—for the first
time—bring comprehensive regulation
to the over-the-counter derivatives
marketplace. Derivatives dealers will be
subject to robust oversight. Standardized
derivatives will be required to trade on
open platforms and be submitted for
clearing to central counterparties.


The Commodity Futures Trading
Commission looks forward to
implementing the Dodd-Frank Act
to lower risk, promote transparency
and protect the American public.


In the tradition of quality reporting,
the Commodity Futures Trading
Commission proudly presents
the FY 2010 Performance and
Accountability Report.



          •
          COMMODITY FUTURES TRADING COMMISSION




              Association of Government Accountants (AGA) Awards the

             Certificate of Excellence in
              Accountability Reporting
               In recognition of your outstanding efforts in preparing the
              Commodity Futures Trading Commission Performance and
           Accountability Report for the fiscal year ended September 30, 2009




        League of American Communications Professionals (LACP) Awards the

            Platinum 2009 Vision Award
In recognition of your outstanding efforts
in preparing the Commodity Futures
Trading Commission Performance and
Accountability Report for the fiscal year
ended September 30, 2009. Awarded
platinum in the Government classi-
fication, and received overall ranking of
58 out of more than 4,000 total entries.
 Fiscal Year 2010 Commissioners




Back row from left; Scott D. O’Malia, Commissioner; Jill E. Sommers, Commissioner; Bart Chilton, Commissioner

Front row from left; Michael V. Dunn, Commissioner; Gary Gensler, Chairman




                                                                                                CFTC            1
                                             Table of Contents
    A Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3
    FY 2010 Commissioners.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
    How This Report is Organized.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 16


M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
    Commission at a Glance.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 20
    Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 35
    Financial Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46
    Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
    Forward Looking – Future Business Trends and Events .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52


PERFORMANCE SECTION
    Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56
    Strategic Goal One: Economic Vitality.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
    Strategic Goal Two: Market Users and the Public.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 69
    Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 87
    Strategic Goal Four: Organizational Excellence.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 107


FINANCIAL SECTION
    A Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 132
    Limitations of Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .            133
    Principal Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 134
    Notes to the Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .           139
    Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 150


O T H E R A C C O M P A N Y I N G I N F O R M AT I O N
    Inspector General’s FY 2010 Assessment .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 154
    Summary of Audit and Management Assurances.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                          158


APPENDIX
    Dodd-Frank Rulemaking .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 160
    Enforcement Litigation by Strategic Goal .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .               162
    CFTC Information Technology Systems.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                  180
    Glossary of Abbreviations and Acronyms.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 181




2       CFTC
               Gary Gensler, chairman of the Commodity
               Futures Trading Commission speaks at the
            George Washington University Law School on
              October 23, 2009 in Washington, DC. The
               law school held a symposium on regulatory
            reform and the response to the financial crisis.
                                 (Photo by Mark Wilson/Getty Images)




In the Tradition of Quality Reporting,                                 A Message from
   the Commodity Futures Trading                                       the Chairman
    Commission Proudly Presents

    the FY 2010 Performance and                                        T          wo years ago, the financial system and the finan-
                                                                                  cial regulatory system failed. This summer, the
                                                                       Administration and the Congress responded by enacting the
                                                                       Dodd-Frank Wall Street Reform and Consumer Protection
        Accountability Report
                                                                       Act (Dodd-Frank Act). The Dodd-Frank Act will—for the
                                                                       first time—bring comprehensive regulation to the swaps
                                                                       marketplace. Swaps dealers will be subject to robust over-
                                                                       sight. Standardized swaps will be required to trade on open
                                                                       platforms and be submitted for clearing to central counter-
                                                                       parties, all of which will be subject to Federal regulation and
                                                                       supervision. The CFTC looks forward to implementing the
                                                                       Dodd-Frank Act to help lower risk, promote transparency,
                                                                       and protect the American public.



                                                                       Dodd-Frank and the CFTC
                                                                       The CFTC and its predecessor agencies have regulated deriv-
                                                                       atives since the 1920s. The first derivatives—called futures—
                                                                       began trading at the time of the Civil War, when grain
                                                                       merchants came together and created this new marketplace.
                                                                       It took nearly 60 years until Congress first regulated the
                                                                       futures markets.    President Franklin Roosevelt and the
                                                                       Congress significantly strengthened this regulatory regime
                                                                       with the passage of the Commodity Exchange Act (CEA)
                                                                       in 1936.

                                                                       The CFTC ensures that commodity futures and options
                                                                       exchanges have procedures to protect market participants
                                                                       and ensure fair and orderly trading that is free from fraud,




                                                                                                                      CFTC          3
manipulation, and other abuses. The CFTC registers and               the United States alone, or roughly nine times the size of the
oversees futures clearinghouses, known as derivatives                futures markets.
clearing organizations (DCOs), to ensure that they have
                                                                     In bringing oversight to the swaps market, Congress built
appropriate risk management standards. The Commission
                                                                     upon strengths from the futures marketplace. Futures and
has wide-ranging transparency efforts designed to provide
                                                                     swaps are both derivatives. It is only natural that Congress
aggregate information about commodity futures markets
                                                                     would treat them similarly and apply similar protections to
and trading to the American public. The agency also uses its
                                                                     both markets.
broad surveillance powers to police the markets.

                                                                     While the swaps marketplace has only been around since
The CFTC is now tasked with bringing its regulatory exper-
                                                                     the 1980s, the futures marketplace has existed since the
tise to the swaps marketplace. Though the Commission has
                                                                     1860s. The CFTC and its predecessor agencies have been
much experience regulating the on-exchange derivatives
                                                                     regulating and working with the futures markets since the
marketplace—having done so for more than 70 years—the
                                                                     1920s. The Dodd-Frank Act builds upon the benefits of
Dodd-Frank Act presents new responsibilities and authori-
                                                                     clearing in the futures markets. It builds upon the transpar-
ties.     The futures marketplace that the CFTC currently
                                                                     ency that centralized trading brings to the futures markets.
oversees is a $39 trillion industry in notional amount.
                                                                     It builds upon the concept that intermediaries should be
The swaps market that the Dodd-Frank Act tasks the CFTC
                                                                     regulated to lower risk in the markets.
with regulating has a far larger notional amount. The Office
of the Comptroller of the Currency estimates that, as of the         To implement the Dodd-Frank Act, the CFTC is consulting
first quarter of 2010, swaps entered into by U.S. commercial         heavily with both other regulators and the broader public.
banks have a notional amount of $217 trillion. Others                We are working very closely with the Securities and Exchange
estimate that the market could be as big as $300 trillion in         Commission (SEC), the Federal Reserve, other prudential
                                                                     regulators. We also are working closely with international
                                                                     regulators to promote effective and consistent regulation of
                                                                     the swaps markets. In addition, we are soliciting broad
                                                                     public input into the rules. This began the day the President
                                                                     signed the Dodd-Frank Act when we listed the 30 rule-
                                                                     writing teams and set up mailboxes for the public to submit
                                                                     their views directly. We want to engage the public as broadly
                                                                     as possible throughout the rule-writing process.

                                                                     In addition to setting up mailboxes for the public to
                                                                     comment, we also have organized public roundtables to
    President Barack Obama meets with regulators in the Roosevelt
                                                                     hear on particular subjects. Additionally, many individuals
    Room of the White House, Washington, DC. (L-R) Senior
    Advisor and Assistant to the President Valerie Jarrett (back),   have asked for meetings with the CFTC to discuss swaps
    Comptroller of the Currency John C. Dugan, U.S. Securities       regulation. We have had hundreds of such meetings. Just as
    and Exchange Commission Mary Shapiro, US Secretary of the        we believe in bringing transparency to the swaps markets,
    Treasury, Timothy Geithner, President Obama, US Chairman of
                                                                     we also have added additional transparency to our rule-
    the Board of Governors Ben Bernanke, Chairman of the U.S.
    Federal Deposit Insurance Corporation Sheila Bair, Chairman of   writing efforts. We are now posting on our Web site a list of
    the U.S. Commodity Futures Trading Commission Gary Gensler.      all of our meetings, as well as the participants, issues
    (Photo by Aude Guerrucci/Pool/Corbis)                            discussed and all materials given to us.



4          CFTC
The challenge before the agency is significant, but manage-
able, provided we are sufficiently resourced. The Commis-
sion has begun writing proposed rulemakings and will
continue publishing proposals in the coming months.
The Dodd-Frank Act requires the CFTC to complete rules
generally by July 15, 2011.



Futures and Options Markets
The CFTC is working to fulfill its mission to protect market
users and the public in the commodity futures and options
                                                                    Sen. Susan Collins, R-Maine, the ranking Republican of the
markets. The Commission polices the markets to protect              Senate Financial Services and General Government subcom-
against fraud, manipulation and abusive practices and works         mittee, center, talks with Securities and Exchange Commis-
to foster open, competitive and financially sound futures           sion (SEC) Chair Mary Schapiro, left, and Commodities
                                                                    Futures Trading Commission (CFTC) Chairman Gary Gensler,
and options markets.
                                                                    on Capitol Hill in Washington, Wednesday, April 28, 2010,
                                                                    prior to the start of the subcommittee’s hearing on proposed
In FY 2010, the CFTC fulfilled its statutory obligations under
                                                                    fiscal 2011 appropriations for the CFTC and for the SEC.
the Food, Conservation, and Energy Act (Farm Bill) of 2008          (AP Photo/Harry Hamburg)
to regulate certain derivatives, including energy derivatives
traded on exempt commercial markets (ECMs). These “signif-
icant price discovery contracts” and the facilities on which      sion enforcement actions resulted in more than $121 million
they trade are subject to heightened regulation and must          in civil monetary penalties and $65 million in restitution
comply with key core principles that also apply to the            and disgorgement from respondents and defendants in
trading of futures contracts. For example, the Commission         CFTC enforcement actions.
found that the highest-volume natural gas contract on the
                                                                  The CFTC implemented new transparency efforts to give
Intercontinental Exchange (ICE)— among others—performs
                                                                  more accurate depictions of the makeup of the futures
a significant price discovery function. ICE is now regulated
                                                                  markets to the public. In FY 2009, we began disaggregating
for this contract in accordance with the core principles laid
                                                                  our weekly Commitments of Traders (COT) reports to
out in the Farm Bill.
                                                                  provide the public with information about swap dealers and
As directed by the Farm Bill, the CFTC also finalized new         managed accounts. In FY 2010, we improved upon this
regulations with respect to off-exchange retail foreign           technology initiative by beginning to release data on index
currency (forex) transactions. The rules establish standards      investors on a monthly basis. Furthermore, we have begun
to promote fair dealings, require honest and meaningful           releasing a new weekly “Traders in Financial Futures” report,
risk and performance disclosure, and impose dealer capital        which—for the first time—breaks out dealers, asset
requirements.                                                     managers, leveraged funds and others in the financial futures
                                                                  markets.
The CFTC vigorously policed the markets for fraud, manipu-
lation and other unlawful conduct. In the last fiscal year, the   In January 2010, the CFTC proposed rules to restore position
agency filed 57 enforcement actions, constituting a               limits in the four major energy futures contracts. Position
14 percent increase in filings over the prior year. Commis-       limits have been used in futures market regulation to address




                                                                                                                   CFTC            5
                                                                         The CFTC received for the sixth consecutive year an unquali-
                                                                         fied opinion on our financial statements. For the fourth
                                                                         consecutive year, the auditors disclosed no material instances
                                                                         of noncompliance with laws and regulations. I can also
                                                                         report that we had no material internal control weaknesses
                                                                         and that our financial and performance data in this report
                                                                         are reliable and complete under the Office of Management
                                                                         and Budget (OMB’s) guidance.



                                                                         Conclusion
    Gary Gensler, chairman of the Commodity Futures Trading
    Commission (CFTC), speaks to reporter following a Senate             The CFTC faces many challenges in the months ahead.
    Banking Committee hearing on the causes and lessons of the           I note the thoughtful work of the staff and Commissioners
    May 6 stock market plunge in Washington, D.C., U.S., on
                                                                         in the oversight of the futures markets and in implementing
    Thursday, May 20, 2010. U.S. regulators, responding to this
    month’s market crash, pledged to examine whether new rules           the Dodd-Frank Act. We are working hard to update our
    are needed for stock and futures traders who use automated           organization and information technology to reflect our
    computer strategies to execute thousands of transactions in milli-   evolving mission. The CFTC intends to publish a new stra-
    seconds. (Photo by Andrew Harrer/Bloomberg via Getty Images)
                                                                         tegic plan in February 2011 that will be the foundation for
                                                                         the FY 2013 performance budget.
the effects of excessive speculation and position concentra-
tion. Limits that had been in effect for energy contracts were           Through vigorous oversight of the swaps market and
removed in 2001.           The CFTC has since withdrawn the              commodity futures and options markets, we must close the
proposed rulemaking and will re-issue a proposal that                    gaps in our regulatory structure that left the nation unpre-
fulfills new requirements in the Dodd-Frank Act.                         pared and unable to respond quickly to the rapidly-evolving
                                                                         markets.   Only through strong, intelligent regulation—
In addition to working closely with the SEC on Dodd-Frank
                                                                         coupled with aggressive enforcement mechanisms—can we
implementation, we have been coordinating on a broad
                                                                         fully protect the American people and keep our economy
range of regulatory matters. For the first time in our history,
                                                                         strong.
we have set up a joint advisory committee on emerging
regulatory issues. We are working together to review the
contributing factors of unusual market events on May 6,
2010. Staff released a joint report on those events on May 18,
2010, and released a supplemental report with additional
findings on October 1, 2010.
                                                                                             Gary Gensler

This year, the CFTC reestablished the Technology Advisory                                    November 15, 2010		

Committee, which held its first meeting since 2005.
The Committee will play a significant role in informing the
Commission of emerging technology and challenges so that
we can best regulate the markets and protect the American
public.




6         CFTC
                        FY 2010 Commissioners

Gary Gensler, Chairman


                        G     ary Gensler was sworn in
                              as the Chairman of the
                        Commodity       Futures     Trading
                                                               markets, public debt management, the banking system,
                                                               financial services, fiscal affairs, federal lending, Govern-
                                                               ment Sponsored Enterprises, and community develop-
                        Commission on May 26, 2009.            ment.   In recognition of this service, he was awarded
                        Chairman      Gensler     previously   Treasury’s highest honor, the Alexander Hamilton Award.
                        served at the U.S. Department of
                                                               Prior to joining Treasury, Chairman Gensler worked for 18
                        Treasury as Under Secretary of
                                                               years at Goldman Sachs, where he was selected as a partner;
                        Domestic Finance (1999-2001) and
                                                               in his last role he was Co-head of Finance.
                        as Assistant Secretary of Financial
                        Markets (1997-1999). He subse-         Chairman Gensler is the co-author of a book, The Great
quently served as a Senior Advisor to the Chairman of the      Mutual Fund Trap, which presents common sense invest-
U.S. Senate Banking Committee, Senator Paul Sarbanes, on       ment advice for middle income Americans.
the Sarbanes-Oxley Act, reforming corporate responsibility,
accounting and securities laws.                                He is a summa cum laude graduate from the University of
                                                               Pennsylvania’s Wharton School in 1978, with a Bachelor
As Under Secretary of the Treasury, Chairman Gensler was       of Science in Economics and received a Master of Business
the principal advisor to Treasury Secretary Robert Rubin       Administration from the Wharton School’s graduate
and later to Secretary Lawrence Summers on all aspects of      division in 1979. He lives with his three children outside
domestic finance. The office was responsible for formu-        of Baltimore, Maryland.
lating policy and legislation in the areas of U.S. financial




                                                                                                             CFTC        7
                                                                            “I don’t think there’s a silver bullet or single solution
                                                                            for what ails the market place. And certainly the
                                                                            solutions that come up cannot be implemented
                                                                            overnight. But I firmly believe that the market
                                                                            participants are the best qualified to come up with
                                                                            solutions that will ensure that we have viable, fair
                                                                            agricultural futures markets that will provide for
                                                                            price discovery and risk mitigation.”




       Agricultural Advisory Committee
C    FTC Commissioner Michael V. Dunn chairs the Agri-
     cultural Advisory Committee. Committee members
include representatives of national farm organizations,
                                                                The Agricultural Advisory Committee was created in 1985
                                                                to advise the Commission on issues involving the trading
                                                                of agricultural commodity futures and options and facili-
major commodity groups, agribusiness concerns, and agri-        tate communications between the CFTC, the agricultural
cultural bankers.                                               community, and agriculture-related organizations.

“I don’t think there’s a silver bullet or single solution for   Recent meetings of the Agricultural Advisory Committee
what ails the market place. And certainly the solutions         addressed various topics, including: agriculture and the
that come up cannot be implemented overnight,” said             Dodd-Frank Bill; implementation of variable storage rates
Commissioner Dunn. “But I firmly believe that the market        on the Chicago Board of Trade wheat futures contract;
participants are the best qualified to come up with solu-       convergence trends in the Kansas City wheat futures
tions that will ensure that we have viable, fair agricultural   contract; the delivery point study commissioned by ICE
futures markets that will provide for price discovery and       Futures U.S. for the Cotton No. 2 Contract; and issues in
risk mitigation.”                                               livestock reporting.




8      CFTC
Michael V. Dunn, Commissioner



                        M      ichael V. Dunn was con-
                               firmed by the U.S. Senate on
                        November 21, 2004, as a Commis-
                                                                Prior to joining the CFTC, Mr. Dunn served as Director,
                                                                Office of Policy and Analysis at the Farm Credit Admin-
                                                                istration (FCA) where he managed the two FCA divisions
                        sioner of the Commodity Futures         responsible for developing regulations and public policy
                        Trading Commission.         He was      positions for applicable statutes as well as promoted the
                        sworn in December 6, 2004, to a         safety and soundness of the Farm Credit System (FCS).
                        term expiring June 19, 2006. On         Prior to this position, Mr. Dunn served briefly as a member
                        June   16,   2006,    Commissioner      of the FCA Board.
                        Dunn was nominated by President
                                                                Mr. Dunn has also served as Under Secretary of Agricul-
                        Bush to a second term as Commis-
                                                                ture for Marketing and Regulatory Programs, Acting Under
sioner of the CFTC and confirmed by the Senate on August
                                                                Secretary for Rural Economic Community Development,
3, 2006. In a ceremony on August 23, 2006 at the Federal
                                                                and as Administrator of the Farmers Home Administration
Court House in Des Moines, Iowa, attended by Senator Tom
                                                                (FmHA) at U.S. Department of Agriculture (USDA).
Harkin (D-IA), Commissioner Dunn was sworn in. U.S.
District Judge Robert Pratt administered the oath of office.    Mr. Dunn has had a long involvement in agricultural credit
                                                                dating back to the late 1970s, when he was the Midwest
From January 20, 2009 – May 25, 2009, Commissioner
                                                                Area Director for the FmHA. He has been a loan officer
Dunn served as Acting Chairman for the agency.
                                                                and vice president of the Farm Credit Banks of Omaha
Commissioner Dunn additionally serves as Chairman and           and has served as a member of the Professional Staff of the
Designated Federal Official of the Commission’s Agricul-        Senate Agricultural Committee, specializing in agricultural
tural Advisory Committee (AAC). The AAC was created to          credit. At the USDA, Mr. Dunn also served as a member of
advise the Commission on agricultural issues surrounding        the Commodity Credit Corporation and Rural Telephone
the trading of commodity futures and options and to serve       Bank Board. He is a past member of the Iowa Develop-
as a communications link with the agricultural commu-           ment Commission and has served as the Chairman of the
nity. Commissioner Dunn is also the Chairman of the             State of Iowa’s City Development Board.
Commission’s Forex Task Force. The task force objective is
                                                                A native of Keokuk, Iowa and a current resident of Harpers
to raise the public’s awareness of fraudulent activity in the
                                                                Ferry, West Virginia, Mr. Dunn received his B.A. and
retail foreign currency (forex) futures and option markets
                                                                M.A. degrees from the University of New Mexico.
and to highlight the Commission’s enforcement activities
in this area.




                                                                                                            CFTC         9
                                                                                  “As futures and option markets have become
                                                                                  increasingly global and interconnected over the
                                                                                  last decade, the work of the Global Markets
                                                                                  Advisory Committee has been critical to the
                                                                                  Commission’s efforts to ensure the integrity
                                                                                  and competitiveness of U.S. markets.”




     Global Markets Advisory Committee
C    FTC Commissioner Jill E. Sommers chairs the
     Commission’s Global Markets Advisory Committee.
Committee members include industry professionals, repre-
                                                                The Global Markets Advisory Committee was created
                                                                in 1998 to advise the Commission on issues that affect
                                                                U.S. markets and U.S. firms engaged in global business.
sentatives of domestic and foreign exchanges and clearing-      In September 2010, the Charter of the Global Markets
houses, representatives of industry associations, end users     Advisory Committee was renewed for two years to allow
and market participants.                                        the Committee to continue its important work.

“As futures and option markets have become increas-             Recent meetings of the Global Markets Advisory Committee
ingly global and interconnected over the last decade, the       addressed topics including: international bankruptcy issues
work of the Global Markets Advisory Committee has been          post-Lehman Brothers (or international bankruptcy issues
critical to the Commission’s efforts to ensure the integ-       arising from the bankruptcy of Lehman Brothers); efforts of
rity and competitiveness of U.S. markets,” said Commis-         the International Organization of Securities Commissions
sioner Sommers.      “Our markets performed very well           to enhance international regulation and coordination;
during the recent financial crisis. It is my hope that, as we   international issues in the implementation of the Dodd-
navigate through a more highly regulated environment,           Frank Wall Street Reform and Consumer Protection Act;
our continuing discussions and work with Committee              the European Commission Proposal on over-the-counter
members will assist us in avoiding unnecessary regulatory       derivatives, central counterparties, and trade repositories;
impediments to global business, while preserving core           Japanese legislation relating to clearing of over-the-counter
protections for markets and market participants.”               derivatives; and upcoming U.S. efforts to require registra-
                                                                tion of foreign boards of trade.



10     CFTC
Jill E. Sommers, Commissioner



                        J ill E. Sommers was sworn in
                          as   a   Commissioner     of
                        Commodity Futures Trading Com-
                                                         the
                                                               Prior to that, Ms. Sommers worked in the Government
                                                               Affairs Office of the Chicago Mercantile Exchange (CME),
                                                               where she was instrumental in overseeing regulatory and
                        mission on August 8, 2007 to a         legislative affairs for the exchange.    During her tenure
                        term that expired April 13, 2009.      with the CME, she had the opportunity to work closely
                        She was nominated on July 20,          with congressional staff drafting the Commodity Futures
                        2009 by President Barack Obama         Modernization Act of 2000.
                        to serve a five-year second term,
                        and was confirmed by the United        Commissioner Sommers started her career in Washington
                        States Senate on October 8, 2009.      in 1991 as an intern for Senator Robert J. Dole (R-KS),
                                                               working in various capacities until 1995. She later worked
Commissioner Sommers serves as Chairman and Desig-             as a legislative aide for two consulting firms specializing in
nated Federal Official of the Commission’s Global Markets      agricultural issues, Clark & Muldoon, P.C. and Taggart and
Advisory Committee, which meets periodically to discuss        Associates.
issues of concern to exchanges, firms, markets users, and
the Commission regarding the regulatory challenges of          A native of Fort Scott, Kansas, Ms. Sommers holds a Bachelor
a global marketplace. She also has the opportunity to          of Arts degree from the University of Kansas. She and her
frequently attend the Technical Committee meetings of          husband, Mike, currently reside in the Washington, DC
the International Organization of Securities Commissions,      area and have three children ages 8, 7, and 6.
the global cooperative body, which is recognized as the
international standard setter for securities and derivatives
markets.

Commissioner Sommers has worked in the commodity
futures and options industry in a variety of capacities
throughout her career. In 2005, she was the Policy Director
and Head of Government Affairs for the International
Swaps and Derivatives Association, where she worked on a
number of over-the-counter derivatives issues.




                                                                                                             CFTC         11
                                                                            “Energy markets have a huge impact on
                                                                            our economy and consumers. All of us can
                                                                            remember $147 a barrel oil and $4.00 gas.
                                                                            While environmental markets are in a more
                                                                            fledgling stage, I believe they will become
                                                                            more and more prominent as the world
                                                                            faces pollution and population issues and as
                                                                            emissions trading becomes more pronounced.”




     Energy and Environmental Markets
            Advisory Committee
T    he Energy and Environmental Markets Advisory
     Committee (formerly the Energy Markets Advisory
Committee) was created in 2008 to advise the Commis-
                                                            “The goal of the EEMAC has been to bring together a wide
                                                            variety of experts to look in detail at why these markets
                                                            behave the way they do.       The committee has explored
sion on important new developments in energy and envi-      proposals for position limits, hedge exemptions, carbon
ronmental futures markets that may raise new regulatory     trading, the affect of price volatility on consumers and
issues, and the appropriate regulatory response to ensure   regulatory reform among other issues.”
market integrity and competition, and protect consumers.
                                                            CFTC Commissioner Bart Chilton chaired the Energy and
“Energy markets have a huge impact on our economy           Environmental Markets Advisory Committee.            Members
and consumers. All of us can remember $147 a barrel         included industry professionals, representatives of futures
oil and $4.00 gas. While environmental markets are in a     exchanges, market participants, academics, consumer
more fledgling stage, I believe they will become more and   advocates, and environmental organizations.
more prominent as the world faces pollution and popu-
lation issues and as emissions trading becomes more
pronounced,” said Commissioner Chilton.




12     CFTC
Bart Chilton, Commissioner



                         B   art Chilton was nominated by
                             President Bush and confirmed
                         by the U.S. Senate in 2007.
                                                               From 1995 to 2001, Mr. Chilton was a Schedule C political
                                                               appointee of President Clinton where he rose to Deputy
                                                               Chief of Staff to the U.S. Secretary of Agriculture Dan
                         In 2009, he was nominated by          Glickman. In this role, Mr. Chilton became a member of
                         President Obama and reconfirmed       the Senior Executive Service (SES)—government execu-
                         by the U.S. Senate.    His career     tives selected for their leadership qualifications to serve in
                         spans 25 years in government          the key positions just below the most senior Presidential
                         service—working on Capitol Hill       appointees. As an SES member, Mr. Chilton served as a
                         in the House of Representatives       liaison between Secretary Glickman and the Federal work
                         and in the Senate, and serving the    force at USDA.
Executive Branch during the Clinton, Bush, and Obama
                                                               From 1985 to 1995, Mr. Chilton worked in the U.S. House
Administrations.
                                                               of Representatives where he served as Legislative Director
Prior to joining the CFTC, Mr. Chilton was the Chief of        for three different Members of Congress on Capitol Hill
Staff and Vice President for Government Relations at the       and as the Executive Director of the bipartisan Congres-
National Farmers Union where he represented average            sional Rural Caucus.
family farmers. In 2005, Mr. Chilton was a Schedule C
                                                               Mr. Chilton previously served on the Boards of Directors
political appointee of President Bush at the U.S. Farm
                                                               of Bion Environmental Technologies and the Association
Credit Administration where he served as an Executive
                                                               of Family Farms.
Assistant to the Board. From 2001 to 2005, Mr. Chilton
was a Senior Advisor to Senator Tom Daschle, the Democrat      Mr. Chilton was born in Delaware and spent his youth
Leader of the United States Senate, where he worked on         in Indiana, where he attended Purdue University (1979–
myriad issues including, but not limited to, agriculture and   1982). He studied political science and communications
transportation policy.                                         and was a collegiate leader of several organizations.




                                                                                                             CFTC        13
                                                                              “The role of the Technology Advisory Committee is more
                                                                              important than ever as the Commission undertakes
                                                                              the historic task of implementing the Dodd-Frank
                                                                              Act. Because technology is a vital component of the
                                                                              futures and derivatives markets, it is imperative that
                                                                              the Commission deploy state of the art technology to
                                                                              meet its surveillance and enforcement responsibilities.
                                                                              The TAC’s recommendations regarding market design,
                                                                              structure, and functionality will provide invaluable
                                                                              information as we move forward.”




           Technology Advisory Committee
C    FTC Commissioner Scott D. O’Malia chairs the Tech-
     nology Advisory Committee (TAC). Members include
representatives of exchanges, clearinghouses, trade reposi-
                                                              Under the direction of Commissioner O’Malia, the TAC
                                                              convened for the first time in five years, and met on July
                                                              14 and October 12. In its first meeting, “Technological
tories, self-regulatory organizations, financial interme-     Trading in the Markets,” the TAC discussed regulation
diaries, market participants (including trading firms and     of high frequency and algorithmic trading, including
commercial companies), academia, and consumers. TAC           adoption of risk management and best practices standards.
members have been selected for their deep knowledge and       The TAC’s second meeting, “Technology: Achieving the
expertise in the financial markets and keep the Commis-       Statutory Goals and Regulatory Objectives of the Dodd-
sion abreast of emerging technological advances and devel-    Frank Act,” included panels on disruptive trading practices
opments.                                                      and the Commission’s new anti-manipulation rulemaking
                                                              authority, discussion of the May 6th “Flash Crash,” swap
The TAC was created in 1999 to advise the Commission
                                                              execution facility models, and characteristics of swap data
on the impact and implications of technological innova-
                                                              repositories.     Key topics examined by the TAC include
tion in the financial services and commodity markets. Its
                                                              pre- and post-trade transparency in light of computer-
objectives include making recommendations on appro-
                                                              ized trading strategies, swap oversight and data collection,
priate regulatory responses to the application and utiliza-
                                                              and the use of technology in surveillance and compliance
tion of new technologies in the marketplace in order to
                                                              activities to manage risk. The TAC continues to study these
support the agency’s mission of ensuring the integrity of
                                                              and other issues in order to ensure that the Commission
the markets. The TAC also advises the Commission on
                                                              remains able to adapt to technology-driven evolution in
appropriate investment in technology resources to meet its
                                                              the markets.
surveillance and enforcement responsibilities.


14     CFTC
Scott O’Malia, Commissioner



                       S   cott O’Malia was confirmed
                           by the U.S. Senate on October
                       8, 2009 as Commissioner of the
                                                             Advisor on oil, coal, and gas issues. From 1992 to 2001,
                                                             the Commissioner served as Senior Legislative Assistant to
                                                             Senator Mitch McConnell (R-KY), now the Senate Minority
                       CFTC, he was sworn in on October      Leader. During his career, O’Malia also founded the Wash-
                       16, 2009. He is currently serving     ington office of Mirant Corp., where he worked on rules
                       a five-year term that expires April   and standards for corporate risk management and energy
                       2015.                                 trading among wholesale power producers.

                       Born in South Bend, Indiana and       In his time at the CFTC, Commissioner O’Malia has
                       raised in Williamston, Michigan,      advanced the use of technology to more effectively meet
Commissioner O’Malia learned about commodity prices          the agency’s oversight responsibilities and has reestablished
firsthand growing up on a small family farm. As a Commis-    the long dormant CFTC Technology Advisory Committee
sioner of the Commodity Futures Trading Commission, he       (C-TAC). As Chairman of the newly reinstated Committee,
brings both his agricultural background and experience in    Commissioner O’Malia intends to harness the expertise
energy markets, where he focused his professional career.    of the C-TAC membership to establish technological ‘best
                                                             practices’ for oversight and surveillance considering such
Before starting his term at the CFTC, Commissioner
                                                             issues as algorithmic and high frequency trading, data
O’Malia served as the Staff Director to the U.S. Senate
                                                             collection standards, and technological surveillance and
Appropriations Subcommittee on Energy and Water Devel-
                                                             compliance.
opment, where he focused on expanding U.S. investment in
clean energy technologies, specifically promoting low-cost   Commissioner O’Malia earned a Bachelor’s Degree from the
financing and technical innovation in the domestic energy    University of Michigan. He and his wife, Marissa, currently
sector.                                                      live in Northern Virginia with their three daughters.

From 2003 to 2004, Commissioner O’Malia served on the
U.S. Senate Energy and National Resources Committee
under Chairman Pete Domenici (R-NM) as Senior Policy




                                                                                                           CFTC       15
        How This Report is Organized
        This document consists of three primary sections and supplemental sections:


                                                       Management’s Discussion and Analysis
                      MANAGEMENT’S
            D I S C U S S I O N A N D A N A LY S I S
                                                       The Management’s Discussion and Analysis (MD&A) section is an
                                                       overview of the entire report. The MD&A presents performance and finan-
                20    Commission at a Glance


                35    Performance Highlights


                46    Financial Highlights


                49


                52
                      Management Assurances


                     Forward Looking — Future
                                                       cial highlights for FY 2010 and discusses compliance with legal and regu-
                     Business Trends and Events




                                                       latory requirements, business trends and events, and management issues.
                                                       For more information on this section, please contact Mark Carney, Chief
                                                       Financial Officer, at 202-418-5477.



                                                       Performance Section

                                                       The Performance Section compares the Commission’s performance to the
              PERFORMANCE SECTION




                                                       annual goals in the 2007−2012 CFTC Strategic Plan. For more information
                56    Introduction to the
                      Performance Section

                57    Strategic Goal One:
                      Economic Vitality




                                                       on this section, please contact Emory Bevill, Deputy Director for Budget
                69    Strategic Goal Two:
                      Market Users and the Public

                87    Strategic Goal Three:
                      Industry




                                                       and Planning, at 202-418-5187.
                107 Strategic Goal Four:
                      Organizational Excellence




                                                       Financial Section

                                                       The Financial Section includes the Commission’s financial statements and
                 FINANCIAL SECTION




                                                       the Independent Auditors’ report. For more information on this section,
                     132 A Message from the
                     		   Chief	Financial	Officer

                     133 Limitations of Financial
                          Statements




                                                       please contact Keith Ingram, Deputy Director for Accounting and Financial
                     134 Principal Financial
                          Statements

                     139 Notes to the Financial
                          Statements




                                                       Systems, at 202-418-5612.
                     150 Report of the
                          Independent Auditors




16   CFTC
Other Accompanying Information

Other Accompanying Information contains the Inspector General’s FY 2010
                                                                                               O t h e r A c c O m pA n y i n g
                                                                                                      i n f O r m At i O n




assessment of management challenges facing the Commission and the
                                                                                                 154   Inspector General’s
                                                                                                       FY 2010 Assessment

                                                                                                 158   Summary of Audit and
                                                                                                       Management Assurances




Commission’s summary of audit and management assurances. For more infor-
mation on this section, please contact Mark Carney, Chief Financial Officer, at
202-418-5477.




Appendix

The Appendix contains the summary of Dodd-Frank rulemaking, summaries of
                                                                                                          Appendix




filed Enforcement actions, descriptions of CFTC Information Technology systems,
                                                                                                 160   Dodd-Frank Rulemaking

                                                                                                 162   Enforcement Litigation
                                                                                                       by Strategic Goal

                                                                                                 180   CFTC Information



and a glossary of abbreviations and acronyms used throughout the report. For
                                                                                                       Technology Systems

                                                                                                 181   Glossary of Abbreviations
                                                                                                       and Acronyms




more information on this section, please contact Lisa Malone, Budget Analyst,
Budget and Planning, at 202-418-5184.



An electronic version of the CFTC FY 2010 Performance and Accountability Report is available
on the Internet at http://www.cftc.gov/about/cftcreports/index.htm.     The 2007-2012 CFTC
Strategic Plan, Keeping Pace with Change, is also available at this Web site.




                                                                                                                                CFTC   17
          MANAGEMENT’S
D I S C U S S I O N A N D A N A LY S I S




    	20	   Commission at a Glance


    	35	   Performance Highlights


    	46	   Financial Highlights


    	49	   Management Assurances


    	52	   Forward Looking — Future
           Business Trends and Events
                        Commission at a Glance

                                                  Mission Statement

              The mission of the CFTC is to protect market users and the public
           from fraud, manipulation, and abusive practices related to the sale of
               commodity futures and options, and to foster open, competitive,
                 and financially sound commodity futures and option markets.



Evolving Mission and Responsibilities
Since the passage of the CEA, the CFTC and its predecessor         The Dodd-Frank Act is very detailed, addressing all of the
agencies have been responsible for ensuring the fair, open         key policy issues regarding regulation of the swaps market-
and efficient functioning of futures markets. After the 2008       place. To implement these regulations, the CFTC is required
financial crisis and the subsequent enactment of the Dodd-         to promulgate rules, generally within 360 days of enactment
Frank Act, the CFTC’s mission expanded to include oversight        of the Dodd-Frank Act. The Commission organized its effort
of the swaps marketplace. The Dodd-Frank Act will—for              around 30 teams who have been actively at work.
the first time—bring comprehensive regulation to the swaps
                                                                   Two principles are guiding the Commission throughout the
marketplace. Derivatives dealers will be subject to robust
                                                                   rule-writing process. First is the statute itself. The Commis-
oversight. Standardized derivatives will be required to trade
                                                                   sion is complying fully with the statute’s provisions and
on open platforms and be submitted for clearing to central
                                                                   Congressional intent to manage risk and bring transparency
counterparties, all of which will be subject to Federal regula-
                                                                   to the swaps markets.
tion and supervision.
                                                                   Second, Commission staff is consulting heavily with other
Some of the CFTC’s expanded authorities will be consistent
                                                                   regulators, such as the SEC, Federal Reserve and other
with our current authorities but expanded to also include
                                                                   prudential regulators.       In addition to working with its
swaps. Some will be new responsibilities, such as regulating
                                                                   American counterparts, the Commission has reached out to
swap dealers, swap execution facilities (SEFs) and swap data
                                                                   and is actively consulting with international regulators to
repositories (SDRs).
                                                                   harmonize its approach to swaps oversight.



                          Management’s                                                              Other Accompanying
20      CFTC              Discussion & Analysis
                                                   Performance Section      Financial Section
                                                                                                    Information
                                                                                                                         Appendix
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Commission also is soliciting broad public input into             efficiency, protecting market participants against fraud,
the rules. This began the day the President signed the Dodd-          manipulation and other abusive trading practices and
Frank Act when the Commission identified the 30 rule-                 ensuring the financial integrity of the clearing process.
writing teams and set up electronic mailboxes for the public          Through effective oversight, the CFTC enables the futures
to submit their views directly. The Commission is openly              markets to serve the important function of providing a
considering proposed rules, using public Commission                   means for price discovery and offsetting price risk. The CFTC
meetings for this purpose.                                            will spend the next year bringing similar protections to the
                                                                      swaps marketplace through implementing the provisions of
The Commission is committed to transparency in the rule-
                                                                      the Dodd-Frank Act.
making process. As such, we are posting a list of all of our
meetings relating to the implementation of the Dodd-Frank             The Farm Bill reauthorized the CFTC and made several
Act, as well as the participants, issues discussed and all mate-      amendments to the CEA to: 1) clarify the CFTC’s jurisdic-
rials given to us, on our Web site at:                                tion over retail financial contracts based on foreign curren-
                                                                      cies; 2) make the CFTC’s anti-fraud authority applicable to
http://www.cftc.gov/LawRegulation/DoddFrankAct/ExternalMeet-
                                                                      certain off-exchange contracts or swaps; 3) increase civil
ings/index.htm.
                                                                      monetary and criminal penalties for violations of the CEA;
Additional information on the Dodd-Frank rulemaking                   4) permit cross-margining of accounts in security futures
effort at the Commission is provided in the Appendix of this          and options; and 5) establish CFTC regulation over certain
report.                                                               exchange-like trading facilities that are currently exempt
                                                                      from most regulation.

Implementing Existing Authorities                                     During FY 2010, the CFTC fulfilled its statutory obligations
                                                                      under the Farm Bill to regulate certain derivatives, including
The CFTC and its predecessor agencies were established to
                                                                      energy derivatives traded on ECMs. If a contract that is
protect market users and the public from fraud, manipula-
                                                                      traded on one of these facilities is found to perform a signifi-
tion and other abusive practices in the commodity futures
                                                                      cant price discovery function, the contract and the facility
and options markets. The CFTC also is charged with fostering
                                                                      are subject to heightened regulation and required to comply
open, competitive and financially sound commodity futures
                                                                      with key core principles that also apply to the trading of
and option markets.
                                                                      futures contracts. For example, the Commission found that
Congress established the CFTC as an independent agency in             the highest-volume natural gas contract on ICE—among
1974, after its predecessor operated within the Department            others—performs a significant price discovery function. ICE
of Agriculture. Its mandate was renewed and/or expanded               is now regulated for this contract in accordance with the core
in 1978, 1982, 1986, 1992, 1995, 2000, 2008 and 2010.                 principles laid out in the Farm Bill.
The CFTC’s short- and long-term goals include significant
                                                                      As directed by both the Farm Bill and the Dodd-Frank Act, the
rule-writing and regulation of the swaps marketplace to
                                                                      CFTC adopted new regulations with respect to off-exchange
implement the Dodd-Frank Act.
                                                                      retail forex transactions in FY 2010. The rules establish stan-
The Commission administers the CEA, 7 U.S.C. section 1,               dards to promote fair dealings, require honest and mean-
et seq. The 1974 Act brought under Federal regulation futures         ingful risk and performance disclosure and impose dealer
trading in all goods, articles, services, rights and interests;       capital requirements.
commodity options trading; leverage trading in gold and
                                                                      In September 2009, the Commission began publishing a
silver bullion and coins; and otherwise strengthened the
                                                                      weekly disaggregated COT report for physical commodity
regulation of the commodity futures trading industry. It
                                                                      markets. The agency built upon those transparency efforts in
established a comprehensive regulatory structure to oversee
                                                                      July 2010, when it began publishing the Traders in Financial
the volatile futures trading complex.
                                                                      Futures (TFF). The TFF report—for the first time—breaks out
The CFTC was established to ensure the economic utility               dealers, asset managers, leveraged funds and others in the
of the futures markets by encouraging competitiveness and             financial futures markets.



     Management’s                                                              Other Accompanying
     Discussion & Analysis
                              Performance Section      Financial Section
                                                                               Information
                                                                                                         Appendix      CFTC         21
Also in September 2009, the CFTC began publishing index           the Division of Market Oversight (DMO), the Division of
investment data in the physical commodity markets on              Clearing and Intermediary Oversight (DCIO) and the
a quarterly basis. The data includes information on index         Division of Enforcement (DOE)—are partnered with and
investors’ dealings in the cash markets and other derivatives,    supported by a number of offices, including the Office of
including swaps. In August, the Commission began releasing        the General Counsel (OGC), the Office of the Chief
the data on a monthly basis.                                      Economist (OCE), the Office of International Affairs (OIA),
                                                                  the Office of the Inspector General (OIG), and the Office of
                                                                  the Executive Director (OED).
How the CFTC is Organized
and Functions                                                     The Executive Director, by delegation of the Chairman,
                                                                  serves as the Chief Operating Officer (COO) directing the
The Commission consists of five Commissioners. The
                                                                  effective and efficient allocation and use of resources, and
President appoints and the Senate confirms the CFTC
                                                                  developing the management and administrative policy and
Commissioners to serve staggered five-year terms. No more
                                                                  programs of the Commission.
than three sitting Commissioners may be from the same
political party. With the advice and consent of the Senate,       Attorneys across the CFTC’s divisions and offices represent
the President designates one of the Commissioners to serve        the Commission in administrative and civil proceedings,
as Chairman.                                                      assist U.S. Attorneys in criminal proceedings involving
                                                                  violations of the CEA, develop regulations and policies
The Office of the Chairman oversees the Commission’s
                                                                  governing clearinghouses, exchanges and intermediaries,
principal divisions and offices that administer and enforce
                                                                  and monitor compliance with applicable rules. In response
the CEA and the regulations, policies and guidance
                                                                  to the globalization of the derivatives markets, attorneys
thereunder.
                                                                  represent the CFTC internationally in multilateral regula-
The Commission is organized largely along programmatic            tory organizations and in bilateral initiatives with indi-
and functional lines. The three programmatic divisions—           vidual foreign regulators.      Commission attorneys also




                          Management’s                                                         Other Accompanying
22     CFTC               Discussion & Analysis
                                                  Performance Section      Financial Section
                                                                                               Information
                                                                                                                       Appendix
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




participate in country dialogues organized by the U.S.                   trade execution facilities and performs market and trade
Department of the Treasury. Much of the Commission’s                     practice surveillance, reviews new and existing exchanges
legal work involves complex and novel issues.                            to ensure their compliance with the applicable core
                                                                         principles, evaluates new products to ensure they are
Auditors, risk analysts, trade practice analysts and attorneys
                                                                         not susceptible to manipulation and reviews exchange
examine records and operations of derivatives exchanges,
                                                                         rules and actions to ensure compliance with the CEA
clearinghouses and intermediaries for compliance with the
                                                                         and CFTC regulations.
provisions of the CEA and the Commission’s regulations.
Derivatives trading investigators and specialists perform           ■■   Division of Clearing and Intermediary Oversight
regulatory and compliance oversight to detect potential
                                                                         The DCIO program oversees the registration and
fraud, market manipulations and trade practice violations.
                                                                         compliance activities of DCOs, intermediaries and the
Risk analysts also perform analyses, which include stress
                                                                         futures industry self-regulatory organizations (SROs),
testing, to evaluate financial risks at the trader, firm and
                                                                         which include the U.S. derivatives exchanges and the
clearinghouse levels.
                                                                         National Futures Association (NFA).          Program staff
Economists and analysts monitor trading activities and                   develop regulations concerning registration, fitness,
price relationships in derivatives markets to detect and deter           financial adequacy, sales practices, protection of
price manipulation and other potential market disruptions.               customer funds, clearance and settlement activities,
These analysts also monitor compliance with position                     cross-border transactions, systemic risk and anti-money
limits. Economists and analysts evaluate filings for new                 laundering programs, as well as policies for coordina-
derivatives contracts and amendments to existing contracts               tion with foreign market authorities and emergency
to ensure that they meet the Commission’s statutory                      procedures to address market-related events.
and regulatory standards.      Economists also analyze the
                                                                    ■■   Division of Enforcement
economic effect of various Commission and industry
actions and events, evaluate policy issues and advise the                The DOE program investigates and prosecutes alleged
Commission accordingly.                                                  violations of the CEA and Commission regulations.
                                                                         Possible violations involve improper conduct related to
The CFTC is headquartered in Washington, D.C., with
                                                                         commodity derivatives trading on U.S. exchanges, or
regional offices in Chicago, Kansas City, and New York.
                                                                         the improper marketing and sales of commodity deriva-
                                                                         tives products to the general public.
CFTC Organizational Programs
                                                                    ■■   Office of the General Counsel
Below are brief descriptions of the organizational programs
within the CFTC.                                                         The OGC serves the Commission as its legal advisor
                                                                         representing the Commission in appellate litigation
■■   The Commission                                                      and certain trial-level cases, including bankruptcy
                                                                         proceedings involving futures industry professionals.
     The Offices of the Chairman and the Commissioners
                                                                         OGC also advises the Commission on the application
     provide executive direction and leadership to the
                                                                         and interpretation of the CEA and other administrative
     Commission. The Offices of the Chairman include:
                                                                         statutes.
     Public Affairs, Legislative Affairs, and Equal Employment
     Opportunity.                                                   ■■   Office of the Chief Economist

■■   Division of Market Oversight                                        The OCE provides economic support and advice to the
                                                                         Commission, conducts research on policy issues facing
     The DMO program fosters markets that accurately
                                                                         the Commission, and provides education and training
     reflect the forces of supply and demand for the
                                                                         for Commission staff.
     underlying commodities and are free of disruptive
     activity. To achieve this goal, program staff oversees




      Management’s                                                            Other Accompanying
      Discussion & Analysis
                              Performance Section    Financial Section
                                                                              Information
                                                                                                        Appendix      CFTC         23
■■   Office of International Affairs                                 CFTC Strategic Framework:
     The OIA advises the Commission regarding interna-
                                                                     Keeping Pace with Change
     tional regulatory initiatives; provides guidance regard-        The CFTC Mission Statement, Strategic Goals and its related
     ing international issues raised in Commission matters;          outcome objectives and performance metrics, as well as its
     represents the Commission in international organiza-            multi-year Strategic Plans, create a template that allows
     tions, such as the International Organization of                management to articulate its priorities, measure results,
     Securities Commissions (IOSCO); coordinates Com-                and conduct long-range planning. The Commission also
     mission policy as it relates to international initiatives of    maintains flexibility to adapt its program to address market
     the G20, Financial Stability Board and the U.S. Treasury        and financial emergencies and new regulatory concerns.
     Department; and provides technical assistance to
     foreign market authorities.                                     In FY 2007, the Commission issued Keeping Pace with
                                                                     Change, its Strategic Plan for FY 2007-2012. That version of
■■   Office of the Inspector General                                 the CFTC Strategic Plan expires with the issuance of its
     The OIG is an independent organizational unit at the            FY 2010 Performance and Accountability Report and
     CFTC. The mission of the OIG is to detect waste, fraud,         FY 2012 President’s Budget and Performance Plan.
     and abuse and to promote integrity, economy, efficiency,
                                                                     OMB granted an extension of the deadline by which the
     and effectiveness in the CFTC’s programs and opera-
                                                                     CFTC must publish its revised Strategic Plan until February
     tions. In accordance with the Inspector General Act of
                                                                     28, 2011.
     1978, as amended, the OIG issues semiannual reports
     detailing its activities, findings, and recommendations.        The following table is an overview of the Commission’s
                                                                     mission statement, strategic goals, and outcome objectives
■■   Office of the Executive Director                                under the FY 2007-2012 strategic framework.

     The Executive Director, by delegation of the Chairman,
     serves as the COO directing the effective and efficient
     allocation and use of resources and developing the
     management and administrative policy and programs
     of the Commission.        The OED includes: Secretariat,
     Human Resources, Financial Management, Information
     and Technology Services, Management Operations,
     Proceedings (reparations) and the Library. The OED
     also ensures program performance is measured and
     improved effectively.




                             Management’s                                                            Other Accompanying
24       CFTC                Discussion & Analysis
                                                     Performance Section         Financial Section
                                                                                                     Information
                                                                                                                          Appendix
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                                     Mission Statement
               The mission of the CFTC is to protect market users and the public
           from fraud, manipulation, and abusive practices related to the sale of
            commodity futures and options, and to foster open, competitive, and
                         financially sound commodity futures and option markets.

                                                 Strategic Goal One
                         Ensure the economic vitality of the commodity futures and option markets.
                                                        Outcome Objectives
1.	 Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of
    disruptive activity.

2.	 Markets that are effectively and efficiently monitored to ensure early warning of potential problems or issues that
    could adversely affect their economic vitality.

                                                     Strategic Goal Two
                                               Protect market users and the public.
                                                        Outcome Objectives
1.	 Violations of Federal commodities laws are detected and prevented.

2.	 Commodities professionals meet high standards.

3.	 Customer complaints against persons or firms falling within the jurisdiction of the CEA are handled effectively
    and expeditiously.

                                           Strategic Goal Three
          Ensure market integrity in order to foster open, competitive, and financially sound markets.
                                                        Outcome Objectives
1.		Clearing organizations and firms holding customer funds have sound financial practices.

2.	 Commodity futures and option markets are effectively self-regulated.

3.	 Markets are free of trade practice abuses.

4.	 Regulatory environment is responsive to evolving market conditions.

                                             Strategic Goal Four
            Facilitate Commission performance through organizational and management excellence,
                           efficient use of resources, and effective mission support.
                                                        Outcome Objectives
1.		Productive, technically competent, competitively compensated, and diverse workforce that takes into account
    current and future technical and professional needs of the Commission.

2.	 Modern and secure information system that reflects the strategic priorities of the Commission.

3.	 Organizational infrastructure that efficiently and effectively responds to and anticipates both the routine and
    emergency business needs of the Commission.

4.	 Financial resources are allocated, managed, and accounted for in accordance with the strategic priorities
    of the Commission.

5.	 The Commission’s mission is fulfilled and goals are achieved through sound management and organizational
    excellence provided by executive leadership.




 Management’s                                                                  Other Accompanying
 Discussion & Analysis
                               Performance Section      Financial Section
                                                                               Information
                                                                                                          Appendix      CFTC         25
Industry Growth in Volume, Globalization and Complexity
Fundamental changes in the technology, products and plat-                  designated contract markets (DCMs). Over the same time
forms of U.S. futures trading have increased the Commis-                   period, the number of actively-traded futures and options
sion’s need for sophisticated technology, specialized skills               contracts listed on U.S. exchanges increased more than
and additional resources to keep pace.                                     nine-fold, from approximately 266 contracts in 2000 to
                                                                           approximately 2,466 contracts in 2010. Total DCM futures
In the futures industry, exchanges, in particular, have under-
                                                                           and options trading volume rose from approximately 580
gone a decade-long transition from geographically-defined
                                                                           million contracts in 2000 to approximately 3.11 billion in
trading pits to electronic platforms with global reach.
                                                                           2010, an increase of more than 436 percent.
From 2000 to 2010, electronic trading grew from approxi-
mately nine percent of volume to 78 percent on all U.S.


     Indicator                                                                       2000                       2010           Percent Change

     CFTC   Staff1                                                                   556                        605                    +9%
     CFTC Overhead Expenses as a % of the              Budget2                       39%                       37%                     -2%
     Notional Value of Futures Market3                                           $12 Trillion               $39 Trillion              +225%
     Types of Contracts Traded3                                                      266                       2,466                  +827%
     Total Contract   Volume4                                                    580 Million                3.11 Billion              +436%
     Volume of Electronic Trading on all U.S. DCMs5                                  9%                        78%                     +69%
     Customer Funds in FCM         Accounts6                                     $56.7 Billion             $177.4 Billion             +213%
     Enforcement Actions Filed7                                                       53                        57                     +8%
     Enforcement Investigations         Opened7                                      117                        419                   +258%
     Designated Contract Markets           8                                          13                        17                     +31%
     Derivative Clearing Organizations8                                               9                         14                     +56%
     Exempt Commercial       Markets8                                                 0                         23                     N/A
     Exempt Boards of Trade8                                                          0                         14                     N/A
     New Product Filings     Reviewed8                                                50                        776                   +1,452%
     Product Rule Certifications        Reviewed8                                     96                        49                     -49%
     Market Rule Certifications Reviewed8                                            222                        359                    +62%

     Sources:
     1.	 The Budget of the United States
     2.	 CFTC Status of Funds Report
     3.	 CFTC Integrated Surveillance System
     4.	 Futures Industry Association
     5.	 CFTC Trade Surveillance System
     6.	 1-FR Reports filed by FCMs and posted at: http://www.cftc.gov/MarketReports/FinancialDataforFCMs/index.htm
     7.	 CFTC eLaw System
     8.	 CFTC FILAC System and posted at: http://www.cftc.gov/IndustryOversight/index.htm




                               Management’s                                                                      Other Accompanying
26      CFTC                   Discussion & Analysis
                                                           Performance Section         Financial Section
                                                                                                                 Information
                                                                                                                                              Appendix
                                                                                                  M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Commodity Futures Industry                                                                Dodd-Frank Initiatives
The first derivatives—called futures—began trading at the                                 In July 2010, the U.S. Congress addressed the economic
time of the Civil War, when grain merchants came together                                 risks of swaps when it passed the Dodd-Frank Act.
and created this new marketplace. When the Commis-                                        Though the CFTC has regulated derivatives since the 1920s,
sion was founded in 1974, the vast majority of derivatives                                its jurisdiction was limited to futures. Now, the Commis-
trading consisted of futures trading in agricultural sector                               sion, along with the SEC, is tasked with bringing its regu-
products. These contracts gave farmers, ranchers, distribu-                               latory expertise to the swaps marketplace. There are three
tors, and end-users of products ranging from corn to cattle                               critical reforms of the derivatives markets included in the
an efficient and effective set of tools to hedge against                                  Dodd-Frank Act. First, the Dodd-Frank Act requires swap
price risk.                                                                               dealers to come under comprehensive regulation. Second,
                                                                                          the Dodd-Frank Act moves the bulk of the swaps market-
Over the years, however, the derivatives industry has become
                                                                                          place onto transparent trading facilities—either exchanges
increasingly diversified. The agriculture sector continues
                                                                                          or SEFs. Third, the Dodd-Frank Act requires clearing of
to use the futures markets as actively as ever to effectively
                                                                                          standardized swaps by regulated clearinghouses to lower
lock in prices for crops and livestock months before they
                                                                                          risk in the marketplace.
enter the marketplace. However, highly complex finan-
cial contracts based on interest rates, foreign currencies,
                                                                                          Clearing of Standardized Swaps through CFTC registered
Treasury bonds, securities indexes and other products have
                                                                                          Derivatives Clearing Organizations
far outgrown agricultural contracts in trading volume.
Latest statistics show that approximately eight percent of                                The Dodd-Frank Act requires that standardized swaps
on-exchange commodity futures and option trading activity                                 be cleared through CFTC-registered DCOs. Clearing has
occurs in the agricultural sector.                    Financial commodity                 lowered risk in the futures marketplace since the 1890s.
futures and option contracts1 make up approximately
                                                                                          ■■   All DCOs that clear swaps must submit the contracts
79 percent. Other contracts, such as those on metals and
                                                                                               to the CFTC, which must then make a decision as to
energy products, make up about 13 percent.
                                                                                               whether the swaps are subject to the Dodd-Frank Act’s
The increase in trading activity, the number of participants                                   clearing requirement. The CFTC has 90 days after the
and complexity, and the number of contracts traded trans-                                      submission, including a 30-day comment period, to
formed the futures marketplace into a $39 trillion industry                                    make such determinations. Though the CFTC does
in notional amount. The rapid evolution in trading tech-                                       not yet know the total number of contracts that will
nologies, cross-border activities, product innovation and                                      be submitted for clearing, and the Commission may
competition have made the futures markets a significant                                        be able to group many by class, the largest swaps
part of the global economy.                                                                    clearinghouse clears nearly one million unique
                                                                                               contracts at any point in time.
In addition to the rapid growth of the futures marketplace,
the global economy saw the development of a new over-                                     ■■   The Dodd-Frank Act creates a new category of
the-counter (OTC) derivatives market. The first swap trans-                                    systemically important DCOs. These entities will have
action took place in 1981. The Office of the Comptroller                                       to comply with heightened risk management and
of the Currency estimates that, as of the first quarter of                                     other prudential standards. The Commission will be
2010, swaps entered into by U.S. commercial banks have a                                       required to examine systemically important DCOs at
notional amount of $217 trillion. Parts of this market were                                    least yearly. The Commission also will have to ensure
responsible for the global financial crises when existing                                      that all DCOs comply with the core principles revised
risk controls for the OTC market proved inadequate in the                                      and added by the Dodd-Frank Act. The Commission
2008 global financial meltdown.                                                                likely will see an increase in the number of DCOs


1	   A timeline of significant dates in history of futures regulation before the creation of the CFTC and significant dates in CFTC history from 1974 to the present is
     located at: http://www.cftc.gov/About/HistoryoftheCFTC/index.htm.




         Management’s                                                                                  Other Accompanying
         Discussion & Analysis
                                          Performance Section              Financial Section
                                                                                                       Information
                                                                                                                                        Appendix          CFTC            27
     seeking registration, including entities that are located       Swap Data Repositories and Real Time Reporting of
     outside the United States.                                      Swaps Data

■■   The additional clearinghouses that will register as             The Dodd-Frank Act establishes a new registration
     DCOs likely will clear many more products that will             category for SDRs. The Dodd-Frank Act requires registrants
     require analysis. Further, the risk profile of these cleared    —including swap dealers, major swap participants, SEF
     products will be more complex than traditional futures          and DCMs—to have robust record-keeping and reporting,
     and options on futures. As such, the clearing oversight         including an audit trail, for swaps. The CFTC anticipates
     program’s risk surveillance function will have to grow          issuing rules in this area to require SDRs to perform their
     so that the CFTC can continue to effectively discharge          core function of collecting and maintaining swaps data and
     its statutory duty to reduce systemic risk.                     making it directly and electronically available to regulators.
                                                                     Initial estimates are that the Commission will receive at

Oversight of Swap Execution Facilities and Swaps Trading             least five SDR applications upon the general effective date

on Designated Contract Markets                                       of the Dodd-Frank Act—one for each major asset class of
                                                                     swaps—and maybe as many as 10, if some international
The Commission will implement many new provi-                        SDRs seek to register as well. That number could grow
sions related to the oversight of swaps trading activity.            significantly to the extent that any DCMs, SEFs or DCOs
These include procedures for the review and oversight of             seek to establish in-house SDRs to facilitate their swap
an entirely new regulated market category, SEFs.                     business. In addition, the Commission, as required by the
                                                                     Dodd-Frank Act, anticipates issuing rules that will provide
■■   The Commission currently oversees 17 DCMs. Based
                                                                     for the real time dissemination of price and other informa-
     on industry comments, there could be at least 30-40
                                                                     tion about swaps trading to promote transparency.
     entities that will apply to become SEFs. This estimate is
     based on the number of ECMs, exempt boards of trade,
                                                                     Regulating Foreign Boards of Trade
     interdealer brokers, information service providers and
     swap dealers who have formally or informally expressed          The Dodd-Frank Act’s creation of a new registered foreign
     an interest in registering as SEFs. Furthermore, some           board of trade (FBOT) category will obviate the need for
     DCMs that in the past listed only futures will start            the current FBOT no-action letter program, but the substan-
     listing swaps.                                                  tive requirements that will be imposed on registered
                                                                     FBOTs will likely be more robust than the requirements
■■   Each SEF must be thoroughly evaluated by staff
                                                                     imposed under the no-action regime. Currently, 20 FBOTs
     before making determinations whether they should
                                                                     operate in the United States based upon no-action letters
     be approved. Those that are approved must also be
                                                                     dating back to 1999. The Commission expects at least that
     regularly examined for ongoing compliance.
                                                                     number of FBOTs will apply to register upon the imple-
                                                                     mentation of the registered FBOT regulations, plus an
Position Limits                                                      additional six to 10 FBOTs who have recently expressed an
                                                                     interest in becoming registered.
The CFTC currently administers a Commission-set position
limit regime for a total of nine DCM-listed agricultural
futures contracts. Under the Dodd-Frank Act, the Commis-
sion is instructed to implement and enforce new aggregate
position limits that will cover not only the futures market,
but also some portion of the swaps market. These limits
would apply to more than 30 agricultural and exempt
(mostly metals and energy) commodities.




                            Management’s                                                           Other Accompanying
28       CFTC               Discussion & Analysis
                                                     Performance Section      Financial Section
                                                                                                   Information
                                                                                                                           Appendix
                                                                                             M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




CFTC and Industry Trends
In a marketplace driven by change, it may be helpful to look back at industry and CFTC trends over the past few years.
The charts that follow reflect many of those changes affecting the CFTC:

■■     Industry growth versus staff growth;                                           ■■   Number of derivatives clearing organizations registered
■■     Growth in actively traded futures and option contracts;                             with the CFTC;

■■     Preservation of market integrity and protection of                             ■■   Exempt commercial markets;
       market users;                                                                  ■■   Exempt boards of trade; and
■■     Number of registrants;                                                         ■■   Amount of customer funds held at futures commission
■■     Contract markets designated by the CFTC;                                            merchants.


Growth in Volume of Futures & Option Contracts Traded & CFTC Full-time Equivalents
(FTEs), 2000−2010
Trading volume has increased over five-fold in the last decade. There is growth in the staffing level for the Commission in
FY 2010, but over a ten year period the increase in staff has not kept up with the increase in volume of contracts traded.2




Actively Traded Futures & Option Contracts, 2000−2010
The number of actively traded contracts on U.S. exchanges has increased more than nine-fold in the last decade.




2	   Volume started decreasing at the end of FY 2008 and continued at about a 20 percent decline for FY 2009. FY 2010 bounced back to about a 15.7 percent increase.




        Management’s                                                                              Other Accompanying
        Discussion & Analysis
                                        Performance Section            Financial Section
                                                                                                  Information
                                                                                                                                 Appendix         CFTC           29
Preservation of Market Integrity and Protection of Market Users
Manipulation, Attempted Manipulation, and False Reporting

The CFTC utilizes every tool at its disposal to detect and deter illegitimate market forces. Through enforcement action,
the Commission preserves market integrity and protects market users, demonstrating that the Commission has significant
authority and intends to use it. Below is a highlight of the CFTC enforcement efforts in this area over the last five fiscal
years (FY 2006 through FY 2010).

                                                                                                 Manipulation, Attempted
 Actions Taken Since FY 2006                                                                 Manipulation, and False Reporting
 Number of Cases Filed or Enforcement Actions                                                                              19
 Number of Entities/Persons Charged                                                                                        41
 Number of Dollars in Civil Monetary Penalties Assessed                                                           $197,562,500



Commodity Pools, Hedge Funds, Commodity Pool Operators, and Commodity Trading Advisors

Investors continue to fall prey to unscrupulous commodity pool operators (CPOs) and commodity trading advisors
(CTAs), including CPOs and CTAs operating hedge funds.           The majority of the Commission’s pool/hedge fund fraud
cases are brought against unregistered CPOs and/or CTAs. These cases tend to involve Ponzi schemes or outright
misappropriation, rather than legitimate hedge fund operations.

 Actions Taken Since October 2000                                                                          Pools/Hedge Funds
 Number of Cases Filed or Enforcement Actions                                                                             106
 Cases/Actions Charging Commission Registrants                                                                             36
 Number of Dollars in Penalties Assessed                                                                          $637,383,906



Forex Fraud

The Commission vigorously uses its enforcement authority to combat forex fraud.

 Actions Taken Since Passage of the CFMA in December 2000                                             Foreign Currency Fraud
 Number of Cases Filed or Enforcement Actions                                                                             126
 Number of Entities/Persons Charged                                                                                       467
 Number of Customers Affected                                                                                           27,110
 Number of Dollars in Civil Monetary Penalties Assessed                                                           $577,549,521
 Number of Dollars in Restitution Assessed                                                                        $477,473,424




                         Management’s                                                             Other Accompanying
30     CFTC              Discussion & Analysis
                                                 Performance Section     Financial Section
                                                                                                  Information
                                                                                                                         Appendix
                                                                                                 M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Number of Registrants
Companies and individuals who handle customer funds, solicit or accept orders, or give trading advice must apply
for CFTC registration through the NFA, a registered futures association and SRO with delegated authority from the
Commission.

The Commission regulates the activities of over 64,000 registrants.

     Registration Category3                                                                                       Number as of September 30, 2010
     Associated Persons (APs) (Salespersons)                                                                                                      51,245
     Commodity Pool Operators (CPOs)                                                                                                                1,228
     Commodity Trading Advisors (CTAs)                                                                                                              2,560
     Floor Brokers (FBs)                                                                                                                            6,591
     Floor Traders (FTs)                                                                                                                            1,344
     Futures Commission Merchants (FCMs)                                                                                                              142
     Retail Foreign Exchange Dealers (RFEDs)                                                                                                             8
     Introducing Brokers (IBs)                                                                                                                      1,596
     TOTAL                                                                                                                                        64,714


Contract Markets Designated by the CFTC, 2005−2010
The following 17 DCMs meet CFTC designation criteria and core principles for trading futures and options.

     DCMs4                                      2005                  2006                    2007             2008             2009             2010
     CANTOR
     CBOT
     CCFE
     CFE
     CME
     CX
     ELX
     GREENEX
     ICE US (NYBOT)
     KCBT
     MGE
     Nadex (HedgeStreet)
     NFX (PBOT)
     NQLX
     NYMEX (incl. COMEX)
     NYSE LIFFE
     OCX
     TRENDEX
     USFE
     TOTAL                                         13                    12                    12                13               14               17

3	   A person who is registered in more than one registration category is counted in each category.
4	   Refer to the CFTC Glossary in the Appendix for full names of organizations.




          Management’s                                                                                Other Accompanying
          Discussion & Analysis
                                         Performance Section              Financial Section
                                                                                                      Information
                                                                                                                               Appendix      CFTC         31
Number of Derivatives Clearing Organizations Registered with the CFTC, 2005−2010
Clearinghouses that provide clearing services for CFTC-regulated exchanges must register as DCOs. Currently, 14 DCOs
are registered with the Commission.

     DCOs5                                      2005                 2006                  2007             2008          2009             2010
     AE Clearinghouse
     Cantor Clearinghouse
     CBOT
     CCorp
     CME
     ICE Clear Europe
     ICE Clear US
     IDC
     KCBT
     LCH
     MGE
     NADEX
     NGX
     NYMEX
     OCC
     TOTAL                                        11                   11                   11                 10           12              14



Exempt Commercial Markets, 2005−2010
Electronic trading facilities providing for the execution of principal-to-principal transactions between eligible commercial
entities in exempt commodities may operate as ECMs, as set forth under the CEA and the Commission’s regulations.
An ECM is subject to anti-fraud and anti-manipulation provisions and a requirement that, if performing a significant
price discovery function, must provide pricing information to the public. A facility that elects to operate as an ECM must
give notice to the Commission and comply with certain information, record-keeping, and other requirements. An ECM
is prohibited from claiming that the facility is registered with, or recognized, designated, licensed or approved by, the
Commission. A total of 34 ECMs have filed notices with the Commission. In FY 2010, 23 ECMs were in business for at
least part of the year; five however, withdrew their ECM notifications during the fiscal year.

     ECMs6                                      2005                 2006                  2007              2008         2009             2010
     Agora-X                                                                                                                                  7

     CCX
     CDXchange
     ChemConnect
     DFox
     EnergyCross.com
                                                                                                                             (continued on next page)

5	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
6	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
7	   These ECMs withdrew their ECM notifications during FY 2010.




                                    Management’s                                                                      Other Accompanying
32          CFTC                    Discussion & Analysis
                                                                     Performance Section          Financial Section
                                                                                                                      Information
                                                                                                                                               Appendix
                                                                                               M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




     ECMs6                                      2005                 2006                    2007            2008             2009             2010
     EOXLIVE
     Evolution Markets                                                                                                                             7

     FCRM
     Flett
     GFI
     HSE
     ICAP
     ICAPture
     ICAP Shipping
     ICAP Truequote
     ICE
     IMAREX                                                                                                                                        7

     Liquidity Partners
     LiquidityPort                                                                                                                                 7

     NGX
     Nodal
     NTP
     OILX
     OPEX
     Parity
     SL
     TCX
     TFSWeather
     tpENERGYTRADE
     Tradition Coal.Com
     Trading Optx                                                                                                                                  7

     TS
     WORLDPULP
     TOTAL                                        12                    17                    19               20               27               23



Exempt Boards of Trade, 2005−2010
Transactions by eligible contract participants in selected commodities may be conducted on an EBOT as set forth under
the CEA and the Commission’s regulations. EBOTs are subject only to the CEA’s anti-fraud and anti-manipulation
provisions. An EBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or
approved by the Commission. Also, if it is performing a price discovery function, the EBOT must provide certain pricing




6	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
7	   These ECMs withdrew their ECM notifications during FY 2010.




          Management’s                                                                              Other Accompanying
          Discussion & Analysis
                                         Performance Section             Financial Section
                                                                                                    Information
                                                                                                                             Appendix      CFTC         33
information to the public. To date, 20 EBOTs filed notices with the Commission. In FY 2010, 14 EBOTs were in business
for at least part of the year; one however, withdrew its EBOT notification during the fiscal year.

     EBOTs8                                     2005                 2006                  2007             2008          2009             2010
     AE
     CME AM
     CTRMTCH
     Derivatives Bridge
     ERIS
     FENICS
     GFI ForexMatch
     Intrade
     IRESE
     LiquidityPort
     Longitude
     M2
     MATCHBOXX ATS
     Storm                                                                                                                                   9

     SURFEX
     Swapstream
     TACE
     WBOT
     WXL
     Yellow Jacket
     TOTAL                                         5                    8                   9                   9           10              14


Customer Funds in Futures Commission Merchant Accounts, 2000−2010
The amount of customer funds held at FCMs nearly quadrupled from FY 2000 to FY 2008, declined in FY 2009, and
showed a slight increase in FY 2010.




8	   Refer to the CFTC Glossary in the Appendix for full names of organizations.
9	   This EBOT withdrew its EBOT notification during FY 2010.




                                    Management’s                                                                      Other Accompanying
34          CFTC                    Discussion & Analysis
                                                                     Performance Section          Financial Section
                                                                                                                      Information
                                                                                                                                             Appendix
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Performance Highlights by Strategic Goal

 Resources at a Glance                                                 CFTC Staffing
  Fiscal Year                        Outcomes
                            $168 Million Actual Obligations
     2010
                               Increased Staff by 107
                            $146 Million Actual Obligations
     2009
                                Increased Staff by 49
                            $111 Million Actual Obligations
     2008
                                Increased Staff by 12
                            $98 Million Actual Obligations
     2007
                               Decreased Staff by 56
                            $93 Million Actual Obligations
     2006
                                Increased Staff by 6




    Management’s                                                               Other Accompanying
    Discussion & Analysis
                                  Performance Section   Financial Section
                                                                               Information
                                                                                                          Appendix      CFTC         35
Acquisition of Additional Office Space                                    ■■    The capability to create ownership and control linkages
                                                                                between trading activity and aggregated positions;
In FY 2010, the Commission invested $13 million or eight
                                                                          ■■    Computer forensics capability in support of enforce-
percent of its resources to meet the increased demand for
                                                                                ment investigations;
office space to house new employees at each of its locations.
This effort is required to accommodate budget projections                 ■■    Security controls to ensure continued compliance with
which would more than double the CFTC staff over four                           the National Institute of Standards and Technology
years. The Commission is doing everything possible to                           (NIST) and FISMA requirements; and
ensure adequate, cost effective and efficient space for CFTC
                                                                          ■■    Human resources systems to improve upon our
staff and operations.
                                                                                antiquated systems that have been unable to effectively
                                                                                support recent FTE growth.
The CFTC has reworked its leases in Washington, D.C. and
Chicago to expand the size of its space, extend the terms
of the leases, and renegotiate pricing in its favor. A new
                                                                          Overview of Commission Performance
landlord and location were selected to permit the Kansas
City office to expand. The Commission is currently engaged                Performance measures are rated as: Exceeded, Met, Not
in a procurement effort to expand its space footprint in                  Met, or Results not Demonstrated.
New York by fifty percent. The New York lease is set to
expire in 2012.                                                           The bar chart below shows that the number of targets that
                                                                          were met or exceeded decreased nine percent over the
Management continuously monitors space conditions and                     FY 2009 results. This is due in part to a significant number
the specific timing and proposed location of each new                     of staffing resources that were reallocated from current
hire. The Commission is making use of every square foot                   authorities towards preparing for and implementing the
of space and has used less than ideal space to temporarily                new authorities under the Dodd-Frank Act in the last two
house staff as construction occurs within existing space.                 quarters of the fiscal year.
However, as the need arises, to ensure worker efficiency,
the Commission may lease temporary office space or look
to other management options, such as expanded telework
arrangements to permit office sharing. As the need for
interim solutions arises, management staff will work
thorough the divisions and offices to achieve the best short-
term solutions.



Technology Modernization
In FY 2010, the Commission invested $31 million or 19
percent of its resources to continue its focus on enhancing
the Commission’s technology to keep pace with the futures
marketplace by implementing:


■■   Automated     surveillance     of    the       futures   markets
     through the development of trade practice and market
     surveillance alerts;




                            Management’s                                                                 Other Accompanying
36       CFTC               Discussion & Analysis
                                                          Performance Section        Financial Section
                                                                                                         Information
                                                                                                                                Appendix
Introduction to Strategic Goal One

T         he focus of Goal One is the marketplace.     If U.S.
        commodity futures and option markets are protected
from, and are free of, abusive practices and influences,
                                                                     they will fulfill their vital role in the U.S. market economy,
                                                                     accurately reflecting the forces of supply and demand and
                                                                     serving market users by fulfilling an economic need.



                                                    Market Vitality




             Strategic Goal One

        Ensure the economic vitality
         of the commodity futures
            and option markets.




              FY 2010 Investment                                           FY 2010 Performance Results

                    FY 2010      Change (+/-) from                                                                 Results Not
                     Actual          FY 2009             Targets:         Exceeded          Met       Not Met     Demonstrated
Cost:           $53.3 Million       +$8.2 Million        Results:            3                3         4               0
Staffing:           196 FTE            +40 FTE                                          Total Number of Results: 10




    Management’s                                                                 Other Accompanying
    Discussion & Analysis
                              Performance Section     Financial Section
                                                                                 Information
                                                                                                       Appendix    CFTC        37
Goal One Summary of Performance
The table below provides a summary of selected perfor-                     commodity futures and option markets. For a detailed
mance measures to demonstrate the Commission’s perfor-                     analysis of all performance measures, please refer to the
mance towards ensuring the economic vitality of the                        Performance Section of this report.


                                                       Performance Summary
 Outcome Objective 1.1 Markets that accurately reflect the forces of supply and demand for the
 underlying commodity and are free of disruptive activity.
                                                               FY 2010
                                  FY 2010          FY 2010      Met or      Performance Trends
     Performance Measures          Target           Actual     Not Met      FY 2006 – FY 2010                       Comment
 1.1.1 Percentage growth in         28%            15.7%           6                                 The percentage growth in the market
 market volume.                                                                                      increased at a rate of 15.7% for
                                                                                                     FY 2010. However, excluding the first
                                                                                                     quarter of FY 2010, volume increased
                                                                                                     at just over 20%. October 2009 was
                                                                                                     almost 17% down from October 2008.



 1.1.2 Percentage of novel          75%            100%           4                                  DMO handled a number of formal and
 or innovative market propos-                                                                        informal proposals or requests for
 als or requests for CFTC                                                                            Commission action during this fiscal
 action addressed within six                                                                         year. The items, which included innova-
 months to accommodate new                                                                           tive products and exchange processes,
 approaches to, or the expan-                                                                        were all addressed within six months of
 sion in, derivatives trading,                                                                       formal receipt.
 enhance the price discovery
 process, or increase available
 risk management tools.
 1.1.3 Percentage increase in       10%            25.6%          4                                  The number of products traded grew by
 number of products traded.                                                                          25.6% due to the growth in number of
                                                                                                     new products offered on the exchanges
                                                                                                     during FY 2010, and the recovery from
                                                                                                     the economic downturn of 2008.




 1.1.5 Percentage of new            70%             37%            6                                 Coupled with an increasing backlog of
 contract certification reviews                                                                      new product certifications, and added
 completed      within    three                                                                      responsibilities resulting from the Farm
 months to identify and cor-                                                                         Bill to review contracts traded on ECMs
 rect deficiencies in contract                                                                       to determine whether each contract
 terms that make contracts                                                                           performs a significant price discovery
 susceptible to manipulation.                                                                        function, the percentage of completed
                                                                                                     reviews declined in FY 2010 and, thus,
                                                                                                     the percentage was significantly lower
                                                                                                     than anticipated.
 1.1.6 Percentage of rule cer-      75%             29%            6                                 The percentage of trading rule amend-
 tification reviews completed                                                                        ment certification reviews completed
 within three months, to                                                                             within three months of receipt by the
 identify and correct deficien-                                                                      Commission decreased over last year.
 cies in exchange rules that                                                                         This decrease in performance is due
 make contracts susceptible                                                                          to the fact that DMO did not have suf-
 to manipulation or trading                                                                          ficient staff to keep up with the influx
 abuses or result in violations                                                                      of submissions and added responsibili-
 of law.                                                                                             ties resulting from the Farm Bill and the
                                                                                                     rulemakings mandated by the Dodd-
                                                                                                     Frank Act.

Legend: Actual Targets                    Actual Results                   Met   4   Not Met      6


                           Management’s                                                                      Other Accompanying
38      CFTC               Discussion & Analysis
                                                           Performance Section       Financial Section
                                                                                                             Information
                                                                                                                                       Appendix
Introduction to Strategic Goal Two

T         he explosive growth in the futures industry provides
         many benefits to the U.S. economy, but the risk of
fraud and manipulation is always present. The trend toward
                                                                    to reconfigure its ability to identify, investigate, and take
                                                                    action against parties involved in violating applicable laws
                                                                    and regulations. If evidence of criminal activity is found,
electronic trading platforms and the expanding complexity           matters are referred to state or Federal authorities for
of trading instruments have challenged the Commission               criminal prosecution.



                                                Market Protection




             Strategic Goal Two

              Protect market users
                 and the public.




              FY 2010 Investment                                          FY 2010 Performance Results

                    FY 2010      Change (+/-) from                                                                Results Not
                     Actual          FY 2009            Targets:         Exceeded          Met       Not Met     Demonstrated
 Cost:          $39.3 Million       +$5.6 Million       Results:            2                7         3              0
 Staffing:          140 FTE            +26 FTE                                         Total Number of Results: 12




    Management’s                                                                Other Accompanying
    Discussion & Analysis
                              Performance Section    Financial Section
                                                                                Information
                                                                                                      Appendix    CFTC       39
Goal Two Summary of Performance
The table below provides a summary of selected performance                 detailed analysis of all performance measures, please refer
measures to demonstrate the Commission’s performance                       to the Performance Section of this report.
towards protecting market users and the public.                 For a


                                                        Performance Summary
 Outcome Objective 2.1              Violations of Federal commodities laws are detected and prevented.
                                                          FY 2010
                                     FY 2010    FY 2010    Met or       Performance Trends
    Performance Measures              Target     Actual   Not Met       FY 2006 – FY 2010                        Comment
 2.1.1 Number of enforcement          195         419         4                                The number of investigations opened has
 investigations opened during                                                                  risen sharply due to a combination of factors
 the fiscal year.                                                                              including the clarification of the Commis-
                                                                                               sion’s authority over off-exchange traded
                                                                                               forex, cooperative enforcement efforts, and
                                                                                               the exposure of Ponzi schemes due to the
                                                                                               financial downturn.


 2.1.3 Percentage of enforce-         98%        100%         4                                Enforcement views this as an important
 ment cases closed during the                                                                  metric in protecting market users by deter-
 fiscal year in which the Com-                                                                 ring future violations.
 mission obtained sanctions
 (e.g., civil monetary penalties,
 restitution and disgorgement,
 cease and desist orders,
 permanent injunctions, trad-
 ing bans, and registration
 restrictions.)

 Outcome Objective 2.3 Customer complaints against persons or firms registered under the CEA are
 handled effectively and expeditiously.
 2.3.1(a) Percentage of filed         90%         71%         6                                Normally, voluntary cases tend to take less
 complaints resolved within                                                                    time because of the non-appealable and
 one year of the filing date for                                                               informal nature of the proceedings. The cases
 voluntary proceedings.                                                                        that exceeded one year in FY 2010 included
                                                                                               three related cases that consisted of unco-
                                                                                               operative and non-responsive respondents.



 2.3.1(b) Percentage of filed         90%         77%         6                                Although the Office of Proceedings undertook
 complaints resolved within                                                                    a number of actions to improve the speed of
 one year and six months of                                                                    resolution, including resolving deficiencies
 the filing date for summary                                                                   more quickly during the complaint phase
 proceedings.                                                                                  and allowing electronic filing of documents,
                                                                                               the factors affecting this outcome can vary
                                                                                               from case to case. Often external factors,
                                                                                               including complaint deficiencies, requests for
                                                                                               extension of time, and discovery issues, may
                                                                                               impact the ability to resolve the complaint in
                                                                                               a speedy manner.
 2.3.1 (c) Percentage of filed        95%         75%         6                                All of these cases were resolved within one
 complaints resolved within                                                                    year and six months, except two cases that
 one year and six months                                                                       took over two years to resolve. One case
 of the filing date for formal                                                                 involved the filing of 15 related cases that
 proceedings.                                                                                  were eventually consolidated and assigned
                                                                                               to one judge. This case was stayed by the
                                                                                               Commission for approximately seven months
                                                                                               because of the numerous filings submitted by
                                                                                               the attorneys regarding how the cases should
                                                                                               be assigned and adjudicated. The second
                                                                                               case encountered several delays because
                                                                                               of events not under the judge’s control and
                                                                                               procedural complexities.

Legend: Actual Targets                      Actual Results               Met    4   Not Met     6

                              Management’s                                                                 Other Accompanying
 40      CFTC                 Discussion & Analysis
                                                          Performance Section       Financial Section
                                                                                                           Information
                                                                                                                                    Appendix
Introduction to Strategic Goal Three

T            he Commission focuses on issues of market
         integrity,    seeking    to    protect    the   economic
integrity of the markets so that they may operate free from
                                                                         systemic problem affecting other market participants; and
                                                                         the operational integrity of the markets so that transactions
                                                                         are executed fairly and proper disclosures to existing and
manipulation; the financial integrity of the markets so that             prospective customers are made.
the insolvency of a single participant does not become a


                                                       Market Integrity




             Strategic Goal Three

               Ensure market integrity
                  in order to foster
               open, competitive, and
             financially sound markets.




               FY 2010 Investment                                              FY 2010 Performance Results

                      FY 2010       Change (+/-) from                                                                  Results Not
                       Actual           FY 2009              Targets:         Exceeded          Met       Not Met     Demonstrated
 Cost:           $42.3 Million         +$8.7 Million         Results:            2                9         1              0
 Staffing:            149 FTE             +35 FTE                                           Total Number of Results: 12




    Management’s                                                                     Other Accompanying
    Discussion & Analysis
                                 Performance Section      Financial Section
                                                                                     Information
                                                                                                           Appendix    CFTC       41
Goal Three Summary of Performance
The table below provides a summary of selected perfor-                     and option markets. For a detailed analysis of all perfor-
mance measures to demonstrate the Commission’s perfor-                     mance measures, please refer to the Performance Section
mance towards ensuring market integrity in the futures                     of this report.


                                                      Performance Summary
 Outcome Objective 3.2           Commodity futures and option markets are effectively self-regulated.
                                                             FY 2010
                                  FY 2010         FY 2010     Met or      Performance Trends
     Performance Measures          Target          Actual    Not Met      FY 2006 – FY 2010                        Comment
 3.2.1 Percentage of interme-      100%           100%          4                                   Continue audit and financial surveil-
 diaries who meet risk-based                                                                        lance oversight program. In FY 2010,
 capital requirements.                                                                              DCIO monitored intermediaries to
                                                                                                    ensure their compliance with capital
                                                                                                    requirements.




 Outcome Objective 3.3           Markets are free of trade practice abuses.
 3.3.1 Percentage of exchanges     100%           100%          4                                   DMO staff conducts RERs of DCMs
 deemed to have adequate                                                                            on a regular cycle that includes review
 systems for detecting trade                                                                        and analysis of exchange programs for
 practice abuses.                                                                                   detecting trading abuses and violations
                                                                                                    of exchange rules. In FY 2010, DMO
                                                                                                    did not find any exchange to have inad-
                                                                                                    equate systems in place for detecting
                                                                                                    trade practice abuses.

 Outcome Objective 3.4           Regulatory environment is flexible and responsive to evolving market conditions.
 3.4.2 Number of rulemakings,        59             58           6                                  The final number of these combined
 studies, interpretations, and                                                                      statistics is driven, in part, by changes
 statements of guidance to                                                                          in the marketplace, or in the structure
 ensure market integrity and                                                                        of the exchanges, clearing organiza-
 exchanges’ compliance with                                                                         tions, and intermediaries that operate
 regulatory requirements.                                                                           within that marketplace. The number
                                                                                                    can be a function of what is needed to
                                                                                                    allow appropriate market interrelation-
                                                                                                    ships to be maintained and to allow the
                                                                                                    exchanges, clearing organizations, and
                                                                                                    intermediaries to operate in the most
                                                                                                    efficient manner possible. These fac-
                                                                                                    tors may not be foreseeable at the time
                                                                                                    the performance estimate is prepared.
 3.4.4 Percentage of total          87%            95%          4                                   Commission staff make every effort to
 requests for guidance and                                                                          respond to requests as quickly as pos-
 advice    receiving  CFTC                                                                          sible, but the timeliness of a response
 response.                                                                                          also is affected by the speed with
                                                                                                    which a requester provided additional
                                                                                                    information sought by staff.      To the
                                                                                                    extent that staff are unable to provide
                                                                                                    an informal response to such requests,
                                                                                                    the requester is advised to submit a
                                                                                                    formal request for guidance. Staff
                                                                                                    strive to address such formal requests
                                                                                                    within six months of receipt.

Legend: Actual Targets                    Actual Results                 Met   4    Not Met      6




                          Management’s                                                                      Other Accompanying
42      CFTC              Discussion & Analysis
                                                         Performance Section        Financial Section
                                                                                                            Information
                                                                                                                                      Appendix
Introduction to Strategic Goal Four

T            he Commission’s ability to meet its strategic
         program goals depends on excellent management
of its human capital, technology, and financial resources.
                                                                    with the technical skills and resources to achieve mission
                                                                    success. In addition, management excellence provides the
                                                                    executive leadership required to accomplish the agency’s
Management excellence means hiring, retaining, and devel-           strategic goals and to continue agency functions under
oping a professionally competent and driven workforce               emergency condition.



                                       Organizational Excellence




              Strategic Goal Four

    Facilitate Commission performance
        through organizational and
          management excellence,
      efficient use of resources, and
         effective mission support.




               FY 2010 Investment                                         FY 2010 Performance Results

                    FY 2010      Change (+/-) from                                                                Results Not
                     Actual          FY 2009            Targets:         Exceeded          Met       Not Met     Demonstrated
 Cost:           $33.3 Million       No Change          Results:            1               12         3              1
 Staffing:          120 FTE             +6 FTE                                         Total Number of Results: 17




    Management’s                                                                Other Accompanying
    Discussion & Analysis
                              Performance Section    Financial Section
                                                                                Information
                                                                                                      Appendix    CFTC     43
Goal Four Summary of Performance
The table below provides a summary of selected perfor-                             excellence.       For a detailed analysis of all performance
mance measures to demonstrate the Commission’s perfor-                             measures, please refer to the Performance Section of this
mance towards achieving organizational and management                              report.

                                                             Performance Summary
 Outcome Objective 4.1 Productive, technically competent, competitively compensated, and diverse
 workforce that takes into account current and future technical and professional needs of the
 Commission.
                                                                     FY 2010
                                         FY 2010        FY 2010       Met or       Performance Trends
     Performance Measures                 Target         Actual      Not Met       FY 200810 – FY 2010                            Comment
 4.1.2 Average number of days               45            84             6                                      Enhanced efforts to sequence vacancy
 between close of vacancy                                                                                       announcements, along with added
 announcement and job offer,                                                                                    process automation, are expected to
 per Federal standards of 45                                                                                    reduce time-to-hire in FY 2011.
 days or less.




 4.1.3 Rate of employee                   3.6%           1.8%            4                                      Strategy is to remain an employer of
 turnover, exclusive of retire-                                                                                 choice based on professional work
 ments.                                                                                                         environment and competitive compen-
                                                                                                                sation, even in stronger job market.




 4.1.5 Percentage of under-                27%           22%             6                                      Ongoing coordination between the
 represented groups among                                                                                       Offices of Human Resources and Equal
 new hires.                                                                                                     Employment Opportunity to assure
                                                                                                                improved CFTC outreach to under-
                                                                                                                represented groups is set to continue
                                                                                                                in FY 2011.



 Outcome Objective 4.2                Modern and secure information system that reflects the strategic priorities of
 the Commission.
 4.2.3 Percentage of Customer             100%          100%             4                                      Customer Support Center resources
 Support Center inquiries                                                                                       will be increased to maintain perfor-
 resolved within established                                                                                    mance as CFTC staffing is increased.
 performance metrics.




 4.2.6 Percentage of major                100%          100%             4                                      Certification and accreditation for new
 systems and networks certi-                                                                                    major systems will begin early in the
 fied and accredited in accor-                                                                                  life cycles of those systems.
 dance with NIST guidance.


 4.2.8 Percentage of network               99%           99%             4                                      Annual security and privacy training will
 users who have completed                                                                                       continue to address emerging threats
 annual security and privacy                                                                                    to government networks.
 training.



Legend: Actual Targets                           Actual Results                   Met    4      Not Met      6

10	 Withthe FY 2007 Strategic Plan, the Commission adopted the fourth strategic goal that focuses on assessing and measuring organizational and management excel-
  lence. In FY 2008, the Commission first published its Goal Four performance results.

                                Management’s                                                                              Other Accompanying
44         CFTC                 Discussion & Analysis
                                                                Performance Section            Financial Section
                                                                                                                          Information
                                                                                                                                                         Appendix
                                Program Evaluations
T           he Inspector General (IG) conducted a FY 2010
            Assessment addressing the Commission’s Most
Serious Management Issues. The IG’s 2010 Assessment is
                                                                           investor definitions. Such a plan could include goals
                                                                           for future harmonization efforts, such as timeframes for
                                                                           implementing the recommendations; assessment of
located in the Other Accompanying Information section of                   whether remaining differences in statutes and regula-
this report.                                                               tions result in inconsistent regulation of similar
                                                                           products and entities that could lead to opportunities
In FY 2010, two external evaluations involving the CFTC                    for regulatory arbitrage; and periodic reports to
were conducted by the U.S. Government Accountability                       Congress on their progress, including the implementa-
Office (GAO):                                                              tion and impact of the recommendations.


■■   Financial Regulation: Clearer Goals and Reporting                     GAO’s findings and conclusion are available on its Web

     Requirements Could Enhance Efforts by CFTC and                        site at http://www.gao.gov.

     the SEC to Harmonize Their Regulatory Approaches,                ■■   Carbon Trading: Current Situation and Oversight
     GAO-10-410, April 22, 2010                                            Considerations      for   Policymakers,   GAO-10-851R,
     The conference report accompanying the Consolidated                   August 19, 2010
     Appropriations Act of 2010 directed GAO to assess the                 GAO issued a letter in response to a Congressional
     joint report of the SEC and the CFTC on harmonization                 request concerning carbon trading in the United States
     of their regulatory approaches. In October 2009, CFTC                 and various design and implementation issues to be
     and SEC issued this report in response to the Treasury’s              considered in discussions about a possible national
     recommendation that the two agencies assess conflicts                 carbon trading program.
     in their rules and statutes with respect to similar finan-
     cial instruments.        GAO’s objectives were to review:             GAO briefed Congressional committee staff on the
     1) how CFTC and SEC identified and assessed harmoni-                  results of its work on July 23, 2010. Specifically, GAO
     zation opportunities; 2) the agencies’ progress toward                provided information on: 1) carbon-related products
     implementing the joint report’s recommendations; and                  currently traded in the United States and the extent of
     3) additional steps the agencies could take to reduce                 trading; 2) risks and challenges posed by these products;
     inconsistencies and overlap in their oversight.                       3) the extent to which and how these products are regu-
                                                                           lated; and 4) issues that market observers identified for
     To help ensure that CFTC and SEC are strategically posi-              policymaker consideration as part of creating a national
     tioned to implement the joint report’s recommendations                cap-and-trade carbon market.
     and address remaining harmonization opportunities, the
     GAO recommended that as CFTC and SEC continue to                      The GAO recommended that the Chairman of the CFTC
     develop the charter for the Joint Advisory Committee,                 ensure that the interagency working group created by
     the Chairmen of the CFTC and SEC take steps to estab-                 the Dodd-Frank Act explores: 1) how the design of any
     lish, with associated timeframes, clearer goals for future            primary carbon market could affect the liquidity of any
     harmonization efforts and requirements for reporting                  secondary market trading; 2) the structure of the
     and evaluating progress toward these goals.                           secondary market, including the role OTC markets may
                                                                           play in carbon trading; and 3) the resources Federal
     Specifically, the agencies could benefit from formalizing             regulators may need to effectively oversee domestic
     a plan to assess implementation of the joint report’s                 carbon markets.
     recommendations and harmonization opportunities
     that may not have been fully addressed by the joint                   GAO’s findings and conclusion are available on its Web
     report, such as differences in market structure and                   site at http://www.gao.gov.


      Management’s                                                              Other Accompanying
      Discussion & Analysis
                                 Performance Section   Financial Section
                                                                                Information
                                                                                                         Appendix    CFTC       45
                             Financial Highlights

T       he following chart is an overview of the Commission’s financial position, preceding a discussion of the agency’s
        financial highlights for FY 2010.

                                                                                                      2010                  2009
 Condensed Balance Sheet Data
 	   Fund Balance with Treasury                                                                $	 44,321,898         $	 43,961,950
 	   Accounts Receivable                                                                                  4,836               18,207
 	   Prepayments                                                                                       641,957               558,081
 	   Other (Custodial)                                                                               2,319,934             1,703,220
 	   General Property, Plant and Equipment                                                          31,507,154            10,346,721
 Total Assets                                                                                  $	 78,795,779         $	 56,588,179
 	   FECA Liabilities                                                                          $	     (256,801)      $	     (207,532)
 	   Accounts Payable                                                                                (7,650,033)           (4,081,180)
 	   Payroll, Benefits and Annual Leave                                                             (14,460,136)          (11,529,246)
 	   Custodial Liabilities                                                                           (2,319,934)           (1,703,220)
 	   Depost Fund Liabilities                                                                            (22,226)            (142,279)
 	   Deferred Lease Liabilities                                                                     (12,174,352)           (3,226,161)
 	   Other                                                                                               (7,226)               (7,513)
 Total Liabilities                                                                                  (36,890,708)          (20,897,131)
 	   Cumulative Results of Operations                                                               (11,455,579)            (491,751)
 	   Unexpended Appropriations                                                                      (30,449,492)          (35,199,297)
 Total Net Position                                                                                 (41,905,071)          (35,691,048)
 Total Liabilities and Net Position                                                            $	 (78,795,779)       $	 (56,588,179)
 Condensed Statements of Net Cost
 	   Total Cost                                                                                $	169,540,776         $	131,435,739
 	   Net Revenue                                                                                        (71,839)            (101,965)
 Total Net Cost of Operations                                                                  $	169,468,937         $	131,333,774
 Net Cost by Strategic Goal
 	   Goal One - Economic Vitality                                                              $	 54,230,060         $	 40,713,470
 	   Goal Two - Market User and Public                                                              38,977,856            30,206,768
 	   Goal Three - Industry                                                                          42,367,234            30,206,768
 	   Goal Four - Organizational and Management Excellance                                           33,893,787            30,206,768
                                                                                               $	169,468,937         $	131,333,774




                             Management’s                                                            Other Accompanying
46    CFTC                   Discussion & Analysis
                                                     Performance Section   Financial Section
                                                                                                     Information
                                                                                                                                Appendix
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Discussion and Analysis                                   For the year ended September 30, 2010, the Balance Sheet
                                                                    reflects total assets of $78.8 million. This reflects a
The CFTC prepares annual financial statements in
                                                                    39 percent increase from FY 2009. The Commission’s
accordance with U.S. generally accepted accounting
                                                                    General Property, Plant and Equipment balance were
principles (GAAP) for Federal government entities and
                                                                    $21.1 million more in FY 2010 than it was at the end of
subjects the statements to an independent audit to ensure
                                                                    FY 2009.       The increase was attributable to technology
their integrity and reliability in assessing performance.
                                                                    modernization and space renovations made in FY 2010,
Management recognizes the need for performance and                  which included major upgrades in market surveillance
accountability reporting, and fully supports assessments of         systems and performed space renovations, including
risk factors that can have an impact on its ability to do so.       market watch rooms in Chicago and Washington, D.C.
Improved reporting enables managers to be accountable
                                                                    The CFTC litigates against defendants for alleged violations
and supports the concepts of the Government Performance
                                                                    of the CEA and Commission regulations. Violators may be
and Results Act (GPRA), which requires the Commission to:
                                                                    subject to a variety of sanctions including civil monetary
1) establish a strategic plan with programmatic goals and
                                                                    penalties, injunctive orders, trading and registration bars
objectives; 2) develop appropriate measurement indicators;
                                                                    and suspensions, and orders to pay disgorgement and
and 3) measure performance in achieving those goals.
                                                                    restitution to customers. When collectible custodial
The financial summary as shown on the preceding page                receivables (non-entity assets) are high, the civil monetary
highlights changes in financial position between September          sanctions that have been assessed and levied against
30, 2010 and September 30, 2009. This overview is                   businesses or individuals for violations of law or regulations
supplemented with brief descriptions of the nature of each          dominate the balance sheet.
required financial statement and its relevance. Certain
                                                                    The Commission enters into commercial leases for its
significant balances or conditions featured in the graphic
                                                                    headquarters and regional offices. In FY 2010, the agency
presentation are explained in these sections to help clarify
                                                                    extended its lease agreements in Chicago and Washington
their relationship to Commission operations. Readers are
                                                                    DC. The extensions allowed for monthly rent payments to
encouraged to gain a deeper understanding by reviewing
                                                                    be deferred until future years as well as provided for
the Commission’s financial statements and notes to the
                                                                    landlord contributions to space renovations. These amounts
accompanying audit report presented in the Financial
                                                                    are reflected as a Deferred Lease Liability on the Balance
Section of this report.
                                                                    Sheet. Additionally, as should be expected from a small
                                                                    regulatory agency; payroll, benefits, accounts payable and
Understanding the Financial Statements                              annual leave make up the majority of the remaining CFTC
                                                                    liabilities.
The CFTC presents financial statements and notes in the
format required for the current year by OMB Circular A-136,
                                                                    Statement of Net Cost
Financial Reporting Requirements, which is revised annually by
OMB in coordination with the U.S. Chief Financial Officers          This statement is designed to present the components of the
Council. The CFTC’s current year and prior year financial           Commission’s net cost of operations. Net cost is the gross
statements and notes are presented in a comparative format.         cost incurred less any revenues earned from Commission
                                                                    activities. The Statement of Net Cost is categorized by the
Balance Sheet                                                       Commission’s strategic goals. The Commission experienced
                                                                    a 29 percent increase in the total net cost of operations dur-
The Balance Sheet presents, as of a specific point in time,
                                                                    ing FY 2010.
the economic value of assets and liabilities retained or
managed by the Commission. The difference between                   Strategic Goal One, which tracks activities related to market
assets and liabilities represents the net position of the           oversight, continues to require a significant share of
Commission.                                                         Commission resources at 32 percent of net cost of opera-




     Management’s                                                             Other Accompanying
     Discussion & Analysis
                             Performance Section     Financial Section
                                                                              Information
                                                                                                        Appendix      CFTC         47
tions in FY 2010. The $54.2 million reflects a continuation       Statement of Custodial Activity
of management’s effort to address market volatility.
                                                                  This statement provides information about the sources and
Strategic Goal Two is representative of efforts to protect        disposition of non-exchange revenues.           Non-exchange
market users and the public. In FY 2010, the net cost of          revenue at the CFTC is primarily represented by fines,
operations for this goal was $39 million or 23 percent. The       penalties, and forfeitures assessed and levied against busi-
funding for this goal is primarily to support DOE with new        nesses and individuals for violations of the CEA or
and ongoing investigations in response to market activity.        Commission regulations. Other non-exchange revenues
Investigations into crude oil and related derivative              include registration, filing, appeal fees, and general receipts.
contracts, and suspected Ponzi schemes have been                  The Statement of Custodial Activity reflects total non-
extremely resource intensive.                                     exchange revenue collected (cash collections) in the
                                                                  amount of $75.8 million and a transfer of the collections
Strategic Goal Three is representative of efforts to ensure
                                                                  to Treasury in the same amount. This amount represents
market integrity. In FY 2010, the net cost of operations for
                                                                  an increase of $57.9 million from FY 2009, of which the
this goal was $42.4 million or 25 percent, an increase of
                                                                  Commission collected $17.9 million.
two percent from FY 2009. Productivity improvements
continued to be achieved through the use of automated             Historical experience has indicated that a high percentage
audit and reporting tools. Commission staff completed             of custodial receivables prove uncollectible. The method-
three compliance reviews of DCOs’ programs.                       ology used to estimate the allowance for uncollectible
                                                                  amounts related to custodial accounts is that custodial
Strategic Goal Four is representative of efforts to achieve
                                                                  receivables are considered 100 percent uncollectible unless
organizational excellence and accountability. Included in
                                                                  deemed otherwise. An allowance for uncollectible accounts
this goal are the efforts of the Chairman, Commissioners,
                                                                  has been established and included in the accounts receiv-
and related staff to ensure more transparency in the
                                                                  able on the Balance Sheet. The allowance is based on past
commodity markets, address globalization, and lay the
                                                                  experience in the collection of accounts receivables and an
groundwork for the future. Additionally, these costs are
                                                                  analysis of outstanding balances.       Accounts are re-esti-
reflective of the planning and execution of human capital,
                                                                  mated quarterly based on account reviews and a determi-
financial   management,      and     technology   initiatives.
                                                                  nation that changes to the net realizable value are needed.
In FY 2010, the net cost of operations for this goal was
$33.9 million or 20 percent.
                                                                  Limitations of Financial Statements

Statement of Budgetary Resources                                  Management has prepared the principal financial statements
                                                                  to report the financial position and operational results for
This statement provides information about the provision
                                                                  the CFTC for FY 2010 and FY 2009 pursuant to the require-
of budgetary resources and its status as of the end of the
                                                                  ments of Title 31 of the U.S. Code, section 3515 (b).
year.   Information in this statement is consistent with
budget execution information and the information                  While the statements have been prepared from the books
reported in the Budget of the U. S. Government, FY 2010.          and records of the Commission in accordance with GAAP
                                                                  for Federal entities and the formats prescribed by OMB
The $168.8 million appropriation level received in FY 2010
                                                                  Circular A-136, Financial Reporting Requirements, the state-
represented a 15.6 percent increase for the Commission.
                                                                  ments are in addition to the financial reports used to
This permitted the Commission to continue to fund
                                                                  monitor and control budgetary resources, which are
benefits and compensation, lease expenses, printing,
                                                                  prepared from the same books and records.
services to support systems users, telecommunications,
operations, and maintenance of IT equipment. In FY 2010,          The statements should be read with the realization that
gross outlays were in line with the gross costs of operations     they are a component of the U.S. government, a sovereign
due to increased hiring, space renovations, and technology        entity.
spending.




                         Management’s                                                            Other Accompanying
48      CFTC             Discussion & Analysis
                                                  Performance Section       Financial Section
                                                                                                 Information
                                                                                                                          Appendix
                                                                        M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                            Management Assurances

Management Overview


T        he CFTC is committed to management excellence
         and recognizes the importance of strong financial
systems and internal controls to ensure accountability,
                                                                   Monitoring is the assessment of internal control perfor-
                                                                   mance to ensure the internal control processes are properly
                                                                   executed and effective.
integrity, and reliability. This operating philosophy has
                                                                   Information and Communication ensure the agency’s
permitted the Commission to make significant progress in
                                                                   control environment, risks, control activities, and perfor-
documenting and testing its internal controls over finan-
                                                                   mance results are communicated throughout the agency.
cial reporting for next year, as prescribed in OMB Circular
A-123, Management’s Responsibility for Internal Control.
The graph below depicts all five components of the internal
control process that must be present in an organization to
ensure an effective internal control process.

Control Environment is the commitment to encourage
the highest level of integrity and personal and professional
standards, and promotes internal control through leader-
ship philosophy and operation style.

Risk Assessment is the identification and analysis of risks
associated with business processes, financial reporting,
technology systems, and controls and legal compliance in
the pursuit of agency goals and objectives.

Control Activities are the actions supported by manage-
ment policies and procedures to address risk, e.g., perfor-
mance reviews, status of funds reporting, and asset manage-
ment reviews.




    Management’s                                                            Other Accompanying
    Discussion & Analysis
                             Performance Section    Financial Section
                                                                            Information
                                                                                                      Appendix      CFTC         49
The Commission relies on its performance management                   Moreover, data-driven reporting provides the foundation
and internal control framework to:                                    for Commission staff to monitor and improve its control
                                                                      environment.
■■   Ensure that its divisions and mission support offices
     achieve the intended results efficiently and effectively;
     and                                                              Statement of Assurances
■■   Ensure the maintenance and use of reliable, complete,
                                                                      The Statement of Assurance is required by the Federal
     and timely data for decision-making at all levels.
                                                                      Managers’ Financial Integrity Act (FMFIA) and OMB
The Commission strongly believes that the rapid imple-                Circular A-123, Management’s Responsibility for Internal
mentation of audit recommendations is essential to                    Control. The assurance is for internal controls over opera-
improving its operations. Integration of Commission stra-             tional effectiveness (we do the right things to accomplish
tegic, budget, and performance data permits management                our mission) and operational efficiency (we do things
to make individual assurance statements with confidence.              right).



                                                    Statement of Assurance
     “CFTC management is responsible for establishing and maintaining effective internal control and financial management
     systems that meet the objectives of the Federal Managers’ Financial Integrity Act (FMFIA). The CFTC conducted its
     assessment of the internal control over effectiveness and efficiency of operations, and compliance with applicable laws
     and regulations, in accordance with OMB Circular A-123, Management’s Responsibility for Internal Control. Based
     on the results of this evaluation, the CFTC can provide reasonable assurance that its internal control over operations,
     and compliance with applicable laws and regulations, as of September 30, 2010 was operating effectively and no
     material weaknesses were found in the design or operation of the internal controls.

     The CFTC also conducts reviews of its financial management systems in accordance with OMB Circular A-127,
     Financial Management Systems. Based on the results of these reviews, the CFTC can provide reasonable assurance that
     its financial management systems are in compliance with applicable provisions of FMFIA as of September 30, 2010.

     In addition, the CFTC conducted its assessment of the effectiveness of internal control over financial reporting, which
     includes safeguarding of assets and compliance with applicable laws and regulations governing the use of budget authority
     and other laws and regulations that could have a material effect on the financial statements, in accordance with the
     requirements of Appendix A of OMB Circular A-123. Based on the results of this evaluation, the CFTC can provide
     reasonable assurance that its internal control over financial reporting as of June 30, 2010 was operating effectively and
     no material weaknesses were found in the design or operation of the internal control over financial reporting”.




                                                                            Gary Gensler
                                                                            Chairman




                            Management’s                                                            Other Accompanying
50       CFTC               Discussion & Analysis
                                                      Performance Section       Financial Section
                                                                                                    Information
                                                                                                                          Appendix
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




During FY 2010, in accordance with FMFIA, and using the             ■■   Remediation of management letter matters identified in
guidelines of OMB, the Commission reviewed key compo-                    the FY 2009 audit of the agency’s financial statements
nents of its management and internal control system.                     and related internal controls;

The objectives of the Commission’s internal controls are to         ■■   Management control reviews conducted with the
provide reasonable assurance that:                                       express purpose of assessing internal controls;

■■   Obligations and costs are in compliance with applicable        ■■   Management control reviews conducted with the
     laws;                                                               express   purpose     of   assessing      compliance    with
                                                                         applicable laws, regulations, government-wide policies,
■■   Assets are safeguarded against waste, loss, unauthorized            and laws identified by OMB in Memorandum M-09-33
     use, or misappropriation;                                           Technical Amendments to OMB Bulletin No. 07-04
■■   Revenues and expenditures applicable to Commission                  Audit Requirements for Federal Financial Statements;
     operations are properly recorded and accounted for             ■■   Information security as required by the Federal
     to permit the preparation of accounts and reliable                  Information Security Management Act (FISMA);
     to financial and statistical reports, and to maintain
     accountability over assets; and                                ■■   Implementation of the CFTC’s Property Inventory
                                                                         Management System to maintain an inventory and
■■   All programs are efficiently and effectively carried out            monitor the agency’s accountable assets; and
     in accordance with applicable laws and management
     policy.                                                        ■■   U.S. Department of Transportation (DOT), Report on
                                                                         Controls Placed in Operation and Tests of Operating
The efficiency of the Commission’s operations is evaluated               Effectiveness, General, Application, and Operations
using information obtained from reviews conducted by                     Controls Related to the Enterprise Service Center,
GAO and the Office of Inspector General (OIG), specifically,             conducted in compliance with the American Institute
requested studies, or observations of daily operations.                  of Certified Public Accountants’ Statement on Auditing
                                                                         Standards (SAS) 70.
These reviews ensure that the Commission’s systems and
controls comply with the standards established by FMFIA.
Moreover, managers throughout the Commission are                    FMFIA Section 2, Management Control
responsible for ensuring that effective controls are imple-
mented in their areas of responsibility. Individual assur-          The Commission has no declared material weakness under

ance statements from division and office heads serve as a           FMFIA for FY 2010 and FY 2009 in the area of financial

primary basis for the Chairman’s assurance that manage-             reporting that hinders preparation of timely and accurate

ment controls are adequate. The assurance statements are            financial statements.

based upon each office’s evaluation of progress made in
correcting any previously reported problems, as well as
                                                                    FMFIA Section 4, Financial Management
new problems identified by the OIG, GAO, other manage-
                                                                    Systems
ment reports, and the management environment within
each office. The items presented below are illustrative of          The Commission declared no systems nonconformance
the work performed during FY 2010:                                  under FMFIA during FY 2010 and FY 2009. The indepen-
                                                                    dent auditors’ reports for FY 2010 and FY 2009 disclosed
■■   Pay and benefits assessment based on the authority of          no instances of noncompliance or other matters that were
     Section 10702 of the Public Law 107-171, Farm Security         required to be reported under Generally Accepted Government
     and Rural Investment Act of 2002 (FSRIA);                      Auditing Standards (GAGAS) and OMB Bulletin 07-04, Audit
                                                                    Standards for Federal Financial Statements.




      Management’s                                                            Other Accompanying
      Discussion & Analysis
                              Performance Section    Financial Section
                                                                              Information
                                                                                                        Appendix      CFTC         51
              Forward Looking –
       Future Business Trends and Events
CFTC Implements the Dodd-Frank Act                                Increase Transparency and Improve Pricing in the
                                                                  Derivatives Marketplace
Two years ago, the financial system and the financial regu-
latory system failed. On July 21, 2010, the Administration        ■■    Instead of trading out of sight of the public, standardized
and the Congress responded with the passage of the Dodd-                derivatives will be required to be traded on regulated
Frank Act.                                                              exchanges or SEFs.

The Dodd-Frank Act will—for the first time—bring com-             ■■    Transparent trading of swaps will increase competition
prehensive regulation to the OTC swaps marketplace.                     and bring better pricing to the marketplace. This will
These products, which have not been regulated in the                    lower costs for businesses and their consumers.
United States, were at the center of the 2008 financial
                                                                  ■■    SDRs will be set up as registered entities with the
crisis. Derivatives dealers will be subject to robust over-
                                                                        Commission for the purpose of collecting and storing
sight. Standardized derivatives will be required to trade on
                                                                        information on swap transactions and the positions of
open platforms and be submitted for clearing to central
                                                                        counterparties in the market. Such information will
counterparties.     The Dodd-Frank Act authorizes the
                                                                        provide regulators with greater transparency into swap
Commission to:
                                                                        trading as well as allow summary information on the
                                                                        market to be made publicly available.
Regulate Swap Dealers

■■   Swap dealers will be subject to capital and margin           Lower Risk to the American Public
     requirements to lower risk in the financial system.
                                                                  ■■    Standardized derivatives will be moved into central
■■   Dealers will be required to meet robust business                   clearinghouses to lower risk in the financial system.
     conduct standards to lower risk and promote market
                                                                  ■■    Clearinghouses act as middlemen between two
     integrity.
                                                                        parties to a transaction and take on the risk that one
■■   Dealers will be required to meet record-keeping and                counterparty defaults on their obligations.
     reporting requirements so that regulators can police
                                                                  ■■    Clearinghouses have lowered risk in the futures
     the markets.
                                                                        marketplaces since the 1890s.       The Dodd-Frank Act
                                                                        will bring this crucial market innovation to the swaps
                                                                        marketplace.




                          Management’s                                                             Other Accompanying
52       CFTC             Discussion & Analysis
                                                  Performance Section        Financial Section
                                                                                                   Information
                                                                                                                           Appendix
                                                                           M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Though the Commission has much experience regulating                  outside organizations regarding the implementation of the
the on-exchange derivatives marketplace—having done so                Dodd-Frank Act is publicly available. The topics, meetings,
for more than 70 years—the Dodd-Frank Act presents new                attendees, summaries of the meetings and any materials
responsibilities and authorities.       The futures marketplace       presented at the CFTC can be found at: http://www.cftc.gov/
that the CFTC currently oversees is a $39 trillion industry           LawRegulation/DoddFrankAct/ExternalMeetings/index.htm.
in notional amount.         The swaps market that the Dodd-
Frank Act tasks the CFTC with regulating has a far larger             Joint Regulatory Harmonization under the
notional amount. The Office of the Comptroller of the                 Dodd-Frank Act
Currency estimates that, as of the first quarter of 2010,
                                                                      The Dodd-Frank Act requires the CFTC, along with the
swaps entered into by U.S. commercial banks have a
                                                                      SEC, the Federal Reserve, the Federal Deposit Insurance
notional amount of $217 trillion. The challenges before
                                                                      Corporation (FDIC), and the Treasury to write and imple-
the Commission to implement the Dodd-Frank Act are
                                                                      ment a significant number of rules (most of which are
significant, but manageable. The challenges, summarized
                                                                      required within the next 12 months) to regulate the finan-
below, are expected to significantly change the way the
                                                                      cial system.
Commission uses and allocates its resources across its
performance goals.                                                    Many of these rules are required to be issued jointly by
                                                                      two or more agencies or require consultation with other
                                                                      agencies.
Challenges Implementing the Dodd-Frank
Act
                                                                      International Implications

Rulemaking                                                            In addition to working with the U.S. Federal agencies to
                                                                      implement the Dodd-Frank Act, the CFTC will need to
The CFTC released, on July 21, 2010, the list of 30 areas
                                                                      reach out to international regulators to harmonize regula-
of rulemaking to implement the Dodd-Frank Act. Some
                                                                      tion and oversight of the swaps market. For example, the
of these areas will require only one rule, while others may
                                                                      global reach of the 2008 financial crisis demonstrated that
require more. The CFTC is required to complete these
                                                                      regulators need a more transparent, consolidated view of
rules, generally in 360 days, though some are required to
                                                                      registered entities exposures across all financial markets.
be completed within 90, 180 or 270 days.
                                                                      The goal of sharing OTC data among trade repositories
“The CFTC, working along with the SEC and other regu-                 will be facilitated if authorities can agree on common
lators, will have a full and busy rule-writing agenda over            formatting. This will require international engagement to
the coming year,” CFTC Chairman Gary Gensler said.                    ensure that access to needed information will be available
“The financial reform bill presents new responsibilities and          for comprehensive financial supervision, and encourage
authorities for the agency. The Commission looks forward              common data formatting.
to taking on these new responsibilities to lower risk,
promote transparency, and protect the American public.”               Human Capital

The public is encouraged to provide input on the                      The effects of the Dodd-Frank legislation on Human Capital
rulemaking process.         Instructions for submitting views         programs include the need to focus on filling numerous
can be accessed on the individual rule-writing pages on               newly authorized positions; adjusting the agency organi-
the CFTC’s Web site at: http://www.cftc.gov/LawRegulation/            zation and reporting relationships as necessary to serve
DoddFrankAct/index.htm.                                               the new mission; supporting the training and accultura-
                                                                      tion of the many newly hired employees; and streamlining
The Commission is committed to transparency in the                    business processes to continue effectively supporting a far
rulemaking process.         Information on all meetings that          larger agency headcount.
Chairman Gensler and Commission staff have had with




    Management’s                                                                  Other Accompanying
    Discussion & Analysis
                                Performance Section    Financial Section
                                                                                  Information
                                                                                                         Appendix      CFTC         53
Recruitment initiatives must focus on targeting and              Energy and Agricultural Futures Markets
attracting individuals with mission-critical skills from the
                                                                 The continued concerns that have been expressed with
swaps market and knowledge of the swaps instruments that
                                                                 respect to contract specifications in several agricultural
the CFTC now regulates. Contributing to this staffing chal-
                                                                 futures contracts raise issues that go to the core of the
lenge is the increased competition for these skills caused by
                                                                 commodity markets and their continued viability for
other employers, who are also responding to the require-
                                                                 hedging. The Commission will remain engaged in these
ments of the Dodd-Frank Act.
                                                                 critical issues, both through the Commission’s Agricul-
                                                                 tural Advisory Committee and the deployment of staff to
Other Existing Challenges                                        analyze these problems on a priority basis.

                                                                 Global shortages, increasing consumer demands and a
Systemic Risks
                                                                 variety of fundamental factors that affect and possibly
The financial crisis prompted multilateral organizations,        distort supply and demand make it likely that there will be
such as IOSCO, to emphasize the identification of systemic       continued periods of price volatility in strategically impor-
risks as a new principle for its member regulatory agencies.     tant energy and agricultural commodities. Most recently
The 2010 financial legislation similarly stressed the need       these concerns have been expressed by the G20 Group of
for a more comprehensive approach to the identification          Financial Ministers, and the Commission expects that these
of systemic risk through the creation of a new risk council      concerns will continue to be expressed in the years ahead.
composed of the U.S. financial regulators. The Commis-
sion will need to develop internal mechanisms and acquire        The Commission has contributed to the U.S. response to
new competencies and approaches to risk identification           these G20 concerns through its co-chairing of an IOSCO
to address this new policy objective. Addressing systemic        Task Force on Commodity Futures Markets. Work within
risks will also involve greater international cooperation        the Task Force helped focus attention on the need for
and the development of new global mechanisms for the             greater transparency in OTC and cash markets as means
ongoing evaluation of, and sharing of concerns regarding,        to match the transparency that already exists in futures
emerging global financial risks. The challenge will be to        markets. The Commission expects to share its expertise
develop internal, domestic and global mechanisms that            concerning techniques used to: identify and make public
can understand, identify and address novel, emerging             (through its COT reports) large concentrations of posi-
forms of risk.                                                   tions, the use of position limits as a means to address what
                                                                 the CEA terms excessive speculation, and the application of
Impact of Technology on Market Structure                         aggressive enforcement programs that target conduct that
                                                                 may involve futures, OTC and cash markets. The continued
The May 2010 “flash crash” has focused attention on the          “linkage” of U.S. and European markets through dually-
activities of high frequency, algorithmic-driven traders.        regulated intermediaries, exchanges, clearing-houses and
High frequency trading challenges regulators to under-           soon-to-be registered trade repositories will undoubt-
stand how this form of trading has transformed markets           edly require closer cooperation and coordination with
and poses new questions concerning what constitutes              European authorities.
abusive trading practices. As part of addressing this issue,
the Commission will continue its participation with the
SEC in the Joint Advisory Committee on Emerging Regula-
tory Issues. Because trading takes place globally, the CFTC
expects to cooperate with other international authorities
that are examining these issues as well. The Commission
also will continue to conduct its own research in this area.




                         Management’s                                                          Other Accompanying
54     CFTC              Discussion & Analysis
                                                 Performance Section      Financial Section
                                                                                               Information
                                                                                                                      Appendix
PERFORMANCE SECTION




 56	 Introduction to the
       	Performance Section

 57	   Strategic Goal One:
       	Economic Vitality

 69	 Strategic Goal Two:
       	Market Users and the Public

 87	 Strategic Goal Three:
       	Industry

 107	 Strategic Goal Four:
       	Organizational Excellence
Introduction to the Performance Section

 Success for CFTC


 P
                                                                          EXCESSIVE
                                                                         SPECULATION                CFTC Goal 1:                    FRAUD
            u blic has confidence in futures markets and                                              Market
                                                                                                      Vitality
            markets are open, competitive, and financially
 healthy.


                                                                                                    Commodity
 The Mission: Why we do what we do                                             CFTC Goal 2:
                                                                                 Market              Futures
                                                                                                                         CFTC Goal 3:
                                                                                                                            Market
                                                                                Protection                                 Integrity
                                                                                                     Markets
 ■■ To protect market users and the public from fraud,
      manipulation, and abusive practices related to the sale
      of commodity futures and options; and
                                                                                                    CFTC Goal 4:
 ■■ To foster open, competitive, and financially sound                                              Organizational
                                                                           MARKET                    Excellence                MANIPULATION
      commodity futures and option markets.                              DISRUPTION



 Most Americans have a direct stake in the trillion dollar
 futures market through personal investments in securities,
 mutual funds, or pension funds tied to these markets. All
                                                                   This section details the Commission’s efforts to meet its
 Americans have an indirect stake, since these markets are
                                                                   strategic and performance goals. The Commission scruti-
 critical to establishing prices from Wall Street to Main
                                                                   nizes performance measures to ensure that the metrics
 Street.
                                                                   adequately challenge the programs to reach the desired
 As the only entity with regulatory oversight across all U.S.      results and ensure accountability.
 commodity futures and option markets, the CFTC is
 committed to its mission of protecting the integrity of the
 futures markets.




                           Management’s                                                                   Other Accompanying
 56        CFTC            Discussion & Analysis
                                                   Performance Section          Financial Section
                                                                                                          Information
                                                                                                                                        Appendix
Strategic Goal One: Economic Vitality

  Goal One: Ensure the economic vitality of the commodity futures and option markets.




  Outcome Objective 1.1: Futures and option markets that accurately reflect the forces
  of supply and demand for the underlying commodity and are free of disruptive activity.
     n	   Annual Performance Goal 1.1: No price manipulation or other disruptive
          activities that would cause loss of confidence or negatively affect price
          discovery or risk shifting.


  Outcome Objective 1.2: Markets are effectively and efficiently monitored to
  ensure early warning of potential problems or issues that could adversely affect
  their economic vitality.
     n	   Annual Performance Goal 1.2: To have an effective and efficient market
          surveillance program.
  Performance Measure 1.1.1 Percentage growth in market volume.




Lead Program Office                                                   Performance Highlights

Division of Market Oversight                                          None to report.



Performance Analysis & Review
The percentage growth in the market increased at a rate of
15 percent for FY 2010. However, excluding the first quarter
of FY 2010, volume increased at just over 20 percent.
October 2009 was almost 17 percent down from October
2008. At the close of FY 2010, volume returned to an
upward swing of about 20 percent annually as the economy
looks to recover. This increase is due to both many new
products created as well as products already in existence.
Volume had been steadily increasing through the summer
months of 2008 at a rate of about 25 percent annually.
At that time, volume dropped quite a bit from previous
years with the economic downturn.                 However, when
looking at FY 2010, the volume trend looks to be returning
to historical growth levels.




                          Management’s                                                            Other Accompanying
58     CFTC               Discussion & Analysis
                                                      Performance Section     Financial Section
                                                                                                  Information
                                                                                                                       Appendix
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.2 Percentage of novel or innovative proposals or requests for CFTC action
  addressed within six months to accommodate new approaches to, or the expansion in, derivatives trading, enhance
  the price discovery process, or increase available risk management tools.




Lead Program Office
                                                                      the linked contracts; 2) provide for CFTC on-site visits to
Division of Market Oversight                                          examine ICE Futures Europe’s ongoing compliance with its
                                                                      no-action relief; and 3) in the event that the CFTC, directs
                                                                      that NYMEX take emergency action with respect to a linked
Performance Analysis & Review
                                                                      contract (e.g., to cease trading in the contract), ICE Futures
During the fiscal year, DMO handled a number of formal                Europe, subject to information-sharing arrangements
and informal proposals or requests for Commission action              between the CFTC and the U.K. Financial Services Authority,
that included newer approaches to derivatives trading or              will promptly take similar action with respect to the linked
enhancements to the price-discovery process. The items,               contract at ICE Futures Europe.
which included innovative products and exchange
                                                                      DMO issued a May 11, 2010 letter granting no-action relief
processes, were all addressed within six months of formal
                                                                      to permit the International Maritime Exchange ASA (the
receipt.
                                                                      Exchange) to make its electronic trading and order matching
                                                                      system and its Application Program Interface available via
Performance Highlights                                                direct access to Exchange trading members in the United
                                                                      States without obtaining contract market designation or
DMO issued an August 20, 2009, letter amending the
                                                                      registration as a derivatives transaction execution facility
foreign board of trade no-action relief letter for ICE Futures
                                                                      pursuant to Sections 5 and 5a of the CEA.
Europe and imposing new conditions for the listing of a
contract that settles against any price of a contract listed for      DMO issued a July 27, 2010 letter to ICE extending ICE’s
trading on a DCM or derivatives transaction execution                 deadline until August 18, 2010, to provide a written demon-
facility, or a contract listed for trading on an exempt               stration of compliance with the core principles with respect
commercial market that has been determined to be a signif-            to its SPDCs core principle regime. Based on a review of
icant price discovery contract (SPDC). The additional                 the documentation submitted by ICE and an on-site review
conditions are that ICE Futures Europe: 1) provide CFTC               of ICE’s electronic trading platform, DMO staff determined
staff with trade execution and audit trail data for all linked        that ICE demonstrated by the August 18, 2010 deadline its
contracts, copies of, or hyperlinks to, all rules, rule amend-        compliance with the core principles and Commission
ments, circulars and other notices published by the                   regulations.
exchange, and copies of all Disciplinary Notices involving




     Management’s                                                              Other Accompanying
     Discussion & Analysis
                              Performance Section      Financial Section
                                                                               Information
                                                                                                        Appendix    CFTC        59
DMO also reviewed and processed the proposed listing of          (Argus Sour Crude Index futures contract, Argus Sour Crude
20 new contracts to ensure that the submitting exchange          Index Differential futures contract and TTF Natural Gas
had appropriate market surveillance and additional infor-        futures contract), London Metal Exchange (Molybdenum
mation sharing measures in place as necessary. The 20            futures contract and Cobalt futures contract), SGX-DT (Fuel
contracts were submitted by 10 different exchanges: MexDer       Oil 380cst [FO 380] futures contract), Bourse de Montreal
(2 and 10 year Interest Rate Swap futures contracts based on     (Canadian Heavy Crude Oil Differential Price futures
the 28-Day Interbank Equilibrium Interest Rate), the Sydney      contract and Options on Three-Month Canadian Bankers’
Futures Exchange (Renewable Energy Certificate futures and       Acceptance futures), Euronext Paris (Malting Barley futures
options contracts), Eurex Deutschland (Hurricane futures         and options contracts) and the European Energy Exchange
contracts, Skimmed Milk Powder futures contracts and             (Phelix Off-Peak futures contracts and Phelix Off-Peak
Butter futures contracts) LIFFE (Short Gilt futures contracts    Week futures contracts).
and Medium Gilt futures contracts), ICE Futures Europe




                         Management’s                                                         Other Accompanying
60     CFTC              Discussion & Analysis
                                                 Performance Section      Financial Section
                                                                                              Information
                                                                                                                     Appendix
                                                                        P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.3 Percentage increase in number of products traded.




Lead Program Office                                                offered on the exchanges during FY 2010. Most of these
                                                                   new contracts were slight variations of existing contracts or
Division of Market Oversight
                                                                   attempts to duplicate existing products in the OTC arena.
                                                                   Futures innovation in energy products and the introduc-
Performance Analysis & Review                                      tion of a large number of new SFPs drove the increase.

The number of products traded grew by approximately
                                                                   Performance Highlights
25.6 percent in FY 2010. Part of the reason for the increase
is the recovery from the economic downturn of FY 2009.             None to report.
There was also growth in the number of new products




    Management’s                                                            Other Accompanying
    Discussion & Analysis
                            Performance Section     Financial Section
                                                                            Information
                                                                                                     Appendix    CFTC       61
  Performance Measure 1.1.4(a) Percentage of new exchange applications completed within expedited
  review period.




Lead Program Office                                                                       Performance Highlights
Division of Market Oversight                                                              None to report.


Performance Analysis & Review
During FY 2010, DMO staff reviewed three formal DCM
applications. Two applications were removed from expe-
dited review due to incomplete applications as well as novel
issues requiring extra staff time. One market was designated
within the statutory time period; a second was designated
several weeks after the statutory time period due to serious
questions that were brought to the Commission shortly
before the end of the statutory period, which raised
questions for the Commissioners. After an extension from
the applicant, staff provided further information to the
Commissioners, and the Commission then designated the
exchange.         A third applicant was designated within the
expedited review period.




12	The   applicants of two fast track submissions were taken off the fast track review.




                                     Management’s                                                                     Other Accompanying
62          CFTC                     Discussion & Analysis
                                                                       Performance Section        Financial Section
                                                                                                                      Information
                                                                                                                                           Appendix
                                                                                                    P E RF O R M A N C E S E C T I O N




   Performance Measure 1.1.4(b) Percentage of new clearing organization applications completed within
   expedited review period.




Lead Program Offices:                                                                       Performance Highlights
Division of Clearing and Intermediary Oversight                                             None to report.


Performance Analysis & Review
DCIO met the performance target for FY 2010. Two DCO
applications were submitted under the fast track mode
(90 days). One applicant was required to resubmit its DCO
application due to its inclusion of a credit default swap
service during the submission period. The second appli-
cant’s DCO application was removed from the fast track
mode and placed on the 180-track mode, the normal statu-
tory processing time for a DCO application.




13	The   applicants of two fast track submissions voluntarily requested to be taken off the fast track for review. A third application did not qualify for fast track review.




         Management’s                                                                                    Other Accompanying
         Discussion & Analysis
                                          Performance Section               Financial Section
                                                                                                         Information
                                                                                                                                          Appendix           CFTC               63
  Performance Measure 1.1.5 Percentage of new contract certification reviews completed within three
  months to identify and correct deficiencies in contract terms that make contracts susceptible to manipulation.




Lead Program Office                                               ances. NYMEX also listed for trading several freight rate
                                                                  futures contracts.       The CME expanded its agricultural
Division of Market Oversight
                                                                  products line with cheddar cheese futures and options,
                                                                  international skim milk futures and options, and crude
Performance Analysis & Review                                     palm oil futures. The Nasdaq-OMX futures exchange broad-
                                                                  ened its interest rate swap offerings with several forward rate
In FY 2010, as in the previous fiscal year, a large proportion    agreements of various terms. These contracts are designed
of new contract certifications concerned weather indexes          to closely replicate OTC swap contracts. It is reasonable to
and SFPs. Those contracts typically are easier to review than     expect that exchanges will continue to introduce novel and
other contracts. However, there also were a high number of        complex products in the future.
niche energy and power contracts that raised significant
regulatory concerns, and a number of environmental
contracts that appeared to suffer contract design flaws.          Performance Highlights
The performance result in FY 2010 was significantly lower
than expected because of: 1) an increasing backlog of new         Commission staff completed reviews of over 775 new
product certifications; 2) added responsibilities to review       contract certifications and identified contract design flaws
contracts traded on ECMs to determine whether such                in several contracts.        In addition, Commission staff
contracts perform a significant price discovery function; and     completed economic reviews of three foreign stock index
3) a shift in resources to write proposed rules to implement      futures contracts to ensure that the contracts meet the
the Dodd-Frank Act. Because of the limited staff available        Commission’s cash-settlement price standards, are not
to conduct new product due-diligence reviews, DMO staff           readily susceptible to manipulation, and are based on
typically prioritizes its reviews based on observed trading       broad-based security indexes.
volume and open interest.
                                                                  Commission staff continued to review contracts listed on
U.S. exchanges continued to innovate in FY 2010.                  ECMs, pursuant to rules adopted by the Commission in
Two recently DCMs, Cantor Exchange and Trend Exchange,            FY 2009, to determine whether those contracts perform a
designed and sought approval of contracts based on movie          significant price discovery function.        Commission staff
box office receipts. The NYMEX and CCFE expanded their            have identified 13 such contracts that have been, or will be,
product lines of pollution allowances, including additional       published for comment. ECMs that list SPDCs are subject
contracts based on the carbon allowances and sulfur allow-        to increased regulatory oversight by the CFTC.




                          Management’s                                                            Other Accompanying
64     CFTC               Discussion & Analysis
                                                  Performance Section      Financial Section
                                                                                                  Information
                                                                                                                         Appendix
                                                                        P E RF O R M A N C E S E C T I O N




  Performance Measure 1.1.6 Percentage of exchange rule change certification reviews completed within
  three months, to identify and correct deficiencies in exchange rules that make contracts susceptible to manipulation
  or trading abuses or result in violations of law.




Lead Program Office                                                Performance Highlights
Division of Market Oversight                                       Commission staff completed reviews of 49 substantive
                                                                   product rule amendments and 259 substantive trading rule
                                                                   amendments.
Performance Analysis & Review
The percentage of trading rule amendment certification
reviews completed within three months of receipt by the
Commission decreased over last year. This decrease in
performance is due to the fact that DMO did not have
sufficient staff to keep up with the influx of submissions
and added responsibilities resulting from the Farm Bill and
the rulemakings mandated by the Dodd-Frank Act, in spite
of the support this year of several temporary interns.

For much of FY 2010, the Division was understaffed relative
to the volume of reviews it is required to accomplish.
At times completion of certain rule amendment reviews—
for example those applicable to contracts with very low
trading volume or changes to trading rules that did not
seem to make a large change—were delayed to allow staff
to focus on more important matters, such as rule changes
that might create risk to the markets. It is unlikely, given
the submission of complex contracts and multifaceted
trading rule submissions, and in light of the additional
review responsibilities included in the Farm Bill and the
rulemakings mandated by Dodd-Frank Act, that perfor-
mance will improve in the absence of increased staffing.




    Management’s                                                           Other Accompanying
    Discussion & Analysis
                            Performance Section     Financial Section
                                                                           Information
                                                                                                     Appendix   CFTC     65
   Performance Measure 1.2.1 Percentage of derivatives clearing organization applications demonstrating
   compliance with core principles.




Lead Program Office                                                                    Performance Highlights
Division of Clearing and Intermediary Oversight                                        None to report.


Performance Analysis & Review
DCIO met the performance target for FY 2010. Two DCO
applications were subject to DCIO staff review during
FY 2010. One applicant was required to resubmit its appli-
cation due to its inclusion of a credit default swap service
during the submission period. After resubmission under
the fast track mode, DCIO staff determined, within 90 days,
that the application complied with core principles.
The second DCO application was removed from the fast
track and placed on the 180 day track. Both applications
were determined to comply with core principles and
approved by the Commission.




14	No   applications for registration as a DCO were received in FY 2007 and FY 2008.




                                   Management’s                                                                    Other Accompanying
66         CFTC                    Discussion & Analysis
                                                                  Performance Section          Financial Section
                                                                                                                   Information
                                                                                                                                        Appendix
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 1.2.2 Ratio of contracts surveilled per economist.




Lead Program Office                                                 Performance Highlights
Division of Market Oversight                                        The number of contracts surveilled per economist has risen
                                                                    sharply due to the continued growth in number of
                                                                    contracts, including cleared-only swaps and SPDCs. This
Performance Analysis & Review
                                                                    growth has coincided with significant increases in number
The target ratio of contracts surveilled per economist is           of participants and volumes traded within each contract.
above ideal levels. For this reason, an “Adequate” status of        Market Surveillance economists exhibit very high produc-
Performance Result has been selected despite the fact that          tivity, but their numbers and resources are severely lagging
the actual number of contracts surveilled per economist             the growth of the industry they have to oversee. Deployment
surpassed the performance plan. To increase the efficiency          of more advanced information technology in surveillance
of the surveillance efforts of DMO, similar contracts on the        does not fully compensate for the increase in workload
same underlying commodity are generally analyzed                    and complexity. To preserve some level of adequacy, econ-
together. Even though the number of contracts increased             omists constantly have to triage which contracts to watch
during the year, the increase was mostly due to additional          at each time, but this cannot prevent some erosion in the
products on existing commodities. These additional                  quality of surveillance.
products may not materially add to the economists’ surveil-
lance burden. Thus, they were not counted as distinct
contracts for the purpose of arriving at the relevant ratio.




     Management’s                                                            Other Accompanying
     Discussion & Analysis
                             Performance Section     Financial Section
                                                                             Information
                                                                                                      Appendix   CFTC       67
  Performance Measure 1.2.3 Percentage of contract expirations without manipulation.




Lead Program Office                                              Performance Highlights
Division of Market Oversight                                     During this fiscal year, DMO has enhanced its data
                                                                 collection,     information         processing,   and     surveillance
                                                                 analyses to try to keep pace with the rapidly growing and
Performance Analysis & Review
                                                                 changing futures and swaps markets. Special calls were
This measurement examines the number of contract                 issued to swap dealers to gain insight into the activities of
expirations without manipulation compared to the total           traders active in both futures and swaps. DMO started to
number of futures and option expirations.         The total      receive and analyze position data, initially on a quarterly
number of expirations may vary throughout the year as            basis then on a monthly basis, to provide an empirical data
different contracts enter and exit the market.                   set   for    policy      analysis    and    transparency     through
                                                                 dissemination of aggregate data to the public, and to detect
                                                                 possible manipulative schemes.




                         Management’s                                                                 Other Accompanying
68     CFTC              Discussion & Analysis
                                                 Performance Section         Financial Section
                                                                                                      Information
                                                                                                                                Appendix
Strategic Goal Two: Market Users and the Public

      Goal Two: Protect market users and the public.




      Outcome Objective 2.1: Violations of Federal commodities laws are detected
      and prevented.
        n	   Annual Performance Goal 2.1: Violators have a strong probability of
             being detected and sanctioned.


      Outcome Objective 2.2: Commodity professionals meet high standards.
        n	   Annual Performance Goal 2.2: No unregistered, untested, or unlicensed
             commodity professionals.


      Outcome Objective 2.3: Customer complaints against persons or firms
      registered under the Act are handled effectively and expeditiously.
        n	   Annual Performance Goal 2.3: Customer complaints are resolved within
             one year from the date filed and appeals are resolved within six months.
  Performance Measure 2.1.1 Number of enforcement investigations opened during the fiscal year.




Lead Program Office                                               Performance Highlights
Division of Enforcement                                           The Commission conducts enforcement investigations on
                                                                  a confidential basis.

Performance Analysis & Review
DOE met the performance target for FY 2010. Commencing
in 2002, the complexity of the Commission’s investiga-
tions has increased substantially over prior fiscal years
(e.g., the Commission’s investigation of alleged energy
market manipulation). As a result of these investigations,
the complexity of the Commission’s cases filed and liti-
gated also has increased substantially since FY 2002.
The Commission’s FY 2010 Plan target for this performance
measure took into account these factors, and historical
performance and staffing constraints of DOE. Despite these
factors and constraints, the Commission exceeded its target
for this performance measure. The number of investiga-
tions opened has risen sharply due to a combination of
factors including the clarification of the Commission’s
authority over off-exchange traded forex, cooperative
enforcement efforts, and the exposure to Ponzi schemes
due to the financial downturn.




                          Management’s                                                         Other Accompanying
70     CFTC               Discussion & Analysis
                                                  Performance Section      Financial Section
                                                                                               Information
                                                                                                                    Appendix
                                                                                  P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.2 Number of enforcement cases filed during the fiscal year.




Lead Program Office                                                              failed to disclose material information concerning its
                                                                                 market positions and financing to the CBOT in
Division of Enforcement
                                                                                 connection with the September 2005 U.S. Treasury Note
                                                                                 Futures Contract. In re EMF Fin. Products, LLC, CFTC
Performance Analysis & Review                                                    Docket No. 10-02 (CFTC filed Nov. 13, 2009);

DOE met the performance target for FY 2010. Commencing                      ■■ In re MF Global Inc., et al.
in 2002, the complexity of the Commission investigations
                                                                                 On December 17, 2009, the Commission simultane-
has increased substantially over prior fiscal years (e.g., the
                                                                                 ously filed and settled an administrative enforcement
Commission’s investigation of alleged energy market
                                                                                 action against registered FCM MF Global Inc. and its
manipulation).         As a result of these investigations, the
                                                                                 predecessor corporation, Man Financial Inc., finding
complexity of the Commission’s cases filed and litigated
                                                                                 risk supervision failures in four separate instances
also     has     increased     substantially    since   FY     2002.
                                                                                 between 2003 and 2008. In re MF Global Inc., et al.,
The Commission’s FY 2010 Plan target for this performance
                                                                                 CFTC Docket No. 10-03 (CFTC filed Dec. 17, 2009);
measure took into account these factors, DOE’s historical
performance, and DOE’s staffing constraints.                                ■■ In re Pinemore, L.P., et al., and In re Scotia Capital Inc.

                                                                                 On January 28, 2010, the Commission simultaneously

Performance Highlights                                                           filed and settled related administrative enforcement
                                                                                 actions against Pinemore, L.P. and Birchmore, L.P. for
Among the significant enforcement actions filed by the                           engaging in unlawful wash sales in NYMEX natural gas
Commission, during FY 2010, are the following:                                   futures contracts during November and December of
                                                                                 2006, and investment dealer Scotia Capital Inc. for prear-
■■ In re EMF Fin. Products, LLC
                                                                                 ranging these fictitious and noncompetitive trades
   On November 13, 2009, the Commission simultaneously                           through its retail brokerage division. In re Pinemore, L.P.
   filed and settled an administrative enforcement action                        et al., CFTC Docket No. 10-04 (CFTC filed Jan. 28, 2010);
   against hedge fund operator EMF Financial Products,                           and In re Scotia Capital Inc., CFTC Docket No. 10-05
   LLC (EMF), which is registered as a CTA and CPO,                              (CFTC filed Jan. 28, 2010);
   finding that in August 2005 it made false statements and




       Management’s                                                                   Other Accompanying
       Discussion & Analysis
                                  Performance Section        Financial Section
                                                                                      Information
                                                                                                               Appendix      CFTC            71
■■ In re Moore Capital Mgmt., LP, et al.                             ■■ In re ConAgra Trade Group, Inc.

     On April 29, 2010, the Commission simultaneously filed                On August 16, 2010, the Commission simultaneously
     and settled an administrative enforcement action against              filed and settled an administrative enforcement action
     hedge fund operator Moore Capital Management, LP,                     against ConAgra Trade Group, Inc. for causing a non-bona
     which is a registered CTA, and its affiliates, registered             fide price to be reported in the NYMEX crude oil futures
     CPOs Moore Capital Advisors, LLC and Moore Advisors,                  contract on January 2, 2008. In re ConAgra Trade Group,
     Ltd., for attempting to manipulate the settlement prices              Inc., CFTC Docket No. 10-14 (CFTC filed Aug. 16, 2010);
     of NYMEX platinum and palladium futures contracts
                                                                     ■■ In re Vitol, Inc., et al.
     since at least November 2007 through May 2008. In re
     Moore Capital Mgt., LP, et al., CFTC Docket No. 10-09                 On September 14, 2010, the Commission simultaneously
     (CFTC filed Apr. 29, 2010);                                           filed and settled an administrative enforcement action
                                                                           against Vitol Inc. and Vitol Capital Management Ltd.
■■ In re Morgan Stanley Group, Inc., and In re UBS
                                                                           finding that they willfully failed to disclose material facts
     Securities LLC
                                                                           to the NYMEX concerning the relationship between the
     On April 29, 2010, the Commission simultaneously filed                two companies, which resulted in the exchange failing to
     and settled related administrative enforcement actions                aggregate the market positions of the two companies for
     against Morgan Stanley Capital Group, Inc. for concealing             position limit and accountability limit purposes for
     from the NYMEX the existence of a large Trade at                      almost two years. In re Vitol, Inc., et al., CFTC Docket No.
     Settlement block crude oil futures contract trade on                  10-17 (CFTC filed Sept. 14, 2010); and
     February 6, 2009, and UBS Securities Inc. for aiding and
                                                                     ■■ In re Rosenthal Collins Group, L.L.C.
     abetting that concealment. In re Morgan Stanley Group,
     Inc., CFTC Docket No. 10-10 (CFTC filed Apr. 29, 2010);               On September 30, 2010, the Commission simultaneously
     and In re UBS Securities LLC, CFTC Docket No. 10-11                   filed and settled an administrative enforcement action
     (CFTC filed Apr. 29, 2010);                                           against registered FCM Rosenthal Collins Grouop, L.L.C.
                                                                           (RCG) finding that it failed to supervise diligently its
■■ CFTC v. Theye, et al.
                                                                           employees’ handling of accounts held at RCG.           In re
     On June 1, 2010, the Commission filed a civil injunctive              Rosenthal Collins Group, L.L.C., CFTC Docket No. 10-21
     enforcement action charging Richard D. Theye and his                  (CFTC filed Sept. 30, 2010).
     company, Micind Capital Management, Inc., with fraud
     in connection with running a multi-million dollar Ponzi
     scheme, in which they encouraged prospective investors
     to roll over their 401(k)s, IRAs and pension funds into
     two commodity pools. CFTC v. Theye, et al., No. A10CA
     385SS (W.D. Tex. filed June 1, 2010);

■■ CFTC v. Milton, et al.

     On June 22, 2010, the Commission filed a civil
     injunctive enforcement action charging Phillip Milton
     and William Center, and their company, Trade LLC,
     with operating a $28 million Ponzi scheme involving
     at least 900 commodity pool participants. CFTC v.
     Milton, et al., No. 10-80738-Marra (S.D. Fla. filed June
     22, 2010);




                            Management’s                                                               Other Accompanying
72       CFTC               Discussion & Analysis
                                                     Performance Section         Financial Section
                                                                                                       Information
                                                                                                                                Appendix
                                                                            P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.3 Percentage of enforcement cases closed during the fiscal year in which the
  Commission obtained sanctions (e.g., civil monetary penalties, restitution and disgorgement, cease and desist orders,
  permanent injunctions, trading bans, and registration restrictions).




Lead Program Office                                                   ■■ In re MF Global Inc., et al., CFTC Docket No. 10-03
                                                                           (CFTC filed Dec. 17, 2009) (failure to supervise;
Division of Enforcement
                                                                           sanctions assessed include $10 million civil monetary
                                                                           penalty, cease and desist order, and order to comply
Performance Analysis & Review                                              with certain undertakings, including enacting policies
                                                                           and procedures to enhance risk monitoring procedures,
Performance target was met for FY 2010. During FY 2010,                    training, compliance procedures and compliance audit
DOE closed a total of 38 enforcement cases. In all of these                procedures);
closed cases, the Commission obtained sanctions (e.g.,
civil monetary penalties, restitution and disgorgement,               ■■ In re Pinemore, L.P., et al., CFTC Docket No. 10-04
cease and desist orders, permanent injunctions, trading                    (CFTC filed Jan. 28, 2010) (wash sales; sanctions
bans, and registration restrictions) against one or more of                assessed include cease and desist orders and $500,000
the respondents/defendants.                                                in total civil monetary penalties);

Staff is required to submit all final orders for each litiga-         ■■ In re Scotia Capital Inc., CFTC Docket No. 10-05 (CFTC
tion as part of closing activities for their files. These orders           filed Jan. 28, 2010) (prearranged trading; sanctions
are recorded in the internal DOE eLaw system.                              assessed include a cease and desist order and a
                                                                           $250,000 civil monetary penalty);

                                                                      ■■ In re San Diego Gas & Elec. Co., CFTC Docket 10-08
Performance Highlights
                                                                           (CFTC filed Apr. 22, 2010) (wash sales; sanctions
Among the significant enforcement actions closed by the                    include a cease and desist order, an $80,000 civil
Commission, during FY 2010, are the following:                             monetary penalty and implementation of procedures
                                                                           to prevent future violations);
■■ In re EMF Fin. Products, LLC, CFTC Docket No. 10-02
    (CFTC filed Nov. 13, 2009) (false statements to a                 ■■ In re Moore Capital Mgmt., LP, et al., CFTC Docket No.
    registered entity and failure to supervise; sanctions                  10-09   (CFTC     filed   Apr.     29,      2010)   (attempted
    assessed include a $4 million civil monetary penalty,                  manipulation and failure to supervise; sanctions
    cease and desist order and three-year registration                     assessed include cease and desist orders, $25 million
    restriction);




     Management’s                                                               Other Accompanying
     Discussion & Analysis
                              Performance Section      Financial Section
                                                                                Information
                                                                                                            Appendix       CFTC       73
     civil monetary penalty, and three-year registration          ■■ In re ConAgra Trade Group, Inc., CFTC Docket No. 10-14
     restrictions);                                                     (CFTC filed Aug. 16, 2010) (reporting of non-bona fide
                                                                        prices; sanctions assessed include a cease and desist
■■ In re Morgan Stanley Group, Inc., CFTC Docket No. 10-10
                                                                        order, $12 million civil monetary penalty, and an order
     (CFTC filed Apr. 29, 2010) (concealment from a board
                                                                        to comply with certain undertakings, including
     of trade; sanctions assessed include a cease and desist
                                                                        appointing an independent person to the Board of
     order and $14 million civil monetary penalty);
                                                                        Directors, forming a Compliance Committee of the
■■ In re UBS Securities LLC, CFTC Docket No. 10-11 (CFTC                Board and providing enhanced compliance training);
     filed Apr. 29, 2010) (aiding and abetting concealment
                                                                  ■■ In re Vitol, Inc., et al., CFTC Docket No. 10-17 (CFTC
     from a board of trade; sanctions assessed include a
                                                                        filed Sept. 14, 2010) (false statements to a registered
     cease and desist order and $200,000 civil monetary
                                                                        entity; sanctions assessed include a cease and desist
     penalty);
                                                                        order and a $6 million civil monetary penalty); and
■■ In re Noble Americas Corp., CFTC docket No. 10-12
                                                                  ■■ In re Triland USA Inc., CFTC Docket No. 10-22 (CFTC
     (CFTC filed May 3, 2010) (wash and fictitious sales;
                                                                        filed Sept. 30, 2010) (failure to secure funds of foreign
     sanctions include a cease and desist order, $130,000
                                                                        futures and option customers; sanctions include a
     civil monetary penalty and institution of internal
                                                                        cease and desist order and a $725,000 civil monetary
     controls and policies necessary to ensure future
                                                                        penalty).
     compliance);




                          Management’s                                                            Other Accompanying
74       CFTC             Discussion & Analysis
                                                  Performance Section        Financial Section
                                                                                                  Information
                                                                                                                         Appendix
                                                                              P E RF O R M A N C E S E C T I O N




  Performance Measure 2.1.4 Cases filed by other criminal and civil law enforcement authorities during the
  fiscal year that included cooperative assistance from the Commission.




Lead Program Office                                                          neously filed a related action; the U.S. Attorney’s Office
                                                                             made a parallel criminal investigation public on
Division of Enforcement
                                                                             October 7, 2009, when it executed numerous simulta-
                                                                             neous search and forfeiture seizure warrants. CFTC v.
Performance Analysis & Review                                                Trader’s Int’l Return Network, et al., No. 6:09-cv-1743-
                                                                             MSS-GJK (M.D. Fla. filed Oct. 14, 2009);
Performance target was met for FY 2010. The Commission
believes that its performance in cooperative criminal and               ■■ CFTC v. Yellowstone Partners, Inc., et al.
civil enforcement was effective. During the rating period,
                                                                             On March 9, 2010, the Commission filed a civil injunc-
the Commission continued to devote significant resources
                                                                             tive action against Dennis Todd Hagemann and his
to cooperative enforcement with other criminal and civil
                                                                             company, Yellowstone Partners, Inc., charging them
law enforcement authorities. The performance of DOE,
                                                                             with a $700,000 fraud involving forex managed
during FY 2010, was influenced by the recent and current
                                                                             accounts and/or a pooled investment. Hagemann was
financial downturn, which has revealed a number of fraud-
                                                                             arrested on March 10, 2010, by North Carolina authori-
ulent schemes, including Ponzi schemes that could stay
                                                                             ties based on related charges by the North Carolina
afloat only during periods of rising asset values.
                                                                             Department of the Secretary of State, Securities
                                                                             Division.   CFTC v. Yellowstone Partners, Inc., et al.,
                                                                             No. 5:10-CV-85-FL (E.D.N.C. filed Mar. 9, 2010);
Performance Highlights
                                                                        ■■ CFTC v. Rakotonanahary, et al.
Among the significant enforcement actions filed by the
Commission during FY 2010 that included related action by                    On March 15, 2010, the Commission filed a civil
other civil and/or criminal authorities are the following:                   injunctive action against Patrick Rakotonanahary and
                                                                             Cyber Market Group LLC charging them with operating
■■ CFTC v. Trader’s Int’l Return Network, et al.
                                                                             a multi-million dollar forex Ponzi scheme in Hawaii
   On October 14, 2009, the Commission filed a civil                         and elsewhere in the United States. The United States
   injunctive action against David Merrick and his                           Attorney’s Office for the District of Hawaii filed a
   company,        Trader’s   International    Return   Network,             criminal indictment against Rakotonanhary charging
   charging them with them with forex fraud involving at                     him with fraud in connection with this scheme, and he
   least $16.4 million in customer funds. The SEC simulta-                   was arrested on March 15, 2010. Additionally, the State




     Management’s                                                                 Other Accompanying
     Discussion & Analysis
                                Performance Section      Financial Section
                                                                                  Information
                                                                                                           Appendix     CFTC       75
     of Hawaii, Department of Commerce and Consumer                      and $1 million civil monetary penalty; criminal restitu-
     Affairs, Office of the Securities Commissioner filed an             tion was set at $3,044,384.59. (United States v. Riley,
     administrative complaint against Rakotonanahary in                  Case No. SA CR 09-0001 (C.D. Cal. filed Jan. 12, 2009)).
     connection with this scheme. CFTC v. Rakotonanahary,                In re Riley, et al., CFTC Docket No. 10-06 (CFTC filed Feb.
     et al., No. CV10 00144 KSC (D. Haw. Mar. 15, 2010);                 18, 2010); and

■■ In re Riley, et al.                                             ■■ CFTC v. Milton, et al.

     On April 29, 2010, the Commission simultaneously filed              On June 22, 2010, the Commission filed a civil injunc-
     and settled related administrative enforcement actions              tive action against Phillip Milton, Gregory Center,
     against Craig A. Riley and his firm, Pressio Capital                William Center, and their company, Trade LLC,
     Management, LP, for fraudulently operating a commodity              charging them with commodity pool fraud in connec-
     pool and misappropriating pool participant funds. In a              tion with their operation of a Ponzi scheme involving
     related criminal action, on January 12, 2009, Riley pled            approximately $28 million. The SEC simultaneously
     guilty to fraud in connection with a scheme to defraud              filed a related action against Trade LLC, Phillip Milton
     or obtain money or property by means of materially false            and Gregory Center.       CFTC v. Milton, et al., No.
     pretenses, representations or promises. Riley is currently          10-80738-Marra (S.D. Fla. filed June 22, 2010).
     serving a 41-month sentence. Sanctions assessed in the
     Commission’s action include a cease and desist order




                           Management’s                                                             Other Accompanying
76      CFTC               Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                    Information
                                                                                                                            Appendix
                                                                            P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.1 Percentage of self-regulatory organizations that comply with core principles.




Lead Program Office                                                    DCIO staff conducts periodic, routine examinations of the
                                                                       financial and sales practice programs of the SROs for the
Division of Clearing and Intermediary Oversight
                                                                       purposes of reviewing the effectiveness of such programs
                                                                       and to assess whether SROs enforce DCM and Commission
Performance Analysis & Review                                          rules related to financial and related reporting requirements.
                                                                       DCIO’s examinations of SROs generally involve an
DCIO met the performance target for FY 2010.
                                                                       assessment of some or all of the following areas: the level of
Core Principle 11 provides, in relevant part, that a DCM               staffing by SROs dedicated to conducting financial and sales
shall establish and enforce rules to ensure the financial              practice reviews of FCMs; the conduct of infield examinations
integrity of FCMs and the protection of customer funds.                of FCMs; the review of financial statements and regulatory
DCMs, in their capacity as SROs, receive and review monthly            notices submitted by FCMs; the review of the FCM’s
financial reports submitted by FCMs for the purpose of                 maintenance of required books and records; and the review
assessing whether the FCMs are in compliance with the                  of the SRO’s disciplinary program.
Commission’s       and      the    SRO’s     minimum    financial
                                                                       Staff also conducts reviews of all regulatory notices and
requirements, including requirements related to the
                                                                       monthly financial reports filed by FCMs with the
safeguarding of customer funds. In addition, Commission
                                                                       Commission and with the SROs. Staff consults with the
regulations and SRO rules require an FCM to file a
                                                                       SROs regarding any material financial issues raised by the
notification with the Commission and the FCM’s designated
                                                                       FCM filings. Such reviews and consultation provides staff
SRO whenever the SRO fails to meet capital and segregation
                                                                       with an opportunity to assess the effectiveness of the SROs
requirements.
                                                                       oversight programs and their enforcement of DCM and
                                                                       Commission financial, compliance and related financial
                                                                       reporting requirements.




    Management’s                                                                Other Accompanying
    Discussion & Analysis
                                  Performance Section   Financial Section
                                                                                Information
                                                                                                         Appendix    CFTC        77
Performance Highlights
DCIO staff initiated a full-scope review of an SRO’s finan-           DCM financial rules. Staff also conducted several direct
cial and sales practice program during FY 2010. The scope             examinations of FCMs during FY 2010 for the purpose of
of the review encompasses the SROs’ staffing levels and               assessing the firms’ compliance with Commission and
conduct of infield examinations, and review of financial              DCM regulations. Such reviews of the regulatory notices,
statements and regulatory notices.              Staff anticipates     financial filings, and direct examinations, provide an
completing the review during FY 2011. Staff also reviewed             opportunity for staff to assess the effectiveness of SRO
all regulatory notices and financial reports filed by FCMs            oversight programs and the extent to which SROs enforce
during FY 2010 for compliance with Commission regula-                 their financial requirements.
tions, and consulted with the appropriate SRO regarding
any evidence of apparent violations of Commission or




                        Management’s                                                                  Other Accompanying
78     CFTC             Discussion & Analysis
                                                      Performance Section      Financial Section
                                                                                                      Information
                                                                                                                           Appendix
                                                                       P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.2 Percentage of derivatives clearing organizations that comply with core principles.




Lead Program Office
                                                                  noncompliance. Another component of DCO oversight is
Division of Clearing and Intermediary Oversight                   the review of rules and rule changes of DCOs. During the
                                                                  past fiscal year, 58 rule submissions, many containing
                                                                  multiple rules, were filed by DCOs under the self-certification
Performance Analysis & Review
                                                                  provisions of the CEA.         Staff reviewed each of the
DCIO met the performance target for FY 2010. Three reviews        submissions and found none that violated core principles.
to assess compliance with certain core principles were
completed during FY 2010.      Based on its reviews, staff
                                                                  Performance Highlights
determined that the DCO programs met the applicable
requirements of the CEA and Commission regulations.               Completed reviews of DCOs focused on core principles for
In addition to conducting these reviews, DCIO staff conduct       financial resources, risk management, and treatment of
financial and risk surveillance of DCOs and clearing              funds. Based on its reviews, staff determined that the DCO
members on a daily basis, a central element of DCIO’s             programs met the applicable requirements of the CEA and
ongoing oversight. Staff have identified no instances of          Commission regulations.




    Management’s                                                           Other Accompanying
    Discussion & Analysis
                            Performance Section    Financial Section
                                                                           Information
                                                                                                    Appendix     CFTC        79
  Performance Measure 2.2.3 Percentage of professionals compliant with standards regarding testing, licensing,
  and ethics training.




Lead Program Office                                                    authority with respect to retail off-exchange foreign
                                                                       currency transactions; 2) provided the CFTC with the
Division of Clearing and Intermediary Oversight
                                                                       authority to register entities wishing to serve as
                                                                       counterparties to retail forex transactions as well as those
Performance Analysis & Review                                          who solicit orders, exercise discretionary trading authority
                                                                       and operate pools with respect to retail off-exchange
DCIO met the performance target for FY 2010, i.e., 100
                                                                       foreign currency transactions; and 3) mandated minimum
percent of professionals were compliant with standards
                                                                       capital requirements for entities serving as counterparties
regarding testing, licensing, and ethics training.
                                                                       to such transactions.

                                                                       Pursuant to this authority, the Commission devised a
Performance Highlights                                                 comprehensive scheme that puts in place requirements for,
                                                                       among other things, registration, disclosure, recordkeeping,
In September 2010, the Commission published final rules
                                                                       financial      reporting,       minimum     capital,    and    other
concerning     off-exchange         retail   foreign     currency
                                                                       operational standards. Specifically, the regulations require
transactions. (75 Fed. Reg. 55410, September 10, 2010.)
                                                                       the registration of counterparties offering retail foreign
Proposed rules were published in January with a 60 day
                                                                       currency contracts as either FCMs or RFEDs, a new category
period provided for public comment. (75 Fed. Reg. 3282,
                                                                       of registrant created by the Farm Bill. Persons who solicit
January 20, 2010.) The Commission received, reviewed
                                                                       orders, exercise discretionary trading authority and operate
and considered approximately 9,000 comment letters
                                                                       pools with respect to retail forex also are required to
before releasing the final rules.
                                                                       register, either as IBs, CTAs, CPOs, or as APs of such entities.
The rules follow the passage of the Food, Conservation,                The regulations also include robust customer protections
and Energy Act of 2008, Pub. L. No. 110-246, 122 Stat.                 and financial requirements designed to ensure the financial
1651, 2189-2004 (2008), also known as the Farm Bill, and               integrity of firms engaging in retail forex transactions.
the Dodd-Frank Act, P.L. No. 111-203 (2010). In particular,            Pursuant to the provisions of the Dodd-Frank Act, the rules
the Farm Bill: 1) clarified the scope of the CFTC’s anti-fraud         became effective October 18, 2010.




                          Management’s                                                                    Other Accompanying
80      CFTC              Discussion & Analysis
                                                       Performance Section         Financial Section
                                                                                                          Information
                                                                                                                                     Appendix
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 2.2.4 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.




Lead Program Office
Division of Clearing and Intermediary Oversight                      the SROs’ compliance with applicable core principles,
                                                                      Commission regulations, and staff interpretations. DCIO
                                                                      also reviews the programs of registered futures associations
Performance Analysis & Review
                                                                      for compliance with Section 17 of the CEA. DCIO’s exami-
DCIO met the performance target for FY 2010. As part of               nations of SROs generally involve an assessment of some or
DCIO’s oversight program to assess SROs’ compliance with              all of the following areas: the level of staffing dedicated by
requirements to enforce rules, staff substantially completed          the SRO to conduct financial and sales practice review of
the review of the financial surveillance program of an SRO,           FCMs; the conduct of infield examinations of FCMs; the
and completed one review to assess an SRO’s registration              review of financial statements and regulatory notices; the
program during FY 2010.                                               review of the FCM’s maintenance of required books and
                                                                      records; and the review of the SRO’s disciplinary program.
Core Principle 11 provides, in relevant part, that a DCM shall
establish and enforce rules to ensure the financial integrity of
FCMs and the protection of customer funds. DCMs, in their             Performance Highlights
capacity as SROs, receive and review monthly financial
                                                                      DCIO substantially completed a review of an SRO’s finan-
reports submitted by FCMs for the purpose of assessing
                                                                      cial surveillance programs that focused on the SRO’s over-
whether the FCMs are in compliance with the Commission’s
                                                                      sight of member FCMs compliance with the Commission’s,
and the SRO’s minimum financial requirements, including
                                                                      and SROs’ minimum financial and related reporting require-
requirements related to the safeguarding of customer funds.
                                                                      ments. Staff will present the final report for this review to
Commission regulations further require, and SRO rules
                                                                      the Commission in early FY 2011. DCIO also completed a
require, an FCM to file a notification with the Commission
                                                                      review of an SRO’s registration program. DCIO determined
and the FCM’s designated SRO whenever the SRO fails to
                                                                      that the SRO’s registration program was in compliance with
meet capital and segregation requirements.
                                                                      applicable provisions of the CEA and Commission regula-
DCIO conducts periodic, routine examinations of the finan-            tions. DCIO is in the process of conducting two other
cial and sales practice programs of the SROs for the purposes         reviews of SROs’ oversight programs that will be completed
of reviewing the effectiveness of such programs, and assessing        during FY 2011.




     Management’s                                                              Other Accompanying
     Discussion & Analysis
                              Performance Section      Financial Section
                                                                               Information
                                                                                                        Appendix    CFTC        81
  Performance Measure 2.2.5 Percentage of total requests for guidance and advice receiving CFTC responses.




Lead Program Office                                               some imprecision in statistical measures for a given year.
                                                                  DCIO makes every effort to respond to requests as quickly
Division of Clearing and Intermediary Oversight
                                                                  as possible, but the timeliness of a response also is affected
                                                                  by the speed with which a requester provides additional
Performance Analysis & Review                                     information sought by staff, and the length of time required
                                                                  by other Commission divisions or offices to review a draft
DCIO met the performance target for FY 2010. DCIO staff
                                                                  response, factors outside the control of DCIO.
respond to numerous requests for guidance and advice on
the CEA and Commission regulations each year. Requests
are received from members of the public, market partici-          Performance Highlights
pants, intermediaries, SROs, foreign entities, and others.
                                                                  In FY 2010, DCIO responded to numerous requests, both
These requests may be formal, such as written requests for
                                                                  formal and informal, for interpretations of the Commission’s
no-action, interpretative, or exemption letters; or informal
                                                                  registration requirements, and issued exemptive and
requests for guidance and advice via e-mail and phone calls.
                                                                  no-action letters addressing various issues.       Among the
Although DCIO responds to all requests that it receives, it is    issues addressed are the circumstances under which general
not always possible for DCIO to respond within the fiscal         partners of commodity pools may be relieved from CPO
year that it receives a request. DCIO estimates that up to 10     registration requirements when a registered designee serves
percent of requests may fall in this category. Some requests      as the pool’s operator; registration implications where
that raise novel or complex issues, or requests in the form of    employees of a foreign branch of a U.S. bank serve in the
no-action letters, interpretations, or exemptions, require        capacity of IBs; and disclosure, reporting and recordkeeping
more time to research and to prepare a response. It should        requirements for CPOs of exchange-traded commodity
be noted, that the statistics on numbers of letters issued or     pools. In connection with the no-action relief provided
e-mails responded to may not reflect the complexity of any        regarding exchange traded commodity pools, in September
particular matter, or the resources necessary to address one      2010, the Commission published proposed rules that would
issue as compared to another issue. In addition, matters          “codify” past relief and simplify procedures for CPOs
commenced in one fiscal year may overlap, and be                  seeking comparable relief in the future. (75 Fed. Reg. 57794
completed during the subsequent fiscal year, resulting in         (Sept. 9, 2010))




                          Management’s                                                          Other Accompanying
82     CFTC               Discussion & Analysis
                                                  Performance Section      Financial Section
                                                                                                Information
                                                                                                                        Appendix
                                                                         P E RF O R M A N C E S E C T I O N




Additionally, DCIO issued an exemption from the disclo-            DCIO also issued a letter in FY 2010 providing guidance to
sure document requirements for a CPO of a commodity                CPOs on complying with the financial reporting require-
pool operated as a Delaware Series Limited Liability               ments set forth in Part 4 of the Commission’s regulations.
Company. Because there was limited liability and segrega-          The letter assisted CPOs in meeting their reporting require-
tion of assets amongst the various series of the pool, staff       ments by highlighting recent regulatory changes affecting the
permitted the CPO to distribute multi-part disclosure docu-        financial filings required of CPOs, and identified common
ments to prospective participants wherein the first part of        deficiencies observed in prior years’ financial filings.
the document contained disclosures regarding the pool as a
whole and the second part contained disclosures relevant to
the offered series only.




     Management’s                                                           Other Accompanying
     Discussion & Analysis
                             Performance Section    Financial Section
                                                                            Information
                                                                                                      Appendix      CFTC      83
  Performance Measure 2.3.1(a) Percentage of filed complaints resolved within one year of the filing
  date for voluntary proceedings.




Lead Program Office                                              proceedings; the summary proceedings tend to take slightly
                                                                 longer, in part, because more parties are pro se. A variety of
Office of Proceedings
                                                                 other factors can affect the length of the proceeding,
                                                                 including motions for extensions of time and stays pending
Performance Analysis & Review                                    payment of penalties agreed to in settlement.

A claim of any size can be adjudicated through the volun-        With respect to the voluntary proceedings in FY 2010,
tary proceeding if all complainants and respondents consent      71 percent of complaints were decided in one year or less.
to use this approach and if the complainant submits the          The JO issued 14 decisions in the voluntary cases. Of those,
required $50 filing fee. All evidence is submitted in writing    10 were completed in less than one year. The cases that
and there is no oral hearing. The decision issued by the         exceeded one year included three related cases that consisted
Judgment Officer (JO) is final and is not appealable.            of uncooperative and non-responsive respondent and
                                                                 involved other procedural issues of the parties. The fourth
The voluntary proceedings tend to take less time because,        case was completed in less than one year and two months
given the non-appealable nature of the proceedings and the       (414 days).
more informal nature of the resolution process, the parties
are more inclined to settle and the proceeding is completed
through a review of written documentation.                       Performance Highlights
The summary and formal proceedings take more time                None to report.
because of the evidentiary and hearing requirements of the




                         Management’s                                                          Other Accompanying
84     CFTC              Discussion & Analysis
                                                 Performance Section      Financial Section
                                                                                               Information
                                                                                                                       Appendix
                                                                        P E RF O R M A N C E S E C T I O N




  Performance Measure 2.3.1(b) Percentage of filed complaints resolved within one year and six months
  of the filing data for summary proceedings.




Lead Program Office                                                Although the Office of Proceedings undertook a number of
                                                                   actions to improve the speed of resolution, including
Office of Proceedings
                                                                   resolving deficiencies more quickly during the complaint
                                                                   phase and allowing electronic filing of documents, the
Performance Analysis & Review                                      factors affecting this outcome can vary from case to case.
                                                                   Often external factors, including complaint deficiencies,
If the complainant does not select the voluntary proceeding        requests for extension of time, and discovery issues, may
and the claim amount is $30,000 or less, the complainant           impact the ability to resolve the complaint in a speedy
must select the summary proceeding and submit a $125               manner.
filing fee. In the summary proceeding process, evidence is
submitted in writing and an oral hearing may be held by
telephone. The decision by the JO is appealable to the             Performance Highlights
Commission and, ultimately, to the U.S. Court of Appeals.
                                                                   None to report.
In FY 2010, the Performance Measure goal was to dispose of
90 percent of the cases within one year and six months.
The agency did not meet this goal, resolving 77 percent of
the summary proceedings cases in less than one year and six
months, which resulted in a moderately effective rating for
this performance measure. However, the agency disposed of
17 percent more summary proceeding cases within one year
and six months than it did last year. Of the 13 cases decided
in one year and six months only three cases took longer to
be decided.




    Management’s                                                             Other Accompanying
    Discussion & Analysis
                             Performance Section    Financial Section
                                                                             Information
                                                                                                     Appendix   CFTC     85
  Performance Measure 2.3.1(c) Percentage of filed complaints resolved within one year and six months of the
  filing date for formal proceedings.




Lead Program Office
                                                                 whether the parties are cooperative in discovery and prepare
Office of Proceedings                                            and submit their evidence quickly, whether any procedural
                                                                 disputes arise, and whether an oral hearing is required (and,
                                                                 if so, when it can be scheduled.) Pro se complainants and
Performance Analysis & Review
                                                                 inexperienced attorneys also impact the amount of time it
The formal proceeding can be selected if the complainant         takes to process this type of case. Lastly, one of the individ-
does not select the voluntary proceeding and if the claim        uals, who presides over the formal proceedings was on
amount is more than $30,000.          The complainant must       extended leave.
submit a $250 filing fee. In addition to the submission of
                                                                 The Administrative Law Judges (ALJ) resolved a total of eight
documentary evidence, an oral hearing may be held in a
                                                                 formal complaints during FY 2010.          All of these were
location that is, to the extent possible, convenient to the
                                                                 resolved within one year and six months, except two cases
parties. The decision is appealable to the Commission and
                                                                 that took over two years to resolve. One case involved the
ultimately to the U.S. Court of Appeals.
                                                                 filing of 15 related cases that were eventually consolidated
In FY 2010, the Performance Measure goal was to dispose of       and assigned to one ALJ.       This case was stayed by the
95 percent of the cases within one year and six months.          Commission for approximately seven months because of
The agency resolved 75 percent of the formal proceeding          the numerous filings submitted by the attorneys regarding
complaints in one year and six months, which resulted in a       how the cases should be assigned and adjudicated.
moderately effective rating for this performance measure.        The second case encountered several delays because of
The Office of Proceedings undertook a number of actions to       events not under the ALJ’s control and procedural
improve the speed of resolution, including resolving defi-       complexities.
ciencies more quickly during the complaint phase and
allowing electronic filing of documents. Various external
                                                                 Performance Highlights
factors affect the timely processing and resolution of
complaints, including: the facts and complexity of the case,     None to report.




                         Management’s                                                           Other Accompanying
86     CFTC              Discussion & Analysis
                                                 Performance Section      Financial Section
                                                                                                Information
                                                                                                                        Appendix
          Strategic Goal Three: Industry
Goal Three: Ensure market integrity in order to foster open, competitive,
and financially sound markets.




Outcome Objective 3.1: Clearing organizations and firms holding customer funds have
sound financial practices.
   n	   Annual Performance Goal 3.1: No loss of customer funds as a result of firms’
        failure to adhere to regulations. No customers prevented from transferring funds
        from failing firms to sound firms.


Outcome Objective 3.2: Commodity futures and option markets are effectively self-regulated.
   n	   Annual Performance Goal 3.2: No loss of funds resulting from failure of self-regulated
        organizations to ensure compliance with their rules.


Outcome Objective 3.3: Markets are free of trade practice abuses.
   n	    Annual Performance Goal 3.3: Minimize trade practice abuses.


Outcome Objective 3.4: Regulatory environment is flexible and responsive to evolving
market conditions.
   n	   Annual Performance Goal 3.4: Rulemakings issued and requests responded to
        reflect the evolution of the markets and protect the interests of the public.
   Performance Measure 3.1.1(a) Lost Funds: Number of customers who lost funds.




   Performance Measure 3.1.1(b) Lost Funds: Amount of funds lost.




Lead Program Office                                                                     continuing to monitor the FCM’s bankruptcy proceedings
                                                                                        and, as of September 30, 2010, no customers trading on
Division of Clearing and Intermediary Oversight
                                                                                        DCMs have lost funds due to the FCM’s bankruptcy.

                                                                                        FCMs are required to segregate their own assets from all
Performance Analysis & Review
                                                                                        customer funds deposited for trading on DCMs in designated
Performance target was met for FY 2010. During FY 2010, no                              accounts with a bank, trust company, clearing organization,
customers who deposited funds with FCMs for trading on                                  or other FCM. FCMs holding funds for customers trading on
DCMs experienced any losses as a result of the FCM’s failure                            non-U.S. contract markets are required to comply with Part
to adhere to Commission regulations. However, a registered                              30 of the Commission’s regulations with respect to the
FCM filed for bankruptcy protection in August 2007. DCIO is                             custody of the customers’ funds.


15	Refer   to CFTC Information Technology Systems in the Appendix for a description of functionality.




                                     Management’s                                                                       Other Accompanying
88           CFTC                    Discussion & Analysis
                                                                     Performance Section            Financial Section
                                                                                                                        Information
                                                                                                                                             Appendix
                                                                        P E RF O R M A N C E S E C T I O N




FCMs also are required to prepare daily calculations demon-        Performance Highlights
strating compliance with the customer funds custody require-
                                                                   The Commission was successful in ensuring that no losses
ments. These calculations must be prepared by 12:00 noon
                                                                   of regulated customer funds occurred due to firm failures or
and must demonstrate compliance as of the end of business
                                                                   the inability of customers to transfer their funds from a
on the previous business day.
                                                                   failing firm to a sound firm in FY 2010.
DCIO conducts financial and risk surveillance activities to
closely monitor the operations of FCMs in possession of
customer funds. These surveillance activities include DCIO’s
SPARK system, combined with required financial warning
notices from the FCMs and constant market monitoring.




    Management’s                                                            Other Accompanying
    Discussion & Analysis
                            Performance Section     Financial Section
                                                                            Information
                                                                                                     Appendix   CFTC       89
  Performance Measure 3.1.2 Number of rulemakings to ensure market integrity and financially sound markets.




Lead Program Office                                               capital that IBs and FCMs must maintain. The rulemaking
                                                                  amended the Commission’s net capital rule by: 1) increasing
Division of Clearing and Intermediary Oversight
                                                                  the required minimum dollar amounts to $45,000 for IBs
                                                                  and $1 million for FCMs; 2) requiring risk-based
Performance Analysis & Review                                     (i.e., margin-based) calculations in the FCM minimum net
                                                                  capital computation to include all customer and noncus-
DCIO met the performance target for FY 2010. The number
                                                                  tomer OTC contracts that are submitted for clearing by the
of rulemakings to ensure market integrity and financial
                                                                  FCM to U.S. or foreign clearing organizations; and
soundness is not a number that can be precisely predeter-
                                                                  3) increasing the amount of net capital an FCM must hold
mined. The final number of rulemakings is driven, in part, by
                                                                  under the risk-based capital computation for noncustomer
changes in the marketplace, or in the structure of exchanges,
                                                                  positions. The overall effect of the rulemaking is generally
clearing organizations, and intermediaries that operate within
                                                                  to require IBs and FCMs to hold additional capital as a
that marketplace. The number can be a function of what is
                                                                  cushion against losses and to ensure that the firms can meet
needed to allow appropriate market interrelationships to be
                                                                  their obligations to customers and to the markets.
maintained and to allow registered entities to operate in the
most efficient manner possible. These factors may not be          Another rulemaking addressed amendments to the regula-
foreseeable at the time the performance estimate is prepared.     tions governing the electronic filing of FCM financial infor-
In addition, the need for a rulemaking may not be known, or       mation and notices with the Commission, and the adoption
may not have reached a decision-making point until further        of a requirement to file a statement of income as part of the
analysis, study, and other actions or events take place.          FCM’s monthly financial statement filings. A third rule-
This also can account for a difference between the fiscal year    making amended the regulations governing the periodic
plan and the actual outcome.                                      account statements and annual financial reports that
                                                                  commodity pool operators are required to provide to pool
                                                                  participants and file with the National Futures Association.
Performance Highlights
                                                                  The amendments specify detailed information that must be
The Commission adopted four final rulemakings that are            included in the periodic account statement and annual
designed to ensure market integrity and financially sound         reports for commodity pools with more than one owner-
markets.   One rulemaking addressed the minimum net               ship series.




                          Management’s                                                          Other Accompanying
90     CFTC               Discussion & Analysis
                                                  Performance Section       Financial Section
                                                                                                Information
                                                                                                                       Appendix
                                                                          P E RF O R M A N C E S E C T I O N




  Performance Measure 3.1.3 Percentage of clearing organizations that comply with requirement to enforce
  their rules.




Lead Program Office                                                  Performance Highlights
Division of Clearing and Intermediary Oversight                      Completed reviews of DCOs focused on core principles for
                                                                     financial resources, risk management, and treatment of
                                                                     funds. Based on its reviews, staff determined that the DCO
Performance Analysis & Review                                        programs met the applicable requirements of the CEA and
Performance target was met for FY 2010. Three reviews to             Commission regulations.
assess compliance with certain DCO core principles were
completed during FY 2010.        Based on its reviews, staff
determined that the DCO programs met the applicable
requirements of the CEA and Commission regulations.
In addition to conducting these reviews, DCIO staff conduct
financial and risk surveillance of DCOs and clearing
members on a daily basis, a central element of DCIO’s
ongoing oversight. Staff have identified no instances of
noncompliance. Another component of DCO oversight is
the review of rules and rule changes of DCOs. During the
past fiscal year, 58 rule submissions, many containing
multiple rules, were filed by DCOs under the self-certification
provisions of the CEA.         Staff reviewed each of the
submissions and found none that violated core principles.




     Management’s                                                            Other Accompanying
     Discussion & Analysis
                             Performance Section      Financial Section
                                                                             Information
                                                                                                       Appendix   CFTC      91
  Performance Measure 3.2.1 Percentage of intermediaries who meet risk-based capital requirements.




Lead Program Office                                                  SPARK system, combined with required financial warning
                                                                     notices and market monitoring, to closely monitor the
Division of Clearing and Intermediary Oversight
                                                                     financial condition of FCMs.


Performance Analysis & Review                                        Performance Highlights
Performance target was met for FY 2010.               The CEA,       DCIO staff reviewed all regulatory notices received from
Commission regulations, and SRO rules require FCMs to                FCMs during FY 2010. This review included assessing each
comply with minimum financial requirements and related               firm’s actions to ensure that all firms that reported a failure
reporting requirements at all times.            Included in the      to maintain the minimum capital requirement either took
minimum financial requirements is the Commission’s and               the necessary steps to bring themselves back into compli-
SROs’ risk-based capital requirement. Any FCM failing to             ance or properly transferred their customers’ accounts to
meet the risk-based capital requirement must provide imme-           other, adequately capitalized FCMs. DCIO staff reviewed
diate notice to the Commission and to the firm’s designated          financial reports submitted by every registered FCM on a
SRO. Furthermore, Commission regulations provide that                monthly basis to assess compliance with the minimum
any FCM that fails to meet minimum capital requirements,             financial requirements. DCIO staff also reviewed audited
including the risk-based capital requirement, and cannot             annual financial reports for every FCM during FY 2010.
timely come back into compliance with these requirements             Finally, DCIO staff conducted examinations of several
must transfer all customer accounts and immediately cease            FCMs during FY 2010 to assess the firms’ compliance with
operating as an FCM until it can demonstrate compliance.             Commission and SRO capital requirements.

The Commission and SROs monitor FCMs’ compliance
with the risk-based capital requirement through review of
monthly financial reports, regulatory notices, and the
conduct of in-field examinations.       DCIO also uses the




                        Management’s                                                                Other Accompanying
92     CFTC             Discussion & Analysis
                                                     Performance Section      Financial Section
                                                                                                    Information
                                                                                                                            Appendix
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 3.2.2 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.




Lead Program Offices                                               associations for compliance with Section 17 of the CEA.
                                                                   DCIO’s examinations of SROs generally involve an assess-
Division of Clearing and Intermediary Oversight                    ment of some or all of the following areas: the level of
                                                                   staffing dedicated by the SRO to conduct financial and sales
Division of Market Oversight
                                                                   practice reviews of FCMs; the conduct of infield examina-
                                                                   tions of FCMs; the review of financial statements and regu-
Performance Analysis & Review                                      latory notices; the review of the FCM’s maintenance of
                                                                   required books and records; and the review of the SRO’s
Division of Clearing and Intermediary Oversight: Performance
                                                                   disciplinary program.
target was met for FY 2010. Core Principle 11 provides, in
relevant part, that a DCM shall establish and enforce rules        Division of Market Oversight:        DMO staff conduct rule
to ensure the financial integrity of FCMs and the protection       enforcement reviews (RERs) of DCMs on a regular cycle to
of customer funds. DCMs, in their capacity as SROs, receive        ensure that exchanges enforce their rules.           CEA Core
and review monthly financial reports submitted by FCMs             Principle 2 specifically requires that exchanges monitor and
for the purpose of assessing whether the FCMs are in compli-       enforce compliance with their rules. DMO reviews exchange
ance with the Commission’s and the SRO’s minimum finan-            compliance with CEA Core Principle 2 when it conducts an
cial requirements, including requirements related to the           RER of an exchange’s trade practice surveillance program.
safeguarding of customer funds. In addition, Commission            RERs also examine the adequacy of an exchange’s market
regulations and SRO rules require an FCM to file a notifica-       surveillance, audit trail, disciplinary, and dispute resolution
tion with the Commission and the FCM’s designated SRO              programs. When DMO examines these programs, its review
whenever the SRO fails to meet capital and segregation             includes an analysis to ensure that an exchange is enforcing
requirement.                                                       its rules that relate to the particular program under review.

DCIO conducts periodic, routine examinations of the finan-         In FY 2010, DMO assessed the compliance of ICE Futures
cial and sales practice programs of the SROs for the purposes      U.S. with core principles relating to audit trail, trade practice
of reviewing the effectiveness of such programs. In addition,      surveillance, disciplinary, and dispute resolution programs.
DCIO assesses the SROs’ compliance with applicable core            Although DMO did not find that any specific program failed
principles, Commission regulations, and staff interpreta-          to comply with applicable core principles, DMO made
tions. DCIO also reviews the programs of registered futures        several recommendations for improvement.




    Management’s                                                            Other Accompanying
    Discussion & Analysis
                             Performance Section    Financial Section
                                                                            Information
                                                                                                      Appendix      CFTC        93
DMO also conducts ongoing daily surveillance of all                1) ensure that open outcry saturation recordkeeping reviews
exchanges to ensure that exchanges are enforcing their rules.      are conducted annually; 2) re-examine its trading card
                                                                   compliance program and make adjustments to achieve a
                                                                   higher percentage of compliance, and ensure that the
Performance Highlights
                                                                   Compliance Department uses its enhanced authority with
Division of Clearing and Intermediary Oversight: DCIO              respect to issuing meaningful summary fines; 3) augment
substantially completed a review of an SRO’s financial             its audit trail compliance program to include a program-
surveillance programs that focused on the SRO’s oversight          matic review of electronic audit and recordkeeping rules;
of member FCMs compliance with the CFTC, and SRO                   4) take appropriate measures to complete investigations in
minimum financial and related reporting requirements.              a timely manner; and 5) record the date on which
Staff will present its findings on the review to the               completed investigative reports are approved by senior
Commission in early FY 2011.         DCIO also completed a         Compliance staff. With respect to CME and CBT, DMO
review of an SRO’s registration program during FY 2010.            found in its RER that the Exchanges’ have experienced
DCIO determined that the SRO’s registration program was            compliance staff and sophisticated automated surveillance
in compliance with applicable provisions of the CEA and            systems. However, DMO did make recommendations for
Commission regulations.        DCIO is in the process of           improvement in its RER of CME and CBT. Specifically,
conducting two other reviews of SRO’s oversight programs           DMO recommended that the Exchanges: 1) conduct a
that will be completed during FY 2011.                             comprehensive review of their compliance staff to make
                                                                   sure that staff size is sufficient to perform compliances
Division of Market Oversight: DMO found in its RER report
                                                                   services; 2) take ongoing steps as necessary to ensure that
for ICE Futures U.S. that although the size of Compliance
                                                                   compliance staff is increased as necessary; 3) review their
staff needed to be increased, the existing staff was very expe-
                                                                   summary fine schedule for audit trail violations to ensure
rienced and that investigations were thorough and well
                                                                   that fines are sufficient to deter recordkeeping violations;
documented. In addition, investigations were expanded to
                                                                   and 4) ensure proper documentation for disciplinary
include additional trading dates and subjects where appro-
                                                                   committee minutes.
priate. DMO recommended that ICE Futures implement
the following to improve its self-regulatory programs:




                          Management’s                                                          Other Accompanying
94      CFTC              Discussion & Analysis
                                                   Performance Section      Financial Section
                                                                                                Information
                                                                                                                        Appendix
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 3.3.1 Percentage of exchanges deemed to have adequate systems for detecting trade
  practice abuses.




Lead Program Office                                                 following to improve its self-regulatory programs: 1) ensure
                                                                    that open outcry saturation recordkeeping reviews are
Division of Market Oversight
                                                                    conducted annually; 2) re-examine its trading card compli-
                                                                    ance program and make adjustments to achieve a higher
Performance Analysis & Review                                       percentage of compliance, and ensure that the Compliance
                                                                    Department uses its enhanced authority with respect to
DMO staff conduct RERs of DCMs on a regular cycle that
                                                                    issuing meaningful summary fines; 3) augment its audit
includes review and analysis of exchange programs for
                                                                    trail compliance program to include a programmatic review
detecting trading abuses and violations of exchange rules.
                                                                    of electronic audit and recordkeeping rules; 4) take appro-
In FY 2010, DMO completed RERs of ICE Futures U.S., CME,
                                                                    priate measures to complete investigations in a timely
and CBT. In the course of conducting RERs and daily surveil-
                                                                    manner; and 5) record the date on which completed investi-
lance of all futures exchanges, DMO has not found any
                                                                    gative reports are approved by senior Compliance staff.
exchange to have inadequate systems in place for detecting
                                                                    With respect to CME and CBT, DMO found in its RER that
trade practice abuses.
                                                                    the Exchanges’ have experienced compliance staff and
DMO also conducts ongoing daily surveillance of all                 sophisticated automated surveillance systems.      However,
exchanges to ensure that exchanges are enforcing their rules.       DMO did make recommendations for improvement in its
                                                                    RER of CME and CBT. Specifically, DMO recommended
                                                                    that the Exchanges: 1) conduct a comprehensive review of
Performance Highlights
                                                                    their compliance staff to make sure that staff size is suffi-
DMO found in its RER report for ICE Futures U.S. that               cient to perform compliances services; 2) take ongoing steps
although the size of Compliance staff needed to be                  to ensure that compliance staff is increased; 3) review their
increased, the existing staff was very experienced and that         summary fine schedule for audit trail violations to ensure
investigations were thorough and well documented.                   that fines are sufficient to deter recordkeeping violations;
In addition, investigations were expanded to include addi-          and 4) ensure proper documentation for disciplinary
tional trading dates and subjects where appropriate.                committee minutes.
DMO recommended that ICE Futures implement the




     Management’s                                                            Other Accompanying
     Discussion & Analysis
                             Performance Section     Financial Section
                                                                             Information
                                                                                                      Appendix    CFTC       95
  Performance Measure 3.3.2 Percentage of exchanges that comply with requirement to enforce their rules.




Lead Program Offices                                              DCIO’s examinations of SROs generally involve an assess-
                                                                  ment of some or all of the following areas: the level of
Division of Clearing and Intermediary Oversight                   staffing dedicated by SROs to conduct financial and sales
Division of Market Oversight                                      practice reviews of FCMs; the conduct of infield examina-
                                                                  tions of FCMs; the review of financial statements and regula-
                                                                  tory notices; the review of the FCM’s maintenance of required
Performance Analysis & Review                                     books and records; and the review SRO’s disciplinary
                                                                  program.
Division of Clearing and Intermediary Oversight: Performance
target was met for FY 2010. Core Principle 11 provides, in        Staff also conducts reviews of all regulatory notices and
relevant part, that a DCM shall establish and enforce rules to    monthly financial reports filed by FCMs with the Commission
ensure the financial integrity of FCMs and the protection of      and with the SROs. Staff consults with the SROs regarding
customer funds. DCMs, in their capacity as SROs, receive          any material financial issues raised by the FCM filings.
and review monthly financial reports submitted by FCMs for        Such reviews and consultation provides staff with an oppor-
the purpose of assessing whether the FCMs are in compli-          tunity to assess the effectiveness of the SROs oversight
ance with the Commission’s and the SRO’s minimum finan-           programs and their enforcement of DCM and Commission
cial requirements, including requirements related to the safe-    financial, compliance and related financial reporting
guarding of customer funds.        In addition, Commission        requirements.
regulations and SRO rules require an FCM to file a notifica-
                                                                  Division of Market Oversight: DMO staff conduct RERs of
tion with the Commission and the FCM’s designated SRO
                                                                  DCMs on a regular cycle to ensure that exchanges monitor
whenever the SRO fails to meet capital and segregation
                                                                  and enforce compliance with their rules, as required by CFTC
requirements.
                                                                  Core Principle 2. Such reviews may examine some or all of a
DCIO staff conducts periodic, routine examinations of the         DCMs audit trail, market surveillance, trade practice surveil-
financial and sales practice programs of the SROs for the         lance, disciplinary, and dispute resolution programs.
purposes of reviewing the effectiveness of such programs and      When DMO examines any of these programs, its review
to assess whether SROs enforce DCM and Commission rules           includes an analysis designed to ensure that the DCM is
related to financial and related reporting requirements.          enforcing its rules that relate to the particular program under




                          Management’s                                                           Other Accompanying
96     CFTC               Discussion & Analysis
                                                  Performance Section        Financial Section
                                                                                                 Information
                                                                                                                         Appendix
                                                                          P E RF O R M A N C E S E C T I O N




review. In FY 2010, DMO completed a rule enforcement                 any evidence of apparent violations of Commission or DCM
review of ICE Futures U.S. The review assessed the Exchange’s        financial regulations. Staff also conducted several direct
compliance with core principles relating to audit trail, trade       examinations of FCMs during FY 2010 for the purpose of
practice surveillance, disciplinary, and dispute resolution          assessing the firms’ compliance with Commission and DCM
programs. Although DMO did not find that any specific                regulations. Such reviews of the regulatory notices, financial
program failed to comply with applicable core principles,            filings, and direct examinations, provide an opportunity for
DMO made several recommendations for improvement.                    staff to assess the effectiveness of SRO oversight programs
                                                                     and the extent to which SROs enforce their financial
DMO also conducts ongoing daily surveillance of all
                                                                     regulations.
exchanges to ensure that exchanges are enforcing their rules.
DMO has not identified any material deficiencies at either           Division of Market Oversight: DMO found in its RER report
exchange.                                                            for the MGE that the exchange maintains an adequate open
                                                                     outcry audit trail and trade practice surveillance program to
                                                                     detect trading abuses. The MGE uses an automated trade
Performance Highlights
                                                                     surveillance system to identify and investigate potential
Division of Clearing and Intermediary Oversight: DCIO staff          trading violations. DMO recommended, however, that the
initiated a full-scope review of the financial and sales             MGE increase the staffing level of its compliance group,
practice program of an SRO during FY 2010. The scope of              examine the underlying reasons for the large number of
the review encompasses the SRO’s staffing levels and its             compliance staff turnover during the review period, and
conduct of infield examinations, and review of financial             augment its audit trail compliance program for electronic
statements and regulatory notices.           Staff anticipates       trading. DMO also found that the MGE maintains an effec-
completing the review during FY 2011. Staff also reviewed            tive market surveillance program that includes daily surveil-
all regulatory notices and financial reports filed by FCMs           lance to identify possible manipulation, and to ensure
during FY 2010 for compliance with Commission regula-                orderly liquidation of expiring contracts.
tions, and consulted with the appropriate SRO regarding




     Management’s                                                             Other Accompanying
     Discussion & Analysis
                             Performance Section      Financial Section
                                                                              Information
                                                                                                       Appendix    CFTC        97
  Performance Measure 3.4.1 Percentage of CFMA Section 126(b) objectives addressed.




Lead Program Office                                                During FY 2010, OIA’s activities have focused on the interna-
                                                                   tional community’s response to the global financial crisis and
Office of International Affairs
                                                                   to heightened concerns with respect to volatility in energy
                                                                   and agricultural commodities.      As discussed below, these
Performance Analysis & Review                                      concerns have resulted in the creation of numerous work-
                                                                   streams within international bodies such as IOSCO, the G20
This performance measure has been met by: 1) engaging in           and Financial Stability Board, and on-going regulatory devel-
discussions with foreign regulators, both on a bilateral basis     opments have necessitated close coordination between the
and within Treasury’s country dialogues, on an “as needed”         Commission and major international jurisdictions, most
basis to address regulatory issues, as well as by carrying         notably the European Union, in order to ensure a high level
forward discussions with the Committee of European                 of regulatory development and the avoidance of opportuni-
Securities Regulators (CESR); 2) participating in task forces,     ties for regulatory arbitrage. Moreover, OIA supported the
meetings and working groups organized by multi-lateral             Commission’s participation in two significant IOSCO Task
organizations such as IOSCO, and the Council of Securities         Forces: OIA co-chairs, on behalf of the Commission, a Task
Regulators of the Americas (COSRA); 3) organizing the              Force on Commodity Futures Markets that is addressing
annual Commission training symposium and international             concerns with respect to the lack of transparency in the oil
regulators meeting; and 4) coordinating technical assistance       markets, which may contribute to inadequate price forma-
missions to foreign market authorities.                            tion in those markets; and coordinates the Commission’s
The recurring activities of OIA include participating in the       activities within the newly created Task Force on OTC
IOSCO Technical Committee and its constituent working              Derivatives, which is co-chaired by the Commission.
groups, participating in Treasury’s country dialogues (such as
with China and the European Union (EU)), and organizing
                                                                   Performance Highlights
the annual training seminar and international regulators’
meeting. Other international matters are event-driven, such        Response to the Global Financial Crisis:
as the need to engage in bilateral discussions with a foreign
                                                                   ■■ OIA has worked closely with Treasury to help formu-
regulator to negotiate a market surveillance arrangement, or
                                                                         late a coordinated U.S. response to the financial crisis
ad hoc in nature, such as requests for technical assistance.
                                                                         within the G20 structure. Among other things, OIA has




                          Management’s                                                            Other Accompanying
98      CFTC              Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                  Information
                                                                                                                          Appendix
                                                                            P E RF O R M A N C E S E C T I O N




   made recommendations for the various G20 working                   Response to Volatility in Energy and Agricultural Markets:
   groups relating to enhancing sound regulation,
                                                                      ■■ OIA has continued to coordinate policy with the U.K.
   strengthening transparency and international coopera-
                                                                           FSA, with a view to improve the memorandum of
   tion and promoting the integrity of financial markets.
                                                                           understanding (MOU) (2006), which established a
   These efforts complement the CFTC’s efforts to promote
                                                                           framework for the CFTC and FSA to share information
   standardization of OTC derivatives and clearing by
                                                                           that the respective authorities need to detect potential
   central counterparties.
                                                                           abusive or manipulative trading practices that involve
■■ OIA participated in two chair-level IOSCO task forces—                  trading in related contracts on U.K. and U.S. derivatives
   one on unregulated entities (hedge funds) and the                       exchanges. In order to address increased concerns as to
   other on unregulated markets and products. The unreg-                   the role of speculation in linked commodity markets,
   ulated entities task force report recommended that                      in 2008 OIA negotiated revisions to the MOU that
   hedge fund operators should be required to register                     require coordinated position limits and reporting
   and encouraged regulators to support non-public                         requirements in linked contracts trading on U.S. and
   reporting by systemically important hedge funds.                        U.K. exchanges. In 2009-2010, OIA continued to coor-
   The unregulated markets and products task force is                      dinate with FSA to enhance surveillance over linked oil
   close to finalizing a report that recommends improve-                   markets.
   ments in the securitization market and encourages the
                                                                      ■■ OIA represented the CFTC as co-chair with the U.K.
   standardization and clearing of OTC derivatives.
                                                                           FSA of the IOSCO Task Force on Commodity Future
■■ OIA coordinated the Commission’s activities within                      Markets (Task Force), which was formed in 2008 by
   the newly created Task Force on OTC Derivatives, which                  IOSCO in response to concerns raised around the price
   is co-chaired by the Commission. The Task Force is                      rises and volatility in agricultural and energy commodi-
   intended to develop international standards for OTC                     ties in 2008 and focused on whether futures market
   derivatives.                                                            regulators’ supervisory approaches were appropriate in
                                                                           light of recent market developments. The Task Force
■■ OIA participates in the IOSCO Working Group on
                                                                           made recommendations to improve transparency in
   systemic risk, which intends to develop international
                                                                           energy     commodity      markets—futures,   cash    and
   guidance on the identification of risks that could lead
                                                                           OTC—in order to enhance the ability of futures market
   to a systemic “shock” to the global financial system and
                                                                           regulators to access all of the information that may be
   methods to mitigate such risks.
                                                                           needed to understand fully price formation in a partic-
■■ In response to concerns regarding bankruptcy protec-                    ular futures contract. The Task Force held a roundtable
   tions accorded customer funds, OIA in consultation                      of derivatives dealers, buy-side and oil producers to
   with DCIO proposed to the IOSCO Technical                               discuss transparency issues. The Task Force also initi-
   Committee a project that would examine customer                         ated a project with major OTC oil product commodity
   asset    protection      under   international    insolvency            dealers and producers (in cooperation with the New
   schemes issues arising from the failure of Lehman                       York Federal Reserve’s G14 initiative) to address ways
   Brothers.                                                               to enhance transparency and increase operational effi-
                                                                           ciencies in those markets. At its last meeting, the Task
■■ OIA led a cross-divisional staff task force to identify
                                                                           Force agreed to continue working with the industry to
   issues and to develop ideas for responding to recent
                                                                           encourage the formation of trade repositories for OTC
   financial market events, including the development of
                                                                           energy products and to ensure the reliability of the
   an FCM contingency plan.
                                                                           published cash market prices for energy where they
                                                                           relate to the settlement of exchange traded commodity
                                                                           derivatives.




    Management’s                                                                Other Accompanying
    Discussion & Analysis
                               Performance Section     Financial Section
                                                                                Information
                                                                                                         Appendix    CFTC       99
■■ OIA has coordinated closely with the Treasury with            ■■ OIA coordinated the Commission’s response to the
   respect to initiatives within the G20 energy experts                IMF’s Financial Sector Assessment Program (FSAP),
   working group, which is exploring methods to address                which assesses securities and derivatives regulators
   volatility in physical and financial oil markets. OIA has           compliance with the IOSCO Principles.
   focused attention on the practical means by which reg-
                                                                 ■■ OIA coordinated with Treasury on various country dia-
   ulators of financial derivatives markets can address
                                                                       logues, at which time OIA raised issues that relate to
   market integrity concerns through large trader report-
                                                                       U.S. futures markets and firms. During the year, OIA
   ing and position limits, coupled with effective surveil-
                                                                       worked with Treasury on dialogues with the EU (regu-
   lance and enforcement programs. OIA has put forward,
                                                                       lation of OTC derivatives, including clearing); India
   on behalf of the CFTC, various proposals for presenta-
                                                                       and Japan.
   tion within the G8 and G20 that are aimed at enhanc-
   ing the transparency of commodity futures markets,            ■■ OIA has coordinated Commission staff discussions
   with an emphasis on energy commodity markets.                       with the New York Federal Reserve, State Department,
                                                                       and the SEC relating to a draft Convention on interme-
■■ In connection with the CFTC’s ongoing “special call”
                                                                       diated securities that would determine, among other
   request for data from swap dealers and index traders in
                                                                       things, how risk is allocated under national laws.
   the United States, OIA coordinated with foreign regula-
   tors in order to resolve various issues that potentially      ■■ OIA represented the CFTC at the November North
   could inhibit access to data from foreign large traders.            American Trade Agreement (NAFTA) dialogue with
                                                                       Canada and Mexico, where OIA promoted enhanced
■■ OIA participated in an IOSCO Task Force that issued a
                                                                       ability of U.S. intermediaries to solicit institutional
   report focusing on enhancing coordinated global sur-
                                                                       customers and the recognition of electronic trading
   veillance of securities and derivatives markets and
                                                                       systems of U.S. exchanges, respectively.
   intermediaries.
                                                                 ■■ OIA also coordinates with Treasury with regard to the
■■ OIA participated in a new Financial Stability Board
                                                                       International Monetary Fund’s (IMF) semi-annual
   (FSB) working group that is discussing data gaps and
                                                                       Global Financial Stability Report on developments
   systemic linkages and their role in furthering the
                                                                       in international capital markets to ensure that deriva-
   financial crisis.
                                                                       tives developments accurately reflect CFTC activities.
International Financial Policy:                                        In addition, OIA coordinated directly with the IMF with
                                                                       respect to systemic risk issues in derivatives markets.
■■ OIA has coordinated meetings between the chairman
   and the leadership of the European Commission (EC)            ■■ OIA continued its activities within working groups of
   and the European Parliament Economic and Monetary                   IOSCO’s Technical Committee. Of particular note is a
   Affairs Committee, as well as staff outreach to the EC              joint Standing Committee 2 and Standing Committee 3
   senior staff, to promote the sharing of regulatory views            project that developed a report setting out international
   between the Commission and the EC. The objective                    standards of best practice for direct electronic access
   of this outreach has been to understand each jurisdic-              to exchanges. A key component of that report is the
   tion’s developing policies with regard to OTC deriva-               recommendation on the role that automated “filters”
   tives in order to promote the common development of                 can play in reducing the risk of clearing firm defaults.
   rigorous regulation and the avoidance of opportunities              Projects on point of sale disclosure, internal controls
   for regulatory arbitrage.                                           and liquidity risk management, suitability standards
                                                                       for complex financial products, transparency of struc-
■■ OIA has coordinated meetings between the chairman
                                                                       tured products and dark pools of liquidity also were
   and the French Finance Minister and other regulatory
                                                                       undertaken within these working groups.         OIA also
   officials to discuss financial regulatory reform, particu-
                                                                       participates in the Task Force on Implementation of
   larly with regard to OTC derivatives.




                         Management’s                                                            Other Accompanying
100    CFTC              Discussion & Analysis
                                                 Performance Section        Financial Section
                                                                                                 Information
                                                                                                                         Appendix
                                                                           P E RF O R M A N C E S E C T I O N




   the IOSCO Objectives and Principles of Securities regu-           Technical Assistance:
   lation, which has been reviewing the IOSCO Principles
                                                                     ■■ OIA organized the CFTC’s annual symposium and
   to determine whether revisions are needed in light of
                                                                          training seminar, where 67 participants from 31 coun-
   lessons earned during the financial crisis.
                                                                          tries representing 46 different organizations and more
■■ Within COSRA, OIA contributed to projects addressing                   than 35 domestic and international panelists discussed
   the development of self-regulatory organizations and                   market activities and supervisory techniques.
   regional integration through cross-border recognition
                                                                     ■■ The CFTC’s annual International Regulators’ Meeting
   schemes was discussed.
                                                                          took place in Boca Raton, Florida in March 2009.
International Regulatory Coordination:                                    The theme of the meeting was “lessons learned from
                                                                          recent financial market events” and included discus-
■■ OIA negotiated on behalf of the CFTC an enhanced
                                                                          sions focused on clearing credit default swaps, crisis
   cooperation and collaboration agreement with the
                                                                          management, hedge fund regulation and the detection
   Japan Ministry of Economy, Trade, and Industry and
                                                                          and prosecution of market trading abuses.
   the Japan Ministry of Agriculture, Forestry, and
   Fisheries.    These measures are designed to promote              ■■ OIA organized a seminar for international regulators
   investor protection and market integrity, and to                       on the design of a large trader and COT reporting
   enhance the supervision of physical commodity futures                  program, the Commission’s commitment of trader
   trading occurring on a cross-border basis between                      reports.
   Japan and the United States.
                                                                     ■■ OIA organized and accompanied CFTC staff on a tech-
■■ OIA coordinated with the relevant foreign regulator to                 nical assistance missions to the Ethiopian Commodity
   address objections to the sharing of information in the                Exchange Authority and the Financial Supervisory
   context of a request for DCO registration by a foreign                 Service of Korea, which focused on market oversight
   clearing organization.                                                 and surveillance, enforcement and clearing, and
                                                                          settlement.
■■ OIA coordinated letters supporting the recognition of
   U.S. futures exchanges in foreign jurisdictions (Brazil,          ■■ OIA organized visits by foreign regulators to meet with
   Germany, and Switzerland).                                             CFTC operational staff to discuss regulatory techniques.
                                                                          Jurisdictions represented included, among others, staff
■■ In order to coordinate the supervision of clearing
                                                                          from the Forward Markets Commission of India, the
   organizations that are registered both by the CFTC and
                                                                          Securities Exchange Board of India, and the Ethiopia
   another jurisdiction’s regulator, OIA has worked with
                                                                          Commodities Exchange.
   DCIO to develop a model MOU to address the
   supervision       of     such   dually-regulated   clearing       ■■ OIA organized internships within the CFTC for staff
   organizations. The first such clearing oversight MOU                   from the Financial Supervisory Service of Korea and the
   was entered into by the CFTC and U.K. FSA in                           Japanese Ministry of Economics, Trade, and Industry.
   September 2009.




    Management’s                                                               Other Accompanying
    Discussion & Analysis
                               Performance Section    Financial Section
                                                                               Information
                                                                                                        Appendix   CFTC      101
  Performance Measure 3.4.2 Number of rulemakings, studies, interpretations, and statements of guidance to
  ensure market integrity and exchanges’ compliance with regulatory requirements.




Lead Program Offices                                             Division of Clearing and Intermediary Oversight:        DCIO
Division of Clearing and Intermediary Oversight                  completed a combined total of 36 rulemakings, interpreta-
                                                                 tions, orders, and statements of guidance that addressed
Division of Market Oversight                                     regulatory efforts to ensure market integrity and exchanges’
                                                                 compliance with regulatory requirements.
Performance Analysis & Review                                    Division of Market Oversight: DMO completed a combined
The number of rulemakings, studies, orders, interpretations,     total of 22 rulemakings, interpretations, orders, and state-
and statements of guidance to ensure market integrity and        ments of guidance that addressed regulatory efforts to ensure
exchanges’ compliance with regulatory requirements is not        market integrity and exchanges’ compliance with regulatory
a number that can be precisely predetermined. The final          requirements.
number of these combined statistics reported by DCIO and
DMO is driven, in part, by changes in the marketplace, or        Performance Highlights
in the structure of the exchanges, clearing organizations,
and intermediaries that operate within that marketplace.         Division of Clearing and Intermediary Oversight: In
The number can be a function of what is needed to allow          September, the Commission published final rules concerning
appropriate market interrelationships to be maintained and       off-exchange retail foreign currency transactions that
to allow the exchanges, clearing organizations, and inter-       contribute to ensuring market integrity. (75 Fed. Reg. 55410,
mediaries to operate in the most efficient manner possible.      September 10, 2010.) The rules follow the passage of the
These factors may not be foreseeable at the time the perfor-     Food, Conservation, and Energy Act of 2008, Pub. L. No.
mance estimate is prepared. In addition, the need for a          110-246, 122 Stat. 1651, 2189-2004 (2008), also known as
rulemaking, study, interpretation, or guidance may not be        the Farm Bill, and the Dodd-Frank Act, P.L. No. 111-203
known or may not have reached a decision-making point            (2010). In particular, the Farm Bill: 1) clarified the scope of
until further analysis and other actions or events have taken    the CFTC’s anti-fraud authority with respect to retail off-
place. This also can account for a difference between the        exchange foreign currency transactions; 2) provided the
fiscal year plan and the actual outcome.                         CFTC with the authority to register entities wishing to serve
                                                                 as counterparties to retail forex transactions as well as those




                         Management’s                                                           Other Accompanying
102    CFTC              Discussion & Analysis
                                                 Performance Section      Financial Section
                                                                                                Information
                                                                                                                        Appendix
                                                                           P E RF O R M A N C E S E C T I O N




who solicit orders, exercise discretionary trading authority          Division of Market Oversight: In FY 2010, the Commission
and operate pools with respect to retail off-exchange foreign        issued 47 separate orders concerning whether certain ECMs
currency transactions; and 3) mandated minimum capital               contracts are SPDCs under criteria established in section
requirements for entities serving as counterparties to such           2(h)(7) of the CEA. In 2008, the CEA was amended by the
transactions.                                                         2008 Farm Bill to apply new requirements to ECMs listing,
                                                                      and trades involving, contracts that perform a significant
Pursuant to this authority, the Commission devised a
                                                                      price discovery function. The CFTC’s rules provide guidance
comprehensive scheme that puts in place requirements for,
                                                                      with respect to compliance with nine statutory core princi-
among other things, registration, disclosure, recordkeeping,
                                                                      ples for ECMs with SPDC contracts, introduce new and
financial reporting, minimum capital, and other operational
                                                                      amend prior information-submission requirements, and
standards. Specifically, the regulations require the registra-
                                                                      establish the procedures and standards by which the CFTC
tion of counterparties offering retail foreign currency
                                                                      will determine that an ECM contract performs a significant
contracts as either FCMs, or retail foreign exchange dealers
                                                                      price discovery function.      In implementing these new
(RFEDs), a new category of registrant created by the Farm
                                                                      requirements, DMO’s first reviewed all of the contracts listed
Bill. Persons who solicit orders, exercise discretionary trading
                                                                      by ECMs and issued Federal Register notices seeking public
authority and operate pools with respect to retail forex also
                                                                      comment regarding the contracts that were believed to be
are required to register, either as IBs, CTAs, CPOs, or as APs
                                                                      the most likely to be SPDC contracts. After further substan-
of such entities. The regulations also include robust customer
                                                                      tive analysis of the contracts and comments, DMO made
protections and financial requirements designed to ensure
                                                                      SPDC recommendations for each such contract. Based upon
the financial integrity of firms engaging in retail forex
                                                                      those recommendations, the Commission in FY 2010 issued
transactions.
                                                                      47 SPDC orders; ultimately finding 13 contracts to be SPDC
The Commission also adopted a final rulemaking to ensure              contracts and finding 34 contracts to not be SPDC contracts.
market integrity that addressed the minimum net capital               The contracts deemed to be SPDCs are now subject to
that IBs and FCMs must maintain. The overall effect of the            Commission oversight and the ECMs must adopt self regula-
rulemaking is to generally require IBs and FCMs to hold               tory responsibilities to oversee activity on those contracts.
additional capital as a cushion against losses and to ensure          The other three rulemakings were two joint orders regarding
that the firms can meet their obligations to customers and to         trading in stock index futures and a withdrawal of the energy
the markets. Commission staff issued a revised Financial              Federal speculative limits proposal.
and Segregation Interpretation No. 3-1 during 2010.
Financial and Segregation Interpretation 3-1 addressed the
appropriate net capital treatment of customer receivables
secured by electronic warehouse receipts and shipping certif-
icates. Staff also provided guidance to the industry including
addressing the regulatory capital treatment of net foreign
currency exposures for FCMs, and the capital implications of
holding certain private placement securities.




     Management’s                                                              Other Accompanying
     Discussion & Analysis
                              Performance Section      Financial Section
                                                                               Information
                                                                                                        Appendix    CFTC       103
   Performance Measure 3.4.3 Percentage of requests for no-action or other relief completed within six months
   related to novel market or trading practices and issues to facilitate innovation.




Lead Program Office                                                                    Performance Highlights
Division of Market Oversight                                                           DMO issued an May 11, 2010 letter granting no-action relief
                                                                                       to permit the International Maritime Exchange ASA (Imarex
                                                                                       or the Exchange) to make its electronic trading and order
Performance Analysis & Review
                                                                                       matching system (Trayport), and its Application Program
In FY 2010, DMO issued one no-action letter. This letter was                           Interface (API), available via direct access to Exchange trading
issued to an FBOT and is discussed more fully below.                                   members in the United States without obtaining contract
The letter was issued within six months of the Division’s                              market designation or registration as a derivatives transac-
receipt of the initiating relief request.                                              tion execution facility pursuant to Sections 5 and 5a of
                                                                                       the CEA.




16	Refer   to CFTC Information Technology Systems in the Appendix for a description in functionality.




                                    Management’s                                                                        Other Accompanying
104          CFTC                   Discussion & Analysis
                                                                    Performance Section             Financial Section
                                                                                                                        Information
                                                                                                                                               Appendix
                                                                            P E RF O R M A N C E S E C T I O N




  Performance Measure 3.4.4 Percentage of total requests for guidance and advice receiving CFTC responses.




Lead Program Offices:                                               noted, however, that the statistics on numbers of letters issued
Division of Clearing and Intermediary Oversight                     or e-mails responded to may not reflect the complexity of any
                                                                    particular matter or the resources necessary to address one
Division of Market Oversight                                        issue as compared to another issue. In addition, matters
                                                                    commenced in one fiscal year may overlap, and be completed
                                                                    during a subsequent fiscal year, resulting in some imprecision
Performance Analysis & Review
                                                                    in statistical measures for a given year. DCIO makes every
Division of Clearing and Intermediary Oversight: DCIO met           effort to respond to requests as quickly as possible, but the
its performance target for FY 2010. DCIO staff respond to           timeliness of a response also is affected by the speed with
numerous requests for guidance and advice on the CEA and            which a requester provided additional information sought by
Commission regulations each year. Requests are received             staff, and the length of time required by other Commission
from members of the public, market participants, intermedi-         divisions or offices to review a draft response, factors which
aries, SROs, foreign entities, and others. These requests may       are outside the control of DCIO.
be formal, such as written requests for no-action, interpreta-
                                                                    Division of Market Oversight:           DMO staff respond to
tive, or exemption letters.   DCIO also receives numerous
                                                                    numerous requests for guidance and advice on the CEA and
informal requests for guidance and advice via e-mail and
                                                                    Commission regulations each year. These requests may be
phone calls.
                                                                    informal, via email or phone calls, or formal in the form of
Although DCIO responds to all requests that it receives, it is      requests for no-action, interpretative, or exemptive letters.
not always possible for DCIO to respond within the fiscal           Staff respond to informal guidance and advice requests in a
year that it receives a request. DCIO estimates that up to 10       very short period of time, usually no longer than a period of
percent of requests may fall in this category. Some requests        days.    To the extent that staff are unable to provide an
that raise novel or complex issues, or requests in the form of      informal response to such requests, the requester is advised
no-action letters, interpretations, or exemptions, take more        to submit a formal request for guidance. DMO staff strive to
time to research and to prepare a response. It should be            address such formal requests within six months of receipt.




     Management’s                                                              Other Accompanying
     Discussion & Analysis
                              Performance Section    Financial Section
                                                                               Information
                                                                                                         Appendix   CFTC       105
Performance Highlights
Division of Clearing and Intermediary Oversight: In FY 2010,       Additionally, DCIO issued an exemption from the disclosure
DCIO responded to numerous requests, both formal and               document requirements for a CPO of a commodity pool
informal, for interpretations of the Commission’s registra-        operated as a Delaware Series Limited Liability Company.
tion requirements, and issued exemptive and no-action              Because there was limited liability and segregation of assets
letters addressing various issues. Among the issues addressed      amongst the various series of the pool, staff permitted the
are the circumstances under which general partners of              CPO to distribute multi-part disclosure documents to
commodity pools may be relieved from CPO registration              prospective participants wherein the first part of the
requirements when a registered designee serves as the pool’s       document contained disclosures regarding the pool as a
operator; registration implications where employees of a           whole and the second part contained disclosures relevant to
foreign branch of a U.S. bank serve in the capacity of IBs;        the offered series only.
and disclosure, reporting and recordkeeping requirements
                                                                   DCIO also issued a letter in FY 2010 providing guidance to
for   operators   of   exchange-traded      commodity   pools.
                                                                   CPOs on complying with the financial reporting require-
In connection with the no-action relief provided to exchange-
                                                                   ments set forth in Part 4 of the Commission’s regulations.
traded commodity pools, in September, the Commission
                                                                   The letter assisted CPOs in meeting their regulatory require-
published proposed rules that would “codify” past relief and
                                                                   ments by highlighting recent regulatory changes affecting the
simplify procedures for CPOs seeking comparable relief in
                                                                   financial filings required of CPOs, and identified common
the future. (75 Fed. Reg. 57794 (Sept. 9, 2010))
                                                                   deficiencies observed in prior year’s financial filings.




                          Management’s                                                             Other Accompanying
106     CFTC              Discussion & Analysis
                                                   Performance Section       Financial Section
                                                                                                   Information
                                                                                                                              Appendix
Strategic Goal Four: Organizational Excellence
   Goal Four: Facilitate Commission performance through organizational and management
   excellence, efficient use of resources, and effective mission support.



   Outcome Objective 4.1: A productive, technically competent and diverse workforce that takes
   into account current and future technical and professional needs of the Commission.
      n	   Annual Performance Goal 4.1: Recruit, retain, and develop a skilled and diversified
           staff to keep pace with attrition and anticipated losses due to retirement.


   Outcome Objective 4.2: A modern and secure information system that reflect the strategic
   priorities of the Commission.
      n	   Annual Performance Goal 4.2: Link business decisions on information technology
           resources to CFTC strategic goals by establishing a decision-making and review process
           for allocation of information technology resources.


   Outcome Objective 4.3: An organizational infrastructure that efficiently and effectively responses
   to and anticipates both the routine and emergency business needs of the Commission.
      n	   Annual Performance Goal 4.3: A fully operational Contingency Planning Program to
           ensure the CFTC is prepared for emergencies and is fully capable of recovery and
           reconstitution.


   Outcome Objective 4.4: Financial resources are allocated, managed, and accounted for in
   accordance with the strategic priorities of the Commission.
      n	    Annual Performance Goal 4.4: A clean audit opinion for CFTC.
  Performance Measure 4.1.1 Percentage of fiscal year program development objectives met under CFTC pay for
  performance authority.




Lead Program Office                                                  operating its first program to enhance employee retention by

Office of Human Resources (OHR)                                      offering repayment of eligible student loans. By offering that
                                                                     program and the new option of regular and recurring telework,
                                                                     the agency demonstrated the ability to respond to employee
Performance Analysis & Review                                        input on the work environment. For example, 61 percent of
                                                                     CFTC employees gave positive ratings to the telework program
The Commission met all objectives for FY 2010. Each new
                                                                     in 2010, compared to 16 percent when last asked in 2008
program development objective was recommended by the Pay
                                                                     (government-wide, only 35 percent of employees rated their
Parity Governance Committee as a timely next step in main-
                                                                     telework options positively in 2010). This responsiveness to
taining a merit-based system of total compensation parity
                                                                     employee input remains central to the success of the CFTC
under   the   agency’s   statutory    compensation    authority.
                                                                     merit-based compensation program, along with two-way
The committee’s primary accomplishment was publication of
                                                                     communication on performance goals and outcomes,
its review of job classification under our CT pay system. It was
                                                                     including yearly posting of CT merit pay outcomes to assure
timely to examine how CT pay had evolved since its launch in
                                                                     transparency and understanding of how distinctions in pay
2003. The committee studied the classification system, the
                                                                     reflect relative performance.
career ladders of agency positions, and the degree of internal
and external parity or alignment provided by the system. By
implementing all the actions recommended in the report,              Performance Highlights
CFTC has assured both the validity of its pay structure and a
                                                                     ■■ CFTC received continued positive feedback, during 2010,
fuller understanding by all employees of how it operates. As a
                                                                           on these efforts to assure maintenance of a total work
body representative of the entire agency, such two-way com-
                                                                           environment that rewards merit and is valued by our
munication is a primary function of the Pay Parity Governance
                                                                           current employees and by those we seek to recruit.
Committee: to assure the compensation program is both
                                                                           Examples include results from the government-wide
valued and understood by the employees it serves to attract
                                                                           Employee Viewpoint Survey, in which CFTC employees
and retain, in order to accomplish the agency mission.
                                                                           expressed an even higher degree of overall satisfaction
Other committee actions similarly served to support the Total              with their jobs, pay, and agency than in 2009, which was
Rewards compensation philosophy guiding CT pay and                         the last of three consecutive biennial cycles in which these
benefits. Most prominently, the agency announced and began                 survey results won CFTC a Best in Class ranking by the




                           Management’s                                                               Other Accompanying
108     CFTC               Discussion & Analysis
                                                     Performance Section        Financial Section
                                                                                                      Information
                                                                                                                               Appendix
                                                                          P E RF O R M A N C E S E C T I O N




   Partnership for Public Service in the category of Pay and             the promotion potential or career ladders of agency posi-
   Benefits at a small agency. Placing these survey results              tions, this body of representatives of the entire agency
   and trend analysis on the Careers page of the CFTC Web                refined the CFTC Incentive Awards Policy based on
   site helps communicate our workplace values to potential              feedback from users during the first complete annual
   applicants for positions necessary to meet agency strategic           cycle it was in place. By taking prompt action to adjust
   goals.                                                                these programs, the committee has served to assure that
                                                                         the overall agency compensation program continues to
■■ The Pay Parity Governance Committee continued to
                                                                         serve its primary goal of recruiting and retaining a work-
   fulfill its role in monitoring and adjusting the CFTC
                                                                         force that possesses the skills needed to meet the evolving
   system of pay and benefits to uphold the agency’s statu-
                                                                         agency mission requirements.
   tory pay parity mandate. In addition to implementing
   recommendations resulting from its thorough review of




    Management’s                                                              Other Accompanying
    Discussion & Analysis
                             Performance Section     Financial Section
                                                                              Information
                                                                                                       Appendix     CFTC       109
  Performance Measure 4.1.2 Average number of days between close of vacancy announcement and job offer,
  per Federal standards of 45 days or less.




Lead Program Office
                                                                    receipt of a recruitment request to the entrance on duty of the
Office of Human Resources                                           new hire. The CFTC has revised its initial 90-day standard for
                                                                    that complete process to 80 days for FY 2011, and will seek to
                                                                    amend this performance metric once the benefits of that
Performance Analysis & Review
                                                                    change are confirmed in terms of meeting the needs of
The FY 2010 priority hiring initiative succeeded overall in its     selecting officials (CFTC performance did come closer to
primary objective of delivering high-quality candidates for         meeting this standard in FY 2010, taking 139 days; while that
119 positions. That success is not reflected in this particular     still exceeded the interim 90-day standard by 54 percent, that
performance measure, for a number of reasons. While all             was better than the 87 percent by which performance
participants in the hiring process benefited from the lessons       exceeded the 45-day metric and highlights how decisional
learned in filling comparable numbers of jobs in each of the        rather than procedural delays can have a disproportionate
last two years, FY 2010 was different because agency growth         effect on timeliness). Both the old 45-day and new 80-day
had reached a point at which CFTC was no longer simply              standards are recognized as stretch goals, especially given the
restocking its existing organizational framework with posi-         challenge of filling large volumes of highly-skilled profes-
tions lost to attrition, but had to add supervisors of new          sional positions from the enormous candidate pools gener-
teams as well. In many cases, this resulted in a preference to      ated by the current job market, when each application
appoint those new supervisors prior to filling the non-super-       requires and deserves a detailed and substantive review.
visory positions that would report to them. Because OHR
                                                                    OHR continues to work with selecting officials on steps to
had posted vacancy announcements of all types as quickly as
                                                                    improve our time-to-hire results.      These included during
possible, the result was this lengthening of time between
                                                                    FY 2010: 1) realignment of the security clearance function
announcement close and job offer.           In planning for the
                                                                    within OHR, so it and the recruitment function are under
recruitment program in FY 2011, OHR will take additional
                                                                    one supervisor; 2) enhanced coordination with the new
care in assuring greater precision in the priority sequencing of
                                                                    Director of Equal Employment Opportunity to assure paid
vacancy announcements.
                                                                    ads and on-site recruitment visits support rapid assembly of
Since this performance measure was created, the U.S. Office         diverse candidate pools; 3) designation of an OHR manager
of Personnel Management has been working with agencies to           as point person to develop strategic approaches to further
shift their focus to measuring the total time required from         streamline and automate recruitment and other operational




                           Management’s                                                            Other Accompanying
110     CFTC               Discussion & Analysis
                                                    Performance Section      Financial Section
                                                                                                   Information
                                                                                                                           Appendix
                                                                             P E RF O R M A N C E S E C T I O N




tasks, such as with preparations to adopt an automated                      other means of assuring the recruitment system is
staffing support system; and 4) launched of a new CFTC-wide                 responsive to candidate needs will serve to encourage
supervisory training program to better support successful                   the kind of large, representative candidate pools that
management participation in their key elements of the                       give managers the confidence to make prompt
recruitment process. Like all agencies, CFTC must report on a               selections.
full range of metrics—including time-to-hire—under the U.S.
                                                                       ■■ OHR acted to assure our recruitment pipeline is robust
Office of Personnel Management annual Human Capital
                                                                            over the longer term. This included implementing the
Management Report and Hiring Roadmap initiatives. For the
                                                                            recognized best practice of assuring line employees and
present, however, successes to date in this area are acknowl-
                                                                            managers accompanied OHR staff in representing
edged by the 2010 Employee Viewpoint Survey results, in
                                                                            CFTC at job fairs and other recruitment events, so inter-
which 76.2 percent of CFTC employees agreed with the state-
                                                                            ested candidates could discuss agency job opportuni-
ment “my work unit is able to recruit people with the right
                                                                            ties with a member of their profession. In addition, by
skills,” representing an enormous 28.6 percent increase in
                                                                            filling 51 paid volunteer summer intern positions (a 13
positive responses to that question since last year’s survey.
                                                                            percent increase in paid positions over last summer),
                                                                            CFTC continued investing in a program that both leads
Performance Highlights                                                      to immediate permanent hires and raises our profile
                                                                            on university campuses as a potential future employer.
■■ At the same time it was supporting rapid, high-volume
    recruitment, OHR met increased requirements by the
    U.S. Office of Personnel Management for notifying job
    candidates of the status of their applications at addi-
    tional points during the selection process. This and




     Management’s                                                                Other Accompanying
     Discussion & Analysis
                              Performance Section       Financial Section
                                                                                 Information
                                                                                                          Appendix    CFTC      111
  Performance Measure 4.1.3 Rate of employee turnover, exclusive of retirements.




Lead Program Office                                                Performance Highlights
Office of Human Resources                                          ■■ A major retention initiative in FY 2010 was the successful
                                                                         launch of the CFTC Student Loan Repayment Program.
                                                                         Based on employee feedback through recent surveys and
Performance Analysis & Review
                                                                         focus groups, the Pay Parity Governance Committee
CFTC again exceeded both its goal and prior year perfor-                 recommended this program as an effective way for CFTC
mance for employee retention in FY 2010.          Controlling            to remain competitive as an employer. The first round of
turnover has been challenging over time—even in job markets              annual loan reimbursements occurred in FY 2010, based
generally favorable to employers—due to the growing global               on program participants’ signing formal service agree-
demand for workers with the skills that CFTC requires.                   ments lasting three years. Retaining junior staff in some
Achieving these favorable performance results continued to               key job categories by that additional amount of time
rely on effective use of the CFTC pay parity authority,                  would significantly raise their average tenure with CFTC,
attracting candidates with a competitive total compensation              allowing the agency to benefit more fully from its invest-
package and retaining employees with a consistently                      ment in their hiring and development.
outstanding work environment supportive of professional
                                                                   ■■ Two additional initiatives in FY 2010 aimed to support
growth. The annual CFTC-wide employee survey results for
                                                                         continued retention success. Of foremost importance
FY 2010 confirm this steady progress: 83.4 percent of
                                                                         during this period of intensive hiring was the roll out of
employees agreed with the statement “I recommend my orga-
                                                                         a formal on-boarding program.         It aims to support
nization as a good place to work,” an increase of 7.5 percent
                                                                         newly hired employees as they adjust to CFTC over their
over the last two years. Maintaining this status as an employer
                                                                         first year, by organizing access to training and other
of choice helps assure CFTC has the critical workforce compe-
                                                                         resources in a way that both improves their experience
tencies to meet its mission: successful retention protects the
                                                                         and allows them to contribute at full potential as
hard-won agency knowledge base, maximizes the availability
                                                                         quickly as possible.     A second resource is enhanced
of trained staff to meet workload demands, and minimizes
                                                                         on-site training for newer, early- and mid-career staff on
the costs of repeated recruitment and training of replacement
                                                                         federal retirement and other benefits, in the context of
hires or interim contractor support.
                                                                         overall financial planning. These popular seminars not
                                                                         only bring home the overall value proposition of CFTC
                                                                         employment, they also aid retention by enhancing the
                                                                         supportive nature of the agency work environment.




                          Management’s                                                              Other Accompanying
112     CFTC              Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                    Information
                                                                                                                           Appendix
                                                                           P E RF O R M A N C E S E C T I O N




  Performance Measure 4.1.4 Percentage of employees in mission-critical positions rating themselves
  at “extensive” or higher level of expertise on Strategic Workforce Planning Survey.




Lead Program Office                                                  employee surveys. Most importantly, quarterly performance
                                                                     management meetings between each employee and super-
Office of Human Resources
                                                                     visor help assure individual development that is keyed to
                                                                     agency mission objectives.       OHR continues to facilitate
Performance Analysis & Review                                        agency management efforts to set and measure progress
                                                                     toward these workforce goals, as well as support employee
CFTC improved on its FY 2009 results under this performance          development to close any identified skills gaps.
measure but did not meet the ambitious goal for FY 2010.
Projecting and controlling outcomes under this measure is
                                                                     Performance Highlights
challenging when filling numerous new positions, since the
experience level of final selectees in unknown and much of           ■■ In addition to receiving their fifth annual Strategic
the expertise required by mission-critical positions must be              Workforce Planning Survey results reports during
developed on the job at CFTC. The expertise level achieved                FY 2010, each division and office met with OED to
this year represents an effective outcome because it maintains            provide input on a return on investment analysis of
the proportion of employees with extensive expertise at the               this program that is the agency’s main source of quan-
level of several years ago, which was prior to both the largest           tified data used in human capital planning. Resulting
losses of senior experts to retirement and the near doubling              survey changes will assure managers receive objective,
of agency headcount. That success and the arrival of valuable             quantified workforce data, empowering them to assess
new talent selected with the agency’s new legislative mandate             and develop employee skills in preparation for predict-
in mind suggest an optimistic outlook for maintaining the                 able trends described by the survey reports, such as
match between workforce skill level and the evolving CFTC                 retirements and other employee turnover.
market oversight responsibilities.
                                                                     ■■ OHR established a new team in FY 2010 dedicated to
Many CFTC programs must come together to deliver this                     training and development. The goal is to have a formal,
main outcome of successful strategic human capital manage-                fully-resourced program equivalent to an in-house
ment: a competent employee in every position. Conduct of                  academy charged with assuring the development and
the annual Strategic Workforce Planning Survey reminds                    maintenance of needed employee knowledge, skills,
employees of the key competencies required by their posi-                 and abilities. This effort began with bringing in outside
tions, which CFTC helps them acquire and maintain with                    experts to provide basic education in futures industry
training resources and in-house Industry/Legal/Technical                  practices for new agency hires, with the goal of speeding
training program seminars that transfer the knowledge of                  their development of the needed level of expertise in
senior agency experts on topics suggested through all-                    this essential area.


     Management’s                                                              Other Accompanying
     Discussion & Analysis
                             Performance Section      Financial Section
                                                                               Information
                                                                                                        Appendix    CFTC      113
  Performance Measure 4.1.5 Percentage of underrepresented groups among new hires.




Lead Program Office                                               accountability.         The agency drew on its diverse pool of
                                                                  selecting officials to represent the Commission as recruiters,
Office of Human Resources
                                                                  while increasing resources for existing programs such as
                                                                  summer hiring, which encourages students in underrepre-
Performance Analysis & Review                                     sented groups to consider CFTC when seeking future perma-
                                                                  nent employment. It is an ongoing OHR priority to assemble
The agency FY 2010 performance fell slightly short of its
                                                                  and deliver to selecting officials large, diverse applicant
FY 2009 results for this measure. CFTC did not meet its
                                                                  pools that will support selection of a fully representative
27 percent goal, set in consultation with the Office of Equal
                                                                  workforce.
Employment Opportunity several years ago to approximate
the diversity of America’s workforce (note this presents a
challenge with regard to our largest employment category—         Performance Highlights
Attorney—since only 22.9 percent of 2009 law school gradu-
                                                                  ■■ Moderately effective performance in representative
ates were minority, according to a July 2010 National
                                                                        hiring when filling positions across the full range of
Association for Law Placement report). New initiatives in
                                                                        Commission position types and grade levels.
FY 2010 to meet that standard included additional targeted
recruitment, with tracking and analysis of the applicant yield    ■■ Achieved 44 percent (up from 40 percent last year)
from paid advertisements and other forms of agency outreach.            minority representation rate when filling 50 paid
All CFTC participants in the priority project to recruit and            summer positions, increasing agency recruitment visi-
hire 119 employees supported formal timelines for each step             bility for the future and securing a number of those
of that process, helping focus attention on those hiring                hires for continuing internships during the school
outcomes. Weekly reporting to senior leadership reinforced              year.




                          Management’s                                                               Other Accompanying
114    CFTC               Discussion & Analysis
                                                  Performance Section           Financial Section
                                                                                                     Information
                                                                                                                          Appendix
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.1 Percentage of CFTC information technology resources directly tied
  to Commission resource priorities as stated in the Strategic Plan.




Lead Program Office                                                Performance Highlights
Office of Information and Technology Services (OITS)               The CFTC continues to fund IT initiatives in support of its
                                                                   strategic plan. In FY 2010, the Commission invested in:

Performance Analysis & Review                                      ■■ Increased storage area network and communications
                                                                        capacity to support surveillance and enforcement data
The CFTC develops its IT resources through a planning and
                                                                        needs;
procurement process based on the strategic goals of the
CFTC.                                                              ■■ Audio visual and teleconferencing upgrades to improve
                                                                        communication with stakeholders and across CFTC
The CFTC holds IT planning and procurement process
                                                                        divisions;
meetings twice a month to assure its alignment of IT
resources with the strategic plan.        In these meetings,       ■■ Automated FOIA, ethics management, training, and
Commission staff review the planning and procurement                    public commenting systems to improve stakeholder
documents to ensure that adequate resources are requested               communication and business management;
to support CFTC goals. The planning and procurement
                                                                   ■■ Electronic records and document management inven-
process tracks planned and actual budgets and aligns
                                                                        torying, requirements gathering, and business process
priorities as needed.
                                                                        documentation to improve knowledge management;

                                                                   ■■ Enterprise legal support system (eLaw) extension to
                                                                        general      counsel   and   administrative    proceedings
                                                                        organization(s) to improve knowledge management;




     Management’s                                                            Other Accompanying
     Discussion & Analysis
                             Performance Section    Financial Section
                                                                             Information
                                                                                                      Appendix        CFTC    115
■■ Improvements and capacity increases in computer foren-        ■■ Intranet and public-facing Web site improvements to
   sics capabilities to support enforcement investigations;            improve knowledge management and stakeholder
                                                                       communications;
■■ Integrated Surveillance System (ISS) automated alerting
   and workflow and position limit monitoring changes            ■■ Implementing data standardization for trading activity
   to adapt to market changes;                                         reporting and planning data standardization for large
                                                                       trader and position limit reporting, trading order book
■■ Risk analysis system upgrades to adapt to market
                                                                       reporting, and trading account ownership and control
   changes;
                                                                       reporting; and
■■ Automated trade surveillance profiling, modeling and
                                                                 ■■ Assessing IT management maturity and identifying
   alerting to increase trade surveillance;
                                                                       areas for improving accountability, performance, and
■■ Business intelligence systems to increase market                    control.
   transparency;




                         Management’s                                                           Other Accompanying
116    CFTC              Discussion & Analysis
                                                 Performance Section        Financial Section
                                                                                                Information
                                                                                                                       Appendix
                                                                                             P E RF O R M A N C E S E C T I O N




   Performance Measure 4.2.2 Percentage of major information technology investments having undergone an
   investment review within the last three years.




Lead Program Office                                                                     Performance Highlights
Office of Information and Technology Services                                           The CFTC has no major investments that are high risk.
                                                                                        Performance of, and results from, major investments in
                                                                                        enterprise legal support and market oversight and surveil-
Performance Analysis & Review
                                                                                        lance compare favorably with those of other Federal
The CFTC holds IT planning and procurement process                                      regulators and SROs.
meetings twice a month to review investments. In addition,
the CFTC conducted IT investment reviews for all of CFTC’s
major systems within the last three years. The major systems
include TSS, eLaw 17, ISS, and the CFTC network. The CFTC
reviews its major systems to ensure that technology is
meeting the needs of the CFTC and is properly aligned with
the strategic goals of the Commission.                        These thorough
reviews include senior management, business users, IT
professionals, and the CFO staff. The reviews found that
CFTC’s major systems continue to exceed expectations and
are within budget.




17	Refer   to CFTC Technology Systems in the Appendix for a description of functionality.




      Management’s                                                                              Other Accompanying
      Discussion & Analysis
                                         Performance Section             Financial Section
                                                                                                Information
                                                                                                                          Appendix   CFTC    117
  Performance Measure 4.2.3 Percentage of Customer Support Center inquiries resolved within established
  performance metrics.




Lead Program Office                                                  Performance Highlights
Office of Information and Technology Services                        In FY 2010, the CFTC resolved 100 percent of its inquiries
                                                                     within established performance metrics.

Performance Analysis & Review
The CFTC achieved its goal of resolving inquiries within the
performance metric to: resolve 80 percent of tickets identi-
fied as resolvable on the first contact and within one
business day.

The CFTC tracks its customer support inquiries and their
resolution through a sophisticated customer support system.
The system also allows the CFTC to organize inquiries so
that the CFTC can proactively make decisions to improve
service and reduce issues.




                             Management’s                                                         Other Accompanying
118    CFTC                  Discussion & Analysis
                                                     Performance Section      Financial Section
                                                                                                  Information
                                                                                                                        Appendix
                                                                          P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.4 Percentage of employees with network availability.




Lead Program Office                                                 Performance Highlights
Office of Information and Technology Services                       The CFTC completed major upgrades in network infrastruc-
                                                                    ture capacity, functionality, and transition from FTS 2000 to
                                                                    Networx with zero downtime. Additionally, the effect of a
Performance Analysis & Review
                                                                    fire in the CFTC New York regional office, which prevented
The CFTC maintains connectivity through redundant servers           building access for several days, was minimized as staff were
in Washington, D.C. and Chicago. The CFTC received addi-            quickly provided with mobile network access and network
tional funds to upgrade its aging network infrastructure to         resources were migrated from New York to Washington to
meet growing needs.         The additional funds allowed the        maintain      availability     during     building   reconstitution
CFTC to continue to support its strategic goals by assuring         activities.
network availability through refreshment of technology.




    Management’s                                                              Other Accompanying
    Discussion & Analysis
                               Performance Section   Financial Section
                                                                              Information
                                                                                                            Appendix     CFTC     119
  Performance Measure 4.2.5 Percentage of employees who require remote network availability that have it.




Lead Program Office                                              Performance Highlights
Office of Information and Technology Services                    The CFTC is committed to supporting workplace flexibility
                                                                 and providing mobile computing support.          To support
                                                                 more telework, remote access server and communication
Performance Analysis & Review
                                                                 resources were increased and more staff was provided with
The CFTC provides employees with remote access to email,         CFTC-issued laptops and mobile storage devices.
intranet resources, and duty station desktop computers.




                         Management’s                                                        Other Accompanying
120 CFTC                 Discussion & Analysis
                                                 Performance Section     Financial Section
                                                                                             Information
                                                                                                                     Appendix
                                                                         P E RF O R M A N C E S E C T I O N




  Performance Measure 4.2.6 Percentage of major systems and networks certified and accredited
  in accordance with NIST guidance.




Lead Program Office                                                 Performance Highlights
Office of Information and Technology Services                       The CFTC has decided on the “Twenty Critical Controls for
                                                                    Effective Cyber Defense: Consensus Audit” as the target
                                                                    state for the General Support System (CFTC Network)
Performance Analysis & Review                                       implemented control set and has begun developing a
All four major CFTC systems are accredited. The CFTC certi-         detailed project plan to implement recommended controls
fied and accredited its major systems, TSS, eLaw, ISS, and the      not already in place and prepare for continuous monitoring
CFTC network, within the last three years. The CFTC will            of the CFTC network security posture.
continue to comply with FISMA and safeguard IT assets.




     Management’s                                                           Other Accompanying
     Discussion & Analysis
                             Performance Section     Financial Section
                                                                            Information
                                                                                                      Appendix   CFTC    121
  Performance Measure 4.2.7 Percentage of information technology E-Government initiatives on target for
  compliance with implementation schedule.




Lead Program Office                                               Performance Highlights
Office of Information and Technology Services                     In FY 2010, the CFTC upgraded its public facing Web site to:

                                                                  ■■ Implement a new visual design to improve the presen-
Performance Analysis & Review                                           tation and readability of information throughout the
                                                                        Web site;
The CFTC must use technology effectively and efficiently to
meet its mission of protecting market users and the public        ■■ Enhance the homepage to feature easy access to impor-
from fraud, manipulation, and abusive practices related to              tant information and events at the CFTC;
the sale of commodity and financial futures and options,
                                                                  ■■ Improve site navigation and implement dynamic
and to foster open, competitive, and financially sound
                                                                        dropdown menus for primary and secondary
futures and option markets. Meeting the mandates of the
                                                                        navigation;
E-Government Act provides direct support for the CFTC in
fulfilling its mission.                                           ■■ Provide greater transparency with the implementation
                                                                        of Web pages dedicated to transparency;

                                                                  ■■ Implement flash enabled headlines and an historical
                                                                        timeline of the CFTC; and

                                                                  ■■ Implement a Web 2.0 presence featuring YouTube, Flickr,
                                                                        and Facebook.




                          Management’s                                                           Other Accompanying
122 CFTC                  Discussion & Analysis
                                                  Performance Section        Financial Section
                                                                                                 Information
                                                                                                                       Appendix
                                                                                 P E RF O R M A N C E S E C T I O N




The CFTC has fully complied with the Federal Open                           The eLaw program also formed the Commission’s first full-
Government Directive by increasing access to public                         time in-house computer forensics program. The computer
meetings;     increasing     market      reporting      transparency;       forensics program primarily supports the needs of the
continuing transparency, participation, and collaboration                   enforcement division by providing digital evidence collec-
efforts; and participating in the data.gov initiative.                      tion, preservation, and analysis capabilities assuring that
                                                                            electronic evidence collected by, or provided to, the
Another successful E-Government Information Technology
                                                                            Commission is authentic and will remain admissible in
(IT) innovation was the continued implementation and
                                                                            court proceedings. Expert witness testimony is also provided
expansion of eLaw to support our enforcement activities.
                                                                            by the computer forensics staff. eLaw effectively supported
eLaw is an automated law office that seamlessly integrates
                                                                            57 enforcement actions and 419 investigations in FY 2010.
technology and work processes to support staff in their
investigative, trial, and appellate work. It allows staff to                We also continued the modernization of our trade surveil-
track and monitor all activities related to investigations,                 lance systems, implementing automated alerts, workflow,
discoveries, and litigation plans by integrating best-of-breed              and complex modeling to improve the detection of trading
commercial,       off-the-shelf    (COTS)      software     products        abuses and market anomalies in FY 2010.
(Practice Manager, CaseMap, TimeMap, Concordance,
Nexidia, LiveNote, Sanction, and Law Prediscovery).




     Management’s                                                                    Other Accompanying
     Discussion & Analysis
                                  Performance Section        Financial Section
                                                                                     Information
                                                                                                              Appendix   CFTC 123
  Performance Measure 4.2.8 Percentage of network users who have completed annual security
  and privacy training.




Lead Program Office                                               Performance Highlights
Office of Information and Technology Services                     The CFTC not only provided annual security and privacy
                                                                  training to staff and contract staff, but also provided training
                                                                  that was highly tailored to the CFTC environment and
Performance Analysis & Review
                                                                  culture to ensure effectiveness.
The Commission met its annual security and privacy training
goal. FISMA requires that all Federal employees and contrac-
tors receive annual security and privacy training. The CFTC
takes security and privacy training very seriously and is
proud that 99 percent of the staff participated in security
and privacy training this year.




                          Management’s                                                           Other Accompanying
124 CFTC                  Discussion & Analysis
                                                  Performance Section      Financial Section
                                                                                                 Information
                                                                                                                          Appendix
                                                                                            P E RF O R M A N C E S E C T I O N




   Performance Measure 4.3.1 Number of hours required to deploy staff and begin mission essential
   functions at the COOP site.




Lead Program Office                                                                  ■■ Evaluate continuity communications capability to
                                                                                          support intelligence/information sharing and lateral
Office of the Executive Director (Chief, Security and
                                                                                          coordination with interdependent partners;
Continuity Programs)
                                                                                     ■■ Review and evaluate Department and Agency
                                                                                          devolution planning; and
Performance Analysis & Review
                                                                                     ■■ Perform reconstitution planning prior to the
In FY 2010, the CFTC tested and assessed its continuity-
                                                                                          resumption of normal activities.
related capability based on the agency’s participation in the
National Level Exercise 2010 – Eagle Horizon 2010 (EH-10).                           The EH-10 was a full-scale exercise based on National
EH-10 was a mandatory, annual exercise for testing and                               Planning Scenario (NPS) #1: Improvised Nuclear Device.
evaluating the continuity capabilities of executive branch                           The CFTC fully participated in EH-10. The CFTC deployed 15
departments and agencies. CFTC’s performance in EH-10                                members of its continuity team to its continuity facility and
was evaluated by a third party contractor.                                           tested its Continuity of Operations Plan (COOP) capabili-
                                                                                     ties within two hours of EH-10 activation. Once activated,
The exercise objectives as outlined by the U.S. Department
                                                                                     the continuity team conducted day-to-day business functions
of Homeland Security (DHS/FEMA) were to:
                                                                                     that directly support the Commission’s primary mission
■■ Evaluate the Federal executive branch continuity alert,                           essential function (PMEF) from its alternate site and, through
    notification, deployment and status reporting proce-                             observations, provided recommendations for improvements
    dures in accordance with Continuity of Government                                or validated current capabilities and procedures.
    Readiness Conditions (COGCON) levels;

■■ Review and update Department and Agency family                                    Performance Highlights
    support planning;
                                                                                     In June 2009, the White House validated the CFTC’s
■■ Assist Department and Agency ability to support essen-                            Mission Essential and Primary Mission Essential Functions.
    tial functions and conduct operations from preplanned                            Validation of the agency’s functions formally provides both
    alternate locations;                                                             the foundation and the goal of CFTC continuity planning
                                                                                     and preparedness for FY 2009 and beyond. The CFTC’s


18	The2010 National Exercise focused on evaluating continuity capabilities, identifying areas for improvement and enhancing interdependencies with sister agencies;
  and as such, did not initiate with a “cold start”.


         Management’s                                                                            Other Accompanying
         Discussion & Analysis
                                      Performance Section             Financial Section
                                                                                                 Information
                                                                                                                                 Appendix          CFTC 125
continuity program continues to improve through ongoing         ■■ Had the appropriate staffing for the directed COGCON
exercise participation, interagency coordination through              level;
the recently established “Small Agency Council Continuity
                                                                ■■ Indicated that status of the primary continuity facility
Committee,” IT enhancements, and communications
                                                                      was “GREEN”;
enhancement and cooperation.
                                                                ■■ Was able to track the locations of agency leadership and
During the EH-10, the CFTC Lead Exercise Planner reported
                                                                      successors per the directed COGCON level; and
on CFTC’s COGCON status. Specifically, it was demon-
strated, through the activation of its COOP in EH-10, that      ■■ Indicated that vital records and/or software were acces-
the CFTC:                                                             sible/available and operational at the primary continu-
                                                                      ity facility.
■■ Was able to achieve its directed COGCON level;
                                                                The CFTC’s exercise contractor noted two broad areas of
■■ Would be able to fully execute its PMEFs;
                                                                importance. First, “that the CFTC fully accomplished the
■■ Required that continuity communications were                 major things being exercised: the ability to successfully
   operational;                                                 relocate and the ability, once relocated, to carry out day-to-
                                                                day missions of the CFTC.” And, second, “the positive
■■ Provided up to date information in the currently
                                                                attitude of CFTC personnel to take the exercise seriously, to
   published communications plan;
                                                                adequately prepare for it, and then to ask the kinds of ques-
■■ Was able to meet directed COGCON level staffing              tions that are necessary to support long-term continuity
   requirements;                                                program development.”




                        Management’s                                                               Other Accompanying
126 CFTC                Discussion & Analysis
                                                Performance Section            Financial Section
                                                                                                   Information
                                                                                                                        Appendix
                                                                          P E RF O R M A N C E S E C T I O N




  Performance Measure 4.4.1 Audit opinion of the Commission’s annual financial statements as reported
  by the CFTC’s external auditors.




Lead Program Office                                                  Performance Highlights
Office of Financial Management                                       The CFTC 2010 Financial Statements were presented fairly,
                                                                     in all material respects, and in conformity with the GAAP
                                                                     for Federal agencies.
Performance Analysis & Review
The public accounting firm KPMG LLP, on behalf of the
Inspector General, reported that the Commission’s financial
statements were presented fairly, in all material respects, and
were in conformity with the GAAP for Federal agencies.




     Management’s                                                             Other Accompanying
     Discussion & Analysis
                             Performance Section      Financial Section
                                                                              Information
                                                                                                       Appendix   CFTC 127
  Performance Measure 4.4.2 Number of material internal control weaknesses reported in the Performance
  and Accountability Report.




Lead Program Office                                                Performance Highlights
Office of Financial Management                                     The CFTC had no material weaknesses in FY 2010.


Performance Analysis & Review
During FY 2006, Commission error and other deficiencies
led KPMG to find that there were material weaknesses in the
controls over financial reporting. The Commission took
corrective actions in FY 2007 to remediate two of the three
components of that material weakness finding. The areas of
controls that were corrected were over leases and civil
monetary sanctions. The last component of the material
weakness, the process for estimating year-end accounts
payable and accruals was repeated; however, it was down-
graded to a significant deficiency. In FY 2008, the significant
deficiency related to accruals was remediated.




                          Management’s                                                         Other Accompanying
128 CFTC                  Discussion & Analysis
                                                   Performance Section     Financial Section
                                                                                               Information
                                                                                                                     Appendix
                                                                       P E RF O R M A N C E S E C T I O N




  Performance Measure 4.4.3 Number of non-compliance disclosures in the audit report.




Lead Program Office                                               Performance Highlights
Office of Financial Management                                    The CFTC was in substantial compliance with laws and
                                                                  regulations in FY 2010.

Performance Analysis & Review
The CFTC improved its audit results over previous years by
coming into substantial compliance with laws and regula-
tions in FY 2007. Moving to compliance was greatly facili-
tated by migrating to a financial management systems
platform operated by the DOT Enterprise Service Center, an
OMB-designated financial management line of business
service provider. This business arrangement has enabled the
CFTC to accumulate, analyze, and present reliable financial
information, provide reliable, timely information for
managing current operations, and achieve timely reporting
of financial information to central agencies.




    Management’s                                                           Other Accompanying
    Discussion & Analysis
                             Performance Section   Financial Section
                                                                           Information
                                                                                                    Appendix   CFTC 129
FINANCIAL SECTION




 	132	 A Message from the
 	 	   Chief Financial Officer

 133	 Limitations of Financial
 		    Statements

 134	 Principal Financial
 		    Statements

 139	 Notes to the Financial
 		    Statements

 150	 Report of the
 		    Independent Auditors
A Message From the Chief Financial Officer

  T             he public accounting firm, KPMG LLP, on
                behalf of the Inspector General, reported that
                the Commission’s financial statements were
  presented fairly, in all material respects, and were in confor-
  mity with U.S. generally accepted accounting principles.
                                                                         to accumulate, analyze, and present reliable financial infor-
                                                                         mation, or provide reliable, timely information for
                                                                         managing current operations and timely reporting of finan-
                                                                         cial information to central agencies.       Furthermore, our
                                                                         system is in substantial compliance with the Federal
                                                                         Financial Management Improvement Act (FFMIA) of 1996
  For the fourth consecutive year the Commission had no                  (although CFTC is not required to comply with FFMIA, it
  material weaknesses, and was compliant with laws and                   has elected to do so).
  regulations. This includes substantial compliance with the
  Federal Information Security Management Act. No signifi-
  cant deficiencies in the controls over financial reporting
  were identified during the last three fiscal years.
                                                                                         Mark Carney
                                                                                         Chief Financial Officer
  The CFTC leverages a financial management systems                                      November 15, 2010
  platform    operated     by   the     U.S.        Department     of
  Transportation’s Enterprise Service Center, an Office of
  Management and Budget designated financial manage-
  ment service provider. As a consequence, the CFTC is able




                            Management’s                                                                Other Accompanying
  132 CFTC                  Discussion & Analysis
                                                         Performance Section      Financial Section
                                                                                                        Information
                                                                                                                              Appendix
Limitations of Financial Statements
Management has prepared the accompanying financial statements to report the financial position and operational results
for the CFTC for FY 2010 and FY 2009 pursuant to the requirements of Title 31 of the U.S. Code, section 3515 (b).

While these statements have been prepared from the books and records of the Commission in accordance with GAAP
for Federal entities and the formats prescribed by OMB Circular A-136, Financial Reporting Requirements, these statements
are in addition to the financial reports used to monitor and control budgetary resources, which are prepared from the
same books and records.

The statements should be read with the understanding that they
represent a component of the U.S. government, a sovereign
entity. One implication of this is that the liabilities presented
herein cannot be liquidated without the enactment of
appropriations, and ongoing operations are subject to the
enactment of future appropriations.
             Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2010 and 2009

                                                                                                   2010                     2009


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 2)                                                    $	 44,321,898          $	 43,961,950
  	   Accounts Receivable (Note 3)                                                           	              -                   8,570
  	   Prepayments (Note 1H)                                                                            6,449                  15,138
  	   Total Intragovernmental                                                                     44,328,347               43,985,658

  Custodial Receivables, Net (Note 3)                                                              2,319,934                1,703,220
  Accounts Receivable (Note 3)                                                                         4,836                    9,637
  General Property, Plant and Equipment, Net (Note 4)                                             31,507,154               10,346,721
  Prepayments (Note 1H)                                                                             635,508                  542,943

  Total Assets                                                                               $	 78,795,779          $	 56,588,179

  Liabilities
  Intragovernmental:
  	   FECA Liabilities (Note 7)                                                              $	      45,012         $	        37,362
  	   Accounts Payable                                                                              426,691                  450,004
  	   Total Intragovernmental                                                                       471,703                  487,366

  Accounts Payable                                                                                 7,223,342                3,631,176
  Accrued Funded Payroll                                                                           6,835,767                5,101,251
  Annual Leave                                                                                     7,624,369                6,427,995
  Actuarial FECA Liabilities (Note 7)                                                               211,789                  170,170
  Custodial Liabilities                                                                            2,319,934                1,703,220
  Deposit Fund Liabilities                                                                           22,226                  142,279
  Deferred Lease Liabilities (Note 8)                                                             12,174,352                3,226,161
  Other                                                                                                7,226                    7,513
  Total Liabilities                                                                          $	 36,890,708          $	 20,897,131

  Net Position
  Cumulative Results of Operations                                                           $	 11,455,579          $	       491,751
  Unexpended Appropriations                                                                       30,449,492               35,199,297
  Total Net Position                                                                              41,905,071               35,691,048

  Total Liabilities and Net Position                                                         $	 78,795,779          $	 56,588,179
The accompanying notes are an integral part of these financial statements.




                             Management’s                                                             Other Accompanying
134 CFTC                     Discussion & Analysis
                                                      Performance Section    Financial Section
                                                                                                      Information
                                                                                                                                 Appendix
                                                                              FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2010 and 2009

                                                                                              2010                          2009

  Net Cost by Goal (Note 14)
  Goal 1: Ensure the economic vitality of the commodity futures and option markets

  Gross Costs                                                                           $	   54,253,048               $	   40,745,079
  Less: Earned Revenue                                                                          (22,988)              	       (31,609)

  Net Cost of Operations – Goal One                                                     $	   54,230,060               $	   40,713,470

  Goal 2: Protect market users and the public

  Gross Costs                                                                           $	   38,994,379               $	   30,230,220
  Less: Earned Revenue                                                                          (16,523)              	       (23,452)

  Net Cost of Operations – Goal Two                                                     $	   38,977,856               $	   30,206,768

  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets

  Gross Costs                                                                           $	   42,385,194               $	   30,230,220
  Less: Earned Revenue                                                                          (17,960)              	       (23,452)

  Net Cost of Operations – Goal Three                                                   $	   42,367,234               $	   30,206,768

  Goal 4: Facilitate Commission performance through organizational and management
  excellence, efficient use of resources, and effective mission support

  Gross Costs                                                                           $	   33,908,155               $	   30,230,220
  Less: Earned Revenue                                                                          (14,368)              	       (23,452)

  Net Cost of Operations – Goal Four                                                    $	   33,893,787               $	   30,206,768

  Grand Total

  Gross Costs                                                                           $	 169,540,776                $	 131,435,739
  Less: Earned Revenue                                                                          (71,839)              	      (101,965)

  Total Net Cost of Operations                                                          $	 169,468,937                $	 131,333,774
The accompanying notes are an integral part of these financial statements.




    Management’s                                                                Other Accompanying
    Discussion & Analysis
                               Performance Section        Financial Section
                                                                                Information
                                                                                                           Appendix         CFTC 135
Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2010 and 2009

                                                                                                 2010                        2009


  Cumulative Results of Operations
  Beginning Balances, October 1                                                        $	        491,751            $	 (5,224,895)

  Budgetary Financing Sources

  Appropriations Used                                                                       172,621,037                  131,635,050


  Other Financing Sources
  	   Imputed Financing Sources                                                               7,811,728                    5,415,370

  Net Cost of Operations                                                                   (169,468,937)                (131,333,774)

  Net Change                                                                           	     10,963,828             	      5,716,646

  Total Cumulative Results of Operations, September 30                                 $	 11,455,579                $	       491,751

  Unexpended Appropriations
  Beginning Balances, October 1                                                        $	 35,199,297                $	 22,125,749

  Budgetary Financing Sources
  	   Appropriations Received                                                               168,800,000                  146,000,000
  	   Less: Canceled                                                                             (928,768)                (1,291,402)
  	   Appropriations Used                                                                  (172,621,037)                (131,635,050)
  		 Total Budgetary Financing Sources                                                       (4,749,805)                  13,073,548

  Total Unexpended Appropriations, September 30                                        $	 30,449,492                $	 35,199,297

  Net Position                                                                         $	 41,905,071                $	 35,691,048
The accompanying notes are an integral part of these financial statements.




                           Management’s                                                                 Other Accompanying
136 CFTC                   Discussion & Analysis
                                                      Performance Section    Financial Section
                                                                                                        Information
                                                                                                                                    Appendix
                                                                              FINANCIAL SECTION



Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2010 and 2009

                                                                                                       2010                   2009

  Budgetary Resources
  Unobligated Balance, October 1                                                               $	      2,893,603      $	     4,746,653
  Recoveries of Prior Year Unpaid Obligations                                                            812,898               930,496
  Total Prior Resources                                                                                3,706,501             5,677,149
  Budget Authority:
  	    Appropriation                                                                                 168,800,000           146,000,000
  	    Spending Authority from Offsetting Collections
  		 Collected                                                                                          207,298               184,243
  		 Change in Receivables from Federal Sources                                                         (10,600)                3,160
  	 Change in Unfilled Customer Orders
  		 Advance Received                                                                                    (286)                (2,446)
  		 Without Advance from Federal Sources                                                             (10,171)                12,380
  Total New Resources                                                                          $	 168,986,241         $	 146,197,337
  Permanently Not Available:
  	    Cancellation of Expired Accounts                                                                 (928,768)           (1,291,402)

  Total Budgetary Resources                                                                    $	 171,763,974         $	 150,583,084

  Status of Budgetary Resources
  Obligations Incurred:
  Direct
  	 Obligations Incurred, Direct                                                                     168,760,472           147,582,499
  	 Obligations Incurred, Reimbursable                                                         $	         58,670      $	       106,982
  Total Obligations Incurred (Note 11)                                                               168,819,142           147,689,481
  Unobligated Balance
  Apportioned:
  	 Unobligated Balance Apportioned                                                                      460,075               222,131
  	 Unobligated Balance Not Available                                                                  2,484,757             2,671,472

  Total Status of Budgetary Resources                                                          $	 171,763,974         $	 150,583,084

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	 Unpaid Obligations                                                                         $	  40,957,240         $	  22,935,810
  	 Uncollected Customer Payments from Federal Sources                                                (31,174)               (15,634)
  Net Obligated Balance, October 1                                                             $	 40,926,066          $	 22,920,176
  Gross Obligations Incurred, Net                                                                 168,819,142            147,689,481
  Gross Outlays                                                                                  (167,598,242)          (128,737,555)
  Recoveries of Prior Year Unpaid Obligations                                                        (812,898)              (930,496)
  Change in Receivables from Federal Sources                                                           20,771                (15,540)
                                                                                               $	 41,354,839          $	 40,926,066
  Net Obligated Balance, September 30
  	 Unpaid Obligations                                                                         $	     41,365,242      $	    40,957,240
  	 Uncollected Customer Payments from Federal Sources                                                   (10,403)              (31,174)
  Net Obligated Balance, September 30                                                          $	     41,354,839      $	    40,926,066

  Net Outlays
  Gross Outlays                                                                                $	 167,598,242         $	 128,737,555
  Offsetting Collections Received                                                                    (207,011)              (646,925)
  Distributed Offsetting Receipts                                                                      (2,985)                  (828)

  Net Outlays                                                                                  $	 167,388,246         $	 128,089,802
The accompanying notes are an integral part of these financial statements.




      Management’s                                                              Other Accompanying
      Discussion & Analysis
                               Performance Section        Financial Section
                                                                                Information
                                                                                                           Appendix        CFTC 137
Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2010 and 2009

                                                                                                       2010                   2009



  Revenue Activity
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                           $	      676,649      $	        513,858
  	       Fines, Penalties, and Forfeitures                                                           75,177,834             17,376,121
  	       General Proprietary Receipts                                                                      2,985                    828
  Total Cash Collections                                                                              75,857,468             17,890,807
  Change in Custodial Receivables                                                                        616,714      	          (18,306)
  Total Custodial Revenue                                                                        $	   76,474,182      $	     17,872,501


  Disposition of Collections
  	       Transferred to Others, by Recipient:
  		 Transferred to Treasury                                                                     	    (75,857,468)    	      (17,890,807)
  		 Change in Custodial Liabilities                                                             	       (616,714)    	          (18,306)

  Net Custodial Activity                                                                         $	               -   $	               -
The accompanying notes are an integral part of these financial statements.




                              Management’s                                                              Other Accompanying
138 CFTC                      Discussion & Analysis
                                                      Performance Section    Financial Section
                                                                                                        Information
                                                                                                                                   Appendix
    Notes to the Financial Statements
                       As of and For the Fiscal Years Ended September 30, 2010 and 2009


Note 1. Summary of Significant                                     are appropriate for presenting fairly the entity’s assets, liabil-
Accounting Policies                                                ities, net cost of operations, changes in net position, and
                                                                   budgetary resources.
A. Reporting Entity
                                                                   The financial statements report on the CFTC’s financial
The Commodity Futures Trading Commission (CFTC) is an              position, net cost of operations, changes in net position,
independent agency of the executive branch of the Federal          budgetary resources, and custodial activities. The books and
Government. Congress created the CFTC in 1974 under the            records of the agency served as the source of information for
authorization of the Commodity Exchange Act (CEA) with the         preparing the financial statements in the prescribed formats.
mandate to regulate commodity futures and option markets           All agency financial statements and reports used to monitor
in the United States. The agency’s mandate was renewed and         and control budgetary resources are prepared from the same
expanded under the Futures Trading Acts of 1978, 1982, and         books and records. The statements should be read with the
1986; under the Futures Trading Practices Act of 1992; and         understanding that they are for a component of the U.S.
under the CFTC Reauthorization Act of 1995, and under the          Government, a sovereign entity.
Commodity Futures Modernization Act of 2000. Congress
passed the Food, Conservation, and Energy Act of 2008 (Farm        The Balance Sheets present the financial position of the
Bill), which reauthorized the Commission through FY 2013.          agency. The Statements of Net Cost present the agency’s
Since its inception, the CFTC has continuously operated            operating results; the Statements of Changes in Net Position
through authorized appropriations.                                 display the changes in the agency’s equity accounts.
                                                                   The Statements of Budgetary Resources present the sources,
The CFTC is responsible for ensuring the economic utility of       status, and uses of the agency’s resources and follow the
futures markets by encouraging their competitiveness and           rules for the Budget of the United States Government.
efficiency, ensuring their integrity, and protecting market        The Statements of Custodial Activity present the sources
participants against manipulation, abusive trade practices,        and disposition of collections for which the CFTC is the
and fraud.                                                         fiscal agent, or custodian, for the Treasury General Fund
                                                                   Miscellaneous Receipt accounts.
B. Basis of Presentation
                                                                   Throughout these financial statements, assets, liabilities,
The financial statements have been prepared to report the          revenues and costs have been classified according to the
financial position and results of operations for the CFTC,         type of entity with whom the transactions were made.
as required by the Chief Financial Officers’ Act of 1990           Intragovernmental assets and liabilities are those from or to
along with the Accountability of Tax Dollars Act of 2002,          other federal entities. Intragovernmental earned revenues are
and the Government Management Reform Act of 1994.                  collections or accruals of revenue from other federal entities,
They are presented in accordance with the form and content         and intragovernmental costs are payments or accruals to
requirements contained in Office of Management and                 other federal entities. The CFTC does not transact business
Budget (OMB) Circular No. A-136, “Financial Reporting              among its own operating units, and therefore, intra-entity
Requirements,” dated September 29, 2010.                           eliminations were not needed.

The principal financial statements have been prepared in
                                                                   C. Budgetary Resources and Status
all material respects from the agency’s books and records
in conformity with U.S. generally accepted accounting prin-        The CFTC is funded through congressionally approved
ciples (GAAP), as prescribed for the federal government by         appropriations. The CFTC is responsible for administering
the Federal Accounting Standards Advisory Board (FASAB).           the salaries and expenses of the agency through the execu-
The application and methods for applying these principles          tion of these appropriations.


    Management’s                                                             Other Accompanying
    Discussion & Analysis
                              Performance Section   Financial Section
                                                                             Information
                                                                                                      Appendix      CFTC 139
Congress annually enacts one-year appropriations that                 The CFTC does not maintain bank accounts of its own, has
provide the CFTC with the authority to obligate funds within          no disbursing authority, and does not maintain cash held
the respective fiscal year for necessary expenses to carry out        outside of Treasury. Treasury disburses funds for the agency
mandated program activities. In addition, Congress enacted            on demand. Spending authority from offsetting collections is
a permanent indefinite appropriation that is available until          recorded in the agency’s expenditure account and is available
expended. All appropriations are subject to quarterly appor-          for agency use subject to certain limitations.
tionment as well as Congressional restrictions.
                                                                      F. Accounts Receivable
The CFTC’s budgetary resources for FY 2010 consist of:
                                                                      Accounts receivable consists of amounts owed by other
■■   Unobligated balances of resources brought forward                federal agencies and the public to the CFTC and is valued net
     from the prior year,                                             of an allowance for uncollectible amounts. The allowance
                                                                      is based on past experience in the collection of receivables
■■   Recoveries of obligations in prior years, and
                                                                      and analysis of the outstanding balances. Accounts receivable
■■   New resources in the form of appropriations and                  arise from reimbursable operations, earned refunds or the
     spending authority from offsetting collections.                  Civil Monetary Sanctions program.

Unobligated balances associated with resources expiring at            G. General Property, Plant and Equipment
the end of the fiscal year remain available for five years after
expiration only for upward adjustments of prior year obliga-          Furniture, fixtures, equipment, information technology
tions, after which they are canceled and may not be used.             hardware and software, and leasehold improvements are capi-
All unused monies related to canceled appropriations are              talized and depreciated or amortized over their useful lives.
returned to Treasury and the canceled authority is reported as
                                                                      The CFTC capitalizes assets annually if they have useful lives
a line item on the Statements of Budgetary Resources and the
                                                                      of at least two years and an individual value of $25,000 or
Statements of Changes in Net Position.
                                                                      more. Bulk or aggregate purchases are capitalized when the
                                                                      individual useful lives are at least two years and a value of
D. Entity and Non-Entity Assets
                                                                      $25,000 or more. General Property, Plant and Equipment
Assets consist of entity and non-entity assets. Entity assets are     that do not meet the capitalization criteria are expensed
those assets that the CFTC has authority to use for its opera-        when acquired. Depreciation for equipment and software is
tions. Non-entity assets are those held by the CFTC that are          computed on a straight-line basis using a 5-year life. Leasehold
not available for use in its operations. Non-entity assets held       improvements are amortized over the remaining life of the
by the CFTC include deposit fund balances, custodial fines,           lease. The Commission’s assets are valued net of accumulated
interest, penalties, and administrative fees receivable, net.         depreciation.


E. Fund Balance with Treasury                                         H. Prepayments

Fund Balance with Treasury is the aggregate amount of the             Payments to federal and non-federal sources in advance of the
CFTC’s funds with Treasury in expenditure, receipt, and deposit       receipt of goods and services are recorded as prepayments, and
fund accounts. Appropriated funds recorded in expenditure             recognized as expenses when the related goods and services
accounts are available to pay current liabilities and finance         are received. Intragovernmental prepayments reported on
authorized purchases. Custodial collections recorded in the           the Balance Sheet were made primarily to the Department
deposit fund account and miscellaneous receipts accounts of           of Transportation (DOT) Enterprise Service Center for transit
the Treasury are not available for agency use. At fiscal year end,    subsidy services. Prepayments to the public were primarily
receipt account balances are cleared and returned to Treasury.        for software and subscription services.




                            Management’s                                                             Other Accompanying
140 CFTC                    Discussion & Analysis
                                                      Performance Section       Financial Section
                                                                                                     Information
                                                                                                                              Appendix
                                                                           FINANCIAL SECTION




I. Liabilities                                                       The agency’s employees participate in the Civil Service
                                                                     Retirement System (CSRS) or the Federal Employees’
The CFTC’s liabilities consist of actual and estimated amounts
                                                                     Retirement System (FERS). On January 1, 1987, FERS went
that are likely to be paid as a result of transactions covered
                                                                     into effect pursuant to Public Law 99-335. Most employees
by budgetary resources for which Congress has appropriated
                                                                     hired after December 31, 1983, are automatically covered by
funds or funding, or are otherwise available from reimburs-
                                                                     FERS and Social Security. Employees hired prior to January 1,
able transactions to pay amounts due.
                                                                     1984, could elect to either join FERS and Social Security or
Liabilities include those covered by budgetary resources in          remain in CSRS.
existing legislation and those not yet covered by budgetary
                                                                     For employees under FERS, the CFTC contributes an amount
resources. The CFTC liabilities not covered by budgetary
                                                                     equal to one percent of the employee’s basic pay to the tax
resources include:
                                                                     deferred Thrift Savings Plan and matches employee contribu-
■■   Intragovernmental Federal Employees Compensation                tions up to an additional four percent of pay. FERS and CSRS
     Act (FECA) liabilities,                                         employees can contribute a portion of their gross earnings to
                                                                     the plan up to IRS limits; however, CSRS employees receive no
■■   Annual leave benefits which will be funded by annual
                                                                     matching agency contribution.
     appropriations as leave is taken,

■■   Actuarial FECA liabilities,                                     L. Leases

■■   Custodial liabilities for custodial revenue transferred to      The CFTC does not have any capital lease liabilities. The oper-
     Treasury at fiscal year end,                                    ating leases consist of commercial property leases for the
                                                                     CFTC’s headquarters and regional offices. Lease expenses are
■■   Contingent liabilities,
                                                                     recognized on a straight-line basis.
■■   Deposit funds,
                                                                     M. Deposit Funds
■■   Deferred lease liabilities, and
                                                                     Deposit funds are expenditure accounts used to record monies
■■   Advances received for reimbursable services yet to be
                                                                     that do not belong to the Federal government. They are held
     provided.
                                                                     awaiting distribution based on a legal determination or inves-
                                                                     tigation. The CFTC deposit fund is used to record and later
The CFTC’s liabilities that are covered by budgetary resources
                                                                     distribute collections of monetary awards to the appropriate
are considered current liabilities.
                                                                     victims as restitution. The cash collections recorded in this
                                                                     fund are offset by a Deposit Liability. Activities in this fund are
J. Accounts Payable
                                                                     not fiduciary in nature because they are not legally enforce-
Accounts payable consists primarily of contracts for goods           able against the government.
or services, such as leases, utilities, telecommunications, and
consulting and support services.                                     N. Net Position

                                                                     Net position consists of unexpended appropriations and
K. Accrued Payroll and Benefits and
                                                                     cumulative results of operations. Unexpended appropriations
Annual Leave Liability
                                                                     are appropriations that have not yet been used to acquire
The accrued payroll liability represents amounts for salaries        goods and services or provide benefits. Appropriations are
and benefits owed for the time since the payroll was last paid       considered expended, or used, when goods and services have
through the end of the reporting period. The annual leave            been acquired by the CFTC or benefits have been provided
liability is the amount owed employees for unused annual             using the appropriation authority, regardless of whether
leave as of the end of the reporting period. At the end of each      monies have been paid or payables for the goods, services,
quarter, the balance in the accrued annual leave account is          or benefits have been established. Appropriations are used
adjusted to reflect current balances and pay rates. Sick leave       primarily to acquire goods and services to operate the CFTC’s
and other types of non-vested leave are expensed as taken.           programs or to provide benefits.



      Management’s                                                             Other Accompanying
      Discussion & Analysis
                               Performance Section    Financial Section
                                                                               Information
                                                                                                         Appendix      CFTC       141
Cumulative results of operations represent the excess of           ■■    Facilitate Commission performance through organi-
financing sources over expenses since inception. Cumulative              zational and management excellence, efficient use of
results of operations are derived from the net effect of                 resources, and effective mission support.
capitalized assets, expenses, exchange revenue, and unfunded
liabilities.                                                       Q. Custodial Activity

                                                                   The CFTC collects penalties and fines levied against firms for
O. Revenues
                                                                   violation of laws as described in the Commodity Exchange Act
The CFTC receives reimbursement and earns revenue for the          as codified at 7 U.S.C. § 1, et seq, and the Commodities Futures
following activities:                                              Modernization Act of 2000, Appendix E of P.L. 106-554, 114
                                                                   Stat. 2763. Unpaid fines, penalties and accrued interest are
■■   Reimbursement for travel, subsistence, and related            reported as custodial receivables, with an associated custo-
     expenses from non-federal sources for attendance at           dial liability. The receivables and the liability are reduced by
     meetings or similar functions that an employee has            amounts determined to be uncollectible. Revenues earned
     been authorized to attend in an official capacity on          and the losses from bad debts are reported to Treasury.
     behalf of the Commission.
                                                                   Collections made by the CFTC during the year are deposited
■■   Reimbursement for Intergovernmental Personnel Act
                                                                   and reported into designated Treasury miscellaneous receipt
     Mobility Program assignments from state and local
                                                                   accounts for:
     governments, institutions of higher education, and
     other eligible organizations for basic pay, supplemental      ■■    Registration and filing fees,
     pay, fringe benefits, and travel and relocation expenses.
                                                                   ■■    Fines, penalties and forfeitures, and
■■   Reimbursement from non-federal sources for registration
     fees to cover the cost of expenses related to the CFTC’s      ■■    General proprietary receipts.
     annual International Regulators Conference.
                                                                   At fiscal year end, custodial collections made by the CFTC
                                                                   are returned to Treasury. The CFTC does not retain any
P. Net Cost of Operations
                                                                   amount for custodial activities including reimbursement of
Net cost of operations is the difference between the CFTC’s        the cost of collection.
expenses and its earned revenue. The presentation of program
results by strategic goals is based on the CFTC’s current          R. Use of Management Estimates
Strategic Plan established pursuant to the Government
                                                                   The preparation of the accompanying financial statements in
Performance and Results Act of 1993.
                                                                   accordance with accounting principles generally accepted in
The mission statement of the CFTC is to protect market users       the United States of America requires management to make
and the public from fraud, manipulation, and abusive prac-         certain estimates and assumptions that directly affect the
tices related to the sale of commodity and financial futures       results of reported assets, liabilities, revenues, and expenses.
and options, and to foster open, competitive, and financially      Actual results could differ from these estimates.
sound futures and option markets. The mission is accom-
plished through four strategic goals, each focusing on a vital     S. Reconciliation of Net Obligations and Net Cost
area of regulatory responsibility:                                 of Operations

                                                                   In accordance with OMB Circular No. A-136, the Commission
■■   Ensure the economic vitality of the commodity futures
                                                                   reconciles its change in budgetary obligations with its net cost
     and option markets;
                                                                   of operations.
■■   Protect market users and the public;

■■   Ensure market integrity in order to foster open, compet-
     itive, and financially sound markets; and



                           Management’s                                                             Other Accompanying
142 CFTC                   Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                    Information
                                                                                                                           Appendix
                                                                        FINANCIAL SECTION




Note 2. Fund Balance with Treasury

A. Reconciliation to Treasury

There are no differences between the Fund Balance reflected
in the CFTC Balance Sheets and the balance in the Treasury
accounts.


B. Fund Balance with Treasury

Fund Balances with Treasury consist of entity assets such as
appropriations and reimbursements for services rendered.
Obligation of these funds is controlled by quarterly appor-
tionments made by OMB. Work performed under reim-
bursable agreements is initially financed by the annual
appropriation and is subsequently reimbursed.

Fund Balance with Treasury at September 30, 2010 and
2009 consisted of the following:


                                                                                                   2010               2009
  Appropriated Funds                                                                      $	   44,299,672   $	    43,819,671
  	    Deposit Fund                                                                               22,226            142,279

  TOTAL APPROPRIATED FUND BALANCE WITH TREASURY                                           $	   44,321,898   $	    43,961,950



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2010
and 2009 consisted of the following:

                                                                                                   2010               2009
  Appropriated Funds
  Unobligated Fund Balance
  	    Available                                                                          $	     460,075    $	      222,131
  	    Unavailable                                                                              2,474,355          2,640,300
  Obligated Balance Not Yet Disbursed                                                          41,365,242         40,957,240
  Total Appropriated Funds                                                                     44,299,672         43,819,671

  Deposit Fund                                                                                    22,226            142,279

  Total Fund Balance with Treasury                                                        $	   43,321,898   $	    43,961,950




      Management’s                                                        Other Accompanying
      Discussion & Analysis
                              Performance Section   Financial Section
                                                                          Information
                                                                                                 Appendix        CFTC 143
Note 3. Accounts Receivable
Accounts receivable consist of amounts owed the CFTC by             Historical experience has indicated that a high percentage of
other Federal agencies and the public. Accounts receivable are      custodial receivables prove uncollectible. The Commission’s
valued at their net collectable values. Non-custodial accounts      methodology used to estimate the allowance for uncollectible
receivable are primarily for overpayments of expenses to other      amounts related to custodial accounts, considers all receiv-
agencies, or vendors, and repayment of employee benefits.           ables to be 100% uncollectible unless deemed otherwise. An
Historical experience has indicated that most of the non-           allowance for uncollectible accounts has been established
custodial receivables are collectible and there are no material     and included in accounts receivable on the balance sheets.
uncollectible amounts.                                              The allowance is based on past experience in the collection
                                                                    of accounts receivable and analysis of outstanding balances.
Custodial receivables (non-entity assets) are those for which       Accounts are re-estimated quarterly based on account reviews
fines and penalties have been assessed and levied against           and the agency determination that changes to the net realiz-
businesses or individuals for violations of the Commodity           able value are needed.
Exchange Act (CEA) or Commission regulations. Violators
may be subject to a variety of sanctions including fines,           Accounts receivable, as of September 30, 2010 and 2009,
injunctive orders, bars or suspensions, rescissions of illegal      consisted of the following:
contracts, disgorgements, and restitutions to customers.


                                                                                                               2010                   2009
  Custodial Receivables, Net:
  	   Civil Monetary Penalty Interest                                                             $	       519,602      $	        1,837,945
  	   Civil Monetary Penalties, Fines, and Administrative Fees                                         192,490,613             224,068,663
  	   Less: Allowance for Loss on Interest                                                                 (519,602)    	        (1,834,753)
  	   Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                            (192,219,935)    	      (223,040,935)
  Registration and Filing Fees                                                                            2,049,256                672,300

  Net Custodial RECEIVABLES                                                                               2,319,934     $	        1,703,220

  Other Accounts Receivable                                                                       $	          4,836     $	           18,207

  ACCOUNTS RECEIVABLE, NET                                                                        $	      2,324,770     $	        1,721,427


Note 4. General Property, Plant and Equipment
Equipment and information technology (IT) assets are capi-          Depreciation for equipment and software is computed on a
talized annually if they have useful lives of at least two years    straight-line basis using a 5-year life. Leasehold improvements
and an individual value of $25,000 or more. Bulk or aggre-          are amortized over the remaining life of the lease. General
gate purchases are capitalized when the individual useful           Property, Plant and Equipment as of September 30, 2010 and
lives are at least two years and a value of $25,000 or more.        2009 consisted of the following:




                           Management’s                                                                   Other Accompanying
144 CFTC                   Discussion & Analysis
                                                    Performance Section       Financial Section
                                                                                                          Information
                                                                                                                                      Appendix
                                                                              FINANCIAL SECTION




  2010                                                                                                 Accumulated
                                                                                                       Amortization/         Net Book
  Major Class                       Service Life and Method                            Cost            Depreciation           Value

  Equipment                         5 Years/Straight Line                        $	 16,216,141     $	     (3,676,813)   $	 12,539,328
  IT Software                       5 Years/Straight Line                            7,942,333     	      (3,230,165)         4,712,168
  Software in Development           Not Applicable                                   1,778,364     	                -         1,778,364
  Leasehold Improvements            Remaining Life of Lease/Straight Line          12,346,711      	       (653,766)         11,692,945
  Construction In Progress          Not Applicable                                     784,349     	                -           784,349

                                                                                 $	 39,067,898     $	     (7,560,744)   $	   31,507,154


  2009                                                                                                 Accumulated
                                                                                                       Amortization/         Net Book
  Major Class                       Service Life and Method                            Cost            Depreciation           Value

  Equipment                         5 Years/Straight Line                        $	 7,327,516      $	     (1,552,199)   $	    5,775,317
  IT Software                       5 Years/Straight Line                            4,760,185     	      (2,087,920)         2,672,265
  Software in Development           Not Applicable                                   1,293,029     	                -         1,293,029
  Leasehold Improvements            Remaining Life of Lease/Straight Line              673,456     	         (67,346)           606,110

                                                                                 $	 14,054,186         $	 (3,707,465)   $	 10,346,721


Note 5. Liabilities Not Covered by Budgetary Resources
As of September 30, 2010 and 2009, the following liabilities
were not covered by budgetary resources:

                                                                                                               2010                2009

  Intragovernmental –­ FECA Liabilities                                                           $	           45,012   $	        37,362
  Annual Leave                                                                                              7,624,369          6,427,995
  Actuarial FECA Liabilities                                                                                 211,789             170,170
  Custodial Liabilities                                                                                     2,319,934          1,703,220
  Deposit Fund Liabilities                                                                                     22,226            142,279
  Deferred Lease Liabilities                                                                               12,174,352          3,226,161
  Other                                                                                                         7,226              7,513

  Total Liabilities Not Covered by Budgetary Resources                                            $	       22,404,908   $	    11,714,700


Note 6. Retirement Plans and Other Employee Benefits
The CFTC imputes costs and the related financing sources for             Full costs include pension and ORB contributions paid out
its share of retirement benefits accruing to its past and present        of the CFTC’s appropriations and costs financed by OPM.
employees that are in excess of the amount of contributions              The amount financed by OPM is recognized as an imputed
from the CFTC and its employees, which are mandated by law.              financing source. This amount was $7,811,728 for the year
The Office of Personnel Management (OPM), which admin-                   ended September 30, 2010 and $5,415,370 for the year ended
isters federal civilian retirement programs, provides the cost           September 30, 2009. Reporting amounts such as plan assets,
information to the CFTC. The CFTC recognizes the full cost               accumulated plan benefits, or unfunded liabilities, if any, is
of providing future pension and Other Retirement Benefits                the responsibility of OPM.
(ORB) for current employees as required by Statement of
Federal Financial Accounting Standards (SFFAS) No. 5,                    Liabilities for future pension payments and other future
“Accounting for Liabilities of the Federal Government”.                  payments for retired employees who participate in the
                                                                         Federal Employees Health Benefits Program and the Federal
                                                                         Employees Group Life Insurance Program are reported by
                                                                         OPM rather than CFTC.

     Management’s                                                                 Other Accompanying
     Discussion & Analysis
                               Performance Section        Financial Section
                                                                                  Information
                                                                                                             Appendix        CFTC 145
Note 7. Actuarial FECA Liabilities                                   As of September 30, 2010, future estimated minimum lease
                                                                     payments through FY 2025 are as follows:
FECA provides income and medical cost protections to
covered federal civilian employees injured on the job, to                  Fiscal Year                                        Dollars

employees who have incurred work-related occupational                      2011                                       $	 13,532,172

diseases and to beneficiaries of employees whose deaths are                2012                                             13,334,015
attributable to job-related injuries or occupational diseases.             2013                                             12,361,180
The FECA program is administered by the U.S. Department of                 2014                                             12,608,931
Labor (DOL), which pays valid claims against the CFTC and                  2015                                             12,676,218
subsequently seeks reimbursement from the CFTC for these                   2016                                              4,541,493
paid claims. Accrued FECA liabilities represent amounts due                2017                                              4,636,840
to DOL for claims paid on behalf of the agency. Accrued                    2018                                              4,734,105
FECA liabilities at September 30, 2010 and September 30,                   2019                                              4,833,307
2009 were $45,012 and $37,362, respectively.                               2020                                              4,934,462
                                                                           2021                                              5,086,980
Actuarial FECA liability represents the liability for future
                                                                           2022                                              4,798,802
workers compensation (FWC) benefits, which includes the
                                                                           2023                                              3,694,929
expected liability for death, disability, medical, and miscel-
                                                                           2024                                              3,769,016
laneous cost for approved cases. The liability is determined
                                                                           2025                                              3,844,279
using a formula provided by DOL annually as of September
                                                                           Total Minimum lease payments                    109,386,729
30th using a method that utilizes historical benefits payment
                                                                           Add: Amount representing estimated
patterns related to a specific incurred period to predict the              executory costs (taxes, maintenance,
ultimate payments related to that period.          The projected           and insurance)                                   19,643,437
annual benefits payments are discounted to present value
                                                                           Total minimum lease
using OMB’s economic assumptions for ten-year Treasury                     payments, including                         $	129,030,166
notes and bonds. To provide more specifically for effects                  estimated executory costs
of inflation on the liability for FWC benefits, wage inflation
factors (Consumer Price Index-Medical) are applied to the            Lease expense is recognized on a straight-line basis because
calculation of projected future benefits. These factors are also     lease payment amounts vary, and in some cases, CFTC receives
used to adjust historical payments so benefits are stated in         periods of up-front free rent, or incentive contributions
current-year constant dollars. Actuarial FECA liabilities at         paid by the landlord. In FY 2010, the Commission received
September 30, 2010 and September 30, 2009 were $211,789              $6,629,880 in incentive awards for the renovation of space
and $170,170, respectively.                                          in Washington D.C. and Chicago. A deferred lease liability
                                                                     representing expense amounts in excess of payments to date
                                                                     has been recorded. The deferred lease liabilities at September
Note 8. Leases
                                                                     30, 2010 and September 30, 2009 were $12,174,352 and
The CFTC leases office space in publicly owned buildings for         $3,226,161 respectively.
its locations in Washington D.C., Chicago, New York, and
Kansas City. The lease contracts for publicly owned buildings        Note 9. Contingent Liabilities
are operating leases. The CFTC has no real property. Future
estimated minimum lease payments are not accrued as liabili-         The CFTC records commitments and contingent liabilities

ties and are expensed on a straight-line basis.                      for legal cases in which payment has been deemed probable
                                                                     and for which the amount of potential liability has been esti-
                                                                     mated, including judgments that have been issued against
                                                                     the agency and which have been appealed. Additionally, the
                                                                     Commission discloses legal matters in which an unfavorable




                           Management’s                                                               Other Accompanying
146 CFTC                   Discussion & Analysis
                                                     Performance Section          Financial Section
                                                                                                      Information
                                                                                                                                Appendix
                                                                                 FINANCIAL SECTION




outcome is reasonably possible. In FY 2010, the Commission                 Note 13. Explanation of Differences
was involved in a civil matter, which it believes the chance               between the Statement of Budgetary
of an unfavorable outcome to be reasonably possible. The                   Resources and Budget of the U.S.
potential loss in this case is estimated to be between $30,000             Government
and $40,000 plus attorney fees.
                                                                           The CFTC had no material differences between the amounts
                                                                           reported in the Statement of Budgetary Resources and the
Note 10. Undelivered Orders                                                actual amounts reported in the Budget of the U.S. Government
The amounts of budgetary resources obligated for undelivered               for FY 2009. The Budget of the U.S. Government with actual
orders as of September 30, 2010 and 2009 were as follows:                  numbers for FY 2010 has not yet been published. The expected
                                                                           publish date is February 2011. A copy of the Budget can be
                                       2010                  2009
                                                                           obtained from OMB’s Internet site at http://www.whitehouse.
  Undelivered Orders         $	 27,521,399       $	 32,332,889
                                                                           gov/omb/.

The amount of undelivered orders represents the value of
unpaid and paid obligations recorded during the fiscal year,               Note 14. Intra-governmental Cost
upward adjustments of obligations that were originally                     and Exchange Revenue by Goal
recorded in a prior fiscal year, and recoveries resulting from             As required by the Government Performance and Results Act
downward adjustments of obligations that were originally                   of 1993, the agency’s reporting has been aligned with the
recorded in a prior fiscal year.                                           following major goals presented in the 2007 – 2012 CFTC
                                                                           Strategic Plan.
Note 11. Apportionment Categories
of Obligations Incurred                                                         1.	    Ensure the Economic Vitality of the Commodity
                                                                                       Futures and Option Markets;
Obligations incurred and reported in the Statements of
                                                                                2.	    Protect Market Users and the Public;
Budgetary Resources in 2010 and 2009 consisted of the
following:                                                                      3.	    Ensure Market Integrity in Order to Foster Open,
                                                                                       Competitive, and Financially Sound Markets; and
                                        2010                 2009
                                                                                4.	    Facilitate Commission Performance Through
  Direct Obligations,
                              $	 168,760,472         $	 147,582,499                    Organizational       and   Management   Excellence,
  Category A
                                                                                       Efficient Use of Resources, and Effective Mission
  Reimbursable
                                       58,670              106,982
  Obligations, Category A                                                              Support.

  Total Obligations
                              $	 168,819,142         $	 147,689,481
  Incurred



Note 12. Permanent Indefinite
Appropriations
The CFTC’s permanent indefinite appropriation as authorized
by Public Law 107-38 funds emergency expenses to respond
to the terrorist attacks on the United States that occurred on
September 11, 2001. The fund provides support to deal with
consequences of the attacks and support national security.




     Management’s                                                                      Other Accompanying
     Discussion & Analysis
                               Performance Section          Financial Section
                                                                                       Information
                                                                                                                  Appendix   CFTC 147
The Net Cost of Operations is derived from transactions          costs and revenues, as well as those with the public, are as
between the Commission and public entities, as well as with      follows:
other Federal agencies. The details of the intra-governmental


                                                                                                 2010                          2009

  Goal 1: Ensure the economic vitality of the commodity futures and option markets
  Intragovernmental Gross Costs                                                   $	       9,980,841              $	        7,061,197
  Less: Earned Revenue                                                                          (11,954)          	           (12,591)
  Intragovernmental Net Cost of Operations                                        $	       9,968,887              $	        7,048,606
  Gross Costs with the Public                                                     $	      44,272,207              $	       33,683,882
  Less: Earned Revenue                                                                          (11,034)          	           (19,018)
  Net Cost of Operations with the Public                                          $	      44,261,173              $	       33,664,864

  Total Net Cost of Operations – Goal One                                         $	      54,230,060              $	       40,713,470

  Goal 2: Protect market users and the public
  Intragovernmental Gross Costs                                                   $	       7,173,729              $	        5,238,953
  Less: Earned Revenue                                                                           (8,592)          	            (9,342)
  Intragovernmental Net Cost of Operations                                        $	       7,165,137              $	        5,229,611
  Gross Costs with the Public                                                     $	      31,820,650              $	       24,991,267
  Less: Earned Revenue                                                                           (7,931)          	           (14,110)
  Net Cost of Operations with the Public                                          $	      31,812,719              $	       24,977,157

  Total Net Cost of Operations – Goal Two                                         $	      38,977,856              $	       30,206,768

  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets
  Intragovernmental Gross Costs                                                   $	       7,797,532              $	        5,238,953
  Less: Earned Revenue                                                                           (9,339)          	            (9,342)
  Intragovernmental Net Cost of Operations                                        $	       7,788,193              $	        5,229,611
  Gross Costs with the Public                                                     $	      34,587,662              $	       24,991,267
  Less: Earned Revenue                                                                           (8,621)          	           (14,110)
  Net Cost of Operations with the Public                                          $	      34,579,041              $	       24,977,157

  Total Net Cost of Operations – Goal Three                                       $	      42,367,234              $	       30,206,768

  Goal 4: Facilitate Commission performance through organizational and management
  excellence, efficient use of resources, and effective mission support
  Intragovernmental Gross Costs                                                   $	       6,238,025              $	        5,238,953
  Less: Earned Revenue                                                                           (7,471)                       (9,342)
  Intragovernmental Net Cost of Operations                                        $	       6,230,554              $	        5,229,611
  Gross Costs with the Public                                                     $	      27,670,130              $	       24,991,267
  Less: Earned Revenue                                                                           (6,897)                      (14,110)
  Net Cost of Operations with the Public                                          $	      27,663,233              $	       24,977,157

  Total Net Cost of Operations – Goal Four                                        $	      33,893,787              $	       30,206,768

  Net Cost of Operations                                                          $	    169,468,937               $	   131,333,774




                         Management’s                                                                 Other Accompanying
148 CFTC                 Discussion & Analysis
                                                 Performance Section        Financial Section
                                                                                                      Information
                                                                                                                                 Appendix
                                                                            FINANCIAL SECTION




Note 15. Reconciliation of Net Obligations and Net Cost of Operations

The schedule presented in this footnote reconciles the net             Resources in Future Periods identifies items that are recog-
obligations with the Net Cost of Operations. Resources Used            nized as a component of the Net Cost of Operations for the
to Finance Activities reflects the budgetary resources obligated       period but the budgetary resources (and related obligation)
and other resources used to finance the activities of the agency.      will not be provided (or incurred) until a subsequent period.
Resources Used to Finance Items Not Part of the Net Cost of            Components Not Requiring or Generating Resources includes
Operations adjusts total resources used to finance the activi-         items recognized as part of the Net Cost of Operations for the
ties of the entity to account for items that were included in net      period but will not generate or require the use of resources.
obligations and other resources but were not part of the Net           Net Cost of Operations agrees with the Net Cost of Operations
Cost of Operations. Components Requiring or Generating                 as reported on the Statements of Net Cost.


                                                                                                               2010                  2009

  Resources Used to Finance Activities
  Budgetary Resources Obligated
      Obligations Incurred                                                                           $	168,819,142         $	147,689,481
      Less: Spending Authority from Offsetting Collections and Recoveries                            	      (999,139)      	    (1,127,833)
  Obligations Net of Offsetting Collections and Recoveries                                               167,820,003           146,561,648
      Offsetting Receipts                                                                            	        (2,985)      	          (828)
      Net Obligations After Offsetting Receipts                                                          167,817,018           146,560,820

  Other Resources
      Imputed Financing from Cost Absorbed by Others                                                       7,811,728             5,415,370
  Total Resources Used to Finance Activities                                                         $	175,628,746         $	151,976,190

  Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in Budgetary Resources Obligated for Goods, Services, and Benefits
                                                                                                     	     4,801,033       	 (14,926,597)
      Ordered but not yet Provided
      Resources that Fund Expenses Recognized in Prior Periods (Decrease in
                                                                                                     	                 -   	       (79,519)
      Unfunded Liabilities)
      Offsetting Receipts                                                                                      2,985                  828
      Resources that Finance the Acquisition of Assets                                               	 (18,589,398)        	    (9,343,530)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations                       $	 (13,785,380)       $	 (24,348,818)

  Components of the Net Cost of Operations That Will
  not Require or Generate Resources in the Current Period
      Increase in Unfunded Liabilities                                                                     1,245,643             1,902,666
  Total Components of Net Cost of Operations that Will Require or Generate
                                                                                                     $	    1,245,643       $	    1,902,666
   Resources in Future Periods

  Components Not Requiring or Generating Resources
      Depreciation and Amortization                                                                        6,324,519             1,807,247
      (Gain)/Loss on Disposal                                                                                52,635        	             -
      Other                                                                                          	         2,774       	        (3,511)
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                                     $	    6,379,928       $	    1,803,736
   Resources
  Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                                     $	    7,625,571       $	    3,706,402
   Resources in the Current Period

  Net Cost of Operations                                                                             $	169,468,937         $	131,333,774




     Management’s                                                               Other Accompanying
     Discussion & Analysis
                              Performance Section       Financial Section
                                                                                Information
                                                                                                            Appendix           CFTC 149
 Report of the Independent Auditors

                                        KPMG LLP
                                        2001 M Street, NW
                                        Washington, DC 20036-3389




                                                    Independent Auditors’ Report


     Chairman and Inspector General of the
     U.S. Commodity Futures Trading Commission:

     We have audited the accompanying balance sheet of the Commodity Futures Trading Commission (CFTC)
     as of September 30, 2010, and the related statements of net cost, changes in net position, custodial activity,
     and budgetary resources (hereinafter referred to as “ financial statements”) for the year then ended. The
     objective of our audit was to express an opinion on the fair presentation of these financial statements. In
     connection with our fiscal year 2010 audit, we also considered CFTC’s internal control over financial
     reporting and tested CFTC’s compliance with certain provisions of applicable laws, regulations, and
     contracts that could have a direct and material effect on the financial statements. The accompanying
     financial statements as of September 30, 2009, were audited by other auditors whose report thereon, dated
     November 13, 2009, expressed an unqualified opinion on those financial statements.

     Summary
     As stated in our opinion on the financial statements, we concluded that CFTC’s financial statements as of
     and for the year ended September 30, 2010, are presented fairly, in all material respects, in conformity with
     U.S. generally accepted accounting principles. The accompanying financial statements as of September 30,
     2009, were audited by other auditors whose report thereon, dated November 13, 2009, expressed an
     unqualified opinion on those financial statements.

     Our consideration of internal control over financial reporting was not designed to identify all deficiencies
     in internal control over financial reporting that might be deficiencies, significant deficiencies, or material
     weaknesses. We did not identify any deficiencies in internal control over financial reporting that we
     consider to be material weaknesses as defined in the Internal Control Over Financial Reporting section of
     this report.

     The results of our tests of compliance with certain provisions of laws, regulations, and contracts disclosed
     no instances of noncompliance or other matters that are required to be reported under Government Auditing
     Standards, issued by the Comptroller General of the United States, and Office of Management and Budget
     (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

     The following sections discuss our opinion on CFTC’s financial statements; our consideration of CFTC’s
     internal control over financial reporting; our tests of CFTC’s compliance with certain provisions of
     applicable laws, regulations, and contracts; and management’s and our responsibilities.

     Opinion on the Financial Statements
     We have audited the accompanying balance sheet of the Commodity Futures Trading Commission as of
     September 30, 2010, and the related statements of net cost, changes in net position, custodial activity, and
     budgetary resources for the year then ended. The accompanying financial statements as of September 30,
     2009, were audited by other auditors whose report thereon, dated November 13, 2009, expressed an
     unqualified opinion on those financial statements.

                                             KPMG LLP is a Delaware limited liability partnership,
                                             the U.S. member firm of KPMG International Cooperative
                                             (“KPMG International”), a Swiss entity.




                     Management’s                                                                                         Other Accompanying
150 CFTC             Discussion & Analysis
                                                            Performance Section                       Financial Section
                                                                                                                          Information
                                                                                                                                               Appendix
                                                                         FINANCIAL SECTION




      Page 2 of 3


      In our opinion, the financial statements referred to above present fairly, in all material respects, the
      financial position of the Commodity Futures Trading Commission as of September 30, 2010, and its net
      costs, changes in net position, custodial activity, and budgetary resources for the year then ended, in
      conformity with U.S. generally accepted accounting principles.

      The information in the Management’s Discussion and Analysis section is not a required part of the
      financial statements, but is supplementary information required by U.S. generally accepted accounting
      principles. We have applied certain limited procedures, which consisted principally of inquiries of
      management regarding the methods of measurement and presentation of this information. However, we did
      not audit this information and, accordingly, we express no opinion on it.

      Internal Control Over Financial Reporting
      A deficiency in internal control exists when the design or operation of a control does not allow
      management or employees, in the normal course of performing their assigned functions, to prevent, or
      detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
      of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
      the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

      Our consideration of internal control over financial reporting was for the limited purpose described in the
      Responsibilities section of this report and was not designed to identify all deficiencies in internal control
      over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our
      fiscal year 2010 audit, we did not identify any deficiencies in internal control over financial reporting that
      we consider to be material weaknesses, as defined above.

      Compliance and Other Matters

      The results of our tests of compliance described in the Responsibilities section of this report, exclusive of
      those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
      be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

      The results of our tests of FFMIA disclosed no instances in which CFTC’s financial management systems
      did not substantially comply with the (1) Federal financial management systems requirements,
      (2) applicable Federal accounting standards, and (3) the United States Government Standard General
      Ledger at the transaction level.

                                                       *******

      Responsibilities
      Management’s Responsibilities. Management is responsible for the financial statements; establishing and
      maintaining effective internal control; and complying with laws, regulations, and contracts applicable to
      CFTC.

      Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2010 financial
      statements of CFTC based on our audit. We conducted our audit in accordance with auditing standards
      generally accepted in the United States of America; the standards applicable to financial audits contained in
      Government Auditing Standards, issued by the Comptroller General of the United States; and OMB
      Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan and perform the
      audit to obtain reasonable assurance about whether the financial statements are free of material
      misstatement. An audit includes consideration of internal control over financial reporting as a basis for
      designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing




Management’s                                                               Other Accompanying
Discussion & Analysis
                          Performance Section        Financial Section
                                                                           Information
                                                                                                      Appendix      CFTC   151
     Page 3 of 3


     an opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
     express no such opinion.

     An audit also includes:

          Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
           statements;
          Assessing the accounting principles used and significant estimates made by management; and
          Evaluating the overall financial statement presentation.
     We believe that our audit provides a reasonable basis for our opinion.

     In planning and performing our fiscal year 2010 audit, we considered CFTC’s internal control over
     financial reporting by obtaining an understanding of CFTC’s internal control, determining whether internal
     controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
     designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
     but not for the purpose of expressing an opinion on the effectiveness of CFTC’s internal control over
     financial reporting. Accordingly, we do not express an opinion on the effectiveness of CFTC’s internal
     control over financial reporting. We did not test all internal controls relevant to operating objectives as
     broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

     As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2010 financial statements are
     free of material misstatement, we performed tests of CFTC’s compliance with certain provisions of laws,
     regulations, and contracts, noncompliance with which could have a direct and material effect on the
     determination of the financial statement amounts, and certain provisions of other laws and regulations
     specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We
     limited our tests of compliance to the provisions described in the preceding sentence, and we did not test
     compliance with all laws, regulations, and contracts applicable to CFTC. However, providing an opinion
     on compliance with laws, regulations, and contracts was not an objective of our audit and, accordingly, we
     do not express such an opinion.

                                             ______________________________

     This report is intended solely for the information and use of CFTC’s management, CFTC’s Office of
     Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
     intended to be and should not be used by anyone other than these specified parties.




     November 10, 2010




                     Management’s                                                               Other Accompanying
152 CFTC             Discussion & Analysis
                                                  Performance Section    Financial Section
                                                                                                Information
                                                                                                                      Appendix
O t h e r Accomp a n y i n g
       I n fo r m a t i o n



  154	   Inspector General’s
  		     FY 2010 Assessment

  158	   Summary of Audit and
  		     Management Assurances
Inspector General’s FY 2010 Assessment
                               U.S. COMMODITY FUTURES TRADING COMMISSION
                                                         Three Lafayette Centre
                                              1155 21st Street, NW, Washington, DC 20581
                                                      Telephone: (202) 418-5110
                                                       Facsimile: (202) 418-5522



     Office of the
  Inspector General

      MEMORANDUM


       TO:                Gary Gensler
                          Chairman

       FROM:              A. Roy Lavik
                          Inspector General

        DATE:              November 10, 2010

        SUBJECT:           Inspector General’s Assessment of The Most Serious Management
                           Challenges Facing the Commodity Futures Trading Commission (CFTC)

       Introduction

      The Reports Consolidation Act of 2000 (RCA) authorizes the CFTC to provide financial and
      performance information in a more meaningful and useful format for Congress, the President,
      and the public, through publication of the Performance and Accountability Report (PAR). The
      RCA requires the Inspector General to summarize the “most serious” management and
      performance challenges facing the Agency and to assess the Agency’s progress in addressing
      those challenges, all for inclusion in the PAR. This memorandum fulfills our duties under the
      RCA.

      In order to identify and describe the most serious management challenges, as well as the
      Agency’s progress in addressing them, we have relied on data contained in the CFTC financial
      statement audit and PAR, as well as our knowledge of industry trends and CFTC operations.
      Since Congress left the determination and threshold of what constitutes a most serious challenge
      to the discretion of the Inspector General, we applied the following definition in preparing this
      statement:

      Serious management challenges are mission critical areas or programs that have the potential for
      a perennial weakness or vulnerability that, without substantial management attention, would
      seriously impact Agency operations or strategic goals.




                      Management’s                                                          Other Accompanying
154 CFTC              Discussion & Analysis
                                                  Performance Section   Financial Section
                                                                                            Information
                                                                                                                 Appendix
                                                                   O T H E R A C C O M PA N Y I N G I N F O R M AT I O N




      This memorandum summarizes the results of the CFTC’s current financial statement audit,
      describes the Agency’s progress on last year’s management challenges, and finally discusses the
      most serious management challenges that we have identified:

           •    Implementation of the Dodd-Frank Act

           •    Human Resource Expansion and Management


      CFTC Financial Statement Audit Results

      In accordance with the Accountability of Tax Dollars Act, CFTC, along with numerous other
      federal entities, is required to submit to an annual independent financial statement audit by the
      Inspector General, or by an independent external auditor as determined by the Inspector General.
      The results of the fiscal year 2010 financial statement audit are discussed in the PAR, and the
      financial statement audit resulted in an unqualified audit opinion.

      CFTC’s Progress on Last Year’s Challenges

      Last year, we identified three most serious management challenges:

           •    Harmonization of CFTC and Securities and Exchange Commission (SEC)
                     Overlapping Regulations;

           •    CFTC’s Regulatory Model for the Swaps Derivatives Market; and,

           •    CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading
                Markets.


      CFTC made progress on all three challenges.

      Harmonization of CFTC and Securities and Exchange Commission (SEC) Overlapping
      Regulations. On June 17, 2009, the White House released a White Paper on Financial
      Regulatory Reform calling on the SEC and CFTC to ‘make recommendations to Congress for
      changes to statutes and regulations that would harmonize regulation of futures and securities.’
      Specifically, the White House recommended ‘that the CFTC and SEC complete a report to
      Congress by September 30, 2009, that identifies all existing conflicts in statutes and regulations
      with respect to similar types of financial instruments and either explains why those differences
      are essential to achieve underlying policy objectives with respect to investor protection, market
      integrity, and price transparency or makes recommendations for changes to statutes and
      regulations that would eliminate the differences.

      The CFTC jointly with SEC issued a substantial Harmonization Report in October 2009,
      identifying areas where the respective regulatory regimes for futures and securities could be
      better aligned to streamline the regulation of novel derivative products and to avoid duplicative


                                                             2

Management’s                                                          Other Accompanying
Discussion & Analysis
                         Performance Section   Financial Section
                                                                      Information
                                                                                              Appendix     CFTC 155
     regulation. In November 2009, CFTC and SEC issued two joint orders to clarify their respective
     jurisdiction with respect to certain security index products and to allow additional products to
     underlie security futures products. Most of the statutory recommendations set forth in the
     October 2009 Report were included in the Dodd-Frank Act, and the agencies are now proceeding
     to implement those new authorities.

     CFTC’s Regulatory Model for the Swaps Derivatives Market. In 2009, we believed that both the
     intricacies of any forthcoming derivatives regulation and the acquisition of human capital to
     carry out the regulatory tasks would challenge the CFTC in the coming year. The Commission
     employed 605 FTE in FY 2010, up from 498 FTE in FY 2009. The Commission requested in the
     President’s FY 2011 Budget, 745 FTE for pre-Dodd-Frank Authorities and 119 FTE to
     implement Dodd-Frank authorities, for a total of 864 FTE. The Commission states in order to be
     as timely and substantively prepared as possible to meet the needs of the Human Capital
     requirements of the Dodd-Frank Act, it has:

        •   Engaged all offices to identify and implement business process changes that will shorten
            the time to hire new staff;
        •   Granted Divisions and Offices FTE ceilings that allow them to identify priority hires and
            make selections according to their greatest needs;
        •   Considered recruitment alternatives, such as combining vacancy announcements and
            making multiple selections if applicants are of high quality;
        •   Built on past cooperative efforts to target underrepresented groups, to continue and
            enhance diversity recruiting for its workforce; and,
        •   Developed a process to ensure it identifies detailed job requirements as quickly as
            possible as it implements financial reform legislation to guide the content and tactics of
            the recruiting actions.

     CFTC’s Regulatory Responsibilities over the Potential Carbon Emission Trading Markets.
     Anticipated legislation regulating carbon emission trading and assigning regulatory duties to the
     Commission did not materialize. On June 26, 2009, the House passed the American Clean
     Energy and Security Act—H.R. 2454—that set forth new legislation to regulate carbon emission
     trading; however, the Senate did not act on this proposed legislation. The Dodd-Frank Act
     requires the Commission to lead an interagency working group tasked with organization and
     completion of a study of regulatory oversight of potential carbon markets, with a report due to
     Congress in January 2011. Staff convened the interagency group and began work on the study.
     This forthcoming study may also address issues identified by the Government Accountability
     Office (GAO) in their report issued on August 19, 2010 regarding Carbon Trading: Current
     Situation and Oversight Considerations for Policymakers, GAO-10-851R.




                                                          3




                  Management’s                                                      Other Accompanying
156 CFTC          Discussion & Analysis
                                          Performance Section   Financial Section
                                                                                    Information
                                                                                                         Appendix
                                                                  O T H E R A C C O M PA N Y I N G I N F O R M AT I O N




     Most Serious Management Challenges

     Two issues that are likely to challenge the CFTC in the coming year are:

     Implementation of the Dodd-Frank Act

     On July 21, 2010, President Obama signed the Dodd-Frank Wall Street Reform and Consumer
     Protection Act (“Dodd-Frank Act”), Pub. L. 111-203, 124 Stat. 1376 (2010). Title VII of the
     Dodd-Frank Act amended the Commodity Exchange Act (CEA) to establish a comprehensive
     new regulatory framework for swaps and security-based swaps. In order to enact the Dodd-
     Frank Act, the Commission has identified 30 areas where rules will be necessary. Many of these
     rules will require or result in cooperative efforts with the Securities and Exchange Commission
     or other federal agencies. In addition, the Dodd-Frank Act calls for numerous studies and other
     undertakings by the Commission, some also with cooperation from other agencies. The
     Commission recognizes that many of the new rules required under Dodd-Frank must be adopted
     within 180 days. The magnitude of this undertaking under a compressed timeline during FY
     2011 presents a serious management challenge.

     Human Resource Expansion and Management

     The Commission’s new responsibilities under Dodd-Frank significantly increased its workload.
     By the end of fiscal year 2010, the Commission had on-board 687 employees, which is 58 below
     the 745 FTE CFTC requested to carry out our pre-Dodd-Frank authorities. To fully implement
     the Dodd-Frank reforms, the Commission states it requires an additional 398 FTEs. Rather than
     398, the President’s FY 2011 Budget provided for hiring only 238 additional positions. CFTC is
     requesting an additional 160 FTEs for FY 2012 to staff areas of critical need. However, the
     current budgetary limits imposed by the government-wide continuing resolution will
     significantly impact the CFTC’s ability to hire any additional employees during FY2011. Should
     Congress lift the continuing resolution, the CFTC will need to dramatically expand its Human
     Resource function to meet and manage the CFTC’s need for additional staff and training to
     address the requirements of Dodd-Frank Act. We view the possibility of a rapid and dramatic
     increase (35% staff increase in FY11) in new employees to address new rules over newly
     regulated markets, such as swaps, a significant management challenge during Fiscal Year 2011.




                                                           4


Management’s                                                         Other Accompanying
Discussion & Analysis
                        Performance Section   Financial Section
                                                                     Information
                                                                                             Appendix     CFTC 157
                       Summary of Audit and
                      Management Assurances
Summary of FY 2010 Financial Statement Audit
Audit Opinion:                   Unqualified
Restatement:                     No
     Material Weakness           Beginning Balance                New               Resolved      Consolidated            Ending Balance
                                               0                   0                                                            0


Summary of Management Assurances
Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
Statement of Assurance:          Unqualified
     Material Weakness           Beginning Balance           New         Resolved     Consolidated     Reassessed         Ending Balance
                                               0              0                                                                  0
Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance:          Unqualified
     Material Weakness           Beginning Balance           New         Resolved     Consolidated     Reassessed         Ending Balance
                                               0              0                                                                  0
Conformance with Financial Management System Requirements (FMFIA § 4)
Statement of Assurance:          Systems conform to financial management system requirements
     Non-Conformance             Beginning Balance           New         Resolved     Consolidated     Reassessed         Ending Balance
                                               0              0                                                                  0
Compliance with Federal Financial Management Improvement Act (FFMIA)
Overall Substantial                                 Agency                                                Auditor
Compliance                                             Yes                                                   Yes
1. System Requirements                                                          Yes
2. Accounting Standards                                                         Yes
3. USSGL at Transaction Level                                                   Yes




                       Management’s                                                                  Other Accompanying
158 CFTC               Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                     Information
                                                                                                                                Appendix
           Appe n d i x




	160	   Dodd-Frank Rulemaking

162	    Enforcement Litigation
		      by Strategic Goal

180	    CFTC Information
		      Technology Systems

181	    Glossary of Abbreviations
		      and Acronyms
                       Dodd-Frank Rulemaking


T             he CFTC released on July 21, 2010, the list of
              30 areas of rulemaking to implement the Wall
              Street Reform and Consumer Protection Act.
Some of these areas will require only one rule, while others
may require more. The CFTC is required to complete these
                                                                   the statute’s requirements, to broad consultation, to recom-
                                                                   mending proposed rulemakings to publishing final rules.

                                                                   The rulemaking areas have been divided into eight groups:
                                                                   Comprehensive Regulation of Swap Dealers & Major Swap
rules generally in 360 days from enactment, though some            Participants; Clearing; Trading; Data; Particular Products;
are required to be completed within 90, 180 or 270 days.           Enforcement; Position Limits; and Other Titles.

The Commission has begun preparing for the task of writing         The Commission is requesting input from the public on
rules for the swaps marketplace by identifying 30 topic areas      each of the rulemaking areas. Instructions for submitting
where it determined rulemaking to be necessary. Teams of           views can be accessed on the individual rule-writing pages
staff within the agency have been assigned to each rule-           on the CFTC’s Web site at: http://www.cftc.gov/LawRegulation/
making area and will see the process through, from analyzing       DoddFrankAct/Rulemakings/index.htm.


 Comprehensive Regulation of Swap Dealers & Major Swap Participants:
         I. Registration
        II. Definitions, such as Swap Dealer, Major Swap Participant, Security-Based Swap Dealer and Major Security-Based
            Swap Participant, to be written jointly with SEC
        III. Business Conduct Standards with Counterparties
       IV. Internal Business Conduct Standards
        V. Capital & Margin for Non-banks
       VI. Segregation and Bankruptcy for both Cleared and Uncleared Swaps


 Clearing:
       VII. DCO Core Principle Rulemaking, Interpretation & Guidance
      VIII. Process for Review of Swaps for Mandatory Clearing
       IX. Governance & Possible Limits on Ownership & Control
        X. Systemically Important DCO Rules Authorized Under Title VIII
       XI. End-user Exception




                           Management’s                                                          Other Accompanying
160 CFTC                   Discussion & Analysis
                                                   Performance Section      Financial Section
                                                                                                 Information
                                                                                                                        Appendix
                                                                        A ppend I x




Trading:
     XII. DCM Core Principle Rulemaking, Interpretation & Guidance
    XIII. SEF Registration Requirements and Core Principle Rulemaking, Interpretation & Guidance
    XIV. New Registration Requirements for Foreign Boards of Trade
    XV. Rule Certification & Approval Procedures (applicable to DCMs, DCOs, SEFs)


Data:
    XVI. Swap Data Repositories Registration Standards and Core Principle Rulemaking, Interpretation and Guidance
   XVII. Data Record-keeping and Reporting Requirements
   XVIII. Real-Time Reporting


Particular Products:
    XIX. Agricultural Swaps
    XX. Foreign Currency (Retail Off-Exchange)
    XXI. Joint Rules with SEC, such as “Swap” and “Security-Based Swap”
   XXII. Portfolio Margining Procedures


Enforcement:
   XXIII. Anti-Manipulation
  XXIV. Disruptive Trading Practices
   XXV. Whistleblowers


Position Limits:
  XXVI. Position Limits, including Large Trader Reporting, Bona Fide Hedging Definition and Aggregate Limits


Other Titles:
  XXVII. Investment Adviser Reporting
 XXVIII. Volcker Rule
  XXIX. Reliance on Credit Ratings
   XXX. Fair Credit Reporting Act and Disclosure of Nonpublic Personal Information




  Management’s                                                            Other Accompanying
  Discussion & Analysis
                              Performance Section   Financial Section
                                                                          Information
                                                                                                Appendix       CFTC   161
                       Enforcement Litigation
                          by Strategic Goal


B                elow are thumbnail summaries of the 57
                 Commission enforcement actions filed
                 during FY 2010 (October 2009 through
September 2010), arranged by Strategic Goal.
                                                                 in the September 2005 Contract. The order further finds
                                                                 that EMF eventually fully disclosed the information to the
                                                                 CBOT and that an orderly liquidation of the September
                                                                 2005 Contract occurred. The Commission also found that
                                                                 EMF did not have: appropriate oversight procedures in
                                                                 place to manage and control the large concentrated posi-
Enforcement Litigation by Goal One
                                                                 tions taken by its traders; and policies and procedures in
Manipulation, Attempted Manipulation, False                      place to oversee communications with regulators to ensure
Reporting & False Statements                                     that full, complete and truthful information was provided
                                                                 in a timely fashion.
■■   In re EMF Fin. Products, LLC
                                                                 The Commission assessed sanctions, including: a $4
On November 13, 2009, the Commission simultane-                  million civil monetary penalty; a three-year registration
ously filed and settled an administrative enforcement            restriction; and an order to comply with certain under-
action against registered CPO and CTA EMF Financial              takings, including 1) reporting requirements to the CFTC
Products, LLC (EMF) finding that it made false statements        related to its trading, 2) establishing and maintaining a risk
and failed to disclose material information concerning           management committee, 3) designing and implementing a
its market positions and financing to the CBOT and that          system of internal controls, policies and procedures, and
EMF also failed to diligently supervise the handling of its      4) submitting a report on its compliance with the under-
commodity interest business. Specifically, the order finds       takings to the CFTC. The Commission received coopera-
that, in August 2005, EMF concealed and misrepresented           tion from the Federal Reserve Bank of New York and the
material information about its positions and financing as        U.S. Securities and Exchange Commission in connection
the CBOT was conducting surveillance on the September            with this matter. In re EMF Fin, Products, LLC, CFTC Docket
2005 U.S. Treasury Note Futures Contract (the September          No. 10-02 (CFTC filed Nov. 13, 2009).
2005 Contract) that was expiring on September 30. Prior
to the commencement of the delivery period on the                ■■    In re Moore Capital Mgmt, L.P., et al.
September 2005 Contract, EMF misrepresented and failed
to disclose to the CBOT its full position in, and control of,    On April 29, 2010, the Commission simultaneously filed
up to $11.9 billion of the underlying cheapest-to-deliver        and settled an administrative action against Moore Capital
(CTD) security on the September 2005 Contract at the             Management, LP (MCM), Moore Capital Advisors, LLC
same time that it held a significant, large long position        (MCA), and Moore Advisors, Ltd. (MA). MCM is a regis-



                         Management’s                                                           Other Accompanying
162 CFTC                 Discussion & Analysis
                                                 Performance Section        Financial Section
                                                                                                Information
                                                                                                                       Appendix
                                                                          A ppend I x




tered CTA, and a principal of MCA; MCA is a registered              The order found that, on February 6, 2009, prior to the trade
CTA and CPO; MA is a registered CPO. The order finds                being finalized, the Morgan Stanley trader requested that
that, since at least November 2007 through May 2008, a              the UBS broker not report the TAS block trade until after
former MCM portfolio manager attempted to manipu-                   the close of trading. The UBS broker agreed to this arrange-
late the settlement prices of NYMEX platinum and palla-             ment and did not report the trade until after the market
dium futures contracts by engaging in a practice known              closed. As a result, the CFTC order found that Morgan
as “banging the close.” The order also found that MCM               Stanley’s and UBS’s actions concealed the occurrence of the
failed to diligently supervise the handling of MCM’s                trade from the NYMEX, contrary to NYMEX Rule 6.21C(6),
commodity interest business. The Commission assessed                which provided that the “buyer and seller must ensure
sanctions, including: a cease and desist order; three-year          that each block trade is reported to the Exchange within
registration restriction; and a joint and several $25 million       five minutes of the time of execution.” In addition to
civil monetary penalty; and an order to comply with                 the civil monetary penalty, Morgan Stanley agreed for the
certain undertakings, including a two-year restriction on           next three years to: 1) notify all Morgan Stanley traders of
their trading within 15 minutes of and during the closing           significant new and modified trading rules; 2) administer
period of the platinum and palladium futures and options            a yearly enhanced training program regarding CFTC and
markets. The CFTC order further requires respondents to:            exchange trading rules for all appropriate Morgan Stanley
(1) implement a policy requiring certain non-equity trade           employees; and 3) implement, within 90 days, enhanced
related communications to be recorded, maintained and               surveillance of TAS block trades on the NYMEX. The CFTC
reviewed; and (2) submit a report to the Commission on              received cooperation from the New York County District
their compliance with the undertakings. The CFTC received           Attorney’s Office in connection with this matter. In re
cooperation from the CME Group (NYMEX) in connection                Morgan Stanley Capital Group, Inc., CFTC Docket No. 10-10
with this matter. In re Moore Capital Mgmt, L.P., et al., CFTC      (CFTC filed Apr. 29, 2010).
Docket No. 10-09 (CFTC filed Apr. 29, 2010).
                                                                    ■■   In re UBS Securities Inc.
■■   In re Morgan Stanley Capital Group, Inc.
                                                                    On April 29, 2010, the Commission simultaneously filed
On April 29, 2010, the Commission simultaneously filed and          and settled an administrative enforcement action against
settled an administrative enforcement action against Morgan         UBS Securities Inc. (UBS) in connection with UBS’s aiding
Stanley Capital Group, Inc. (Morgan Stanley) in connec-             and abetting the concealment by Morgan Stanley Capital
tion with Morgan Stanley concealing from the NYMEX the              Group (Morgan Stanley) of the existence of a large Trade
existence of a large Trade at Settlement (TAS) block crude          at Settlement (TAS) block crude oil trade on the New York
oil trade. As discussed separately, the Commission simul-           Mercantile Exchange (NYMEX). As discussed separately, the
taneously filed and settled an administrative enforcement           Commission simultaneously filed and settled an administra-
action against UBS Securities on the same day for aiding and        tive enforcement action against Morgan Stanley. The CFTC
abetting that concealment. The CFTC order required that             order required that UBS pay a $200,000 civil monetary
Morgan Stanley pay a $14 million civil monetary penalty and         penalty. The order also found that, in early February 2009,
also required Morgan Stanley to cease and desist from further       a Morgan Stanley trader and a UBS broker discussed an
violations of the Commodity Exchange Act and to comply              opportunity for Morgan Stanley to act as a counterparty to
with certain undertakings. The order further found that,            a third-party UBS customer to purchase a block of March
in early February 2009, a Morgan Stanley trader and a UBS           2009 crude oil futures contracts and to sell a block of a
broker discussed an opportunity for Morgan Stanley to act           similar quantity of April 2009 contracts on the NYMEX.
as a counterparty to a third-party UBS customer to purchase         The price of the two legs of the trade was to be determined
a block of March 2009 crude oil futures contracts and to sell       later by the market closing price, an arrangement known as
a block of a similar quantity of April 2009 contracts on the        a TAS (Trade at Settlement) block trade. The order further
NYMEX. The price of the two legs of the trade was to be             found that, on February 6, 2009, prior to the trade being
determined later by the market closing price, an arrangement        finalized, the Morgan Stanley trader requested that the UBS
known as a TAS (Trade at Settlement) block trade.                   broker not report the TAS block trade until after the close



      Management’s                                                            Other Accompanying
      Discussion & Analysis
                              Performance Section    Financial Section
                                                                              Information
                                                                                                     Appendix     CFTC 163
of trading. The UBS broker agreed to this arrangement and         $112,400 on futures positions, according to the complaint.
did not report the trade until after market close. Based on       On September 9, 2010, the court entered a statutory
this, the CFTC order further found that the actions by UBS,       restraining order freezing assets and preserving books
along with those of Morgan Stanley concealed the occur-           and records. The Commission received cooperation from
rence of the trade from the NYMEX, contrary to NYMEX              the Kansas Bureau of Investigation, the Kansas Attorney
Rule 6.21C(6). The CFTC received cooperation from the             General’s Office, the Iowa Attorney General’s Office and
New York County District Attorney’s Office in connection          the Minnesota Attorney General’s Office in connection
with this matter. In re UBS Securities Inc., CFTC Docket No.      with this matter. CFTC v. Midwest Land & Livestock, Inc.,
10-11 (CFTC filed Apr. 29, 2010).                                 et al., No. 10-2490-EFM (D. Kan. filed Sept. 8, 2010).

■■   CFTC v. Midwest Land & Livestock, Inc., et al.               ■■    In re Vitol, Inc., et al.

On September 8, 2010, the Commission filed a civil injunc-        On September 14, 2010, the Commission simultaneously
tive action charging Mark Alan Vanderploeg and his compa-         filed and settled an administrative enforcement action
nies, Midwest Land & Livestock, Inc., SKV Farms Inc. and          against Vitol Inc. (VIC) and Vitol Capital Management Ltd.
DCV Farms, Inc., with false reporting in connection with          (VCM) finding that they willfully failed to disclose material
a fraudulent scheme perpetrated on grain elevators and            facts to the NYMEX concerning the relationship between
cooperatives (grain entities) in Kansas, Iowa, Minnesota,         the two companies. Both firms are non-clearing members
Illinois and South Dakota. Vanderploeg and his compa-             of the NYMEX. The order finds that, as a result of VIC’s and
nies pretended to be farmers. In doing so, they entered into      VCM’s willful failure to disclose material facts, the NYMEX/
forward contracts with the grain entities for more than one       CME Group did not aggregate the market positions of the
million bushels of grain during the 2008 harvest, despite         two companies for position limit and accountability limit
the fact that the defendants, unknown to the grain entities,      purposes until March 2009, almost two years after VIC and
lacked the ability to produce the contracted-for grain,           VCM learned of NYMEX’s misperception in June 2007.
according to the complaint. As part of these transactions,        The Commission assessed sanctions, including: a cease
and to hedge risks associated with these forward contracts,       and desist order; and a joint and several $6 million civil
the grain entities entered into “short” commodity futures         monetary penalty. The Commission received cooperation
contracts. The common practice in the grain industry is for       from the NYMEX, the United Kingdom Financial Services
grain entities to share monetary gains that may result from       Authority and the Swiss Financial Market Supervisory
hedge positions with farmers when a forward contract              Authority in connection with this matter. In re Vitol, Inc.,
is cancelled due to a farmer’s inability to produce the           et al., CFTC Docket No. 10-17 (CFTC filed Sept. 14, 2010).
contracted-for grain, according to the complaint. Just prior
to the 2008 harvest, defendants informed many of the grain
                                                                  Enforcement Litigation by Goal Two
entities that the defendants would be unable to deliver
the contracted-for grain, which effectively cancelled their       Commodity Pools, Hedge Funds, Commodity
forward contracts. The complaint further alleges that where       Pool Operators, and Commodity Trading Advisors
grain prices decreased, resulting in corresponding gains in
the short futures positions, in many instances the defen-         ■■    CFTC v. Raleigh Capital Mgmt, Inc., et al.
dants successfully demanded that the grain entities share
with defendants their hedging gains. However, where grain         On October 28, 2009, the Commission filed a civil
prices increased, resulting in corresponding losses in the        injunctive action charging registered CPO Raleigh Capital
short futures positions, in almost all instances defendants       Management, Inc. (RCM) and its AP and sole principal,
failed to deliver any grain and simply disappeared. In a few      Richmond Hamilton, Jr., charging them with commodity
instances, defendants purchased grain and delivered it to         pool fraud. Specifically, the complaint alleges that defen-
the grain entities, according to the complaint. As a result       dants misappropriated more than $1 million since May
of their scheme, defendants made at least $209,000 in             2004 from the Raleigh Fund, LP., an $8.3 million commodity
ill-gotten gains and the grain entities incurred net losses of    pool organized by Hamilton in 1987. The complaint also



                          Management’s                                                              Other Accompanying
164 CFTC                  Discussion & Analysis
                                                  Performance Section         Financial Section
                                                                                                    Information
                                                                                                                         Appendix
                                                                          A ppend I x




alleges that Hamilton with making false statements to the           felonies, served prison time and had a related $3 million
National Futures Association in the course of the National          civil judgment against him, and that defendants were under
Futures Association’s audit of the Raleigh Fund, L.P. about         investigation by federal authorities. Lee, Prestige and FMG
the extent of his personal bank accounts and his admin-             also allegedly misused pool participant funds to pay off
istration of the fund. The Commission received coopera-             other pool participants, in the manner of a Ponzi scheme,
tion from the National Futures Association in connection            and for personal use, such as paying for cars and yacht fees
with this matter. CFTC v. Raleigh Capital Mgmt, Inc., et al.,       and funneling money to family members. The complaint
No. 1:09-cv-06780 (N.D. Ill. filed Oct. 28, 2009).                  further alleges that Yang submitted a false declaration to
                                                                    the Commission in response to a Commission subpoena
■■   CFTC v. Owen                                                   requiring the production of documents and information
                                                                    relating to Yang, Lee, FMG and others. On the same day the
On October 30, 2009, the Commission filed a civil injunc-
                                                                    complaint was filed, the court entered a statutory restraining
tive action charging David A. Owen with commodity
                                                                    order freezing assets and preserving books and records.
pool fraud. Specifically, the complaint alleges that Owen,
                                                                    The Commission received cooperation from the Oklahoma
holding himself out as a certified public accountant, tax
                                                                    Department of Securities in connection with this matter.
attorney and financial advisor, fraudulently solicited at
                                                                    CFTC v. Prestige Ventures Corp., et al., No. 5:09-cv-01284-R
least $2.5 million from at least 9 individuals to partici-
                                                                    (W.D. Okla. filed Nov. 20, 2009).
pate in commodity futures pools that he operated under
the name of Oasis Futures. The complaint further alleges            ■■   CFTC v. Capital Funding Consultants, L.L.C., et al.
that Owen misappropriated approximately $800,000 of
customer funds for his personal use and to return funds to          On November 20, 2009, the Commission filed a civil
pool participants in the manner of a Ponzi scheme. Owen             injunctive action charging William Charles Guidry, Matthew
allegedly did not maintain pool trading accounts and lost           Brian Pizzolato, and Capital Funding Consultants, L.L.C.
more than $1.6 million trading commodity futures in                 (Capital Funding) charging them with pool fraud involving
his personal trading accounts. The complaint also alleges           the solicitation of $19.5 million from about 160 mostly
that Owen failed to disclose his prior criminal convic-             elderly investors to trade in purportedly safe, secure invest-
tions for fraud. On the same day the complaint was filed,           ments. The complaint alleges that Pizzolato, however, did
the court entered a statutory restraining order freezing            not use investor funds as he had represented, but rather
assets and preserving books and records. CFTC v. Owen,              gave more than $2 million of investor funds to Guidry,
No. 3:09cv484 (N.D. Fla. filed Oct. 29, 2009).                      whose trading resulted in losses that were not disclosed
                                                                    to investors.   The complaint further alleges that Guidry
■■   CFTC v. Prestige Ventures Corp., et al.                        and Capital Funding misappropriated at least $135,000
                                                                    of these investor funds for personal purposes, while using
On November 20, 2009, the Commission filed a civil injunc-
                                                                    some funds to trade commodity futures in accounts owned
tive action charging Kenneth W. Lee, Simon Yang, Prestige
                                                                    by Capital Funding. On the same day the complaint was
Ventures Corp. (Prestige) and Federated Management Group
                                                                    filed, the court entered a statutory restraining order freezing
Inc. (FMG) with fraud involving a pool that had at least
                                                                    assets and preserving books and records. The Commission
$8.7 million in assets and 140 participants. Specifically,
                                                                    received cooperation from the Louisiana Office of Financial
the complaint alleges that, since at least July 2003, defen-
                                                                    Institutions in connection with this matter. CFTC v. Capital
dants fraudulently solicited participants and issued false
                                                                   Funding Consultants, L.L.C., et al., No. 2:09-cv-07409-MVL-
statements to them, which consistently showed monthly
                                                                    JCW (E.D. La. filed Nov. 20, 2009).
profits generated by Lee’s purportedly successful trading of
commodity futures, forex and other instruments. However,            ■■   CFTC v. Nolan, et al.
Lee sustained net losses of approximately $4.3 million
trading primarily commodity futures and forex. In soliciting        On January 25, 2010, the Commission filed a civil injunc-
prospective pool participants, defendants allegedly failed          tive action charging Jay C. Nolan and his company, Lodge
to disclose, among other things, that Lee committed two             Capital Group, LLC (Lodge Capital), with commodity pool




      Management’s                                                            Other Accompanying
      Discussion & Analysis
                              Performance Section    Financial Section
                                                                              Information
                                                                                                      Appendix     CFTC 165
fraud involving fraudulent solicitation of approximately          2009)). The Commission assessed sanctions including: a
$3.9 million from at least five pool customers. Specifically,     cease and desist order; permanent trading and registration
the complaint alleges that from at least December 2004 to         bans; and a joint and several $1 million civil monetary
the present, the defendants fraudulently solicited partici-       penalty. The Commission received cooperation from the
pants by misrepresenting and failing to disclose the profit-      U.S. Attorney’s Office for the Central District of California
ability of the pool and the performance of the participants’      in connection with this matter.          In re Riley and Pressio
investments in the pool. The complaint further alleges            Capital Mgmt, LP, CFTC Docket No. 10-06 (CFTC filed Feb.
that Nolan misappropriated some participant funds and             18, 2010).
defendants sent false account statements to participants
that misrepresented the value of the participants’ interests      ■■    CFTC v. Claudio Aliaga, et al.
in the commodity pool and the assets and liabilities of           On April 6, 2010, the Commission filed a civil injunc-
the pool. On January 26, 2010, the court entered a statu-         tive action charging Claudio Aliaga and his company,
tory restraining order freezing assets and preserving books       CMA Capital Management, LLC with operating a Ponzi
and records. The Commission received cooperation from             scheme involving the fraudulent solicitation of at least
the Federal Bureau of Investigation and the United States         $4.5 million from at least 125 individuals to invest in
Attorney’s Office for the Northern District of Illinois in        forex managed accounts and/or a pooled investment.
connection with this matter. CFTC v. Nolan, et al., Civil         Specifically, the Commission’s complaint charges that,
No. 1:10-cv-00493 (N.D. Ill. filed Jan. 25, 2010).                since at least March 2007, during solicitations of prospec-
                                                                  tive customers, Aliaga made fraudulent misrepresenta-
■■   In re Riley and Pressio Capital Mgmt, LP
                                                                  tions and omissions of material fact, including: 1) stating
On February 18, 2010, the Commission simultane-                   that he was a successful forex trader; 2) guaranteeing a
ously filed and settled an administrative enforcement             two to three percent monthly return on funds invested;
action against Craig A. Riley and his firm, Pressio Capital       and 3) guaranteeing that there would be no risk to prin-
Management, LP (PCM), finding that they engaged in                cipal invested, according to the complaint. Aliaga was also
commodity pool fraud involving the solicitation of                charged with failing to disclose that not all customer funds
than $3 million from approximately 19 individuals.                were used to trade forex. According to the complaint, only
Specifically, the order finds that, beginning in the fall of      approximately $1.9 million of the approximately $4.5
2006 and continuing through February 2008, respon-                million solicited from customers was transferred into forex
dents fraudulently operated a commodity pool, known as            trading accounts. Aliaga’s trading resulted in overall losses
Pressio LP, which traded a variety of instruments, including      of approximately $673,000. Finally, the complaint charged
commodity futures contracts.           Respondents misrepre-      that Aliaga misappropriated customer funds to benefit
sented that the pool would be a conservative, diversified         himself, his wife and another related business entity.
balanced asset fund. In fact, Riley lost approximately $2.5       On April 9, 2010, the court entered a statutory restraining
million almost exclusively trading commodity futures and          order freezing assets and preserving books and records.
misappropriated the remainder of the funds for personal           CFTC v. Claudio Aliaga, et al., No. 1:10-cv-21074-MGC (S.D.
and business expenses and for paying back existing pool           Fla. filed Apr. 6, 2010).
participants in the manner of a Ponzi scheme. The order
                                                                  ■■    CFTC v. Richard D. Theye, et al.
further finds that the respondents issued false account
statements to pool participants to conceal the trading            On June 17, 2010, the Commission filed a civil injunctive
losses and misappropriations. In a related criminal action,       action against Richard D. Theye and his company Micend
on January 12, 2009, Riley pled guilty to fraud in connec-        Capital Management, Inc. charging them with a multi-
tion with a scheme to defraud or obtain money or property         million Ponzi fraud. Specifically, the complaint charges
by means of materially false pretenses, representations or        that, since at least December 2005, Theye fraudulently
promises. Riley is currently serving a 41-month sentence.         solicited members of the general public to invest millions
Criminal restitution was set at $3,044,384. (United States        of dollars in two commodity pools, RYCO Group, LLC
v. Riley, Case No. SA CR 09-0001 (C.D. Cal. filed Jan. 12,        and First RYCO, LLC, and encouraged prospective inves-



                          Management’s                                                           Other Accompanying
166 CFTC                  Discussion & Analysis
                                                  Performance Section        Financial Section
                                                                                                 Information
                                                                                                                           Appendix
                                                                             A ppend I x




tors to roll over their 401(K)s, IRAs and pension funds                connection with this matter. CFTC v. Richard Milton, et al.,
into the RYCO pools.            Theye was also alleged to have         No. 9:10-CV-80738-KAM (S.D. Fla. filed June 22, 2010).
solicited investors through false representations during
face to face meetings at his church in Austin and in adver-            ■■   In re Pipenhagen, et al.
tising the RYCO pools’ purported historical profits trading
commodity futures.            Theye’s commodity futures trading        On August 30, 2010, the Commission simultaneously filed
resulted in losses of hundreds of thousands of dollars                 and settled an administrative enforcement action against
since 2006. The CFTC’s complaint further alleged that to               Terrence R. Pipenhagen and his companies, TRP Advisory
further the scheme, Theye issued fictitious account state-             Group, Inc. (TRP) and Traders East, Inc., finding that
ments showing trading profits when, in fact, no profits were           they engaged in commodity pool and managed account
realized. Theye employed a separate scheme to defraud a                fraud. Specifically, the order finds that, from mid-2002
Micind investor whereby he entered into an agreement on                through August 2006, Pipenhagen, through his compa-
behalf of Micind to trade for the customer in exchange for a           nies, defrauded customers by claiming he could provide
capital contribution, according to the complaint. However,             customers with consistent gains and achieve high returns
The complaint charges that they never traded for the                   and sending them false account statements to conceal
customer, issued the customer fictitious statements showing            trading losses and to prevent customers from withdrawing
profitable trading, and used the customer’s funds to finance           their investments. The order found that Pipenhagen solic-
his Ponzi scheme. The Commission received cooperation                  ited at least $450,000 from at least nine individuals he
in this case from the U.S. Attorney’s Office for the Western           knew from working as an insurance and securities salesman.
District of Texas, the Federal Bureau of Investigation and             The order further found that TRP and Pipenhagen failed to
the Texas State Securities Board. CFTC v. Richard D. Theye,            register with the Commission as a CPO, respectively, and
et al., No. 1:10-cv-00385-SS (W.D. Tex. filed June 1, 2010).           failed to comply with regulatory requirements related to
                                                                       operating commodity pools. The Commission assessed
■■   CFTC v. Richard Milton, et al.                                    sanctions including: a cease and desist order; permanent
                                                                       trading and registration bans; and a joint and several
On June 22, 2010, the Commission filed a civil injunctive              $150,000 civil monetary penalty. In re Pipenhagen, et al.,
action charging Phillip Milton, Gregory Center, William                CFTC Docket No. 10-16 (CFTC filed Aug. 30, 2010).
Center, and their company, Trade LLC, with operating a
Ponzi scheme involving approximately $28 million and                   ■■   CFTC v. Joseph A. Dawson, et al.
at least 900 persons in connection with the Trade LLC
commodity pool. Specifically, the complaint alleges that,              On July 20, 2010, the Commission filed a civil injunc-
from at least May 2007 through July 2009, defendants                   tive action charging Joseph A. Dawson and his company,
committed solicitation fraud and misappropriated pool                  Dawson Trading LLC, with commodity pool fraud.
funds. To induce new pool investors, the complaint alleges             Specifically, the complaint alleges that defendants fraud-
that the defendants claimed to be successful commodity                 ulently solicited pool participants by claiming to be
futures traders and touted the pool as having a profitable             successful traders when, in fact, the defendants lost nearly
trading record. Despite taking in at least $28 million from            $1 million trading commodity futures and securities
investors, the defendants were not successful traders and              between July 2005 and December 2009. The complaint
placed only $15 million of investors’ funds in trading                 also alleges that defendants misappropriated more
accounts at the pool, which consistently lost money                    than $2 million of pool participant funds for personal
during all but two months of its operation. The defen-                 use and sent pool participants account statements that
dants also allegedly misappropriated at least $9.6 million             misrepresented the profitability of their accounts. In one
for their personal use and to continue the scam. On the                instance Dawson allegedly represented that a pool partici-
same day the complaint was filed, the court entered a                  pant’s quarterly trading gain for the second quarter of
statutory restraining order freezing assets and preserving             2007 was nearly $100,000; however, the defendants lost
books and records. The Commission received coopera-                    approximately $454,000 trading during that quarter. The
tion from the Securities and Exchange Commission in                    complaint also charges Dawson Trading with failing to



      Management’s                                                               Other Accompanying
      Discussion & Analysis
                                  Performance Section   Financial Section
                                                                                 Information
                                                                                                       Appendix     CFTC 167
register as a CPO and Dawson with failing to register as              Ponzi payments to new and existing investors. Specifically,
an AP of a CPO. The CFTC received cooperation from the                the complaint charged that Villalba fraudulently solicited
U.S. Attorney’s Office for the Northern District of Illinois,         funds from members of the general public to trade futures
the Federal Bureau of Investigation and the Securities and            predominantly related to the S&P 500 and opened a futures
Exchange Commission in this action. CFTC v. Joseph A.                 trading account in the name of MMA as early as 1998.
Dawson, et al., No. 1:10-cv-04510, (N.D. Ill. filed July 20,          Villalba and MMA deposited more than $23.2 million in
2010).                                                                this account and had net losses of more than $17 million.
                                                                      Despite massive trading losses, Villalba and MMA allegedly
■■   CFTC v. Autry, et al.                                            sent monthly, quarterly and annual statements to inves-
                                                                      tors that showed purported consistent profits. Villalba and
On September 21, 2010, the Commission filed a civil
                                                                      MMA also made numerous verbal statements to investors
injunctive action charging Joseph L. Autry, Jr. and his
                                                                      and prospective investors about the purported successful
company, Autry Capital Management LLC (ACM), with
                                                                      performance of their futures trading. Most, if not all, of
fraudulently operating a Ponzi scheme from at least
                                                                      these written and oral statements were false, the complaint
May 2008 until January 2010 that solicited and received
                                                                      alleged.    Finally, from at least 2000 through 2008, the
approximately $265,200 from seven customers to trade
                                                                      defendants allegedly created and provided at least one
commodity futures contracts. Specifically, the Commission
                                                                      investor with sporadic fabricated monthly futures commis-
alleges that Autry: misappropriated more than $176,000
                                                                      sion merchant statements for several different purported
of pooled customer funds to pay his personal debts and
                                                                      accounts. The Commission received cooperation from the
expenses; and paid supposed returns to customers using
                                                                      United States Attorney’s Office for the Northern District
the customer’s own funds or funds of new customers. Autry
                                                                      of Ohio and the Securities and Exchange Commission in
also allegedly used misappropriated customer funds to pay
                                                                      connection with this matter. CFTC v. Enrique F. Villalba, Jr.,
himself fees and commissions based on fabricated trading
                                                                      et al. No, 5:10-cv-00647 (N.D. Ohio Mar. 29, 2010).
profits. To conceal the misappropriation, Autry sent ACM
customers false statements showing bogus trading profits              ■■    CFTC v. Jeffrey Shalhoub, et al.
when he knew no such profits existed, the complaint
charges. The Commission received cooperation from the                 On May 17, 2010, the Commission filed a civil injunctive
Federal Bureau of Investigation and the U.S. Attorney’s               action charging Jeffrey Shalhoub and his company, Jeff
Office for the Southern District of Georgia in connection             Shalhoub Investments (JSI), with operating a commodity
with this matter. CFTC v. Autry, et al., No. CV610 084 (S.D.          futures Ponzi scheme.          Specifically, the Commission
Ga. filed Sept. 21, 2010).                                            charged Shalhoub with soliciting approximately $300,000
                                                                      from at least 12 of his ex-wife’s friends and family to trade
Commodity Trading Advisors, Managed Accounts,                         futures. The Commission further alleges that Shalhoub
and Trading Systems                                                   and JSI commingled customer money with Shalhoub’s
                                                                      personal funds and that Shalhoub misappropriated at
■■   CFTC v. Enrique F. Villalba, Jr., et al.                         least $154,500 of customer funds for his personal use.
                                                                      As alleged, Shalhoub falsely: promised customers monthly
On March 29, 2010, the Commission filed a civil injunctive            returns ranging from 10 to 36 percent, while representing
action charging Enrique F. Villalba, Jr. and his firm, Money          that customers’ original investment could be returned
Market Alternative, LP (MMA), with operating a $37.5                  at any time; and that the return was produced by his
million commodity futures Ponzi scheme.              Specifically,    successful trading. Finally, the complaint alleges that, to
the complaint alleges that, beginning in at least 1996 and            conceal and perpetuate the fraud, Shalhoub provided false
continuing through at least November 2009, defendants                 account statements to customers, misrepresenting that
misappropriated at least $3 million in investor funds to              their accounts were increasing by as much as 5.2 percent
finance Villalba’s coffee business and to purchase real estate        per week when, in fact, the accounts were losing money
among other things. In addition, the defendants alleg-                every month. CFTC v. Jeffrey Shaloub, et al., No. 10 2242
edly used more than $7 million of investor funds to make              (E.D.N.Y. filed May 17, 2010).



                             Management’s                                                             Other Accompanying
168 CFTC                     Discussion & Analysis
                                                      Performance Section        Financial Section
                                                                                                      Information
                                                                                                                            Appendix
                                                                          A ppend I x




■■   CFTC v. Ruben Gonzalez, et al.                                 dent, director and majority owner. The order finds that,
                                                                    from at least January 2004 to December 2008, Gage’s
On May 20, 2010, the Commission filed a civil injunctive            Fertilizer acted as an FCM and Gage acted as an AP by
action charging Ruben Gonzalez, Jose C. Naranjo, and their          soliciting and accepting orders for the purchase and sale
company, New Golden Investment Group, LLC (NGI), with               of domestic, exchange-traded commodity option contracts.
fraud and misappropriation in connection with a multi-              The order further finds that Gage’s Fertilizer failed to
million dollar Ponzi scheme. Specifically, the complaint            properly account for or segregate customer funds relating
alleges that, since at least August 2008, defendants fraudu-        to such transactions. The Commission assessed sanctions,
lently solicited and accepted approximately $3.65 million           including: a cease and desist order; a joint and several
from at least 165 members of the Los Angeles area Spanish-          $75,000 civil penalty; and an order to disgorge $100,000
speaking community for various investments, including               of ill-gotten gains. In re Gage’s Fertilizer & Grain, Inc., et al.,
commodity futures trading. The defendants falsely claimed           CFTC Docket No. 10-13 (CFTC filed July 22, 2010).
to customers that they would double their money within a
year in oil, gold, silver and other commodities. Gonzalez
                                                                    Forex Fraud
and Naranjo were also charged with misappropriating
hundreds of thousands of dollars of investor funds.                 ■■   CFTC v. Cook, et al.
According to the complaint, Gonzalez, Naranjo and NGI
falsely presented NGI as a successful trading company by            On November 23, 2009, the Commission filed a civil
displaying trading software on NGI’s office computers to            injunctive action charging Trevor G. Cook, Patrick Kiley,
make it appear to customers and prospective customers               and their companies, Oxford Global Advisors, LLC,
that NGI was engaged in electronic commodity futures                Oxford Global Partners, LLC, Universal Brokerage FX and
trading. In reality, the complaint alleged, NGI did not trade       Universal Brokerage FX Diversified charging them with
commodity futures for customers and did not make any of             an off-exchange forex scheme that defrauded hundreds
their advertised profits. The complaint further alleges that        of customers of more than $190 million. Specifically, the
Gonzalez and Naranjo misappropriated investor funds by              complaint alleges that the defendants solicited customers
transferring hundreds of thousands of dollars from NGI’s            to trade forex by fraudulently claiming that, since 2003,
business account to their personal accounts. On the same            they earned more than 10 percent annual profits and
day the complaint was filed, the court entered a statutory          sustained no losses. The defendants also claimed that
restraining order freezing assets and preserving books and          customers’ funds were placed in managed, segregated
records. The Commission received cooperation from the               accounts with Crown Forex, SA, a Swiss company majority-
United States Attorney’s Office for the Central District            owned by Cook since December, 2008. Instead, defen-
of California and the Federal Bureau of Investigation in            dants misappropriated customer funds and continued to
connection with this matter. CFTC v. Ruben Gonzalez, et al.,        solicit and accept funds until July 2009—even though the
No. CV 10 3834 (C.D. Ca. May 20, 2010).                             Swiss Financial Market Supervisory Authority (FINMA)
                                                                    placed Crown Forex into receivership in December 2008,
Fraud By Futures Commission Merchants,                              and into bankruptcy in May 2009. The defendants perpetu-

Introducing Brokers and Their Associated Persons                    ated their fraud by providing customers with account state-
                                                                    ments falsely depicting that their accounts were earning
■■   In re Gage’s Fertilizer & Grain, Inc., et al.                  from 10 to 12 percent annual profits. On the same day
                                                                    the complaint was filed, the court entered a statutory
On July 22, 2010, the Commission simultaneously filed               restraining order freezing assets and preserving books and
and settled an administrative enforcement action against            records. The Commission received cooperation from the
Gage’s Fertilizer & Grain, Inc. (Gage’s Fertilizer) and Steven      FINMA, the U.S. Securities and Exchange Commission and
W. Gage finding that they failed to register as an FCM and          the U.S. Attorney’s Office in Minneapolis in connection
AP, respectively. Gage’s Fertilizer is a grain elevator and         with this matter. CFTC v. Cook, et al., No. 09sc3332 (MJD/
farm supply company and Gage is the company’s presi-                JJK) (D. Min. filed Nov. 23, 2009).




      Management’s                                                            Other Accompanying
      Discussion & Analysis
                               Performance Section   Financial Section
                                                                              Information
                                                                                                        Appendix      CFTC 169
■■   CFTC v. Trader’s Int’l Return Network, et al.                   ■■    CFTC v. C & R Fin., Inc., et al.

On October 14, 2009, the Commission filed a civil injunc-            On March 4, 2010, the Commission filed a civil injunc-
tive action charging Trader’s International Return Network           tive action charging Willie L. Cloud, Jr. and his investment
(TIRN) and its president, David Merrick, charging them               company, C & R Financial, Inc., with operating a forex Ponzi
with solicitation fraud and misappropriation of customer             scheme. Specifically, the complaint alleges that, since at
funds involving a purported forex investment. Specifically,          least April 2008, defendants fraudulently solicited at least
the complaint alleges that TIRN represented itself as a              $200,000 from individuals for the sole purpose of trading
“private investment club” that provided various investment           forex with promises of doubling or tripling their invest-
services, including forex investing, through its purported           ments within a year through forex trading gains. However,
Real Century forex trading program. The complaint                    rather than an opening FCM accounts in the name of the
further alleges that defendants accepted at least $16.4              customers, as promised, defendants opened an account in
million from customers to participate in TIRN’s invest-              Cloud’s name, deposited only a portion of customers’ funds
ment program; however, no customer funds were invested               into the account and misappropriated at least $75,000 of
as described on the TIRN Web site and in TIRN’s written              customer funds for personal use. The complaint further
materials, and defendants misappropriated customer funds             alleges that defendants sent false account statements to
for various other purposes, including diverting more than            customers showing large profits, when, in fact, defendants’
$2 million for Merrick’s personal use. The Commission                forex trading resulted in substantial losses. CFTC v. C & R
received cooperation from the U.S. Securities and Exchange           Fin., Inc., et al., No. 4:10-cv-00706 (S.D. Tex. filed Mar. 4,
Commission and the U.S. Attorney’s Office in connection              2010).
with this matter. CFTC v. Trader’s Int’l Return Network, et al.,
No. 6:09-cv-1743-MSS-GJK (M.D. Fla. filed Oct. 14, 2009).            ■■    CFTC v. Yellowstone Partners, Inc., et al.

                                                                     On March 9, 2010, the Commission filed a civil injunctive
■■   CFTC v. Smith, et al.                                           action charging Dennis Todd Hagemann and Yellowstone
                                                                     Partners, Inc. with operating a forex Ponzi scheme
On February 23, 2010, the Commission filed a civil injunc-           involving the fraudulent solicitation of at least $700,000
tive action charging Ronald W. Smith, Jr., d/b/a Safeguard           from at least nine individuals. Specifically, the complaint
3030 Investment Club, with operating an off-exchange                 alleges that, from at least September 2009 to the date the
forex Ponzi scheme involving the fraudulent solicitation             complaint was filed, the defendants fraudulently solicited
of at least $800,000 from at least 34 customers, which he            customers by making: false claims regarding Hagemann’s
misappropriated. Specifically, the complaint alleges that,           experience and success in trading forex; and false promises
since at least January, 2009, Smith fraudulently operated            of quick and large profits, including that Yellowstone
a forex trading scam, luring customers to trade managed              Partners was returning 100 to 300 percent to customers
forex accounts or pooled forex investments by claiming               “every couple of months.” The complaint further alleges
forex trading success and offering promises of quick and             that Hagemann also falsely claimed to be registered with
large returns, such as 30 percent in 30 days. Smith alleg-           the National Futures Association and to have employees
edly claimed that 95 percent of his trades are winning               registered with the National Futures Association. According
trades. Smith also used a Web site and a video posting on            to the complaint, only $200,000 of the customers’ funds
www.youtube.com to solicit customers, according to the               was deposited into forex trading accounts, and the defen-
complaint. In reality, however, Smith used little, if any, of        dants lost nearly all of that money trading forex. By
the funds to trade forex. On the same day the complaint              November 2009, as alleged, Hagemann stopped trading the
was filed, the court entered a statutory restraining                 Yellowstone accounts and misappropriated the remaining
order freezing assets and preserving books and records.              $500,000 in customer funds for personal use or to make
CFTC v. Smith, et al., No. 1:10CV00009 (W.D. Va. filed               purported profit payments or return customers’ principal
Feb. 23, 2010).                                                      in a manner similar to a Ponzi scheme. Hagemann was




                             Management’s                                                            Other Accompanying
170     CFTC                 Discussion & Analysis
                                                     Performance Section        Financial Section
                                                                                                     Information
                                                                                                                           Appendix
                                                                           A ppend I x




arrested on March 10, 2010, by North Carolina authori-               derived from profitable forex trading. In reality, however,
ties based on charges by the North Carolina Securities               these payments were made from customers’ own funds
Division. On March 10, 2010, the court entered a statu-              and/or the funds deposited by other clients. According to
tory restraining order freezing assets and preserving books          the complaint, the defendants also misappropriated client
and records. The Commission received cooperation from                funds for their own personal use. The Commission received
the North Carolina Department of the Secretary of State,             cooperation from the United States Attorney’s Office for
Securities Division in connection with this matter. CFTC v.          the District of Hawaii, the Federal Bureau of Investigation
Yellowstone Partners, Inc., et al., No. 5:10-CV-85-FL (E.D.N.C.      and the State of Hawaii, Department of Commerce and
filed Mar. 9, 2010).                                                 Consumer Affairs, Office of the Securities Commissioner in
                                                                     connection with this matter. CFTC v. Rakotonanahary, et al.,
■■   CFTC v. Weber                                                   No. CV10 00144 KSC (D. Haw. Mar. 15, 2010).

On March 9, 2010, the Commission filed a civil injunc-
                                                                     ■■   CFTC v. Highlands Capital Mgmt, LP, et al.
tive action charging Helmut H. Weber d/b/a Weber Capital
Management (WCM) with fraud involving an off-exchange                On June 17, 2010, the Commission filed a civil injunctive
forex scheme. Specifically, the complaint alleges that, from         action charging Highlands Capital Management, LP and
at least June 2008 through January 2009, Weber fraudu-               its principal, Glenn Kane Jackson, with operating a fraudu-
lently solicited at least $280,000 from customers by: falsely        lent $4.3 million off-exchange forex scheme. Specifically,
claiming that he was a successful and experienced forex              the Commission complaint alleges that, beginning in
trader; promising profits of three percent to 10 percent             January 2006 and continuing through December 2009, the
monthly on investments; and falsely claiming that WCM                defendants misappropriated customer funds, issued false
was registered with the National Futures Association and             account statements to customers, misrepresented Jackson’s
the Commission. The complaint also alleges that, contrary            success and background as a forex trader and misrep-
to Weber’s representations, only a fraction of customer              resented the reasons why defendants could not honor
funds were actually traded and that the majority of the              customer withdrawal requests. Of the approximately $4.3
funds were misappropriated to pay for Weber’s lavish                 million provided to Jackson by customers, approximately
lifestyle. The Commission received cooperation from the              $1.6 million was traded and lost, about $600,000 was
Arizona Corporation Commission, Securities Division, and             refunded to customers, and the remaining $2.1 million
the Office of the Arizona Attorney General in connection             remains unaccounted for.       The complaint alleges that
with this matter. CFTC v. Weber, No. 2:10-cv-00534-MEA               Jackson claimed never to have experienced a single losing
(D. Az. filed Mar. 9, 2010).                                         year trading forex. Actual domestic forex trading accounts
                                                                     managed and controlled by Jackson, however, had consis-
■■   CFTC v. Rakotonanahary, et al.                                  tent net losses each year from 2005 to 2009. Beginning as
                                                                     early as August 2008 and continuing through December
On March 15, 2010, the Commission filed a civil injunctive
                                                                     2009, the defendants allegedly sent customers account
action charging Patrick Rakotonanahary and Cyber Market
                                                                     statements indicating that the defendants’ forex trading
Group LLC (Cyber Market) with operating a multi-million
                                                                     was consistently generating profits.       Actually, however,
dollar forex Ponzi scheme.        Specifically, the complaint
                                                                     forex trading during this period conducted by the defen-
alleges that, since at least June 2008, Rakotonanahary, the
                                                                     dants on behalf of the customers resulted in net losses.
president and Chief Executive Officer of Cyber Market,
                                                                     On the same day the complaint was filed, the court entered
and Cyber Market induced customers to purportedly loan
                                                                     a statutory restraining order freezing assets and preserving
them money to trade forex on their behalf. The complaint
                                                                     books and records. The CFTC received the cooperation
alleges that the defendants promised customers weekly
                                                                     of the Tiburon Police Department and the Marin County
payments of four percent to 10 percent from the forex
                                                                     District Attorney in connection with this matter. CFTC v.
trading, knowing that they lacked the funds to make such
                                                                     Highlands Capital Mgmt, LP, et al., CV 10 2654 (N.D. Ca.
payments. The complaint further alleges that the defendants
                                                                     filed June 17, 2010).
falsely represented to customers that the payments were




      Management’s                                                             Other Accompanying
      Discussion & Analysis
                               Performance Section    Financial Section
                                                                               Information
                                                                                                     Appendix       CFTC     171
■■   CFTC v. FX Professional Int’l Solutions, Inc., et al.          to be a successful commodity futures trader and touting
                                                                    GCM as having a profitable trading record. According to
On July 13, 2010, the Commission filed a civil injunctive           the complaint, Mihailovich, Sr., stated that he never expe-
action charging FX Professional International Solutions,            rienced a losing trade. However, actual trading accounts
Inc. (FXP) and its principals, Pedro de Sousa (a/k/a.               managed and controlled by Mihailovich, Sr., realized net
Pedroiz J. Sanz) and Guillermo Rosario (a/k/a. Guillermo            losses. Mihailovich, Sr., also failed to disclose to customers
Rosario-Colon), with issuing false account statements               that he had a federal felony conviction for mail fraud, was
to customers in connection with an off-exchange forex               ordered to pay approximately $197,000 in restitution,
fraud. The complaint alleges that in April 2005, Rosario            served 27 months in prison and was on a three-year super-
and de Sousa solicited at least $535,000 from four individ-         vised release. The CFTC received the cooperation of the
uals to trade forex contracts through FXP. The complaint            Securities and Exchange Commission’s Fort Worth Regional
charges that Rosario and de Sousa falsely represented to            Office and the National Futures Association in connec-
customers that since 2002, FXP had annual forex trading             tion with this matter. CFTC v. Robert Mihailovich, Sr., et al.
profits of 21 percent to 85 percent with no losing years;           No. 3:10-cv-01473-B (N.D. Tex. filed July 27, 2010).
however, FXP did not exist prior to 2004. Furthermore,
according to the complaint, defendants sent customers               ■■    CFTC v. Yancy, et al.
false monthly account statements showing profits every
month from 2005 through 2008 when, in fact, the defen-              On August 18, 2010, the Commission filed a civil injunc-
dants’ forex trading resulted in monthly losses in 31 of            tive action charging Jeremiah C. Yancy and his company,
40 months during this period. The Commission received               Longbranch Group International LLC with operating
cooperation from the Federal Bureau of Investigation                a forex Ponzi scheme that solicited at least 64 persons,
and the U.S. Attorneys’ Office in connection with this              including members of the church in which Yancy served as
matter. CFTC v. FX Professional Int’l Solutions, Inc., et al.,      pastor. Specifically, the complaint alleges that the defen-
No. 1:10-cv-22311-PCH (S.D. Fla. filed July 13, 2010).              dants solicited more than $1 million from at least 36 of
                                                                    the customers to invest in off-exchange forex contracts
■■   CFTC v. Robert Mihailovich, Sr., et al.                        and misappropriated at least $462,000 of customers’
                                                                    funds. As alleged, defendants told prospective customers
On July 27, 2010, the Commission filed a civil injunc-
                                                                    that they managed forex trading for non-profit organiza-
tive action charging Robert Mihailovich, Sr., and Growth
                                                                    tions, including churches and orphanages.             Defendants
Capital Management, LLC, (GCM) with fraudulent solicita-
                                                                    allegedly promised customers monthly returns of 20 to
tion in connection with the trading of commodity futures
                                                                    40 percent from forex trading and told some customers
contracts and leveraged forex. Mihailovich, Sr., is a felon
                                                                    that their principal would be guaranteed.             Instead, the
who was on supervised release while he was soliciting for
                                                                    majority of customer accounts managed by the defendants
and operating GCM. The CFTC’s complaint, filed in the
                                                                    lost money, according to the complaint. On the same
U.S. District Court for the Northern District of Texas, also
                                                                    day the complaint was filed, the court entered a statutory
charged that GCM, a registered commodity trading adviser
                                                                    restraining order freezing assets and preserving books and
and a commodity pool operator, and Robert Mihailovich,
                                                                    records. The Commission received cooperation from the
Jr., the listed principal and registered associated person
                                                                    State of Idaho Department of Finance in connection with
of GCM, made false statements in required regulatory
                                                                    this matter. CFTC v. Yancy, et al., No. H 10-2955 (S.D. Tex.
filings with the CFTC by failing to disclose that his father,
                                                                    filed Aug. 18, 2010).
Mihailovich, Sr., was a controlling principal of GCM.
The CFTC’s complaint alleged that, since at least June              ■■    CFTC v. People’s Alternative, Inc., et al.
2008, GCM and Mihailovich, Sr., fraudulently solicited
and accepted more than $30 million from approximately               On September 21, 2010, the Commission filed a civil
93 customers to invest in futures and forex through discre-         injunctive action charging People’s Alternative, Inc. and
tionary accounts traded by GCM. To induce new inves-                its principals, Jaime Gallardo and Karl Ochoa and Maria
tors, Mihailovich, Sr., made false representations claiming         Iracheta, with commodity pool fraud involving fraudu-




                           Management’s                                                              Other Accompanying
172 CFTC                   Discussion & Analysis
                                                    Performance Section        Financial Section
                                                                                                     Information
                                                                                                                               Appendix
                                                                            A ppend I x




lently solicitation of at least $1.2 million from approxi-            funds to pay personal expenses, including dining, entertain-
mately 98 commodity participants.              Specifically, the      ment, travel and real estate purchases. On September 29,
complaint alleges that, since at least November 2008,                 2010, the court entered a statutory restraining order freezing
defendants fraudulently solicited participants to invest in           assets and preserving books and records. The Commission
commodity futures, forex, gold and securities. However,               received cooperation from the U.S. Attorney’s Office for the
the defendants allegedly failed to disclose to participants           Middle District of North Carolina, the U.S. Department of
that their funds would be used to trade commodity futures             Justice and the U.S. Postal Inspection Service in connection
and forex and failed to disclose the significant risks asso-          with this matter. CFTC v. Integra Capital Mgmt. LLC, et al.,
ciated with such trading. Defendants also misrepresented              No. 10-737 (M.D.N.C. filed Sept. 28, 2010).
that participants would not lose their principal, while
failing to disclose the full extent of their trading losses,          ■■   CFTC v. Total Call Group, Inc., et al.
according to the complaint. The complaint also alleges
that Gallardo, Ochoa and Iracheta together misappropri-               On September 29, 2010, the Commission filed a civil
ated at least $533,000 of participant funds for personal              injunctive action charging Total Call Group, Inc. and its
uses, such as for automobile expenses, mortgage payments              principals, Craig B. Poe and Thomas Patrick Thurmond,
and debit card purchases for entertainment, travel and                with off-exchange forex fraud. Specifically, the complaint
food. On September 22, 2010, the court entered a statutory            alleges that, beginning in at least early 2006 and
restraining order freezing assets and preserving books and            continuing until October 2008, the defendants fraudu-
records. The Commission received cooperation from the                 lently solicited approximately $808,000 from at least four
U.S. Attorney’s Office for the Central District of California         customers for the purpose of trading off-exchange forex
in connection with this matter. CFTC v. People’s Alternative,         contracts. In soliciting the funds, Thurmond allegedly
Inc., et al., No. CV10 7013 GAF (Ex) (C.D. Cal. filed Sept.           made false representations to one or more of Total Call
21, 2010).                                                            Group’s customers, including that Poe had been trading
                                                                      forex and living off the income for more than four years
■■   CFTC v. Integra Capital Mgmt. LLC, et al.                        and that he and Poe had personally provided more than
                                                                      $1 million to Total Call Group for the purpose of trading
On September 28, 2010, the Commission filed a civil
                                                                      forex. Defendants did not report to customers that, at the
injunctive action charging Rodney W. Whitney, Nicholas
                                                                      end of August 2008, sustained trading losses and incurred
T. Cox and Integra Capital Management LLP (Integra
                                                                      FCM fees totaling approximately 90 percent of the balance
Capital) with fraud and misappropriation in connection
                                                                      in the forex trading accounts.       The complaint further
with operating a commodity pool Ponzi scheme involving
                                                                      alleges that, from September through December 2008, Poe
both commodity futures and off-exchange forex transac-
                                                                      willfully made and sent false reports and statements to
tions. Specifically, the complaint alleges that, from at least
                                                                      customers that overstated profits and/or failed to disclose
September 2006 to August 2009, defendants fraudulently
                                                                      trading losses and falsely reported customers’ account
solicited and accepted at least $3 million from at least 16
                                                                      balances. CFTC v. Total Call Group, Inc., et al., No. 4:10-cv-
customers to invest in a commodity pool and solicited at
                                                                      00513 (E.D. Tex. filed Sept. 29, 2010).
least five customers to trade off-exchange forex contracts.
Whitney and Cox falsely represented to these customers
that Integra Capital consistently earned 3 percent to 5               Statutory Disqualification
percent monthly returns and sustained virtually no losses             ■■   In re One World Capital Group, LLC
in its futures and forex trading, according to the complaint.
Whitney also allegedly distributed false account statements           On March 4, 2010, the Commission simultaneously filed
and false 1099 tax forms to Integra Capital’s customers,              and settled a statutory disqualification action against One
showing that their investments were profitable. Instead,              World Capital Group, LLC (One World) revoking its regis-
the defendants’ trading accounts consistently lost money,             trations as an FCM and CTA. The statutory disqualifica-
according to the complaint. Furthermore, the complaint                tion action was based upon a consent order of permanent
charges that Whitney and Cox misappropriated customer                 injunction entered against One World and its managing



      Management’s                                                              Other Accompanying
      Discussion & Analysis
                              Performance Section      Financial Section
                                                                                Information
                                                                                                        Appendix    CFTC 173
member, president and AP, in a Commission enforce-                ■■    In re MF Global Inc.
ment action charging them with inability to demonstrate
compliance with capitalization requirements and with              On December 17, 2009, the Commission simultaneously
failure to maintain required books and records. CFTC v.           filed and settled an administrative enforcement action
One World Capital Group, LLC, et al., No. 07CV 7002 (N.D.         against registered FCM MF Global Inc. and its predecessor
Ill. filed Feb. 25, 2010) (finding defendants violated the        corporation, Man Financial Inc. (collectively, MF Global)
Act, as charged, and imposing a permanent injunction              finding risk supervision failures in four separate instances
and civil monetary penalties in the amount of $260,000            between 2003 and 2008. Specifically, the order finds that:
against each of them). The Commission received coopera-
tion from the National Futures Association, United States
                                                                        •	   MF Global failed to diligently supervise the trading
                                                                             activities of an AP on February 26-27, 2008, resulting
Attorney’s Office for the Northern District of Illinois and
                                                                             in wheat futures trading losses by MF Global of
the British Columbia Securities Commission in connection
                                                                             more than $141 million. MF Global further failed
with this matter. In re One World Capital Group, LLC, CFTC
                                                                             to provide appropriate supervisory training to the
Docket No. SD 10-01 (CFTC filed Mar. 4, 2010).
                                                                             Branch Office supervisors in the office where the
                                                                             trading losses occurred.
■■   In re Cornerstone Capital Mgmt., Inc.

On September 30, 2010, the Commission simultaneously                    •	   From approximately May 2003 until April 2007, MF
                                                                             Global provided a customer with voice brokerage
filed and settled a statutory disqualification action against
                                                                             services in its natural gas derivatives trading
Cornerstone Capital Management, Inc. (Cornerstone)
                                                                             business, which generated commissions for MF
revoking its registrations as a CTA and CPO. The CFTC
                                                                             Global. MF Global failed to implement procedures
action is based on findings of the Securities and Exchange
                                                                             to ensure appropriate transmission of price indica-
Commission that Cornerstone willfully violated anti-fraud
                                                                             tions to the MF Global customer for certain natural
provisions of the Investment Advisors Act of 1940. In re
                                                                             gas options. In particular, MF Global failed to have
Cornerstone Capital Mgmt., Inc., CFTC Docket No. SD 10-02
                                                                             procedures to ensure that the price indications
(CFTC filed Sept. 30, 2010).
                                                                             transmitted by its broker “reflect a consensus taken
                                                                             on [a particular] date and time” and were derived
Enforcement Litigation by Goal Three                                         “from different sources in the market place.”

Financial, Supervision, Compliance                                      •	   In two other instances, the CFTC order finds that
and Recordkeeping                                                            MF Global failed to diligently supervise the proper
                                                                             and accurate preparation of trading cards and failed
■■   In re Citigroup Private Bank GP, Inc.
                                                                             to maintain appropriate written authorization to
                                                                             conduct trades.
On October 1, 2009, the Commission simultaneously filed
and settled an administrative enforcement action against
                                                                  The Commission assessed sanctions, including: a cease
registered CPO Citigroup Private Bank GP, Inc. (CPBG)
                                                                  and desist order; $10 million civil monetary penalty; and
finding that, for the fiscal years ending December 31, 2004
                                                                  an order to comply with certain undertakings, including
- 2007, CPBG failed to file one or more of its commodity
                                                                  enacting policies and procedures to enhance risk moni-
pools’ annual reports with the National Futures Association
                                                                  toring procedures, training, compliance procedures and
in a timely manner. The Commission assessed sanctions
                                                                  compliance audit procedures. MF Global will also under-
including: a cease and desist order; and a $100,000 civil
                                                                  take an Independent Review and Assessment, which will
monetary penalty. In re Citigroup Private Bank GP, Inc.,
                                                                  among other things, review the effectiveness of existing
CFTC Docket No. 10-01 (CFTC filed Oct. 1, 2009).
                                                                  and future risk management, supervisory and compliance
                                                                  policies and procedures at MF Global. The Commission
                                                                  received cooperation from the CME Group and the NYMEX




                          Management’s                                                             Other Accompanying
174 CFTC                  Discussion & Analysis
                                                  Performance Section         Financial Section
                                                                                                   Information
                                                                                                                             Appendix
                                                                           A ppend I x




in connection with this matter. In re MF Global Inc., CFTC           interest accounts. Specifically, the order finds that Alaron
Docket No. 10-03 (CFTC filed Dec. 17, 2009).                         had inadequate procedures for managing risks associated
                                                                     with customer accounts trading via “give-up agreements,”
■■   CFTC v. Fin. Investments, Inc.                                  which are arrangements in which trades for a customer are
                                                                     handled by an “executing broker” and then “given up” to
On March 5, 2010, the Commission filed a civil injunc-
                                                                     the “clearing broker” carrying the customer’s account, such
tive action charging registered CPO Financial Investments,
                                                                     as Alaron. The order concludes that, as a result of Alaron’s
Inc. (FII) with repeatedly failing to distribute and file its
                                                                     supervisory failures, an Alaron customer was able to incur
commodity pool’s annual reports in a timely manner for
                                                                     an approximate $4 million debit in July 2008. This debit
fiscal years 2004 through 2006 within 90 calendar days
                                                                     caused Alaron to become under-segregated and fall below
after the pool’s fiscal year ended. On August 2, 2010, the
                                                                     its net capital requirement.     The Commission assessed
court entered a consent order settling this enforcement
                                                                     sanctions, including: a permanent registration ban and a
action, which imposed a $130,000 civil monetary penalty.
                                                                     $260,000 civil monetary penalty. The Commission received
CFTC v. Fin. Investments, Inc., No. 1:10 cv 214 (E.D. Va. filed
                                                                     cooperation from the CME Group in connection with this
Mar. 5, 2010).
                                                                     matter. In re Alaron Trading Corp., CFTC Docket No. 10-19

■■   CFTC v. New World Holding, LLC, et al.                          (CFTC filed Sept. 30, 2010).


On July 22, 2010, the Commission filed a civil injunctive            ■■   In re Rosenthal Collins Group, L.L.C.

action charging: registered IB and CTA New World Holdings,
                                                                     On September 30, 2010, the Commission simultane-
LLC (NWH) with destroying business records and failing
                                                                     ously filed and settled an administrative enforcement
to diligently supervise employees; NWH’s principal and
                                                                     action against registered FCM Rosenthal Collins Group,
AP Steven David Erdman and its branch manager and AP
                                                                     L.L.C. (RCG) finding that it failed to supervise diligently
Grace Elizabeth Reisinger with aiding and abetting NWH’s
                                                                     its employees’ handling of accounts held at RCG in the
failure to keep proper business records; and Erdman also
                                                                     name of George D. Hudgins. In May 2008, the CFTC sued
with failing to diligently supervise employees. Specifically,
                                                                     Hudgins, of Nacogdoches, Texas, for fraudulently solic-
Reisinger and her supervisor Erdman aided and abetted
                                                                     iting the general public to invest millions of dollars in a
NWH‘s violations by knowingly falsifying and destroying
                                                                     commodity pool that traded futures contracts in accounts
records, the complaint charges.          In sworn testimony
                                                                     at RCG. CFTC v. George Hudgins, et al., No. 6:08cv187 (E.D.
before the Commission, Erdman and Reisinger admitted
                                                                     Tex.). Specifically, the order finds that, at various times
knowing that purported proprietary trading accounts were
                                                                     from July 2005 through May 2008, despite having received
actually funded by a number of undisclosed third parties
                                                                     warning signals, RCG’s employees did not enforce dili-
in Australia and elsewhere and further admitted that they
                                                                     gently RCG’s internal compliance procedures that imposed
should have never introduced these accounts as propri-
                                                                     on them a continuing duty to “know their customer,” i.e.,
etary accounts, according to the complaint.         The CFTC
                                                                     obtain information about their customer’s identity, back-
received the cooperation of the Australian Securities and
                                                                     ground, investment objectives, income source, assets and
Investments Commission in connection with this matter.
                                                                     other information. RCG’s employees also failed to enforce
CFTC v. New Worl Holding, LLC, et al., No. 1:10-cv-04557
                                                                     RCG’s compliance procedures when they failed to investi-
(N.D. Ill. filed July 22, 2010).
                                                                     gate and report activity regarding Hudgins’ accounts that

■■   In re Alaron Trading Corp.                                      should have been recognized as suspicious, according to
                                                                     the order. These red flags included the fact that Hudgins’
On September 30, 2010, the Commission simultane-                     losses for 2005, 2006, 2007 and 2008 totaled $30 million
ously filed and settled an administrative enforcement                by May 2008 — an amount representing 300 percent of
action against registered FCM and CTA Alaron Trading                 his original stated net worth. The Commission assessed
Corporation (Alaron) finding that, from at least January             sanctions, including: a cease and deist order; a $780,000
2008 to at least October 2008, Alaron failed to super-               civil monetary penalty; and an order to pay disgorgement
vise diligently its employees’ handling of commodity                 in the amount of $618,526. The court-appointed receiver



      Management’s                                                             Other Accompanying
      Discussion & Analysis
                              Performance Section     Financial Section
                                                                               Information
                                                                                                      Appendix    CFTC 175
in the Commission’s Hudgins litigation will distribute the       Additionally, Noble Americas was ordered to cease and
disgorgement funds to persons defrauded by Hudgins.              desist from violating the Commodity Exchange Act.
In re Rosenthal Collins Group, L.L.C., CFTC Docket No. 10-21
(CFTC filed Sept. 30, 2010).                                     According to the order, in certain instances, Noble Americas
                                                                 prearranged the execution of these trades on NYMEX
■■   In re Triland USA Inc                                       through an FCM. In other instances, Noble Americas used
                                                                 EFP transactions to transfer positions from one Noble
On September 30, 2010, the Commission simultaneously             Americas trader to another. Noble described the trades
filed and settled an administrative enforcement action           to the FCM as “Noble-Noble EFP.” Noble Americas also
against registered FCM Triland USA Inc. (Triland) finding        effectuated wash sales trade directly by entering virtually
that it failed to follow regulations governing secured           simultaneous buy and sell orders on Globex with Noble
funds of foreign futures and option customers. The order         Americas on both sides of the trades. The order found
finds that Triland also failed to obtain acknowledgement         that because Noble Americas intended to negate market
from a depository institution that the secured funds were        risk and price competition, and thereby avoid a bona fide
being held for customers in accordance with Commission           market transaction and produce a virtual financial nullity,
regulations and failed to provide timely notice to the           the trades constituted wash sales, fictitious sales, and non-
Commission that Triland had a deficiency in the amount           competitive transactions and caused non-bona fide prices
of its secured funds. Additionally, the order concludes          to be reported in violation of the Commodity Exchange
that Triland failed to supervise diligently the handling by      Act and CFTC regulations. The CFTC received coopera-
its employees of matters relating to its secured accounts.       tion from the NYMEX in connection with this matter. In re
The Commission assessed sanctions, including a cease and         Noble Americas Corp., CFTC Docket No. 10-12 (CFTC filed
desist order and a $725,000 civil monetary penalty. In re        May 3, 2010).
Triland USA Inc., CFTC Docket No. 10-22 (CFTC filed Sept.
30, 2010).                                                       ■■    In re San Diego Gas & Elec. Co.

                                                                 On April 22, 2010, the Commission simultaneously filed
Trade Practice
                                                                 and settled an administrative enforcement action against

■■   In re Noble Americas Corp.                                  San Diego Gas & Electric Company (SDG&E), an investor-
                                                                 owned, regulated utility, in San Diego, California, finding
On May 3, 2010, the Commission simultaneously filed              that it engaged in wash sales of NYMEX natural gas futures
and settled an administrative enforcement action against         contracts. The CFTC order found that, from January 26,
Noble Americas Corp. (Noble Americas) for entering               2006, through February 2, 2006, SDG&E placed market
into commodity futures trades and exchange for physical          orders through an introducing broker to simultaneously
(EFP) trades in heating oil and gasoline on the New York         buy and sell natural gas futures contracts. In each instance,
Mercantile Exchange (NYMEX) and Globex that were wash            SDG&E gave the instruction to place the order to sell and
and fictitious sales on several occasions during the period      the order to buy the futures contracts for delivery months
of March 30, 2007, through July 30, 2007. These wash and         August through October 2006, on the same phone call,
fictitious sales trades were for the same contract, quantity     the order found. Further, the order found that SDG&E
and same or similar price, with Noble Americas on both           was aware that the introducing broker placed each of
sides of each trade. The CFTC order imposed a $130,000           the orders with the NYMEX floor brokers together and
civil monetary penalty on Noble Americas and also                requested that the prices relevant to each of the buy and
required that Noble Americas institute internal controls,        sell orders be at or near the same price. The orders were
policies and procedures necessary to ensure that trans-          then executed by brokers on the NYMEX trading floor at
actions by Noble Americas on U.S. commodity futures              or about the same price and approximately at the same
and options markets comply with federal commodity                time. This had the effect of liquidating and immediately
laws, and rules and regulations governing such markets.          re-establishing NYMEX futures contracts previously held by
                                                                 SDG&E. Finally, the CFTC order found that these transac-




                         Management’s                                                           Other Accompanying
176 CFTC                 Discussion & Analysis
                                                 Performance Section        Financial Section
                                                                                                Information
                                                                                                                      Appendix
tions constituted prohibited wash sales. The Commission           been registered with the CFTC.       On the same day the
assessed sanctions, including: a cease and desist order; an       complaint was filed, the courts entered a restraining order
$80,000 civil monetary penalty; and an order to comply            freezing certain of the defendant’s assets and prohibiting
with certain undertakings, including agreeing to imple-           him from destroying documents and denying CFTC staff
ment procedures that ensure that transactions it makes on         access to books and records. The CFTC complaint alleged
U.S. futures markets fully comply with the rules and regu-        that on March 5, 2010, Garofalo engaged in a series of
lations of those markets. In re San Diego Gas & Elec. Co.,        unlawful commodity options transactions involving
CFTC Docket No. 10-08 (CFTC filed Apr. 22, 2010).                 E-mini S&P 500 and Euro/U.S. Dollar European Style
                                                                  Premium option contracts on the Chicago Mercantile
■■   CFTC v. Marat Yunusov                                        Exchange (CME). Garofalo allegedly fraudulently accessed
                                                                  an account of a Luxemborg-based investment fund
On June 11, 2010, the Commission filed a civil injunctive         and, without permission, executed trades to the invest-
action in the U.S. District Court for the Northern District       ment fund’s detriment. Through this allegedly unlawful
of Illinois charging Marat Yunusov with engaging in ficti-        scheme, Garofalo repeatedly made non-competitive, ficti-
tious transactions and trading noncompetitively on the            tious trades between his personal account and an account
Chicago Mercantile Exchange (CME) Globex electronic               of the investment fund. As a result, Garofalo’s personal
trading platform. Yunusov, who has never been regis-              account profited by more than $614,000 through the
tered with the CFTC, had held himself out to be a Russian         illegal scheme, while the investment fund’s account lost a
national and also used the name Ayrat Yunusov. On June            corresponding amount, according to the CFTC complaint.
14, 2010, the court issued a restraining order freezing           The CFTC received the cooperation of the CME Group,
certain of Yunusov’s assets and prohibiting the destruction       Inc., the parent of the CME, and Interactive Brokers, LLC
of documents. Specifically, the CFTC complaint alleged            in connection with this matter. CFTC v. Carmine Garofalo,
that, during the evening of June 3 and the morning hours          No. 1:10-cv-02417 (N.D. Ill. filed Apr. 20, 2010).
of June 4, 2010, Yunusov engaged in a series of unlawful
commodity futures transactions on the CME’s Globex elec-          ■■   CFTC v. Kuen Cheol Song
tronic trading platform, buying and selling thousands of
                                                                  On April 6, 2010, the Commission charged Kuen Cheol
futures contracts, the vast majority of which were in back-
                                                                  Song, a citizen of Singapore, with engaging in fictitious
month, illiquid markets. Using separate accounts carried
                                                                  transactions and trading noncompetitively in violation of
at two different registered futures commission merchants,
                                                                  the Commodity Exchange Act and CFTC regulations. Song
Open E Cry LLC and Velocity Futures, LLC, Yunusov’s
                                                                  has never been registered with the CFTC. On the same
trading resulted in more than $7.8 million in losses to
                                                                  date the complaint was filed, the U.S. District Court for the
his Open E Cry account and an approximate $7.2 million
                                                                  Southern District of New York, issued a restraining order
profit to his Velocity account, after commissions and fees.
                                                                  freezing certain of defendant’s assets and prohibiting him
Open E Cry has had to cover the losses from its own propri-
                                                                  from destroying documents and denying CFTC staff access
etary funds, according to the complaint. The Commission
                                                                  to books and records. The CFTC complaint alleged that,
received cooperation from the CME Group, Inc., the
                                                                  since at least August 28, 2009, defendant Song engaged
parent of the CME, Open E Cry LLC and Velocity Futures
                                                                  in a series of unlawful commodity futures transactions
in connection with this matter. CFTC v. Marat Yunusov,
                                                                  involving natural gas and heating oil futures contracts on
No. 1:10-cv-03619 (N.D. Ill. June 11, 2010).
                                                                  the NYMEX.      Through this allegedly unlawful scheme,
■■   CFTC v. Carmine Garofalo                                     Song repeatedly made non-competitive, fictitious trades
                                                                  between his personal account and the hedge fund account
On April 20, 2010, the Commission filed a civil injunc-           of his employer, Singapore-based Woori Absolute Partners,
tive action charging Carmine Garofalo, an Italian citizen,        where he is a director. Since August 28, 2009, according
with options fraud, engaging in fictitious transactions and       to the complaint, Song’s personal account has profited by
trading noncompetitively in violation of the Commodity            more than $348,000 through this illegal scheme of non-
Exchange Act and CFTC regulations. Garofalo has never             competitive, fictitious trades, while Woori’s account has



     Management’s                                                          Other Accompanying
     Discussion & Analysis
                             Performance Section   Financial Section
                                                                           Information
                                                                                                   Appendix     CFTC 177
lost a corresponding amount. The CFTC received coopera-            received cooperation from the NYMEX in connection with
tion from the CME Group, Inc., the parent of the NYMEX,            this matter. In re UBS AG, CFTC Docket No. 10-07 (CFTC
in connection with this matter. CFTC v. Kuen Cheol Song,           filed Feb. 24, 2010).
No. 10 CIV 2931 (S.D.N.Y. filed Apr. 6, 2010).
                                                                   ■■    In re ConAgra Trade Group, Inc.
■■   In re Pinemore, L.P., et al.
                                                                   On August 16, 2010, the Commission simultaneously filed
On January 28, 2010, the Commission simultaneously                 and settled an administrative enforcement action against
filed and settled an administrative enforcement action             ConAgra Trade Group, Inc. (CTG) finding that it caused a
against Pinemore, L.P. (Pinemore) and Birchmore, L.P.              non-bona fide price to be reported in the NYMEX crude
(Birchmore), two limited partnerships controlled by the            oil futures contract on January 2, 2008. Specifically, the
same general partner and with substantially identical owner-       order finds that on January 2, 2008, CTG was the first to
ship, finding that they engaged in unlawful wash sales in          purchase NYMEX crude oil futures contracts at the then-
the NYMEX natural gas futures contract during November             historic price (also known as a “print”) of $100; as a result,
and December of 2006. The Commission assessed sanc-                CTG caused a non-bona fide price to be reported. At the
tions, including a cease and desist order and civil monetary       time, NYMEX’s electronic market was trading approxi-
penalties (Pinemore $250,000, and Birchmore $250,000).             mately 40 cents lower. The Commission assessed sanc-
The Commission received cooperation from the NYMEX                 tions, including: a cease and desist order; a $12 million
and the Alberta Securities Commission in connection with           civil monetary penalty; and an order to comply with
this matter. In re Pinemore, L.P., et al., CFTC Docket No.         certain undertakings regarding its compliance and ethics
10-04 (CFTC filed Jan. 28, 2010).                                  program, including appointing an independent person to
                                                                   the Board of Directors, forming a Compliance Committee
■■   In re Scotia Capital Inc.                                     of the Board and providing enhanced compliance training.
                                                                   The Commission received cooperation from the NYMEX
On January 28, 2010, the Commission simultaneously
                                                                   in connection with this matter. In re ConAgra Trade Group,
filed and settled an administrative enforcement action
                                                                   Inc., CFTC Docket No. 10-14 (CFTC filed Aug. 16, 2010).
against Scotia Capital Inc. (SCI) finding that it prear-
ranged trades for its customers in the NYMEX natural gas           ■■    In re Neuman
futures contract during November and December of 2006.
The Commission assessed sanctions, including a cease               On August 30, 2010, the Commission simultaneously filed
and desist order and a $250,000 civil monetary penalty.            and settled an administrative enforcement action against
The Commission received cooperation from the NYMEX in              former floor broker John Lee Neuman finding that he
connection with this matter. In re Scotia Capital Inc., CFTC       engaged in fraud and unauthorized trading. Specifically,
Docket No. 10-05 (CFTC filed Jan. 28, 2010).                       the order finds that on June 22, 2007, Neuman, then
                                                                   a CBOT member and a trader in the corn options pit,
■■   In re UBS AG                                                  engaged in unauthorized trading in the account of another
                                                                   corn options trader. The order further finds that Neuman
On February 24, 2010, the Commission simultaneously
                                                                   altered trade data in a risk monitoring system used by the
filed and settled an administrative enforcement action
                                                                   account owner to monitor Neuman’s trading and issued
against UBS AG (UBS) finding that it exceeded the NYMEX
                                                                   false statements to the account owner. Ultimately, as a result
position limits on certain NYMEX natural gas, heating oil
                                                                   of Neuman’s conduct, the account owner suffered approxi-
and platinum futures contracts on more than one occasion
                                                                   mately $4 million in trading losses.        The Commission
from in or about December 2006 through in or about
                                                                   imposed sanctions, including a cease and desist order and
March 2008. In settling this matter, the Commission took
                                                                   permanent trading and registration bans. The Commission
into account the cooperation of UBS. The Commission
                                                                   received cooperation from the CBOT in connection with
assessed sanctions, including: a cease and desist order;
                                                                   this matter. In re Neuman, CFTC Docket No. 10-15 (CFTC
and a $130,000 civil monetary penalty. The Commission
                                                                   filed Aug. 30, 2010).




                           Management’s                                                           Other Accompanying
178 CFTC                   Discussion & Analysis
                                                   Performance Section        Financial Section
                                                                                                  Information
                                                                                                                         Appendix
■■   In re Bealko                                                       ■■   In re McCormick

On September 20, 2010, the Commission simultaneously                    On September 30, 2010, the Commission simultane-
filed and settled an administrative enforcement action                  ously filed and settled an administrative enforcement
against Daniel J. Bealko, General Motors Corporation’s                  action against Kevin McCormick, a former CME member
(GM) former global commodity manager for lightweight                    and a former floor trader in the Standard & Poor’s 500
metals, for knowingly engaging in unauthorized futures                  Stock Price Index (S&P) futures pit. The order finds that,
and options trading as part of his criminal scheme to                   from September 10, 2004 through October 18, 2004,
defraud GM. Specifically, the order finds that, between                 McCormick knowingly recorded and submitted false and
1996 and 2003, Bealko was responsible for devising                      fictitious commodity futures transactions on his trading
and implementing GM’s aluminum hedging strategies.                      cards to conceal trading losses for a period of several weeks.
Between June 2003 and December 7, 2003, Bealko used                     According to the order, when McCormick’s trades were
the commodity markets subject to the Commission’s juris-                cleared on October 19, 2004, his account had a signifi-
diction to defraud GM, the order finds. Specifically, Bealko,           cant short position of S&P contracts that, when liquidated,
without GM’s knowledge or consent, caused negotiable                    resulted in his account having a debit balance of approxi-
warrants for GM-owned aluminum to be delivered and                      mately $386,000, an amount that he could not cover and
put on deposit with a brokerage account held in the name                which his clearing firm had to cover. The Commission
of a third party. The third party then gave Bealko power-               assessed sanctions, including a cease and desist order and
of-attorney and full authority to manage and conduct                    permanent trading and registration bans. In re McCormick,
transactions in the account. Bealko used the account to                 CFTC Docket No. 10-20 (CFTC filed Sept. 30, 2010).
sell NYMEX aluminum futures contracts and options on
NYMEX aluminum futures contracts to personally profit
in the amount of $6.5 million from GM’s sale of surplus
aluminum, the order further finds. The Commission
assessed sanctions, including a cease and desist order and
permanent registration and trading bans. The Commission
received     cooperation      from   the   Federal    Bureau    of
Investigation in connection with this matter. In re Bealko,
CFTC Docket No. 10-18 (CFTC filed Sept. 20, 2010).




      Management’s                                                               Other Accompanying
      Discussion & Analysis
                                Performance Section      Financial Section
                                                                                 Information
                                                                                                         Appendix     CFTC 179
CFTC Information Technology Systems

Integrated Surveillance System (ISS)                             Filings and Actions (FILAC)
User: Market Oversight                                           Users: Clearing and Intermediary Oversight and Market

Functionality: ISS collects futures and options end-of-day       Oversight

position data for large traders from reporting firms and         Functionality: FILAC manages data associated with the
open interest, volume, price, and clearing member data           approval of organizations, products, rules, foreign filings,
from exchanges. This data is used to monitor futures and         and actions.
options trading in order to detect any market anomalies
that may occur.                                                  Trade Surveillance System (TSS)
                                                                 Users: Market Oversight, Enforcement, Chief Economist
Regulatory Statement Review (RSR)                                Functionality: TSS enables staff to conduct surveillance in the
User: Clearing and Intermediary Oversight                        rapidly expanding area of electronic trading, both intra and
Functionality: RSR Express is used to review monthly and         inter-exchange and across side-by-side platforms. Details
annual 1-FR-FCM and Financial and Operational Combined           of all transactions are collected from exchanges and made
Uniform Single (FOCUS) reports of futures commission             available to the applications used for reporting, analysis, and
merchants for reporting their net capital position and other     profiling.
financial information. RSR Express is also used to monitor
the financial status of firms and the changes to that status     eLaw
over time.                                                       Users: Enforcement, General Counsel, and Proceedings

                                                                 Functionality: The eLaw Program is an automated law office
Stressing Positions at Risk (SPARK)                              that seamlessly integrates technology and work processes to
Users: Clearing and Intermediary Oversight and Market            support staff in their investigative, trial, and appellate work.
Oversight                                                        It allows staff to track and monitor all activities related to

Functionality: SPARK is a tool to look at all of an owner’s      investigations, discoveries, and litigation plans.

holdings and project the effect of market moves on these
holdings.    By performing “what if” scenarios, staff can
determine if the margin is sufficient.




                         Management’s                                                             Other Accompanying
180 CFTC                 Discussion & Analysis
                                                 Performance Section          Financial Section
                                                                                                  Information
                                                                                                                         Appendix
Glossary of Abbreviations and Acronyms

    The CFTC Glossary

    A Guide to the Language of the Futures Industry
    http://www.cftc.gov/ConsumerProtection/EducationCenter/CFTCGlossary/index.htm

    Because the acronyms of many words and phrases used throughout the futures industry are not readily
    available in standard references, the Commission’s Office of Public Affairs compiled a glossary to assist
    members of the public.

    This glossary is not all-inclusive, nor are general definitions intended to state or suggest the views of the
    Commission concerning the legal significance, or meaning of any word or term. Moreover, no definition is
    intended to state or suggest the Commission’s views concerning any trading strategy or economic theory.


    Glossary of Acronyms

    U.S. Federal Law

    CEA................................... Commodity Exchange Act of 1936
    CFMA................................ Commodity Futures Modernization Act of 2000
    DODD-FRANK ACT.......... Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010
    FARM BILL........................ Food, Conservation, and Energy Act of 2008
    FECA................................. Federal Employees’ Compensation Act
    FFMIA................................ Federal Financial Management Improvement Act
    FISMA................................ Federal Information Security Management Act
    FMFIA................................ Federal Managers’ Financial Integrity Act
    FSRIA................................. Farm Security and Rural Investment Act
    GPRA................................. Government Performance and Results Act


    CFTC Divisions and Offices

    DCIO................................. Division of Clearing and Intermediary Oversight
    DMO................................. Division of Market Oversight
    DOE................................... Division of Enforcement
    OCE................................... Office of the Chief Economist
    OED................................... Office of the Executive Director
    OFM.................................. Office of Financial Management
    OGC.................................. Office of the General Counsel
    OHR................................... Office of Human Resources




  Management’s                                                                  Other Accompanying
  Discussion & Analysis
                              Performance Section         Financial Section
                                                                                Information
                                                                                                     Appendix   CFTC   181
           OIA.................................... Office of International Affairs
           OIG.................................... Office of the Inspector General
           OITS.................................. Office of Information and Technology Services


           U.S. Federal Departments and Agencies

           CFTC................................. U.S. Commodity Futures Trading Commission
           DHS................................... U.S. Department of Homeland Security
           DOL................................... U.S. Department of Labor
           DOT................................... U.S. Department of Transportation
           FBI..................................... Federal Bureau of Investigation
           FCA................................... Farm Credit Administration
           FDIC.................................. Federal Deposit Insurance Corporation
           FEMA................................. Federal Emergency Management Agency
           FINCEN............................. U.S. Treasury’s Financial Crimes Enforcement Network
           FMHA................................ Farmers Home Administration
           GAO.................................. Government Accountability Office
           NFC................................... National Finance Center
           NIST................................... National Institute of Standards and Technology
           OMB.................................. Office of Management and Budget
           OPM.................................. Office of Personnel Management
           OSTP................................. Executive Office of the President’s Office of Science and Technology Policy
           SEC................................... U.S. Securities and Exchange Commission
           TREASURY........................ U.S. Department of the Treasury
           USDA................................ U.S. Department of Agriculture


           Other Abbreviations

           AAC................................... Agricultural Advisory Committee
           AE...................................... The Actuarials Exchange, LLC
           AGORA-X.......................... Agora-X, LLC
           ALJ.................................... Administrative Law Judge
           AP...................................... Associated Person
           CANTOR........................... Cantor Futures Exchange, L.P
           CBOT................................. Chicago Board of Trade
           CCFE................................. Chicago Climate Futures Exchange
           CCORP............................. The Clearing Corporation
           CCX................................... Chicago Climate Exchange, Inc.
           CDXCHANGE.................... Commodities Derivative Exchange, Inc.
           CESR................................. Committee of European Securities Regulators
           CFE.................................... CBOE Futures Exchange
           CFO................................... Chief Financial Officer
           CHEMCONNECT.............. ChemConnect, Inc.
           CIO.................................... Chief Information Officer




                        Management’s                                                                     Other Accompanying
182 CFTC                Discussion & Analysis
                                                      Performance Section            Financial Section
                                                                                                         Information
                                                                                                                              Appendix
                                                                                    A ppend I x




                        CME.................................. Chicago Mercantile Exchange
                        CME AM............................ CME Alternative Marketplace, Inc.
                        COGCON.......................... Continuity of Government Readiness Conditions
                        COMEX............................. Commodity Exchange Division
                        COO.................................. Chief Operating Officer
                        COOP................................ Continuity of Operations Plan
                        COSRA.............................. Council of Securities Regulators of the Americas
                        COT................................... Commitments of Traders
                        COTS................................. Commercial Off-The-Shelf Software
                        CPO................................... Commodity Pool Operator
                        CSRS................................. Civil Service Retirement System
                        CTA.................................... Commodity Trading Advisor
                        CTRMTCH......................... Countermatch
                        DCM.................................. Designated Contract Market
                        DCO.................................. Derivatives Clearing Organization
                        DFOX................................. DFOX
                        EBOT................................. Exempt Boards of Trade
                        EC...................................... European Commission
                        ECM.................................. Exempt Commercial Market
                        EH-09................................. Eagle Horizon 09
                        ELX.................................... ELX Futures, L.P.
                        EOXLIVE............................ Energy Options Exchange, LLC
                        ERIS................................... ERIS Exchange, LLC
                        EU...................................... European Union
                        EVOLUTION MARKETS.... Evolution Markets
                        FASAB............................... Federal Accounting Standards Advisory Board
                        FB...................................... Floor Broker
                        FBOT................................. Foreign Board of Trade
                        FCM................................... Futures Commission Merchant
                        FCRM................................ FCRM Electronics Markets, LLC
                        FERS.................................. Federal Employees’ Retirement System
                        FIA..................................... Futures Industry Association
                        FILAC................................ Filings and Actions
                        FLETT................................. Flett Exchange
                        FOCUS.............................. Financial and Operational Combined Uniform Single
                        FOREX............................... Foreign Currency
                        FSA.................................... Financial Services Authority
                        FSAP.................................. IMF’s Financial Sector Assessment Program
                        FSB.................................... Financial Stability Board
                        FT....................................... Floor Trader
                        FTE..................................... Full-time Equivalent
                        FWC.................................. Futures Workers Compensation
                        FY...................................... Fiscal Year
                        GAAP................................. U.S. Generally Accepted Accounting Principles




Management’s                                                                          Other Accompanying
Discussion & Analysis
                            Performance Section              Financial Section
                                                                                      Information
                                                                                                           Appendix   CFTC 183
           GFI..................................... GFI Group Inc.
           GFI FOREXMATCH............ GFI Group Inc., ForexMatch
           HSE................................... HoustonStreet Exchange, Inc.
           IB....................................... Introducing Broker
           ICAP.................................. ICAP Commodity Derivatives Trading System
           ICAPTURE......................... ICAP Electronic Trading Community
           ICAP SHIPPING................ ICAP Shipping Trading System
           ICE..................................... Intercontinental Exchange
           ICE CLEAR EUROPE......... ICE Clear Europe Limited
           ICE CLEAR US.................. ICE Clear US (formerly, NYCC)
           ICE US............................... ICE Futures U.S., Inc. (formerly, NYBOT)
           IDC.................................... International Derivatives Clearinghouse, LLC
           IMAREX............................. International Maritime Exchange
           IMF.................................... International Monetary Fund
           INTRADE........................... INTRADE Board of Trade
           IOSCO............................... International Organization of Securities Commissions
           IRESE................................. IRESE, Inc.
           ISS..................................... Integrated Surveillance System
           IT........................................ Information Technology
           JO...................................... Judgment Officer
           KCBT................................. Kansas City Board of Trade
           LCH................................... London Clearing House
           LIQUIDITYPORT............... LiquidityPort, LLC
           LLC.................................... Limited Liability Corporation
           LONGITUDE...................... Longitude, LLC
           M2..................................... M2 Trading Partners, LLC
           MATCHBOXX ATS............. Matchboxx Alternate Trading System
           MD&A................................ Management’s Discussion and Analysis
           MGE.................................. Minneapolis Grain Exchange
           MOU.................................. Memorandum of Understanding
           NADEX.............................. North American Derivatives Exchange, Inc. (formerly, HedgeStreet, Inc.)
           NAFTA............................... North American Free Trade Agreement
           NCS................................... National Communications System
           NFA.................................... National Futures Association
           NFX.................................... NASDAQ OMX Futures Exchange, Inc. (formerly, PBOT)
           NGX................................... Natural Gas Exchange
           NODAL.............................. Nodal Exchange, LLC
           NPS................................... National Planning Scenario
           NQLX................................. NQLX LLC
           NTP.................................... NetThruPut
           NYSE LIFFE....................... NYSE Liffe Futures Exchange, LLC
           NYMEX.............................. New York Mercantile Exchange
           OCC.................................. The Options Clearing Corporation




                         Management’s                                                                    Other Accompanying
184 CFTC                 Discussion & Analysis
                                                        Performance Section          Financial Section
                                                                                                         Information
                                                                                                                              Appendix
                                                                                  A ppend I x




                        OCX................................... OneChicago Futures Exchange
                        OILX.................................. OILX
                        OPEX................................. Optionable, Inc.
                        ORB................................... Other Retirement Benefits
                        OTC................................... Over-the-Counter
                        PARITY............................... Parity Energy, Inc.
                        PMEF................................. Primary Mission Essential Function
                        PMLC................................ Project Management Life Cycle
                        RFED................................. Retail Foreign Exchange Dealer
                        RER.................................... Rule Enforcement Review
                        RSR................................... Regulatory Statement Review
                        S&P................................... Standard & Poor’s
                        SAS.................................... Statement on Auditing Standards
                        SDR................................... Swap Data Repository
                        SEF.................................... Swap Execution Facility
                        SES.................................... Senior Executive Service	
                        SFP.................................... Security Futures Product
                        SL...................................... Spectron Live.com Limited
                        SPARK............................... Stressing Positions at Risk
                        SPDC................................ Significant Price Discovery Contracts
                        SRO................................... Self-Regulatory Organization
                        SFFAS................................ Statement of Federal Financial Accounting Standards
                        STORM.............................. Storm Exchange, Inc.
                        SURFEX............................. SurfaceExchange
                        SWAPSTREAM.................. Swapstream Operating Services, Ltd.
                        TACE.................................. The American Civics Exchange
                        TCX.................................... Trade Capture Exchange
                        TFSWEATHER.................... TFSWeather.com
                        TPENERGYTRADE............. tpENERGYTRADE
                        TRADINGOPTX................. Trading OptX LLC
                        TRENDEX.......................... The Trend Exchange, Inc.
                        TS...................................... TradeSpark, LP
                        TSS.................................... Trade Surveillance System
                        UK..................................... United Kingdom
                        US...................................... United States
                        USFE.................................. US Futures Exchange
                        USSGL.............................. United States Standard General Ledger
                        WBOT................................ Weather Board of Trade
                        WORLDPULP.................... WorldPulp.com
                        WXL................................... WeatherXchange Limited
                        YELLOW JACKET............. Yellow Jacket Software, Inc.




Management’s                                                                        Other Accompanying
Discussion & Analysis
                           Performance Section             Financial Section
                                                                                    Information
                                                                                                         Appendix   CFTC 185
Photo Credits and Acknowledgements

Page Photo Credits

    Clark Day Photography; Pages 1, 8, 11, 14, 18, 35, 46, 49, 52, 57, 87, 130, 132, 133, 160, 162, 180, and Cover III
    Jim Parcell Photography; Pages 20, 56, and 107
    Mark Regan Photography; Page 7
    Elaine Cassara; Pages 69 and 158
    AP Image; Page 5
    Corbis Images; Pages 4, 39, 41, and 43
    Getty Images; Pages 3, 6, 10, 12, and 37
    USDA; Pages 13 and 15


Acknowledgements

This Performance and Accountibility Report was produced with the energies and talents of Commission staff. To these
individuals, the Office of Financial Management would like to offer our sincerest thanks and acknowledgement.

We would also like to acknowledge the Office of the Inspector General and KPMG LLP for the professional manner in
which they conducted the audit of the Fiscal Year 2010 Financial Statements.

We offer our special thanks to The DesignPond, in particular Sheri Beauregard and Michael James, for their outstanding
contribution to the design of this report.




                        Management’s                                                       Other Accompanying
186 CFTC                Discussion & Analysis
                                                Performance Section    Financial Section
                                                                                           Information
                                                                                                                  Appendix
Additional copies of the
Commodity Futures Trading Commission
FY 2010 Performance and Accountability Report
are available by contacting the
Office of Financial Management:


Office of Financial Management
Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Telephone: Emory Bevill, 202.418.5187 or
	           Lisa Malone, 202.418.5184
Fax:	   202.418.5414
E-mail: ebevill@cftc.gov or lmalone@cftc.gov
Web:    http://www.cftc.gov/About/CFTCReports/index.htm


The CFTC’s Strategic Plan is available on the Web at:
http://www.cftc.gov/About/CFTCReports/index.htm
    COMMODITY FUTURES TRADING COMMISSION
T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 • www. cftc . gov
